<html>
<title> - AUTHORIZING THE TRANSPORTATION SECURITY ADMINISTRATION FOR FISCAL YEARS 2012 AND 2013</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
AUTHORIZING THE TRANSPORTATION SECURITY ADMINISTRATION FOR FISCAL YEARS 
                             2012 AND 2013

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON 
                        TRANSPORTATION SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                     JUNE 2, 2011 and JULY 12, 2011

                               __________

                           Serial No. 112-28

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
72-238                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9ef9eef1defdebedeaf6fbf2eeb0fdf1f3b0">[email&#160;protected]</a>  



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                     Mike Rogers, Alabama, Chairman
Daniel E. Lungren, California        Sheila Jackson Lee, Texas
Tim Walberg, Michigan                Danny K. Davis, Illinois
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois, Vice Chair      Cedric L. Richmond, Louisiana
Mo Brooks, Alabama                   Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                     Amanda Parikh, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
            Thomas McDaniels, Minority Subcommittee Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                         THURSDAY, JUNE 2, 2011

                               STATEMENT

The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Chairman, Subcommittee on Transportation 
  Security.......................................................     1

                                WITNESS

Mr. John S. Pistole, Administrator, Transportation Security 
  Administration, U.S. Department of Homeland Security:
  Oral Statement.................................................     2
  Prepared Statement.............................................     4

                                APPENDIX

Questions From Chairman Mike Rogers of Alabama for John S. 
  Pistole........................................................    29
Questions From Ranking Member Sheila Jackson Lee of Texas for 
  John S. Pistole................................................    33

                         TUESDAY, JULY 12, 2011
                               STATEMENTS

The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Chairman, Subcommittee on Transportation 
  Security.......................................................    49
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Transportation Security........................................    50

                               WITNESSES
                                Panel I

Mr. Thomas L. Farmer, Assistant Vice President for Security, 
  Safety, and Operations, Association of American Railroads:
  Oral Statement.................................................    63
  Prepared Statement.............................................    65
Mr. Martin Rojas, Vice President for Security and Operations, 
  American Trucking Association:
  Oral Statement.................................................    70
  Prepared Statement.............................................    72
Ms. Wanda Y. Dunham, Assistant General Manager and Chief of 
  Police and Emergency Management, Metropolitan Atlanta Rapid 
  Transit Authority:
  Oral Statement.................................................    76
  Prepared Statement.............................................    78
Mr. Raymond J. Reese, Corporate Health, Safety, and Security 
  Leader, Colonial Pipeline Company, On Behalf of The Association 
  of Oil Pipe Lines and the American Petroleum Institute:
  Oral Statement.................................................    80
  Prepared Statement.............................................    81
Mr. John Risch, III, Alternate National Legislative Director, 
  United Transportation Union:
  Oral Statement.................................................    85
  Prepared Statement.............................................    87

                                Panel II

Mr. Nicholas E. Calio, President and Chief Executive Officer, Air 
  Transport Association of America, Inc.:
  Oral Statement.................................................   102
  Prepared Statement.............................................   104
Mr. Mark Van Tine, President and Chief Executive Officer, 
  Jeppesen, On Behalf of the General Aviation Manufacturers 
  Association:
  Oral Statement.................................................   107
  Prepared Statement.............................................   108
Mr. Stephen A. Alterman, President, Cargo Airline Association:
  Oral Statement.................................................   113
  Prepared Statement.............................................   114
Mr. Christopher Witkowski, Director of Air Safety, Health, and 
  Security, Association of Flight Attendants--CWA, AFL-CIO:
  Oral Statement.................................................   117
  Prepared Statement.............................................   119

                             FOR THE RECORD

The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Chairman, Subcommittee on Transportation 
  Security:
  Letter From the Airforwarders Association......................    53
  Statement of the Aircraft Owners and Pilots Association........    55
  Letter From the Air Line Pilots Association, International.....    57
  Statement of the National Air Carrier Association..............    59
  Letter From R. Bruce Josten, Executive Vice President, 
    Government Affairs, Chamber of Commerce of the United States 
    of America...................................................    61
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Transportation Security:
  List, ``2011 In-Flight Incidents Involving Flight Attendants''.    51

                                APPENDIX

Questions From Chairman Mike Rogers for Thomas L. Farmer.........   131
Questions From Ranking Member Sheila Jackson Lee for Thomas L. 
  Farmer.........................................................   131
Questions From Ranking Member Sheila Jackson Lee for Martin Rojas   131
Question From Chairman Mike Rogers for Wanda Y. Dunham...........   132
Questions From Ranking Member Sheila Jackson Lee for Wanda Y. 
  Dunham.........................................................   132
Questions From Ranking Member Sheila Jackson Lee for Raymond 
  Reese..........................................................   132
Questions From Ranking Member Sheila Jackson Lee for John Risch, 
  III............................................................   132
Questions From Ranking Member Sheila Jackson Lee for Nicholas E. 
  Calio..........................................................   133
Questions From Chairman Mike Rogers for Mark Van Tine............   133
Questions From Chairman Mike Rogers for Stephen A. Alterman......   133
Questions From Ranking Member Sheila Jackson Lee for Christopher 
  Witkowski......................................................   133


AUTHORIZING THE TRANSPORTATION SECURITY ADMINISTRATION FOR FISCAL YEARS 
                             2012 AND 2013

                              ----------                              


                         Thursday, June 2, 2011

             U.S. House of Representatives,
           Subcommittee on Transportation Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 4:03 p.m., in 
Room 311, Cannon House Office Building, Hon. Mike Rogers 
[Chairman of the subcommittee] presiding.
    Present: Representatives Rogers, Walberg, Cravaack, Jackson 
Lee, and Davis.
    Mr. Rogers. I would like to welcome everybody to this 
hearing and thank our witnesses for being here.
    The purpose of this hearing is to discuss priorities for 
authorizing TSA to carry out its mission to keep America's 
transportation system safe from terrorists. This year, the 
committee plans to develop a TSA authorization bill which would 
enhance and streamline TSA's transportation security 
initiatives. For the record, Mr. Pistole, we are going to try 
to have that in July, early July, to develop that authorization 
bill.
    TSA, like all organizations, has offices that could 
function more efficiently and effectively. It is the 
subcommittee's goal to improve TSA operations through oversight 
and legislation and to fulfill our responsibility to 
constituents by ensuring that taxpayer dollars are being spent 
in a cost-effective manner.
    We appreciate the TSA's collaboration and input throughout 
this effort. Administrator Pistole, I agree with your vision 
for TSA, to develop a more risk-based approach toward passenger 
screening. A ``trusted traveler'' program would allow TSA to 
determine the level of threat posed by an individual and 
dedicate more resources to unknown or high-risk passengers.
    I look forward to hearing an update on the status of the 
plan and the proposed parameters of a pilot or a larger-scale 
implementation. I hope TSA will consider this committee as a 
partner in the development and implementation of this type of 
passenger-screening reform.
    Additionally, I hope to hear more about the priorities that 
we have discussed both publicly and privately, such as air 
cargo security, information sharing, and rail security 
initiatives.
    Since the foiled Yemen cargo plot last October, TSA has 
been working with private industry to develop and implement 
short-term security directives which seem to be successful in 
addressing certain vulnerabilities. However, no long-term plan 
has been formally outlined, and challenges remain.
    In addition, the intelligence gathered from bin Laden's 
compound serves as notice that terrorists continue to target 
our surface transportation systems. Given the threats we face, 
it is critical that the resources that are available are spent 
effectively and with stakeholder input.
    Mr. Pistole, I look forward to your testimony on this and 
other critical issues. I also want to highlight that the 
committee developed a TSA authorization bill last Congress, as 
well as H.R. 2200 under Ranking Member Jackson Lee's 
leadership. I look forward to working with her on a bipartisan 
basis throughout this effort.
    Ms. Jackson Lee is on her way, and when she gets here, I 
will recognize her for a statement. But you are up, Mr. 
Pistole.

  STATEMENT OF JOHN S. PISTOLE, ADMINISTRATOR, TRANSPORTATION 
 SECURITY ADMINISTRATION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Pistole. Well, thank you, Chairman Rogers and Members 
of the committee. I appreciate the opportunity to be here today 
to discuss TSA's operations as you continue your important work 
in putting together a TSA authorization bill.
    Much has happened since the last time I appeared before the 
subcommittee on February 10. Most significantly, Osama bin 
Laden is no longer with us. While his killing is significant, 
it does not, of course, mark the end of our effort to fight 
violent extremism. We have always known that the threat we face 
is bigger than any one person, just as we know that there are 
more terrorist groups plotting against us than al-Qaeda. So we 
remain vigilant in pursuing our vital mission of protecting the 
traveling public and safeguarding our Nation's transportation 
systems.
    Since 9/11, together, we have implemented multiple layers 
of risk-based, intelligence-driven security measures: Dedicated 
transportation security officers, TSOs, continue working as the 
last line of defense; Federal air marshals patrolling the 
skies; behavior detection officers observing suspicious 
activity; mass transit and passenger rail security experts 
partnering with local authorities to deliver the tools they 
need to do their jobs; VIPR teams using K-9 assets to patrol 
all transportation venues, adding another layer of security 
against the terrorist threat. Our transportation security 
inspectors and other members of the TSA workforce continue to 
play their key roles in keeping us safe.
    All of these individual measures, and others, combine to 
create a multilayered system of transportation security that 
mitigates risk. No measure on its own solves all of our 
challenges, but, in combination, they create a strong, 
formidable system. This is an approach with which you are 
intimately familiar. Indeed, your support for these operations 
has contributed immeasurably to their success.
    I appreciate the opportunity to discuss with you ways to 
improve our existing efforts and to explore new and innovative 
techniques for Congress to consider in a TSA authorization 
bill, all in our current budget climate.
    Now, two brief points regarding the budget. First, I am 
critically assessing TSA's operations at our headquarters level 
and in our field operations, with the goal of achieving 
efficiencies across the board. Second, the President's budget 
includes a $1.50-per-passenger fee which is critical to funding 
the security operations we employ to keep the over 1.7 million 
passengers safe and secure each day in the United States. I 
strongly urge this committee to support that fee, thereby 
saving taxpayers approximately $590 million in fiscal year 2012 
alone.
    Regarding risk-based security, since I became TSA 
administrator nearly a year ago, I have solicited ideas from 
people with diverse backgrounds and disciplines, from our 
dedicated workforce to our counterparts abroad, to airport and 
aviation executives and, of course, this subcommittee, about 
how TSA can work better. I have watched with great interest as 
specific proposals have been offered up by highly regarded 
voices in the security community.
    As I stated previously, I believe that TSA must develop and 
implement smarter ways of performing its risk-based, 
intelligence-driven operations. If we can do that, we can move 
away from what seems to be a one-size-fits-all approach and 
stay ahead of the terrorists who are continually seeking new 
ways to undermine and defeat our security.
    As we look for ways to evolve, we will move forward with a 
few fundamental principles--three principles. First, we must 
ensure than any new step we take strengthens security. Second, 
we must recognize that the vast majority of the hundreds of 
millions of people who use our transportation systems every 
year present little to perhaps no risk of committing an act of 
terrorism. Then, third, while we can mitigate risk, we must be 
honest with ourselves and the public in acknowledging that we 
will never fully eliminate all risk.
    With these principles in mind, we have been exploring ways 
we can get smarter, improve security, and enhance the travel 
experience for most people. For many, a change in TSA's 
approach cannot come soon enough, and the proof will be in how 
any changes are designed and implemented. We all wish it were 
simple and that we could make significant changes tomorrow, but 
you know as well as I that that is not the case. So while we 
pursue a new approach to passenger screening, we still have a 
job to do today.
    I would like to take a moment to thank the transportation 
security officers and all the men and women of TSA, who 
continue to faithfully and diligently perform their duties in 
the face of negative reporting and even efforts to criminalize 
their jobs. Effective TSOs result in effective security, both 
today and in the future. So this will be an on-going 
collaborative effort.
    In the nearly 10 years since 9/11, we have done important 
work to keep the travelling public safe with this committee's 
support. So I look forward to building on our already-strong 
relationship as we continue, together, to work to improve 
security in the next decade. Thank you for your support and 
constructive engagement.
    [The statement of Mr. Pistole follows:]

                 Prepared Statement of John S. Pistole
                              June 2, 2011

    Good afternoon Chairman Rogers, Ranking Member Jackson Lee, and 
distinguished Members of the subcommittee. We appreciate the 
opportunity to appear before you today as the subcommittee begins 
consideration of a Transportation Security Administration (TSA) 
authorization bill.
    TSA employs risk-based, intelligence-driven operations to prevent 
terrorist attacks and to reduce the vulnerability of the Nation's 
transportation system to terrorism. Our goal at all times is to 
maximize transportation security to stay ahead of the evolving 
terrorist threat while protecting passengers' privacy and facilitating 
the flow of legitimate commerce. TSA works collaboratively with 
industry partners to develop and implement programs that promote 
commerce while enhancing security and mitigating the risk to our 
Nation's transportation system. We also work closely with other Federal 
agencies and maximize participation from State, local, Tribal, and 
private sector stakeholders to work toward a common goal of securing 
all modes of transportation, including aviation and surface 
transportation systems.
    TSA has implemented an effective and dynamic security system in the 
aviation domain consisting of multiple layers of risk-based measures. 
In the aviation arena, our security approach begins well in advance of 
a traveler's arrival at an airport, with our vetting programs and 
intelligence analysts, cargo and compliance inspectors ensuring that 
airport security plans are followed, and our law enforcement and 
intelligence community partners working to detect, deter, and prevent 
terrorist plots before they happen. The security system continues at 
the airport, including, but not limited to, the work of our Behavior 
Detection Officers (BDO); Transportation Security Officers (TSO) and 
the technology that supports the screening of passengers and baggage; 
Bomb Appraisal Officers (BAO); and canine teams, as well as our 
partnerships with local law enforcement. In flight, thousands of 
Federal Air Marshals (FAM) and Federal Flight Deck Officers (FFDO) 
protect the traveling public. The traveling public also plays an 
integral part role in the security system. For example, the DHS ``If 
You See Something, Say Something'' campaign engages the public and key 
frontline employees to identify and report indicators of terrorism, 
crime, and other threats to the proper transportation and law 
enforcement authorities.
    In the surface transportation arena, we continue to work with our 
law enforcement and security partners to reduce vulnerabilities and 
strengthen resilience against a terrorist attack. TSA works with the 
Federal Emergency Management Agency Grants Program Directorate to 
direct Federal grants to the most at-risk transit properties. Our 
Surface Transportation Security Inspectors assist with the development 
of specific security programs. Our Visible Intermodal Prevention and 
Response (VIPR) teams are deployed on thousands of mass transit, 
pipeline, maritime, and highway missions annually to enhance security, 
provide deterrent and detection capabilities, and introduce an element 
of unpredictability in security practices and procedures in order to 
prevent or disrupt potential terrorist planning activities.
    TSA also conducts protection, response, detection, and assessment 
activities in airports and other transportation systems; trains and 
manages all armed pilots; and coordinates all TSA canine assets. Our 
personnel are continually adjusting and adapting security practices and 
procedures to best address evolving threats and vulnerabilities, and 
disrupt the ability of terrorists to plan and execute attacks.

           TSA SECURITY OPERATIONS AND TECHNOLOGY DEPLOYMENTS

    TSA works diligently to protect the U.S. transportation domain 
against evolving threats to security. We continue to modernize our 
technology, including Advanced Imaging Technology (AIT). We have 
deployed nearly 500 AIT machines at domestic airports throughout the 
country to enhance security by safely screening passengers for metallic 
and non-metallic weapons and explosives--including objects concealed 
under layers of clothing, while protecting the privacy of the traveler. 
We will procure and deploy an additional 500 AIT units using fiscal 
year 2011 funds for a total of 1,000 AIT units, which will allow us to 
screen an estimated 60 percent of passengers using this technology. We 
have also deployed new portable explosive trace detection machines, 
Advanced Technology X-ray systems, and bottled liquid scanners to 
enhance our security technology in the aviation domain. This suite of 
technologies represents the most effective means of detecting current 
threats available today.
    In order to continue the deployment of this critical layer of 
security, the President's fiscal year 2012 budget request includes 
$105.2 million in base and additional funding to deploy and staff 275 
additional AIT units, bringing total coverage to 1,275 AITs by the end 
of 2012 and providing coverage to 80 percent of passengers. 
Congressional funding directly affects our ability to deploy this 
critical technology.
    While we are rapidly deploying AIT machines to U.S. airports, we 
also are exploring enhancements to privacy protections and operational 
utility. Specifically, TSA has field tested auto-detection software for 
AIT machines, referred to as Automatic Target Recognition (ATR). ATR 
eliminates passenger-specific images of a passenger and instead 
highlights a detected anomaly on a generic outline of a person. Pat-
downs used to resolve such anomalies are limited to the areas of the 
body displaying an alarm unless the number of anomalies detected 
requires a full-body pat down. If no anomalies are detected, the screen 
displays the word ``OK'' with no icon. With ATR, the screen will be 
located on the outside of the machine and can be viewed by the TSO and 
the passenger.
    As with current AIT software, ATR-enabled units deployed at 
airports are not capable of storing or printing images. The ATR 
software eliminates the need for a TSO to view passenger images in a 
separate room because no visual image of the passenger is produced, 
reducing associated staffing and construction costs. ATR software 
represents a substantial step forward in addressing passenger privacy 
concerns, while maintaining TSA's standards for detection. TSA plans to 
continually update and test enhanced versions of the software in order 
to ensure that technology with the highest detection standards is in 
use.
    In addition to deploying the most effective technology, we have 
also deployed additional BDOs, FAMs, and explosives-detection canine 
teams at airports throughout the country. We have implemented security 
measures for all air carriers with international flights to the United 
States that use real-time, threat-based intelligence to better mitigate 
the evolving terrorist threat. Last November, we achieved a major 
aviation security milestone: 100 percent of passengers on flights 
within, departing from, or bound for the United States are now checked 
by TSA against Government watch lists through the Secure Flight 
Program, as recommended in the 9/11 Commission Report. Continuous 
Secure Flight vetting begins 72 hours in advance of flight and 
continues until the flight departs, consistently providing insight into 
potential threats and enabling TSA and our law enforcement partners to 
counter these threats accordingly.
State Laws That Could Adversely Impact AIT Deployment
    It is fitting that, as this subcommittee considers new authorizing 
legislation for TSA, we address an issue that has recently received 
some media attention. Since the deployment of AIT and the 
implementation of our revised pat-down procedures at airport 
checkpoints Nation-wide to better detect prohibited items and resolve 
anomalies that are detected on passengers, some State legislatures have 
introduced legislation that would ban AIT units and even criminalize 
certain TSA pat-down procedures. It is TSA's position that, since TSA 
is a Federal agency, individual States are preempted from interfering 
with the deployment of TSA personnel and equipment in carrying out 
statutorily mandated security programs that are necessary to keep our 
aviation security system strong and safe for the traveling public. It 
is also important for our workforce to know TSA will stand by them as 
they execute their important responsibilities. State law proposals that 
would attempt to restrict cooperation between airport authorities and 
TSA in performing security measures diminish aviation security and 
leave the aviation system more vulnerable to a real and continuing 
terrorist threat.

                    SURFACE TRANSPORTATION SECURITY

    TSA's efforts in the surface transportation domain are undertaken 
to reduce security vulnerabilities and to strengthen resilience against 
a terrorist attack. TSA works with its partners to secure and safeguard 
the surface transportation domain--which includes subways, bus transit 
systems, ferries, pipelines, the National Railroad Passenger 
Corporation (AMTRAK), commuter railroads, and freight railroads, among 
others--through a variety of programs. Many of these programs enhance 
security by addressing policy gaps and obstacles, enhancing 
coordination and unity of effort, and maximizing the strengths and 
capabilities of our partners, keeping with the themes that guided the 
March 2010 Surface Transportation Security Priority Assessment.
    Because mass transit and passenger rail systems serve large 
populations in major metropolitan areas, many with substantial 
underground infrastructure, bridges, and transportation staging areas, 
or hubs, which can include other forms of transportation, these systems 
remain a target for terrorist groups. The characteristics essential to 
mass transit and passenger rail--i.e., an inherently open architecture 
moving large populations in major metropolitan areas through multimodal 
systems and infrastructure--create potential security vulnerabilities. 
TSA uses a collaborative approach--working with State and local law 
enforcement and transit authorities--to assess risks and enhance 
security.
    TSA's role in surface transportation security involves direct 
engagement with surface transportation owners and operators to 
establish security standards, provide grant funding, share current risk 
information and assess security measures. For example, TSA uses the 
Transportation Systems Sector Risk Assessment to evaluate threat, 
vulnerability, and consequence in a wide range of terrorist attack 
scenarios for each mode of transportation. To help address the results 
of these assessments, the Department of Homeland Security's (DHS) 
Transit Security Grant Program (TSGP) provides awards to eligible 
transit agencies to assist State and local governments in devising and 
implementing initiatives to improve security. The TSGP promotes a 
sustainable, risk-based effort to protect critical surface 
transportation infrastructure and the traveling public from acts of 
terrorism. In 2011, DHS announced a new model for TSGP to focus limited 
resources on ``shovel-ready'' projects hardening the highest-risk 
transit infrastructure, while prioritizing operational deterrence 
activities such as training, exercises, canine, and mobile screening 
teams.
    TSA also currently operates 25 VIPR teams across the transportation 
sector, and the fiscal year 2012 budget request includes funding for 12 
additional multi-modal VIPR teams. These teams consist of personnel 
with expertise in inspection, behavior detection, security screening, 
and law enforcement for random, unpredictable deployments throughout 
the transportation sector to deter potential terrorist acts. There have 
been more than 3,000 VIPR operations in the current fiscal year, 70 
percent of which occurred in the surface transportation sector.
    In addition, structural vulnerability assessments are currently 
being conducted on the Nation's most critical highway, bridge, and 
tunnel infrastructure. These assessments, performed for TSA by the U.S. 
Army Corps of Engineers, are the most comprehensive assessments that 
have ever been performed. Additional assessment visits are also taking 
place at the State level and in conjunction with the companies that 
transport goods and passengers across the country. Finally, TSA is 
delivering security awareness training to the highway transport 
community; more than 200,000 individuals have been trained by the TSA-
directed ``First Observer<SUP>TM</SUP>'' program and similar TSA-
sponsored training. Further, in response to a strong demand, TSA has 
distributed counterterrorism guides throughout the trucking, motor 
coach, school transportation, and infrastructure community.
Air Cargo Security
    TSA has and will continue to focus air cargo resources to ensure 
continued compliance domestically with the 100 percent screening 
requirement, and to work toward further risk-based screening of 
international inbound air cargo on passenger and all-cargo aircraft. 
Along with its participation in the DHS Air Cargo Security Working 
Group established by Secretary Napolitano, TSA is continuing its 
leadership role in partnering with industry and other Federal 
Government partners to develop strategies to strengthen air cargo 
security while facilitating the flow of commerce. In January 2011, TSA 
issued proposed air carrier security program changes to increase 
security measures for air cargo, most notably, to require 100 percent 
screening for in-bound international air cargo transported on passenger 
aircraft by the end of this calendar year. TSA is currently finalizing 
its analysis of industry comments. TSA is also working closely with 
U.S. Customs and Border Protection and the air cargo industry to 
receive and process pre-departure, advanced air cargo information about 
shippers earlier than is currently required so that we can increase the 
focus of our screening resources on high-threat cargo. TSA will also 
continue its efforts to test, evaluate, and qualify air cargo screening 
technologies.

                  TSA EXPLOSIVE DETECTION INITIATIVES

    TSA continually seeks to enhance capabilities for explosives 
detection as part of its risk-based and intelligence-driven strategy. 
To enhance our application and deployment of explosive detection 
canines, TSA partners with academic, research, and professional 
organizations with the appropriate research capabilities to develop, 
explore, and implement emerging explosive detection methodologies that 
have been subjected to extensive, rigorous research and testing. 
Further, TSA works with these organizations to determine how to harness 
these methodologies to gain the maximum explosives detection efficiency 
in the transportation system.
    Last January, TSA, in partnership with the DHS Science and 
Technology Directorate, initiated a pilot program to evaluate 10 air 
scenting explosives detection canine teams, utilizing the methodology 
developed by Auburn University known as ``vapor wake'' explosives 
detection. The methodology relies on the canine's ability to process 
air currents and recognize odors that it is trained to detect, whether 
the scent emanates from a person who is moving or standing still, or an 
inanimate object. Neither the canine nor the handler needs to come into 
direct physical contact with a person who may be a potential target--in 
fact, the canines can detect a scent even if the potential threat has 
left the immediate area and track the scent to its current location. A 
major advantage of this methodology is that the handler is trained to 
read the canine's behavioral changes to determine when and where the 
canine is alerting to an explosives odor, on a subject, without the 
knowledge of the targeted subject.

                  A RISK-BASED STRATEGY FOR THE FUTURE

    TSA's existing security measures create a multi-layered system of 
transportation security that mitigates risk. No layer on its own solves 
all our challenges, but, in combination, they create a strong and 
formidable system. In the months ahead, I am optimistic that we will be 
able to brief this subcommittee and others in Congress about some 
initial steps we are taking to further enhance security by becoming 
even more risk-based in our approach to aviation security.
    As our risk-based approach evolves, we must ensure that each new 
step we take strengthens security. Since the vast majority of the 628 
million annual air travelers present little to no risk of committing an 
act of terrorism, we should focus on those who present the greatest 
risk, thereby improving security and the travel experience for everyone 
else. Since I became TSA Administrator a year ago, I have listened to 
ideas from people all over the world, from our dedicated workforce to 
our counterparts abroad, about how TSA can work better and smarter. 
Last fall I directed the agency to explore ways to develop a strategy 
for truly risk-based security. That strategy will examine the 
procedures and technologies we use, how specific security procedures 
are carried out, and how screening is conducted. While TSA currently 
implements a risk-based security system, we must continue to assess our 
programs to evolve our security approach to stay ahead of tomorrow's 
security threats.
    To that end, we are working to expand our ability to conduct more 
identity-based screening. This is evident in our work on a new 
crewmember screening system. We are currently testing an identity-based 
system to enable TSA security officers to positively verify the 
identity and employment status of pilots. We hold pilots responsible 
for the safety of the traveling public every time they fly a plane. It 
just makes sense to treat them as trusted partners, as well.
    While the initial iteration of this risk-based screening focuses on 
pilots, we are also looking at long-term concepts to focus limited 
resources on higher-risk passengers, while expediting and enhancing the 
passenger experience at the airports whenever possible. This will be an 
on-going, collaborative effort with law enforcement, airport 
authorities, and the traveling public. As our risk-based screening 
evolves, we will continue to incorporate random security steps as well 
as other measures both seen and unseen.

                        2011 AUTHORIZATION BILL

    As the subcommittee considers a TSA authorization bill, two issues 
that deserve close consideration include the following:
Aviation Security Service Fee
    Since its establishment in 2001 as part of the Aviation and 
Transportation Security Act, the Passenger Civil Aviation Security 
Service Fee has been limited to $2.50 per passenger enplanement with a 
maximum fee of $5.00 per one-way trip and has not been adjusted for 
inflation or the increased costs of providing security over the past 9 
years. Despite Congress's original intent that the security fee cover 
nearly all costs related to passenger and property screening, the fee 
currently offsets less than a third of the total cost of aviation 
security. At the same time, costs of security have continued to 
increase. In fiscal year 2010, the average cost for the TSA to screen a 
passenger and baggage was nearly $9; in 2000, the cost was less than a 
dollar per passenger.
    We ask that the subcommittee give serious consideration to the 
President's fiscal year 2012 budget proposal to permit DHS/TSA to 
gradually increase the Passenger Civil Aviation Security Service Fee. 
This adjustment will ensure that we are able to continue the 
significant progress we have made in enhancing aviation security while 
fulfilling Congress' intent to do so in a fiscally responsible manner 
that does not penalize American taxpayers.
Procuring and Installing EDS Equipment with ASCF Funding
    As you know, current law requires the first $250 million derived 
from passenger and air carrier security fees in fiscal years 2004 
through 2028 to be deposited in an Aviation Security Capital Fund 
(ASCF).
    The ASCF is distributed to airports through grants for airport 
security capital improvement projects. These projects typically include 
facility modifications, design and build-out for integrated baggage 
handling, and Explosives Detection Systems (EDS). These grants cannot 
be used for the procurement and installation of the actual explosives 
detection equipment that these modifications are designed to 
accommodate, however, because TSA, and not the airports who receive 
these grants, is responsible for the procurement and installation of 
that equipment.
    TSA has already funded, or is currently funding, most of the 
projects eligible for ASCF funding and does not expect applications for 
many new eligible projects in the foreseeable future. A critical need 
exists, on the other hand, for TSA to procure and install large 
quantities of the EDS equipment itself, in order to replace aging and 
less up-to-date security technologies. TSA currently has approximately 
2,000 EDS units deployed Nation-wide. By 2013, almost half of those 
units will have reached the end of the anticipated useful life of 10 
years. Because the EDS equipment is an integral part of the projects 
Congress intended to fund with the ASCF, we ask this subcommittee to 
give serious consideration to correcting this situation by adopting a 
provision to permit the ASCF to be used for the procurement and 
installation of EDS equipment.
    Additionally, current law requires TSA to issue letters of intent 
(LOI), which are agreements to provide funding over a period of several 
years. Again, the major projects for which such funding would be 
appropriate have already been funded. On the other hand, there is a 
need to fund smaller capital projects through single-year funding. We 
request this subcommittee consider amending the law to permit use of 
the ASCF in this manner. With these two amendments to the ASCF 
language, TSA could more effectively, efficiently, and expeditiously 
plan and implement the necessary acquisition and replacement of 
existing EDS units, and provide funding to airports for smaller capital 
aviation security projects that do not require multi-year funding.

                               CONCLUSION

    I want to thank the subcommittee for its continued assistance to 
TSA and for the opportunity to discuss our programs as the subcommittee 
initiates its work on a TSA authorization bill. I am pleased to answer 
any questions you might have.

    Mr. Rogers. I thank you.
    We will go ahead and move to questions. I do want to go 
ahead and let you know that we are probably going to be called 
for votes around 4:45, 4:50, somewhere in there. So we are 
going to try to move this along and get as much in the record 
as we can.
    First thing, as you know, I am very interested in the 
known-traveler program and doing some things to focus our 
limited resources on the real threat-based risk. What I would 
like for you to do is give us a report on the status of the 
development and implementation of that known-traveler program. 
Some people call it the ``trusted traveler'' program, but 
whatever.
    Mr. Pistole. Thank you, Mr. Chairman. Yes, some people 
refer to a ``trusted traveler,'' which may imply that everybody 
else is not trusted, and some people refer to ``known.'' 
Whatever we call it, we look at it as a risk-based security 
initiative within TSA and the Department of Homeland Security 
where we can focus our limited resources on those that we know 
the least about, who may cause us the most problem.
    So the idea is, in very general terms, that those people 
willing to share information with us about their travel 
histories, their travel patterns, perhaps what is in their 
frequent-flyer account, that we can make informed judgments 
about them that may expedite their security screening.
    That may look different at our 450 airports around the 
country, just because of the checkpoint configuration. But the 
idea would be to allow that person who has shared information 
with us, that we can make an informed judgment about, that that 
person would be allowed to be expedited in how they are 
physically screened.
    The first example that we have of this is with the actual 
pilots of the aircraft that we are trying to finalize. We are 
in the process of finalizing the system with the airline 
associations and the pilot associations to do an identity-based 
screening for them. We also are working with the Flight 
Attendants Association to do the same thing with them, after 
the pilots' program is working, because they are the most known 
and trusted--the pilots and then the flight crews.
    As we work through those that we know more about, then we 
can make similar judgments, allowing us to improve security, I 
believe, by focusing on those that we don't know much about. 
Obviously, in Secure Flight, we know the three data fields--
name, date of birth, and gender--which allows us to determine 
whether somebody is on a watch list or not, but it does not 
really give us much more information.
    Again, for those who are willing to share information with 
us, then we will work through that to provide that streamlined 
processing, using more intelligence on the front end, more 
identity-based, and, frankly, getting away from some of the 
physical screening that we have come to be known for in doing 
our thorough security.
    There is a lot more to it, but that is where we are now. We 
hope to be doing some more testing this summer, doing some 
education and training for our workforce on how this would 
look. Then in the fall, we hope to try some pilot projects on 
this in certain airports and just see what it would look like, 
recognizing, again, that some airports may be able to have a 
dedicated lane for these people who are in the known- or 
trusted-traveler program, but it would not be the same in every 
airport. So we need to manage expectations with the traveling 
public.
    The one thing I would say, Mr. Chairman, is that it would 
not be a program that people would pay a fee to join, a program 
such as Global Entry. But people in Global Entry, for example, 
where we already know a lot about them, would be part of this 
known group. They have already submitted to a background, they 
have been interviewed and things like that. There are other 
groups of people, obviously, those both in the private sector, 
the public sector, people with Top Secret security clearances, 
any number of people that we can look at and--a lot more 
detail, but that is it in a nutshell.
    Mr. Rogers. All right. So, the pilot programs by the end of 
this summer. Then what time line do you think you will be able 
to take the lessons learned and incorporate that into a more 
global----
    Mr. Pistole. So, actually, we would do the internal work 
this summer, in terms of enhanced behavior detection work and 
training our workforce in how would they handle these people, 
because there are a lot of issues in terms of the hand-off and 
who goes where for what. So we will spend the summer making 
sure that is working.
    So we are actually looking at the fall of doing these trial 
efforts in several airports, working with several airlines. So 
we are really looking at this fall for that and then much more 
expanded as we go into 2012.
    Mr. Rogers. Great.
    I wanted to ask you a little bit about an update on the air 
cargo aircraft after the Yemen terrorist attack. What kind of 
modifications have you made to prepare precautions for that 
kind of attack again?
    Mr. Pistole. So, since the Yemen cargo plot of October 28 
and 29 of last year, we have worked very closely with industry, 
in terms of coming up with, again, a risk-based approach to 
what makes sense that they can provide, we and they and host 
countries can provide, the best possible screening for those 
unknown shippers or unknown shipments. Those are the two 
criteria that we are looking at.
    So, as opposed to having just an across-the-board rule that 
says, this will be the same screening for every package, every 
piece of cargo, every piece of mail that goes in passenger 
planes and things, we are trying to tailor it. Having some 
great work by industry, FedEx and UPS domestically, DHL, other 
cargo carriers, working very closely with us to implement and 
effect those changes that provide for better security so we 
will have the best intelligence-based reasons for doing 
screening, as opposed to just a blanket screening protocol 
across the board.
    Mr. Rogers. Great. Thank you.
    My time has expired. I now recognize the gentleman from 
Minnesota, Mr. Cravaack, for 5 minutes.
    Mr. Cravaack. Thank you, Mr. Chairman.
    Thank you. I appreciate you coming here today and advising 
us about this very important aspect of our National security.
    Sir, in your written testimony, you mention that the TSA is 
rapidly deploying AIT machines to the U.S. airports and 
exploring enhancements to the privacy protections. Do you have 
a time line for how long this is going to take, to fully fit 
all the AIT machines with automatic target recognition software 
that would eliminate passenger-specific images from being 
generated during the TSA screening?
    Mr. Pistole. Yes, Congressman Cravaack. Thank you.
    We have approximately half of our nearly 500 machines out 
there right now, which have the capability for being upgraded, 
if you will, to the automatic target recognition. We have done 
pilot work in three airports--Atlanta, Las Vegas, and Reagan 
National--with good success. So, by that, I mean, our expected 
rates, in terms of detection and false positives and 
throughput, some of the basic criteria, have all been positive.
    So, for half of those machines, so about 240-plus, the plan 
is, assuming a couple more things are done in the next week or 
2, that we would modify those throughout the rest of this year, 
the calendar year, 2011.
    The other manufacturer that has not quite developed that 
protocol with the software and the depiction of the generic 
outline of a person, we are doing lab testing over the next 
couple months and hope to field-test their software in the fall 
and, assuming everything goes well, follow very shortly with 
the rest of those machines, which, as you noted, completely 
address, I believe, the privacy issues because there is not an 
image of a person, it is just a generic outline of a person, 
with an area of any anomalies highlighted.
    So that is where we are.
    Mr. Cravaack. Okay. Thank you, sir, on that one.
    The other thing I have is a question in regards to--the 
complaints that I hear from the majority of people that I speak 
with regarding TSA usually are person-to-person type of issues, 
going through the checkpoints, things like that. What kind of 
standardization process--I mean, and I experience--obviously, I 
am on the road quite a bit. I experience it, myself. I have to 
take off my belt, at this station, at this city, sometimes. I 
was wondering, how can you address the standardization issue?
    The other aspect is, your personnel that work at these 
checkpoints, do they get training on how to basically interact 
with the public? You see some stations that are extremely 
professional, and then you have other stations that look like a 
bunch of high schoolers having a fun day on a break. Could you 
comment on that?
    Mr. Pistole. So, on the standardization issue, part of it 
may be driven by whether they have the advanced imaging 
technology, which does require a belt to come off and 
everything to come out of pockets, whereas--and we have that in 
75 airports or so. I will have to check on that, the exact 
number. So if they just have to walk-through metal detectors, 
you probably don't have to take your belt off unless it has a 
large metal buckle or something like that, but typically not. 
So that is one issue.
    In terms of the training, every new TSO goes through 
training in terms of, not only as a security apparatus and 
protocols, but in customer service. Some, as you note, do it 
better than others. We try to do retraining for those that we 
have issues with or that people have complained about, 
basically. Then, if appropriate, we take disciplinary action if 
it rises to a level of unprofessionalism as opposed to just not 
being good customer service.
    The bottom line is, we tell them to focus on the security 
aspects, but the better they can engage a passenger, you know, 
the 1.7 million every day--the vast majority are positive. I do 
receive some positive comments, from time to time, from 
passengers who get my e-mail or something. But those that we 
learn about are often the ones that have not been the most 
positive.
    Mr. Cravaack. I appreciate that. Just to clarify, what I 
was talking about was going, actually, through the scanners 
themselves. Some places, I do; some places, I don't. Being a 
part of this committee, it just adds a little bit of a question 
mark in my mind, what is the proper standardization? Being an 
old Navy pilot, standardization is the key, and so I just 
wanted to comment on that.
    But, otherwise, sir, thank you for everything that you do. 
Thank you for all the great TSA agents that do their job 
exceptionally well every day.
    With that 10 seconds, sir, I will yield back.
    Mr. Pistole. Thank you for your support, Congressman.
    Mr. Rogers. I thank the gentleman.
    I would love to have seen the investigation into who leaked 
your e-mail address in-house. I bet it was vigorous.
    The gentleman from Illinois, Mr. Davis, is recognized for 5 
minutes.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Mr. Pistole, let me turn to another area. I would like to 
turn to the rulemaking for frontline surface employee training 
and security assessments, which are required by the 9/11 Act. 
These regulations are more than 2 years overdue. Can you tell 
us what has been causing the delay in getting these rules done?
    I ask because the scope of the rulemaking will determine 
the amount of surface inspectors required for both regulatory 
and industry stakeholder consultation purposes. So I would 
appreciate knowing what is holding that up.
    Mr. Pistole. So, just to clarify, Congressman, the 
rulemaking as it relates to--what was the specific area?
    Mr. Davis. Rulemaking, training, and security assessments.
    Mr. Pistole. So, if I understand the question, in terms of 
our surface transportation inspectors, is that where you are 
focusing?
    Mr. Davis. Right.
    Mr. Pistole. Okay. So there has been a lot of work done in 
terms of a workforce assessment. Then I am, frankly, not quite 
sure on the rulemaking as it relates to that, so I will have to 
get back with you on that. I am not following exactly what that 
is.
    But I would be glad to talk about the surface inspector 
program, in general, and the training with that, if that is 
what you are----
    Mr. Davis. Yeah.
    Mr. Pistole. Okay. So, as you know, we have nearly 2,000 
inspectors overall, some in aviation, some cargo, about 400 or 
so in surface, 120 in K-9 cargo, 84 international inspectors. 
The surface inspectors, of course, do much in the area of rail, 
both passenger and freight rail, in terms of working with the 
industry to assess vulnerabilities.
    One of the key areas of success has been in terms of the 
toxic inhalation hazard and working, in a voluntary way, with 
industry, where we identified some vulnerabilities and gaps 
through what is known as BASE, which is a baseline assessment 
security evaluation. Because of those vulnerability 
assessments, industry, on their own, decided to make some 
changes in the way that railcars with toxic gases and things, 
where they sat overnight, for example, or how much time they 
spent, for example, going through downtown Washington, DC, and 
could they re-route and things like that.
    So industry actually made a number of substantial changes 
that reduced the risk 50 percent in the last 2 years and over 
90 percent in the last 5 years, without regulation. So it is 
that type of partnership that we are looking for with industry 
to address those issues.
    Mr. Davis. All right.
    Let me ask you, regarding the new grant guidance that was 
released by the Department last month, a revised risk formula 
will be used when considering applicants.
    My question is twofold: What was TSA's role in developing 
the new grant guidance with other Department components and 
stakeholders? Second, how do you anticipate this new grant 
guidance will impact mass transit agencies across the country?
    Mr. Pistole. The TSA's role in the development of the 
guidance was to work closely, particularly with FEMA and with 
the Department of Homeland Security, to look at a couple of 
broad areas.
    One is, do we take these funds and try to spread them out 
across the country, even including areas that have not been 
identified as high-risk and try to do what some people describe 
as a peanut-butter approach: Do we just spread it out evenly 
across the country without regard to risk?
    Or, my preference was, and is, that we look at what the 
intelligence tells us to be a risk-based organization and say, 
let's focus our money that is administered through FEMA in 
areas that we know are the greatest risk, so whether it is 
Chicago, whether it is New York, the District of Columbia, Los 
Angeles. My hometown in central Indiana is a great hometown, 
but it has never once come up in the threat matrix. So it is 
just something that--the idea is, how can we use our money 
intelligently to augment and enhance those efforts?
    So that is our role in it. As it relates to mass transit, 
the idea is to provide those funds to those mass transit 
components, such as the New York transit system with over 5 
million passengers every day in the subway; Chicago, obviously 
the L and the Chicago Transit Authority, a lesser number. But, 
still, those are higher-risk areas. So that is the approach.
    Mr. Davis. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Rogers. I thank you.
    The Chairman now recognizes the gentleman from Michigan, 
Mr. Walberg, for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman.
    Thank you, Mr. Pistole, for being here with us today. Thank 
you for the work you do. Thankless, in many cases, but so 
necessary.
    I don't like going through AITs. It is not because of the 
laughter as I am standing on the yellow footprints. But it 
certainly takes some time, it takes additional support staff, 
TSA staff there. It is discretionary to some point and not 
always objective, it appears. But it is what it is.
    My question is: There are other technologies that are out 
there, some that are being used to ascertain explosives, drugs, 
you name it, used by other entities, including the DOD. Are 
there any of those technologies that you are looking at that 
would supplement and/or replace AIT-type machines, including 
the nonspecific image, which would be great to get, but, as an 
alternative to that, something that is being used effectively 
in a field situation now and with a high degree of certainty? 
Are you entertaining those?
    Mr. Pistole. Yes, Congressman.
    Let me apologize for the laughter up front. That should not 
be the case, if that ever is.
    So----
    Mr. Walberg. You don't know me.
    Mr. Pistole. So, I view AIT, the advanced imaging 
technology, as the best technology we have at present to detect 
the non-metallic-type device that we saw on Christmas day 2009, 
where, you know, we have something that if somebody walks 
through a walk-through metal detector and doesn't alarm at all 
because there is no metal in that improvised explosive devise.
    That being said, it is not a panacea, it is not a silver 
bullet. It is one of the tools we have. Other tools that we 
have are explosives trace detection, whether it is on the hands 
for somebody, whether it is on a bag in case there are 
explosives in the bag. The use of K-9s--we use and we are 
wanting to use more of the vapor-wake dogs that can pick up the 
scent, if you will, the molecules of explosives even though 
they don't hit on the bag itself. If the bag has gone by, 
whether it is a backpack or whatever else, like we saw with the 
July 7, 2005, bombers going into the London Tube. So we are 
interested in all those, along with behavior detection, along 
with all those other things.
    One of the things--the AIT and now the automatic target 
recognition is actually increasing the throughput; we are 
getting people through more quickly. But I would just note 
that, because of the increased carry-on bags that people--I am 
sure you have never done this. But in carry-on bags, people are 
jamming a lot of things in there so they don't have to pay a 
fee for some airlines with a checked bag. The denser the bag, 
then the more challenging it is for our security officers 
looking at the X-ray to say is there something bad in there. 
So, actually, we are finding that is taking longer, to resolve 
those issues, than it is for the passenger themselves.
    Just as an example, in the last 2 years, we have gone from 
about 1.25 million carry-on bags every day that we screen to 
2\1/2\ million. It has literally doubled. So you think of that 
in terms of what the security officers are trying to look at.
    If you haven't seen the demonstration of what we actually 
do, I would encourage you to do that. Because when I saw what 
the security officers are looking at on the screen in trying to 
discern, this is a bad item, this is okay, it is very 
difficult. So I have a great deal of respect for these officers 
who do that.
    Those are some of the technologies, but we are always 
looking for other opportunities. We do work with DOD, we work 
with DARPA, in terms of some of the cutting-edge technologies 
that haven't been proven yet. What I want to make sure, though, 
is we are using taxpayers' dollars in a wise way to get to the 
best technology as one of the many layers of defense.
    Mr. Walberg. Well, I would encourage that, because if the 
figures are correct that you give us, that we have gone from 
less than a dollar to now $9 per passenger, on average, to 
screen people since 2000--and we understand the main reasons 
for that. But there certainly has to be ways that we can speed 
up, do very accurate, and get away from that challenge of what 
you are saying is inside the bags right now.
    You know, I have been told that there are passive-screen 
effective modes right now that are being used by DOD, in 
extreme situations, that would be used on every passenger, no 
one getting by that, and yet would be less intrusive and maybe 
even quicker. So I certainly would encourage that.
    Mr. Pistole. Thank you. Yeah, I am very much interested in 
that, and I will follow up with DOD on that.
    Mr. Walberg. Thank you.
    Mr. Rogers. Great. I appreciate that.
    I want to go back to the air cargo issue we were talking 
about at the end of my last section of questions. You know, we 
have had a lot of discussion in this committee and the full 
committee over the years that I have been a Member about the 
need to achieve 100 percent screening of all cargo, not just on 
domestic passenger planes but passenger planes that are inbound 
from foreign countries and for domestic cargo planes.
    There has been a lot of discussion about the fact that they 
just don't think that, from a technical standpoint, it is 
feasible to achieve 100 percent. What are your thoughts on what 
is do-able in the area of air cargo?
    Mr. Pistole. I think we can achieve a high level of 
screening and performance with those highest-risk packages. In 
dealing with industry, really since the Yemen cargo plot of 
late October last year, what we have learned is that to do a 
piece-by-piece screening of each item of cargo or, say, mail 
parcels over 500 grams, whatever it may be, would really shut 
down the global supply chain, which we have no interest in 
doing.
    What we are interested in doing is working with industry 
and, frankly, with CBP, Customs and Border Protection, in terms 
of advanced information about packages, particularly coming 
from overseas, from what may be determined to be high-risk 
areas, those that we assess that the screening is not as 
thorough as it is here in the United States, the concern, 
obviously, being for cargo and those parcels that end up on 
passenger planes. As we know, the majority of cargo does end up 
on passenger planes.
    So what additional scrutiny can be applied to those from 
the two criteria of, is it a known shipper--that is, does the 
shipper have a business relationship with the carrier, with the 
shipper; and then, is it a known shipment, meaning is it 
something that is just coming in over the counter--for example, 
the Yemen cargo plot, where the one young woman comes in. She 
is completely covered, other than her eyes. She presents the 
package with the toner cartridge, the two packages. She gives a 
false identity, false ID. The freight forwarder there that 
forwarded it on to Dubai did what they were supposed to do at 
that time, just do a physical inspection. ``Yeah, it is a 
printer and some clothing, and so we will go ahead and ship 
it.''
    What we have done with industry and what they have done on 
their own is to develop some rule-based protocols to say, does 
this make sense, that somebody is paying $500 to ship a 
computer printer and some books and clothes from Sanaa, Yemen, 
to Chicago? Does that make any sense? So it is that combination 
of getting advanced information, similar to the API, the 
advanced passenger information, passenger name records, that 
construct, for cargo.
    So, to answer to your question succinctly, I think we can 
achieve a high percentage of cargo coming to the United States. 
But to get to 100 percent with any confidence would require 
substantial additional resources for us to not only trust but 
verify----
    Mr. Rogers. Right.
    Mr. Pistole [continuing]. What is happening on the ground 
in all those last points of departure around the world.
    Mr. Rogers. That is my concern. I think if you are going to 
use some sort of technology to screen, as opposed to the K-9 
detection that I support, as you know, I just don't know how we 
would ever afford the kind of infrastructure we would have to 
have just for the domestic cargo, not to mention the in-bound 
foreign flights.
    But I want to go back to your opening statement. You made 
reference to the fact that you do want to see us move to a more 
risk-based approach. How can the Congress, how can this 
committee in this reauthorization, how can the Congress help 
you achieve that change in the way you focus your energies and 
resources?
    Mr. Pistole. Thank you, Chairman.
    Before I answer that, if I could just--one more point on 
cargo. We work with countries to develop National cargo 
screening programs, so we can recognize the country's program, 
similar to what we do here in the United States, to address 
that, so we are not actually out there inspecting at each last 
point of departure.
    On the risk-based security, I think the best way for this 
subcommittee and committee and the Congress as a whole is to 
provide us your ideas, your thoughts, about what works best 
from both a security standpoint but also from the--what makes 
good business sense, and as we talk about some of these ideas 
further, to work with us in a collaborative fashion.
    I don't think--one of the beauties of this proposal that we 
are pushing is that, right now, there is no rulemaking that is 
required, there are no fees required, there is no legislation 
that is required. So, at least in the initial iteration, it is 
simply to have your support as we move forward on this.
    As we engage industry, we are getting very positive 
feedback. So I think we are on the right track. But I do want 
to manage expectations and, frankly, under-promise and over-
deliver as we move forward.
    Mr. Rogers. Well, the reason I ask is, as you know, we are 
about to draw up an authorization bill. I would like 
particularly the intelligence segment of your organization to 
be thinking, is there going to be some sort of authority that 
we are going to need from the Congress to do something 
different?
    Mr. Pistole. Okay.
    Mr. Rogers. It is just, this is the time to be thinking 
about any language----
    Mr. Pistole. Yes.
    Mr. Rogers [continuing]. And not next year, when we have 
already----
    Mr. Pistole. Right.
    Mr. Rogers. So, anyway, that is all I am asking for.
    I am thrilled to announce that my good friend from Texas, 
who has been over at the White House with the President, has 
been able to make it back before the end of the hearing. I 
don't know if she wants to offer a statement or just go to 
questions. But she is occupied right now.
    Do you want to offer a statement or go straight to 
questions?
    Ms. Jackson Lee. No, I would like to----
    Mr. Rogers. Wait? Okay.
    Mr. Cravaack of Minnesota is recognized.
    Mr. Cravaack. Thank you, Mr. Chairman.
    Just to kind of dovetail a little bit about what you were 
talking about earlier, sir, being an airline pilot, I was just 
wondering if you can elaborate a little bit about the known-
crew-member program and when you feel like it will be fully 
implemented?
    Mr. Pistole. We have tested this through what is known as 
``Crew Pass'' in three airports--Pittsburgh, BWI, and Columbia, 
South Carolina--with good success, in terms of having the 
technology at the checkpoint where the pilots literally go 
through an identity-based screening. The key for us is making 
sure that we have that technology available at each checkpoint, 
particularly the 28 Category X airports and the Cat 1 airports, 
the largest airports, where the greatest number of pilots are 
going through.
    I have actually approved the policy. It is simply a matter 
of working out the technology end of it between, again, the 
pilots associations and the airlines. So they are working 
through that.
    My only requirement is that we have one common system. I am 
agnostic as to what company or anything like that. But as long 
as we can have one system that, as you as a pilot come to the 
checkpoint, you are in uniform, you present your 
identification, that a security officer there at the checkpoint 
can either use a smart phone or a laptop to verify that you are 
in good standing at the time you are checking in there, and 
then we would proceed with that.
    I do want to have several months of success Nation-wide 
with the pilots before we move on with the rest of the flight 
crew.
    Mr. Cravaack. Excellent. I appreciate that.
    Will biometric be incorporated in this pilot early-on type 
of program in order to identify the pilot? Or how do you see 
it, just a card ID or----
    Mr. Pistole. We have talked about biometrics, and that 
might be an end-state we build to. But because of the 
additional cost and time that is involved in that for 
everybody, I wanted to do something, initially, recognizing 
pilots as the most trusted people on the aircraft, regards of 
what prohibited items they may have.
    I think I testified previously, in my last job in the FBI, 
I worked on the Egypt Air 990 crash off the coast of Rhode 
Island, Halloween night of 1999--I was stationed in Boston at 
the time--where we learned later, of course, it was the co-
pilot who put the flight down, killed 232 people on board. So 
no amount of physical screening would have detected what was in 
his head, and so what if a pilot has a prohibited item? I mean, 
not being crass, but that is what it comes down to.
    So that is where we are going toward. I am very hopeful 
that we will have something here in the near future.
    Mr. Cravaack. Yeah, I always found it kind of ironic they 
were taking my nail clippers when I have a crash axe this big 
behind me, you know, with a spike and a serrated edge.
    But my next question is just kind of a side note, as well. 
I do have a bill that is presented in identifying our service 
members that are coming back or on PCS orders that are--the 
catalyst was, going through the airport, I am seeing a young 
troop coming back from Afghanistan, still had dirt of 
Afghanistan still in his boots, and he has his pack as a 
reservist, and he is coming home. You know, I saw him undo his 
boots and go through all of the rigamarole of going through 
TSA. I do have a bill out there that would expedite this 
procedure.
    Do you see this possibly developing into, like we were 
talking about, a trusted-passenger type of program, as well?
    Mr. Pistole. I think members of the military, especially 
those in uniform and that we can have some positive 
identification, make sure they are who they purport to be, are 
a group of people that we would look at in some type of 
trusted-traveler system. So it is something that we are looking 
at and trying to assess how do we actually make that happen.
    Now, members of the military who are in uniform are 
supposed to be allowed to keep their boots on, so that is an 
issue, if that was not the case. It gets back to that 
standardization issue across the country.
    But it is something that we are very much interested in, 
recognizing that we train them and they are over there 
protecting our freedoms, and yet we put them through--that 
being said, also in my last job, I worked on the Major Hasan 
investigation, and recognize that there are no guarantees, that 
we are in the risk-mitigation business, not risk-elimination, 
that any person in a trusted category may break bad, frankly, 
at some point.
    But, as a general rule, if there are things we can do in 
terms of expediting, that is what we are interested in doing.
    Mr. Cravaack. Thank you very much, sir, for your testimony.
    Mr. Chairman, I yield back.
    Mr. Rogers. I thank the gentleman.
    The Chairman now recognizes the Ranking Member, my good 
friend from Texas, for her opening statement.
    Ms. Jackson Lee. Mr. Chairman, thank you.
    Let me express my apologies to my colleagues and the 
Members here. We were engaged with the very extensive meeting 
with the President and, as we speak, just finishing that 
meeting. So I ask the administrator's indulgence and the 
kindness of the Chairman and my colleagues.
    Mr. Pistole, we live in a tough, tough time. I don't 
believe that you have been before this committee since the 
miraculous but also instructive taking down of Osama bin Laden. 
The Chairman knows that, as often as I can comment on the 
intelligence community, the Navy SEALs, the broad National 
security team of the President, and President Obama, I do so. 
It goes without saying that I, likewise, thank the men and 
women of the Transportation Security Administration and TSOs, 
who I have joined with as being on the front lines.
    We say that because, in the materials that have since been 
made public, interestingly enough, from the encampment that 
Osama bin Laden had, it seems that a lot of materials, public 
materials, focus on transportation. They focus on rail. There 
is no doubt that there is an attraction to aviation.
    As you will recall, after 2009, the Christmas day bomber, 
the Secretary of Homeland Security made around-the-world trips 
to begin to talk about the agreements that we have.
    I am going to share my thoughts with you very briefly, and 
then the Chairman is going to call on another Member, and then 
I will have a line of questioning along the tough climate that 
we live in.
    Thank you, Mr. Chairman.
    We have begun the very important process of drafting 
legislation for the TSA. I welcome our witness today, who has 
already been welcomed, Administrator Pistole.
    TSA's scope of responsibility is broad, and its mission of 
securing transportation against terrorist attack is critical to 
the Nation's overall homeland security efforts. I believe that 
there is a common agreement on this committee between myself 
and with the leadership of Chairman Rogers. We work together.
    Over the past several years, this subcommittee has 
evaluated cargo security on passenger planes, passenger and 
baggage screening technology processes, security at foreign 
repair stations, general aviation, the Registered Traveler 
program, and the administration of TSA's programs for surface 
transportation and security.
    We understand and support a layered approach to security, 
whereby if one security protocol fails, there will be others to 
mitigate the terrorist threat. I remind you, in my opinion, Mr. 
Pistole, 9/11 was where the overlay did not work. There was not 
redundancy, and, therefore, we found ourselves in this horrific 
condition.
    As we move forward in this authorization process, we must 
not forget this basic homeland security tenet: Redundancy, 
overlay, and ``I have your back.''
    Furthermore, it is important to remember that our last line 
of defense, the final layer against a terrorist threat is not 
technology but people. These people are our Federal air 
marshals, who have been authorized to protect the cockpit and 
secure the aircraft cabin in emergency. These people are the 
flight attendants, who, in just the last few months, have 
subdued several unruly passengers in separate in-flight events 
and who have consistently asked for required flight attendant 
training. These are the people we must invest in by authorizing 
criminal investigative training for FAMs and recurrent advanced 
self-defense training for flight attendants.
    Our pilots', including the Federal Flight Deck Officer, 
participants are critical. Behind the hardened cockpit doors 
authorized after the 9/11 attacks, pilots not only are 
operating the aircraft but providing yet another line of 
defense. We need to ensure they have the resources in the FFDO 
program to support their mission.
    Outside the aircraft, our people on the front lines are the 
transportation security officers, who screen 2 million 
passengers a day. For these TSOs, we need to afford them 
excellent training and career advancement opportunities that 
complement the collective bargaining framework.
    Administrator Pistole, when you decided and moved quickly 
to alter the screening techniques and called them ``enhanced 
screening,'' I went out to my airport, one of the largest in 
the world and certainly one of the largest in the United 
States, to stand alongside of the SFD there and watch our TSOs 
as the public traveled through to be able to ensure, first of 
all, the confidence of our respect for their process, to ensure 
that we wanted them to be professional, and also to watch the 
traveling public accept the fact that we live in a different 
time. It does not mean that we diminish and aren't concerned 
about civil liberties and civil rights, about the inspection of 
elderly and disabled and children, but it does mean that we 
have to work together.
    Speaking of people, Administrator Pistole, I understand 
from my staff that we have received some of the information I 
requested on TSA's executive-level diversity, but it may be 
unbeknownst to you, it was incomplete. We will be working with 
your office to get the exact type of information we need, and 
we thank you for the first start that you have made.
    Mr. Chairman, I know from my discussion with you that we 
share the same commitment to securing our Nation's 
transportation systems. In particular, we have discussed the 
importance of focusing on securing mass transit and other 
surface modes of transportation. I thank you again for your 
commitment to working with this side of the aisle so that we 
can approach these issues in a comprehensive manner. I 
certainly hope that, together, we can look closely at my 
legislation on surface transportation so we can find common 
ground. We had broad bipartisan support for our TSA 
authorization bill in the last Congress, and I hope you will 
look at some of those provisions.
    Might I also say, Mr. Chairman, that your concern and 
interest in K-9s is well-placed, because, as I have traveled, I 
have noted, from all perspectives, whether it is in the deep 
bowels of some of our South and Central American friends, 
looking at the issues of drugs and the overburdensome actions 
of drug cartels, or whether it is in assisting the traveling 
public, or whether it is actually bomb detecting, K-9s can be 
very effective. So I look forward to working with you on that 
issue, as I hope that we will focus on the needs of surface 
transportation security and include that issue, along with 
others, in this year's measure.
    I will make just a final point as I close and say that I am 
looking forward to working with you. I hope also--this is for 
the whole Department of Homeland Security--that we will 
unabashedly buy American. I will discuss that further as I 
proceed in my questions.
    But I also ask, Mr. Chairman, unanimous consent that a 
statement from the National Treasury Employees Union be 
inserted in the record.
    Mr. Rogers. Without objection.*
---------------------------------------------------------------------------
    * Information was not received at the time of publication.
---------------------------------------------------------------------------
    Ms. Jackson Lee. With that, I yield back. Thank you.
    Mr. Rogers. The Chairman now recognizes Mr. Walberg for any 
additional questions he may have.
    Mr. Walberg. Thank you, Mr. Chairman.
    Flowing from the Ranking Member's statements, Mr. Pistole, 
I would ask, in light of the intelligence discovered in bin 
Laden's compound, what changes or enhancements does TSA plan to 
implement in terms of its surface security initiatives?
    Mr. Pistole. Following the initial triage of documents 
seized in that raid and the assault, we made some immediate 
changes, particularly in three areas.
    One is the information that we shared with our State and 
local stakeholders in the rail arena, both the local police but 
then particularly the Amtrak police. Because the one piece of 
information from February 2010 was the notation that on the 
10th anniversary there be some attack on northeast rail, 
presumably Amtrak. So that was the first part.
    The second was we increased our random and unpredictable 
patrols through the VIPR operations, the Visible Intermodal 
Protection and Response, along with Amtrak and then along with 
other State and local police, in terms of just trying to be, 
again, random and unpredictable for anything that may come as a 
result from the killing of bin Laden. So, is there somebody 
here in the United States currently who wants to do something 
to ``retaliate''? So that was one of the issues.
    Then the third area was to assess the--given the additional 
intelligence that continues to come out of there--because, you 
know, the initial triage has been done, and now the deep dives 
are being done. So I get a daily intelligence brief--in fact, 
this morning, new, updated information, which I would be glad 
to provide in a classified setting--as to some more, not 
specific threat information, but just background on bin Laden's 
focus on the transportation sector, both the aviation and rail, 
for the economic impact that it could have and which 9/11 had 
and other things.
    So we are basically rescrubbing from an intelligence 
assessment to say, do we need to re-baseline where we say the 
threats are and looking at the traditional equation of what is 
risk: Threat, vulnerability, and consequence. So, how do we 
inform our risk judgments based on those threats, the 
vulnerability of those resources, and then the consequences of 
a successful attack?
    So those are the three actions that we have taken since 
then.
    Mr. Walberg. From a technology standpoint, what could 
Congress do further to empower TSA and DHS as a whole to work 
with the private sector to develop the necessary technologies 
to ensure our rail and mass transit infrastructure is secure, 
at least as secure as it can be?
    Mr. Pistole. Yeah, so I think one of the keys there is, you 
know, do we set up an airport-type apparatus at rail hubs and 
transit points? That is a huge lift, I think, so I wouldn't ask 
for that.
    But I think where we can truly benefit, knowing that the 
three areas that terrorists have identified as possible 
deterrents, depending on whether it is a suicide bomber or not, 
but the first two, uniformed officers and K-9s, those are 
deterrents to any possible terrorist. The third deterrent, 
CCTV, is only a deterrent for those non-suicide bombers. So if 
you are a suicide bomber, as we saw on July 7, 2005 in London, 
you know, the one terrorist looks right at the camera before he 
goes down into the Tube and 10 minutes later is dead.
    So I think anything that, from a technology standpoint, it 
is as much--is there additional technology out there? I mean, 
there are some things that are mechanical--vapor-wake dogs, 
which there is research being done on that. I am a proponent of 
the actual dogs because of their effectiveness. But I think it 
really comes down to that human part, additional officers' 
training, dogs, and CCTV. So those are the three critical areas 
that I would see.
    Mr. Walberg. Okay.
    Thank you, Mr. Chairman. I yield back.
    Mr. Rogers. I am really glad to hear you mention CCTV. 
There has not been much talk in this committee about it, but, 
as we see over in Europe, it is a vital tool in trying to 
particularly discover what happened when we have an attack.
    But I now recognize the Ranking Member for any questions 
she may have.
    Ms. Jackson Lee. Thank you very much.
    I am going to pursue my line of questioning that I followed 
in laying the premise of the different climate in which we live 
post the demise of Osama bin Laden. I do want to make it clear 
that I think America is safer now than it has ever been. It is 
just that the odds and the life that we are playing with, the 
general atmosphere in which we are playing at this point, the 
arena, is far different than 10 or 20 years ago.
    So I would like to start first with what improvements you 
think and what familiarity you have and the work that is being 
done to secure our foreign repair stations. Because, over the 
years, we view that as a great vulnerability, and it is 
something that is not usually high on the radar screen.
    Mr. Pistole. It is an important point, Congresswoman, in 
terms of, if we don't have confidence in those foreign repair 
stations, either in the screening of the personnel, the 
mechanics who work there, or in their quality control of the 
products that they are using--all things that industry, 
obviously, has a keen interest in and regulates, you know, in 
private industry's sense of the term.
    I think we would have to really get into specifics as to 
which foreign repair station, because of the ones that the TSA 
has looked at, we have actually found a number to be 
commensurate with U.S. standards.
    That being said, you know, with over 285 or so last points 
of departure to the United States and a number of repair 
stations that are either at airports, such as in Europe where 
many of the repair stations are actually at major airports----
    Ms. Jackson Lee. Correct. My question is how many we have 
been able to inspect and how many more we have and do we have 
an at-risk standard.
    Mr. Pistole. We do----
    Ms. Jackson Lee. That is a big number.
    Mr. Pistole. It is. I don't have the exact number. But our 
challenge is to, again, have some level of confidence that what 
they are doing is not just on the day or the week that we are 
there inspecting, but that it is happening 365/24/7. That is 
where we are lacking, frankly. That is one of our gaps. Just 
based on resources, we can't do that.
    So we work with both the country teams and industry in a 
partnership to say, what are you doing to assess that, and then 
what can we do to augment that, recognizing that it is one of 
those areas of vulnerability.
    Ms. Jackson Lee. How do you hold the airlines responsible? 
What is the oversight there? What is the demand on the 
airlines?
    Mr. Pistole. So we have our baseline standards of what is 
required at any repair station and, of course, working with FAA 
on their certification of those stations. How that works is, if 
they are not in compliance, then it is a combination between 
TSA and FAA to make sure that they are in compliance, and if 
they are not, then we can take regulatory action, either in 
terms of a fine or even the ultimate of shutting that repair 
station down for any work to be done on flights coming to the 
United States.
    Ms. Jackson Lee. Do you know how many TSA staff, personnel 
you have on the foreign repair station and what kind of 
partnership you have with FAA?
    Mr. Pistole. I have some numbers in my head, but I am not 
sure. I would like to check on those to make sure I am 
accurate, so let me get back with on you that.
    Ms. Jackson Lee. I mentioned the difficulties that flight 
attendants and passengers seemingly had, really it seemed in 
the days after the demise of Osama bin Laden. Some of those 
occurrences unfortunately involved individuals who are mentally 
challenged.
    I, frankly, believe that the training for flight attendants 
should be required. That is not the case now. I would like to 
know your assessment of that in terms of, again, a changed 
neighborhood and a changed arena in which we live.
    Mr. Pistole. Well, I agree, Congresswoman, that additional 
training would be beneficial, whether it is required--and the 
question of who pays for it. You know, do the airlines pay for 
it? Do they provide the time off? Do they provide the travel 
expenses?
    So we have trained--I would have to check the number, but a 
sizable number of flight crew, flight attendants, in terms of 
basic defensive techniques and how to engage and work in terms 
of defusing a situation. So some of that has been done 
voluntarily.
    But you raise a question about, if it is legislated or if 
it is regulated, then, basically, who pays the cost of that? So 
that is one of the issues that we have looked at.
    Ms. Jackson Lee. Let me do something very unusual. Let me 
ask you, Administrator Pistole, to make an assessment. FAMS, as 
you well know, provides free training. Again, nothing is ever 
free; there is probably some cost in your budget. But what I 
would argue is, we didn't do a lot of things around 9/11, and, 
ultimately, though we don't point to ourselves as the blame, 
unfortunately a horrific act occurred. In this instance, I 
think it is worthy of a review. I am certainly interested in 
legislation.
    But I would ask the question, is the cost more to require 
airlines to be consistent in the training that flight 
attendants get? Or is it more costly for some person attempting 
to do harm, with all of the layers and redundancy we have, to 
make it finally on the airplane and to be able to create a 
horrific incident where our flight attendants could be ready 
and prepared to have stopped it--as they did, possibly 
untrained, with the shoe bomber and as they noticed the 
Christmas day bomber acting erratic, and quick action was 
taken. But consistency does not exist.
    Would you consider moving internally, while some of us want 
to rush ahead, which we might just do, but would you--you see 
my point of the consistency issue.
    Mr. Pistole. Oh, I do, madam. I think it is a good point. 
It is a question--again, we do provide the training at no cost. 
The question is--and if you have airline executives in, that 
might be a good question for them, in terms of are they willing 
to support that in terms of having time off. Is it for 4 hours, 
is it for 2 days? Will they pay the travel expenses to where we 
do the training and things like that? So those are questions.
    But we do that training.
    Ms. Jackson Lee. Well, let me just make an editorial 
comment. We are paying for pillows, blankets, hot dogs, potato 
chips, drinks, and baggage. So the mere idea of time off cannot 
be that excessive for the airlines.
    I would commend to you, I would like to hear back from you 
on this issue.
    Mr. Chairman, I am very interested in this, and I think it 
is valid.
    We are getting to go to the floor, and there has been some 
discussion about collective bargaining rights for the TSOs. Let 
me commend you for the deliberative and studious way in which 
you have handled it. I hope everyone appreciates it.
    I would appreciate if you would give a very quick summary, 
and really quick, to say that you obviously made a decision--
why don't I just ask the question--after you studied it, that 
this would not undermine, the way you have structured it, 
undermine the first-responder security role that TSOs have.
    Would you comment on that please, on the issue of 
collective bargaining?
    Mr. Pistole. So the issue came down to the authorities 
granted to the administrator under the Aviation Transportation 
Security Act of being able to decide what should be subject to 
collective bargaining. In my judgment, the things that I 
included, that allowed the security officers to vote on, 
included those things that I would describe as more 
administrative in nature--shift bids, uniforms, and things like 
that, consistency and uniformity in evaluations, as opposed to 
the actual security screening.
    So anything that had a security nexus I said was not 
subject to collective bargaining. That is obviously the way we 
are moving forward in this run-off election that is taking 
place right now.
    Ms. Jackson Lee. You feel comfortable that your men and 
women in TSA were prepared to be on the front lines and not 
inhibited by the structure of giving them basic rights that 
would enhance their confidence and enhance their teamwork 
through the collective bargaining process.
    Mr. Pistole. Yes.
    Ms. Jackson Lee. Last, on that issue, if there was a 
catastrophic incident at one airport that then required a 
massive moving of some to come in--and we have had it where 
snowstorms have shut down, and individuals couldn't get to the 
airport, but you could fly people in--you have that ability, 
still, to move your personnel around to address the questions 
of need in this country.
    Mr. Pistole. With all security officers, except those 
assigned to the 16 airports under the Security Partnership 
Program, the SPP. So I don't have that discretion over those 
individuals.
    Ms. Jackson Lee. Okay.
    Let me just add this point about looking and ensuring that, 
as you buy equipment and uniforms and gadgets and widgets, 
that, at least under the procurement system that you have and 
then taking the message back to the Department of Homeland 
Security, that you will look to products that are manufactured 
here in the United States.
    Mr. Pistole. Yes. I understand there has been some 
discussion and perhaps a bill introduced in that regard by 
another Member. So, yeah, obviously, we are interested in 
following all the laws. As I understand--I got a briefing on 
the way up--is that we are in full compliance with NAFTA and an 
amendment to that. So, yeah, we obviously need to do that.
    Ms. Jackson Lee. Mr. Chairman, two last questions.
    I think this committee should be aware of the fact, and you 
should be aware, Mr. Pistole, that there are State legislators 
and legislatures that have tried to pose legislation--my State, 
in fact--about the inspection and the AIT. Fortunately, there 
was a pushback.
    I think we are going to have to be particularly attentive 
to that kind of effort. I really think the outreach, your FSDs, 
the National outreach in terms of your sensitivity to how you 
address passengers is very important.
    I would like you to comment on three questions put 
together: That one; and TSA beginning to implement a risk-based 
approach to passenger screening at checkpoints. Because, again, 
I am told by some of your leadership that, because airlines are 
charging for bags, that it has put a whole new burden on your 
officers and the time frame, which many passengers believe you 
are slow. I think it is important to acknowledge that there is 
an extra burden.
    But I would be interested in your assessment on the risk-
based approach. Then I would be interested in what work you 
have done--this goes to the Christmas day bomber--on the last-
point-of-entry security that I believe is extremely important 
to you.
    If you could. The Chairman has been very indulgent. I will 
just conclude; you may have to do this one in writing, just to 
let me know, have there been any EEOC cases filed against TSA 
and, if so, how many. That may be in writing.
    Mr. Pistole. I will have to get back in writing on that 
last point.
    Just briefly, in terms of the legislation, we have been 
engaged with Department of Justice. I am sure you are aware 
that one of the U.S. attorneys in Texas sent a letter to the 
Lieutenant Governor and to the legislature outlining some of 
the legal perils and the supremacy issues involved in that. 
There have also been some discussions and we have done some 
briefings that have been helpful, I believe, in terms of 
providing what the threats are. So that continues, and we watch 
that closely. We have 3,500 security officers in the State of 
Texas, and they are all concerned about that, obviously.
    In terms of the risk-based----
    Ms. Jackson Lee. I would just say that this may be a 
creeping activity across various States.
    Mr. Pistole. Right. There are approximately a dozen States 
that have some interest in this at various levels that I am 
aware of.
    I have covered in some detail the risk-based security while 
you were at the White House. I would just summarize by saying, 
we are very interested in moving forward with all deliberate 
speed in terms of trying to provide the best possible security 
by focusing on those that we know the least about as being the 
highest risk. Those selectees and no-flys, obviously, we know a 
lot about, and we do a proper, thorough screening with them.
    But if we can expedite the screening experience for those 
that are willing to share information with us or that we 
already know a lot about because they have already provided a 
lot of information, such as in Global Entry or those with Top 
Secret security clearances or other groups of people, then we 
are very much interested in that and working deliberately on 
that.
    So there will be more to come on that later this year and--
--
    Ms. Jackson Lee. On the at-risks?
    Mr. Pistole. On the?
    Ms. Jackson Lee. More to come on--I didn't hear what you 
said.
    Mr. Pistole. On the whole risk-based security----
    Ms. Jackson Lee. Right. All right.
    Mr. Pistole. The bag fees I touched on earlier, but, yes, 
we are doing approximately twice as many checked bags now as we 
did 2, 2\1/2\ years ago. So it puts an additional burden and 
onus on the security officers reviewing each screen and seeing 
what may be in there as a potential IED component, and so that 
is a challenge for us. That is what is slowing it down, as 
opposed to the passenger screening. So that is one aspect we 
are----
    Ms. Jackson Lee. I think that is important to--I mean, I 
think in your discussions with airlines, your discussion with 
the traveling public, you have videos that you put into 
airports. I told you I would like it to be a little bit more 
conspicuous. But it is very important in terms of setting the 
tone for the traveling public.
    Mr. Pistole. Right. Yeah, you may have heard my public-
service messaging in certain airports, encouraging the public 
to work with us in a partnership, and the better prepared they 
can be as they travel, the better job we can do and make it a 
better travel experience for everyone.
    On your last point, the last points of departure, we work 
very closely with both the airport authorities, the civil 
aviation authorities in those countries, and the industry 
itself to ensure that their standards on any of the LPDs, as we 
call them, are to the standards that we have in the United 
States.
    So, in many places, for example, at London Heathrow, 
Terminal 5, which are the LPDs to the United States, they have 
additional screening that flights to the rest of the world do 
not have. So we do work very closely with them.
    We are continuing discussions with groups such as ICAO, the 
International Civil Aviation Organization, IATA, International 
Air Transit Association, and all industry groups and 
associations to try to make sure we have a baseline, common 
standard that enhances security, given the current threat 
environment.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Let me thank you for that.
    I will put another question on the record, Mr. Pistole, to 
be answered in writing. That is whether or not you have any 
specific programs, policies to increase diversity at the 
executive and non-executive levels at TSA. As you well know, 
diverse backgrounds are very helpful.
    I do want to commend Colonel Testa, who was our FSD at IAH. 
I understand that she may be detailed here to Washington. That 
does not make us happy, but it does say what a credible and 
responsible leader she is. I hope that we have the ability to 
have her return, if that is at all possible.
    To basically thank the overall team that you work with, and 
that we will continue to work with them.
    I think I have submitted this letter into the record. Is 
this the statement here? Yeah, I think I have asked, and I 
think the Chairman has already asked unanimous consent for this 
letter to go in.
    So let me yield back, Mr. Chairman. I will look forward to 
some of the questions that I posed in writing.
    Again, Mr. Chairman, I would like to suggest our common 
agreement on the whole issue of ``Buy America,'' but also this 
flight attendant training is something I hope we can look at 
together, and that we can look at this last point of--this last 
point of departure is a very important issue, in terms of 
people coming into the United States by aviation travel.
    I thank the gentleman for his indulgence.
    Mr. Rogers. Count on it.
    We have been called for votes. I don't know what happened; 
the bells didn't go off. But I just got a note.
    But I just wanted to close on one point and kind of get 
your feedback, and that has to do with the behavior detection 
officers. How is that going? I understand GAO had a report with 
some criticisms. Where are you going with that?
    Mr. Pistole. The GAO did come out with a report that 
offered some constructive comments in terms of how we can 
improve. DHS's Science and Technology Directorate looked at 
that and, actually, has just published a report that, although 
much of it is sensitive security information, strongly endorses 
and validates the behavior detection program. I would be glad 
to get, in a closed setting, into some specific details.
    But I received a detailed briefing on it, actually, this 
morning. It is notable in terms of the success that the 
behavior detection officers have versus just random samplings, 
if you will. So it is multiple times more effective than just 
random. So I am encouraged by that.
    That being said, I am interested in upgrading and 
expanding, in terms of the backgrounds and the capabilities of 
those behavior detection officers, that will then be wrapped up 
into a risk-based security program that includes additional 
behavior detection as part of that.
    Mr. Rogers. Excellent.
    Well, listen, I am not going to drag you up here any more 
often than necessary. You just have one of your staffers come 
over, and let me and the Ranking Member know what you are going 
to do. We will do it in a classified manner.
    With that, we are going to adjourn this hearing. I want 
everybody to understand, and you and your staff, that some of 
the Members who were here may have some written questions. So, 
in the next 10 days, I would ask you to respond to those in 
writing, if you get them.
    Anything else?
    Ms. Jackson Lee. Mr. Chairman, I thank you very much for, 
again, the indulgence of some of us who had to come to the 
hearing late. Thank you very much.
    Mr. Rogers. Great. Thank you.
    This hearing is adjourned.
    [Whereupon, at 5:13 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

   Questions From Chairman Mike Rogers of Alabama for John S. Pistole

    Question 1a. Is the total security approach currently in place at 
U.S. airports integrated or fragmented? Is there one agency designated 
with overall responsibility for security at any U.S. airport?
    Are the images of approaching vehicles captured by airport security 
cameras, monitored by TSA in real-time or by another security entity 
separate from TSA?
    Question 1b. Do you think TSA should have access and control of 
airport CCTV cameras and systems?
    Answer. Security at U.S. airports is a collaborative process among 
several entities. The Transportation Security Administration (TSA) 
maintains responsibility for screening and ensuring compliance with 
certain Federal regulations. TSA works with airport authorities at TSA-
regulated airports required to adopt and carry out a TSA-approved 
security program under 49 CFR Part 1542, and collaborates with State, 
local, and Federal law enforcement agencies on criminal matters. Among 
other requirements, airports required to have a complete or supporting 
airport security program must include a description of law enforcement 
support.
    Airports operate and monitor security cameras along with their 
respective law enforcement and/or security response component as 
outlined in their airport security programs. The placement, numbers, 
and types of cameras, as well as the monitoring function (real-time or 
exception-based), will vary depending on the airport's operational 
characteristics and available funding. TSA's use of images generally 
occurs following a security violation or incident, for forensic 
purposes, and in conducting post-incident reviews and investigations.
    While TSA personnel do not directly control the physical operation 
of Closed Circuit Television (CCTV) cameras, TSA has access to the 
airport's CCTV cameras and systems. TSA coordinates with airports when 
it is necessary to review camera footage in support of inspection, 
investigation, and regulatory duties.
    Question 2. Does the current passenger vetting process include any 
engaged questioning by TSA, the answers to which might suggest 
suspicious behavior or criminal intent on the part of the passenger? If 
such intent is suggested but not conclusively established, does the 
passenger move to another line where secondary screening is effectively 
in place? If not, why not?
    Answer. TSA's Screening of Passengers by Observation Techniques 
(SPOT) program trains Behavior Detection Officers (BDO) to engage 
passengers in casual conversation throughout the screening process to 
observe for behavioral anomalies that may be indicative of potential 
terrorist or otherwise threatening behavior. If a passenger's observed 
behavior rises to a pre-determined threshold, the passenger is 
subjected to additional screening to include a more in-depth 
conversation element and possible law enforcement notification for 
resolution.
    Question 3. Why is it that U.S. carriers operating abroad with U.S. 
destinations utilize the enhanced screening approach and yet this 
approach, while readily available from a private contractor, is not 
utilized at U.S. airports?
    Answer. The security measures referred to are contained in the 
Transportation Security Administration (TSA) Aircraft Operator Standard 
Security Program (AOSSP), as the ``passenger prescreening security 
interview.'' These measures must be conducted by U.S. aircraft 
operators operating in an overseas environment.
    On August 15, 2011, TSA began an enhanced behavior detection proof 
of concept at Boston Logan International Airport (BOS). TSA Behavior 
Detection Officers at BOS have undergone additional training and 
significant on-the-job training in the enhanced screening approach 
available from a private contractor. BDOs piloting the proof of concept 
at BOS engage passengers in casual conversation consisting of 3 to 6 
brief questions relating to a passenger's trip. More thorough 
interviewing may occur if concerns arise from the initial BDO 
engagement.
    In addition, the Screening of Passengers by Observation Techniques 
(SPOT) program operates in many U.S. airports.
    Question 4. In which airport(s) are you currently piloting an 
enhanced passenger vetting security feature based on TSA verbal 
engagement with the passengers?
    Answer. The Transportation Security Administration is conducting a 
proof of concept that tests an enhanced passenger vetting security 
feature at Boston-Logan International Airport. If the proof of concept 
is successful, these enhanced passenger vetting procedures will be 
piloted at Detroit Metropolitan-Wayne County Airport (DTW). In 
addition, the Screening of Passengers by Observation Techniques (SPOT) 
program operates in many U.S. airports.
    Question 5. Has TSA successfully implemented a reduced screening 
requirement for known low-risk passengers such as frequent flyers?
    Answer. The Transportation Security Administration (TSA) is 
undertaking efforts to focus its resources and improve the passenger 
experience at security checkpoints by applying new risk-based, 
intelligence-driven screening procedures and enhancing its use of 
technology. TSA will be conducting a pilot program in the fall to 
enhance TSA's identity-based, pre-flight screening capabilities and 
provide lower-risk and known passengers with expedited screening. TSA 
will test enhancements to TSA's pre-flight, identity-based screening 
capabilities through a partnership with U.S. Customs and Border 
Protection (CBP) as well as U.S. air carriers.
    TSA will continue to look for ways to enhance its layered security 
approach through new state-of-the-art technologies, expanded use of 
existing and proven technologies, better passenger identification 
techniques, and other developments that will continue to strengthen our 
screening capabilities.
    Question 6. What are the screening protocols for individuals with 
metal implants, prosthetic devices, or those who need additional care 
due to special needs travelling in air transportation? Do you believe 
that any of the protocols should be reformed to better ensure fair 
treatment of these individuals?
    Answer. Persons with disabilities and medical conditions are 
screened in a manner to ensure they are treated fairly and courteously 
while mitigating vulnerabilities that are inherent to some devices. The 
Transportation Security Administration (TSA) works closely with a 
coalition of over 70 organizations to address the specific concerns 
associated with medical conditions and disabilities, to include ostomy-
related products, prosthetics, and cancer-related treatments. Earlier 
this year, TSA created a working group comprising of members from TSA's 
Office of Disability Policy and Outreach and the Training and 
Procedures divisions of the Office of Security Operations (OSO). This 
working group regularly discusses screening policy for persons with 
disabilities and ways to mitigate vulnerabilities while ensuring the 
best customer service possible. The group also discusses emerging 
technology and the best ways to screen medical devices. An important 
outcome of this group was to change the way TSA screens insulin pumps 
and other medical devices worn on the body. Individuals are no longer 
required to undergo additional screening of their accessible property 
or be subjected to an entire pat-down based solely on the presence of 
one of those medical devices. TSA provides individuals with these 
medical devices screening equivalent to that other passengers undergo 
while ensuring the device itself is properly screened.
    Specific screening protocols for screening individuals with metal 
implants, prosthetic devices, or those who need additional care due to 
access or functional needs are Sensitive Security Information (SSI) and 
cannot be discussed in this response. However, TSA is available to 
discuss these screening protocols in a closed setting.
    Question 7. Is TSA considering reforming the current standard 
operating procedures regarding screening children under 12? What are 
some alternative screening methods other than a modified pat-down that 
can be used when screening such a child?
    Answer. Yes, the Transportation Security Administration (TSA) is 
working on a risk-based screening model, and has begun testing possible 
new procedures that may reduce, although not entirely eliminate, the 
pat-down rate on children. Specific screening protocols are Sensitive 
Security Information (SSI) and cannot be discussed in this response. 
However, TSA is available to discuss these screening protocols in a 
closed setting
    Question 8. Are Federal Security Directors and relevant TSA staff 
required to meet with law enforcement agencies serving the airport? If 
so, how often are they required to meet? Do they ever exercise or train 
together?
    Answer. There is no specific mandate for Federal Security Directors 
(FSD) to meet with law enforcement agencies serving the airport. 
However, FSDs are encouraged to develop and maintain relationships with 
their law enforcement stakeholders. The frequency of interaction varies 
among different FSDs and law enforcement authorities.
    In support to the FSDs, the Transportation Security Administration 
(TSA) Assistant Federal Security Director for Law Enforcement (AFSD-LE) 
is expected to maintain daily contact with the local area law 
enforcement community. This responsibility has been identified as the 
primary duty of the AFSD-LEs serving at 82 airports Nation-wide. 
Typical liaison contacts include the following: The airport police 
authority; Transportation Security Officers (TSO); TSA regulatory 
personnel; TSA's Office of Inspections; U.S. Immigration and Customs 
Enforcement (ICE); Joint Terrorism Task Force; Drug Enforcement 
Administration (DEA); Federal Bureau of Investigation (FBI); United 
States Secret Service (USSS); U.S. Customs and Border Protection (CBP); 
Bureau of Alcohol, Tobacco, Firearms, and Explosives (ATF); and other 
Federal, State, and local agencies whose investigative interests may 
have a nexus to the transportation systems within TSA's area of 
responsibility. In this liaison capacity, the AFSD-LE ensures the 
sharing of critical intelligence information, coordination of 
investigations, support for security initiatives, and maintaining a 
proactive law enforcement program to ensure the security of the airport 
and the traveling public. The Federal Air Marshal Service (FAMS) also 
assigns Federal Air Marshals (FAM) and Supervisory FAMs to serve as 
additional airport liaisons between the FAMS, the FSD, and the other 
agencies listed above.
    Question 9. How does TSA determine when private industry should be 
made aware of certain threats?
    Answer. When our intelligence and security partners within 
Department of Homeland Security (DHS) and the intelligence community 
(IC) introduce or update threat information, the Transportation 
Security Administration (TSA) executive leaders of transportation modal 
subject matter experts and threat intelligence analysts decide 
immediately whether private industry should also become aware of the 
information. In many cases DHS and IC liaisons are already working on 
notification processes out to private industry and coordinate these 
measures with us. TSA has official relationships with the private 
industry on global, National, and regional levels, so our capabilities 
help ensure we are informing all the entities in that customer base.
    The immediacy of the threat, the classification of the information 
and the security clearances of our private industry customers determine 
the manner in which we share this information. There are multiple 
technical and organizational solutions available for this type of 
information sharing. Examples include:
  <bullet> National Infrastructure Coordination Center (NICC).--The 
        NICC serves as an extension of the NOC, providing the mission 
        and capabilities to assess the operational status of the 
        Nation's Critical Infrastructure Key Resources (CIKR), supports 
        information sharing with the ISACs and the owners and operators 
        of critical infrastructure facilities, and facilitates 
        information sharing across and between the individual sectors.
  <bullet> Fusion Centers.--Fusion centers integrate relevant law 
        enforcement and intelligence information and coordinate 
        security measures to reduce risks in their communities. Fusion 
        centers serve as focal points for the receipt and sharing of 
        terrorism-related information. While fusion centers play a 
        vital role in disseminating terrorist information at the State, 
        local, Tribal, and territorial (SLTT) level, there are 
        prominent integrations with CIKR officials as well.
  <bullet> Joint Worldwide Intelligence Communications System (JWICS) 
        and Secret Internet Protocol Router Network (SIPRNet).--JWICS 
        and SIPRNet are systems of secure interconnected computer 
        networks used to transmit classified information in a secure 
        environment.
  <bullet> Homeland Secure Data Network (HSDN).--Functioning as DHS's 
        secure communications infrastructure, HSDN allows Federal and 
        SLTT governments to share timely and actionable classified 
        information.
  <bullet> Homeland Security Information Network (HSIN) and HSIN for 
        Critical Sectors (HSIN-CS).--DHS communicates in real-time to 
        its partners by utilizing HSIN, a highly secure network with a 
        common set of information-sharing functions and tools for 
        various private sector communities with common security 
        interests. System users include Governors, mayors, homeland 
        security advisors, State National Guard offices, emergency 
        operations centers, first responders, public safety 
        departments, and other key homeland security partners. TSA has 
        several portals on HSIN-CS that disseminate information to 
        stakeholders.
  <bullet> Non-secure Internet Protocol Router Network (NIPRNet).--The 
        NIPRNet is used to exchange sensitive but unclassified 
        information between internal users.
  <bullet> Intelink.--A highly secure intranet used by the IC which 
        provides the web environment for protected Top Secret, Secret, 
        and Unclassified networks.
  <bullet> National Terrorism Advisory System (NTAS).--The NTAS 
        communicates information about terrorist threats by providing 
        timely, detailed information to the public, Government 
        agencies, first responders, airports and other transportation 
        hubs, and the private sector. These alerts include a clear 
        statement that there is an imminent threat or elevated threat. 
        Using available information, the alerts provide a concise 
        summary of the potential threat, information about actions 
        being taken to ensure public safety, and recommended steps that 
        individuals, communities, businesses, and governments can take 
        to help prevent, mitigate, or respond to the threat.
  <bullet> National Joint Terrorism Task Force (JTTF).--Composed on 
        multiple JTTFs sharing information at the regional level. TSA 
        Federal Air Marshals (FAMS) have representatives on selected 
        Federal Bureau of Investigations (FBI) Field Office JTTFs and 
        several of its resident office JTTFs.
  <bullet> Interagency Threat Assessment and Coordination Group 
        (ITACG).--The ITACG consists of Federal intelligence analysts, 
        and State, local, and Tribal first responders, working at the 
        National Counterterrorism Center (NCTC) to enhance the sharing 
        of intelligence with our State, local, Tribal, and private 
        sector partners through established mechanisms within DHS and 
        FBI.
  <bullet> Information Sharing and Analysis Centers (ISACs).--TSA works 
        with transportation industry ISACs on a daily basis to address 
        security issues. Various ISACs have access to and work with the 
        Transportation Security Operational Center (TSOC), and with 
        TSA's modal experts and intelligence personnel. ISAC personnel 
        have access to information and intelligence consistent with 
        security policies.
  <bullet> Critical Infrastructure Partnership Advisory Council 
        (CIPAC).--The CIPAC provides a legal framework for members of 
        the Government Coordinating Council and Sector Coordinating 
        Council to collaborate on a broad spectrum of security 
        activities. This approach aligns with the National 
        Infrastructure Protection Plan (NIPP), the corresponding 
        Transportation Systems Sector Specific Plan (TS-SSP), the 
        Information Sharing Environment Implementation Plan (ISE-IP), 
        and other information sharing guidance. The Sector Coordinating 
        Councils (SCC) plays an important role in providing the private 
        sector perspective on identifying and implementing the 
        information-sharing mechanisms that are most appropriate for 
        their modes of transportation.
  <bullet> Working Groups.--TSA partners with foreign transportation 
        security agencies to share best practices and lessons learned. 
        Examples include working groups within the International Civil 
        Aviation Organization and the International Working Group on 
        Land Transport Security.
    TSA will use whichever system or combination of systems that proves 
most effective in getting the threat information out to private 
industry.
    Question 10. If a TSO is at a checkpoint and fails to detect a 
threat object during an operational or covert test, what happens to the 
TSO? Does he remain at the checkpoint? How much discretion does an 
individual FSD have when deciding how to discipline or when to dismiss 
a TSO? Do you think there should be more standardized protocols for 
Federal Security Directors in this area?
    Answer. If a Transportation Security Officer (TSO) fails to detect 
a threat item delivered by the Transportation Security Administration's 
(TSA) Office of Inspection covert testing team or through the Aviation 
Screening Assessment Program (ASAP), he/she is removed from screening 
duties and placed in remedial training. TSA does not discipline TSOs 
for covert testing or ASAP failures. These tests are conducted to 
evaluate vulnerabilities and the effectiveness of screening procedures 
and technology. However, Federal Security Directors have the authority 
to address TSO performance failures outside the context of covert 
testing and ASAP.
    Question 11. The budget for FAMS has seen an increase each year, 
yet the FFDO budget has remained relatively flat even though there is 
wide interest in this program. Have you requested that the FFDO budget 
be increased?
    Answer. Although the administration recognizes the importance of 
the Federal Flight Deck Officer Program (FFDO) Program, it realizes 
that funding is limited and has made the difficult decision to 
distribute scarce available resources elsewhere. The fiscal year 2012 
budget request does provide a $313,000 increase to the program's base, 
which will provide the resources to sustain the FFDO Program at a 
current services level. The Transportation Security Administration will 
continue to evaluate its base resource levels to identify efficiencies 
in order to meet the program's priority requirements, and we will work 
with the Department and stakeholders to ensure this occurs.
    Question 12. In light of the recent revelations of al-Qaeda's 
interests in attacking our rail infrastructure, what changes or 
enhancements does TSA have planned in terms of its surface security 
initiatives?
    Answer. In light of the most recent intelligence that al-Qaeda had 
plans to attack trains or railroad infrastructure, the Transportation 
Security Administration (TSA) took several actions. In the freight rail 
mode, TSA immediately communicated with the freight railroad industry 
and advised them to continue a state of vigilance and awareness. The 
effectiveness of this vigilance was demonstrated by the increase in 
reporting of suspicious incidents detected throughout the railroad 
industry.
    TSA plans to continue conducting assessments of railroad 
infrastructure, bridges, and tunnels, in particular to assist the 
railroads with identifying potential vulnerabilities and options to 
mitigate those vulnerabilities. TSA plans to continue conducting 
assessments of railroad infrastructure, bridges, and tunnels, in 
particular to assist the railroads with identifying potential 
vulnerabilities and options to mitigate those vulnerabilities. TSA's 
Office of Security Technology, in conjunction with the Department of 
Homeland Security (DHS) S&T Office of Research and Development, is 
identifying innovative technologies that can be used in the freight 
rail environment for intrusion detection and early warning of tampering 
or disruption of railroad infrastructure. TSA is conducting operational 
demonstration/system evaluations of integrated, multi-technology 
intrusion detection systems capable of protecting critical 
infrastructure components. Examples of the technologies being 
researched include intrusion sensors using fiber optics, wireless 
reporting of ground disturbances, advanced infrared, millimeter wave, 
conventional video, and other technologies to protect rail 
infrastructure, rails right of ways, tracks, bridges, pipelines, and 
tunnels.
    In the mass transit and passenger rail mode, TSA encouraged the 
transit and passenger rail agencies to increase the frequency and 
number of Regional Alliance Including Local, State and Federal Effort 
(RAILSAFE) operations. This program coordinates the activities of 
multiple agencies who share in the responsibility of securing the rail 
system against acts of terrorism. In 2010, the RAILSAFE program 
expanded beyond the Northeast Corridor to other areas in the United 
States and to Toronto, Canada, and began establishing partnerships with 
other international transit and passenger agencies. RAILSAFE partners 
share intelligence, establish prevention working groups, provide 
incident response, and participate in coordinated efforts to detect, 
deter, and prevent terrorist activities. TSA encourages continual 
RAILSAFE operations on a random basis to practice preparing for 
different types of security threats. Additionally, TSA will continue 
issuing Security Awareness messages and conducting Operational 
Deterrence Programs that include training, public awareness, K-9 units, 
and Visible Intermodal Prevention and Response Teams. The focus of 
issuing Security Awareness messages and conducting Operational 
Deterrence Programs will shift from extended periods of time to shorter 
periods, such as months or weeks. TSA is also focusing on the 
protection of mass transit and passenger rail right-of-ways through the 
development of new technologies. In conjunction with the Transit 
Policing and Security Peer Advisory Group, TSA has developed 
recommendations for new protective measures based on most likely threat 
scenarios that could be implemented as needed.
    Utilizing the best available information, TSA will continue to 
provide guidance to freight rail, mass transit, and passenger rail on 
possible threats and provide support in developing realistic and 
implementable measures to reduce vulnerabilities and increase the 
likelihood of detection and prevention of terrorist acts.

 Questions From Ranking Member Sheila Jackson Lee of Texas for John S. 
                                Pistole

                         SURFACE TRANSPORTATION

    Question 1. Earlier this year, the Department released new grant 
guidance impacting the distribution of Transportation Security Grant 
Program. The new guidance revealed a revised risk formula will be 
utilized when considering applicants. What was TSA's role in developing 
the new grant guidance with other Department components and 
stakeholders? Second, how do you anticipate this new grant guidance 
will impact mass transit agencies across the United States?
    Question 2. With recent cuts aimed at the Transportation Security 
Grant Program, even though 34 million rail and mass transit passengers 
travel each day in the United States, surface programs only receive 2% 
of the TSA security funding. How do you plan to address the significant 
gap in resources between aviation and surface?
    Question 3. In the June 2008 DHS OIG report entitled, ``TSA's 
Administration and Coordination of Mass Transit Security Programs'' it 
says ``Many State homeland security and transit security officials said 
that TSA's risk management approach did not account for differences in 
the infrastructures and needs of cities and their transit systems'' and 
that ``Some stakeholders said they had the impression that grant 
priorities were being set by political appointees, rather than by 
subject matter experts with knowledge of the region.'' In developing 
the fiscal year 2011 Transit Security Grant Program priorities and 
evaluating submissions, how will DHS ensure transparency in the 
evaluation and selection of projects and avoid discounting the risk to 
a region due to differences in needs? What is TSA's role in ensuring 
transparency in the program?
    Answer. For fiscal year 2011, the Transit Security Grant Program 
(TSGP) guidance reflects a revised framework that continues to 
prioritize operational activities, but is more specific about targeting 
funding for Nationally-critical transit assets to fully remediate 
vulnerabilities. The Transportation Security Administration (TSA) 
worked closely with the Federal Emergency Management Agency (FEMA) in 
developing the revised framework, which maintains the existing risk 
formula, but revises how projects are prioritized and reviewed. Through 
conferences, workshops, regional working group meetings, and conference 
calls, TSA socialized proposals for changing the fiscal year 2011 
process extensively in calendar year 2010 throughout the mass transit 
stakeholder community, including transit systems, law enforcement 
agencies, the American Public Transportation Association, and the 
Sector Coordinating Council. TSA also discussed the revised framework 
with the Transit Policing and Security Peer Advisory Group, which is 
comprised of heads of security and/or police chiefs from transit 
agencies across the Nation. As a result, the final fiscal year 2011 
TSGP framework incorporated stakeholder feedback.
    The intent of the revised framework is to connect funding to 
measurable progress in reducing risk, while allowing transit agencies 
to complete existing projects and provide the foundation for future 
funding on new initiatives. All agencies that were eligible last year 
were eligible this year (this eligibility was not affected by changes 
to eligibility for the Urban Areas Security Initiative program) and all 
project types that were allowable last year are allowable this year. In 
that way, all agencies could continue security efforts they started 
with funding from prior years.
    Addressing security of passenger railroads and mass transit 
agencies requires strong stakeholder partnerships and leveraging of 
State and local resources in coordination with Federal requirements and 
support. Various statutes and executive directives require that 
transportation risk activities be determined and implemented 
collaboratively in accordance with strategic plans developed with 
security partners. As a result, addressing security in these surface 
modes of transportation--as part of the Department of Homeland 
Security's mission to prevent terrorist acts within the United States, 
to reduce vulnerability to terrorism, to minimize damage from potential 
attack and disasters, and to improve system resilience after an 
incident--requires collaboration from planning through deployment of 
resources.
    Reflecting its collaborative relationship with stakeholders, TSA 
works to ensure transparency in the grant programs through the 
development of funding priorities that are presented publically in the 
annual grant guidance, publishing of review criteria and the scoring 
methodology also in the grant guidance, and reviewing and explaining 
the criteria and methodology through workshops and conference calls.
    Although FEMA facilitates and hosts the grant review panels, with 
TSA input and assistance, grant priorities are set by TSA based on 
extensive input from industry stakeholders, including transit systems, 
law enforcement agencies, American Public Transportation Association, 
and the Sector Coordinating Council. Further, TSA utilizes the Transit 
Policing and Security Peer Advisory Group to ensure regional risk is 
considered and reflected in the funding priorities.
    In order to ensure transparency in the review and selection of 
projects, the exact scoring methodology and review criteria are 
included in the fiscal year 2011 TSGP Grant Guidance and Application 
Kit. Further, this scoring methodology and review criteria, including 
point ranges, is briefed extensively at regional workshops conducted 
after release of the grant guidance (seven were held for the fiscal 
year 2011 TSGP). All of these materials are also made available on 
TSA's public grants website, so that applicants unable to attend one of 
the workshops can access the materials.
    Question 4. How do you plan to make resources available for testing 
and development projects--directly impacting surface and mass 
transportation security--at Pueblo or a similar facility?
    Question 5. What are your plans for leveraging the excellent 
training facilities available at Pueblo? Has there been any discussion 
of housing training materials and courses there relating to the 
forthcoming regulations for bus, rail, and transit employees?
    Question 6. Last year, the White House released a Surface 
Transportation Security Assessment that included 20 recommendations. 
What are your plans for implementing those recommendations and what can 
Congress do to help you in that endeavor? If possible, please elaborate 
more than the implementation plan, or if necessary, please work with us 
to schedule a security briefing to discuss your plans.
    Question 7. Secretary Napolitano has made public statements 
indicating that she wants to place more focus on surface and mass 
transit security. (http://www.tsa.gov/weekly/13009.shtm) What actions 
has TSA taken to focus resources within TSA for programs to support 
mass transit security?
    Answer. The Transportation Security Administration (TSA) has 
maintained a robust and innovative program concerning surface and mass 
transit security technologies since 2006. Beginning in 2008, through 
means of an interagency agreement, TSA and the Federal Railroad 
Administration (FRA) have collaborated on projects related to rail 
security at the Transportation Technical Center (TTCI), the Department 
of Transportation rail test facility located near Pueblo, Colorado. TSA 
is continuing this collaboration with FRA, as well as putting in place 
a contract directly with TTCI for work efforts unique to TSA's 
requirements.
    There are two courses currently being facilitated at the Pueblo, 
CO, facility in preparation for the forthcoming regulations and 
assessments in the Highway and Motor Carrier modes that TSA 
Transportation Security Inspectors for Surface (TSI-S) will be carrying 
out in fiscal year 2012. The two courses are the Highway and Motor 
Carrier Safety Compliance course and the Highway and Motor Carrier 
Security course. Highway and Motor Carrier Safety Compliance is 
designed to provide participants with the knowledge and skills to 
successfully interact with stakeholders in the Highway Motor Carrier 
(HMC) modes of surface transportation and familiarize them with the 
equipment used by the HMC industry. Highway and Motor Carrier Security 
is designed to provide participants with the knowledge and skills to 
successfully interact with stakeholders in the HMC and Over-the-road 
Bus (OTRB) modes of surface transportation and provides hands-on 
training in proper search techniques of HMC and OTRB equipment; the 
course also trains participants proactively in Highway Motor Carrier 
Security Action Items.
    The Department of Homeland Security (DHS) completed risk-based 
implementation plans for each of the 20 consensus Surface 
Transportation Security Priority Assessment recommendations, addressing 
the potential risks to the surface transportation system and its four 
subsectors (mass transit and passenger rail, highways and motor 
carriers, freight rail, and pipelines). These plans focus on policy and 
process improvements in the general areas of information sharing, 
Federal agency coordination and grant programs. The timelines to 
implement the recommendations vary in length; 10 recommendations have 
been fully implemented and others are scheduled to extend into fiscal 
year 2014. DHS and its security partners are implementing these 
recommendations within current staffing and budget constraints and 
require no additional resources.
    In fiscal year 2010, TSA received 15 new surface Visible Intermodal 
Prevention and Response (VIPR) teams and the fiscal year 2012 
President's request seeks 12 additional multi-modal teams. TSA also has 
established a liaison position between the VIPR group and the mass 
transit and passenger rail policy and stakeholder outreach group to 
ensure a closer working relationship and enhanced TSA VIPR team 
activity in the mass transit and passenger rail environment. This 
position serves as the TSA Point of Contact for transit-related VIPR 
issues, and facilitates collaboration with transit security partners to 
develop risk-based deployment options and determine the VIPR team 
configurations that will best augment transit security. Also, the 
partnership between the research and development group and the mass 
transit and passenger rail policy and stakeholder outreach group has 
been strengthened through more frequent meetings and status briefs to 
ensure new developments in technology are not delayed in reaching the 
prototype stage and field tested at volunteer transit agencies.

                              GENERAL TSA

    Question 8. Who is responsible for airport terminal and perimeter 
security--TSA or the airport authority? How is this relationship 
coordinated, and is this issue--coordination between airport operators 
and TSA on incident response and any other security matters--something 
that should be addressed in the authorization bill?
    Question 9. In your testimony you mention the administration's 
support for increasing the $2.50 passenger ticket security fee. What 
operational expenses does this fee cover? What is the budget breakdown 
between revenue generated from the fee and direct appropriations 
received from Congress?
    Question 10. In the wake of the Moscow Airport attack earlier this 
year, what steps has TSA taken to improve terminal airport security at 
U.S. airports which generally have a similar configuration? Are 
statutory guidelines needed to establish baseline standards for 
perimeter and terminal security?
    Answer. Under the Aviation and Transportation Security Act (ATSA) 
(Pub. L. 107-71), the Transportation Security Administration (TSA) 
carries out its responsibility for the screening and inspection of 
individuals, goods, property, vehicles, and other equipment before 
entry into a secured area of an airport to ensure effective levels of 
security at perimeter access to U.S. airports. TSA requires that each 
airport operator regulated under 49 CFR Part 1542 carry out a TSA-
approved Airport Security Program (ASP) that prevents the unauthorized 
entry, presence, and movement of individuals and ground vehicles into 
and within the secured area and airport operations area. Airport 
operators must also have incident management procedures. Functional 
measures include ensuring that only those individuals authorized to 
have unescorted access to the security identification display area 
(SIDA) are able to gain entry; ensure that an individual is immediately 
denied entry to a SIDA when that person's access authority for that 
area is withdrawn and provide a means to differentiate between 
individuals authorized to have access to an entire SIDA and individuals 
authorized access to only a particular portion of a SIDA. TSA also 
approves amendments to an airport's ASP to ensure that alternative 
security measures still provide an overall level of security equal to 
or greater than that which would be provided by the measures within the 
regulation or applicable security directives.
    Consistent with ATSA, the Transportation Security Administration 
September 11 Security Fee is intended to cover the costs for the 
following aviation security services:
    A. Salary, benefits, overtime, retirement and other costs of 
        screening personnel, their supervisors and managers, and 
        Federal law enforcement personnel deployed at airport security 
        screening locations under 49 CFR Part 44901.
    B. Training personnel described in (A), and the acquisition, 
        operation, and maintenance of equipment used by such personnel.
    C. Performing background investigations of personnel described in 
        (A), (D), (F), and (G).
    D. Federal Air Marshals program.
    E. Performing civil aviation security research and development 
        under this title.
    F. Federal Security Managers under 49 CFR Part 44903.
    G. Deploying Federal law enforcement personnel pursuant to 49 CFR 
        Part 44903(h).
    H. Security-related capital improvements at airports.
    I. Training pilots and flight attendants under 49 CFR Part 44918 
        and 49 CFR Part 44921.
    In fiscal year 2010, Congress appropriated $7.358 billion to TSA 
(Pub. L. 111-83), of which $2.1 billion is eligible to be offset by the 
Aviation Security Fee. During fiscal year 2010, TSA generated $2.10 
billion in Aviation Security Fee revenue, of which the passenger 
security fee accounted for $1.81 billion.
    In light of the January 24, 2011 attack on Moscow's Domodedovo 
Airport, TSA has increased security of the public areas of airports by 
conducting both visible and covert operations. TSA has also developed 
the Tactical Response Plan (TRP), which details the actions necessary 
at the field level to support the overall TSA operational response to 
various scenarios, including an improvised explosive device (IED) 
attack. Under the TRP, each TSA Federal Security Director and Federal 
Air Marshal (FAM) Supervisory Air Marshal in Charge (SAC) is required 
to formulate an Active Shooter Mitigation Plan. This plan describes 
mechanisms to provide training to employees on how to report 
emergencies, evacuation procedures, emergency alert systems, and how to 
coordinate with local law enforcement in the event of an active shooter 
emergency. All of these measures augment the existing unpredictable 
security measures already in place at airports.
    Question 11. In terms of enhanced pat-down screening, do you still 
stand by previous statements by TSA that only about 2% of the traveling 
public is subject to this procedure? Where are you in determining 
special protocols for children, the elderly, and people with 
disabilities?
    Question 12a. There appear to be more operations between TSA and 
transit agencies in conducting exercises and testing technology.
    Please expound on what efforts TSA is undertaking with respect to 
securing mass transit.
    Question 12b. What has changed in TSA's approach to surface 
transportation security following the discovery that al-Qaeda has 
allegedly considered U.S. rail targets?
    Question 13. Please describe TSA's efforts to secure pipelines in 
the United States. Does TSA need statutory authority to further secure 
the Nation's pipelines?
    Answer. Recent data shows that approximately 2.5% of the traveling 
public is subjected to the Standard Pat Down and .05% of the traveling 
public is subjected to the Resolution Pat Down during the airport 
screening process. The Transportation Security Administration (TSA) has 
developed a conceptual risk-based screening process that includes 
testing new procedures that may reduce the pat-down rate on children.
    Since 2004, TSA has maintained an active, on-going technical and 
operational assessment and field piloting program of technologies to 
enhance passenger rail security. TSA has evaluated a range of 
potentially effective technologies, including those to detect Person 
Borne Improvised Explosive Devices (PBIED) and Vehicle Borne Improvised 
Explosive Devices (VBIED), and those used for infrastructure 
protection. Trace portal technology, and other ``checkpoint style'' 
screening technologies were extensively evaluated in 2004 and 2005 by 
both TSA and the Department of Homeland Security (DHS) Science & 
Technology (S&T) Directorate. However, resulting assessments determined 
that ``checkpoint style'' screening is unsuitable for mass transit 
rail, or any other high passenger volume mass transit applications.
    TSA maintains an on-going program of technical and operational 
evaluations of commercial-off-the-shelf or non-development item 
standoff detection technologies. PBIED-related technologies have 
included millimeter wave, terahertz, and infrared-based systems. VBIED-
related technologies have included backscatter portals and vans and 
high-power X-rays.
    Examples of on-going projects include the Resilient Tunnel Project 
(RTP) and the Under Vehicle Screening System (UVSS). Through the RTP, 
TSA, in partnership with DHS S&T, is working to create a low-cost 
solution to limit the flow of water in the event an underwater tunnel 
is compromised. DHS S&T has assumed funding responsibilities for the 
RTP. Other partners include the Pacific Northwest National Laboratory, 
ILC Dover, the Port Authority of New York and New Jersey, and West 
Virginia University.
    UVSS is testing the feasibility and suitability of an under-vehicle 
surveillance system in the railroad environment. Phase 1 of this 
project, in partnership with the Port Authority of New York and New 
Jersey, has been completed, and TSA concluded the technology performed 
required. Phase 2 of the project, scheduled for July 2011, will test 
the ability to remotely send images of the undercarriage of a rail car 
to the Port Authority Trans-Hudson operations center to identify any 
anomalies. This test is estimated to last approximately 3 weeks.
    In light of intelligence that al-Qaeda had plans to attack trains 
or railroad infrastructure, TSA took several actions. In the freight 
rail mode, TSA immediately communicated with the freight railroad 
industry and advised them to continue a state of vigilance and 
awareness. The effectiveness of this vigilance was demonstrated by the 
increase in reporting of suspicious incidents detected throughout the 
railroad industry.
    TSA plans to continue conducting assessments of railroad 
infrastructure, bridges, and tunnels to assist the railroads with 
identifying potential vulnerabilities and options to mitigate those 
vulnerabilities. TSA's Office of Security Technology in coordination 
with DHS's Office of Science and Technology is also assisting with 
research and development of innovative technologies that can be used in 
the freight rail environment for intrusion detection and early warning 
of tampering or disruption of railroad infrastructure.
    In the mass transit and passenger rail mode, TSA encouraged the 
transit and passenger rail agencies to increase the frequency and 
number of Regional Alliance Including Local, State, and Federal Effort 
(RAILSAFE) operations. TSA encourages continual RAILSAFE operations on 
a random basis to practice preparing for different types of security 
threats. Additionally, TSA will continue issuing Security Awareness 
messages and conducting Operational Deterrence Programs that include 
training, public awareness, K-9 units, and Visible Intermodal 
Prevention and Response Teams. The focus of issuing Security Awareness 
messages and conducting Operational Deterrence Programs will shift from 
extended periods of time to shorter periods, such as months or weeks. 
TSA is also focusing on the protection of a mass transit and passenger 
rail right-of-ways through the development of new technologies. In 
conjunction with the Transit Policing and Security Peer Advisory Group, 
TSA has developed recommendations for new protective measures based on 
most likely threat scenarios that could be implemented as needed.
    Utilizing the best available information, TSA will continue to 
provide guidance to freight rail, mass transit, and passenger rail on 
possible threats and provide support in developing realistic and 
implementable measures to reduce vulnerabilities and increase the 
likelihood of detection of terrorist acts.
    TSA's Pipeline Security Division has issued guidance and 
implemented risk-based programs to enhance the security preparedness of 
the Nation's pipelines. TSA has identified the pipeline systems of 
highest consequence based on the amount of energy transported and 
evaluated each operator's security program implementation. 
Additionally, TSA has assessed the level of physical security at 
critical pipeline facilities. In each case, where appropriate, TSA 
provided recommendations for security improvements. Further, TSA has 
established an effective communications network with the pipeline 
industry to insure security information is promptly and efficiently 
provided to stakeholders.
    Under the Aviation and Transportation Security Act (Pub. L. 107-71 
[November 19, 2001]), and delegated authority from the Secretary of 
Homeland Security, TSA has broad responsibility and authority for 
``security in all modes of transportation including security 
responsibilities over modes of transportation that are exercised by the 
Department of Transportation.'' We continue to consider whether 
additional authority is needed with respect to securing our Nation's 
pipeline infrastructure.

                             TSO WORKFORCE

    Question 14. There was a GAO report last year that questioned TSA's 
management of its training program, citing problems with TSO access to 
computers, as well as TSOs not having the time to conduct training, 
among other issues. Is TSA addressing the problems identified in its 
training program? What type of authorization language would help 
improve TSA's training program?
    Question 15. Has TSA updated its training program to include new 
technologies and procedures, including Advanced Imaging Technology 
operation and enhanced pat-down screening? Can you assure us that all 
TSOs are trained on the actual machines they operate?
    Question 16. One of my chief concerns has become the need for 
immediate remedial training when TSO's fail covert tests. It is my 
understanding that although failures of tests are communicated to 
Supervisors at checkpoints, information and remedial training does not 
flow down to the TSO who may have failed the covert test. What steps do 
you plan to take to ensure that a regimented remedial training program 
is implemented to ensure that TSOs who fail covert tests are briefed on 
failure and immediate action is taken to ensure the possibility of 
human error is mitigated?
    Answer. Although we are not aware of a Government Accountability 
Office (GAO) report which specifically addressed training issues at the 
Transportation Security Administration (TSA), on October 26, 2010, the 
Department of Homeland Security (DHS) Office of Inspector General (OIG) 
released report OIG-11, an audit, of TSA's management of its screening 
workforce training program. DHS OIG published four recommendations 
associated with that audit. The recommendations and the action TSA has 
taken to address them are as follows:
  <bullet> OIG Recommendation.--Documenting processes that are used to 
        determine when and what updates should be made to training 
        materials. TSA Action.--TSA is conducting an in-depth training 
        task analysis to be completed in fiscal year 2012 to support a 
        comprehensive review of officer new hire and recurrent 
        training. TSA is also documenting the process it uses to update 
        training materials based on a review of internal and external 
        covert testing results, annual officer certification testing 
        results, intelligence information, as well as updates to 
        operating procedures and deployment of new/upgraded 
        technologies.
  <bullet> OIG Recommendation.--Documenting program efforts underway to 
        formalize an on-the-job instructor training program. TSA 
        Action.--Development efforts were underway at the time of the 
        OIG audit, and in June 2011, TSA conducted an operational pilot 
        to determine what efficiencies and improvements in officer 
        effectiveness could be realized with adoption of the program. 
        The review of how this approach may better prepare new officers 
        for their assignments continues, and once completed, a decision 
        will be made on whether a National rollout will begin and 
        whether modifications are necessary before that rollout occurs.
  <bullet> OIG Recommendation.--Documenting a review of training 
        computer allocations. TSA Action.--The review is underway, and 
        TSA is taking into account the amount of training that requires 
        computer access, the number of officers at each airport, and 
        the space at airports for setting up computer training rooms.
  <bullet> OIG Recommendation.--Completing a study to determine how to 
        ensure airports provide sufficient time to TSOs to attend and 
        complete scheduled training. TSA Action.--TSA is reviewing how 
        it might be able to adopt a customized staffing allocation 
        model that can be used to assess the needs of each airport to 
        account for those locations where travel to and from training 
        locations are required because of off-airport training space, 
        and where airports have a larger inventory of technologies in 
        use and therefore require more time for training on each 
        specific type of equipment.
    At this time, TSA does not believe legislation is required to 
implement any of the recommendations made by DHS OIG.
    TSA continually updates its training programs to include new 
technologies and procedures, including operation of Advanced Imaging 
Technology and the current pat-down screening process. TSA documents 
all technical training completed by its officers, and each officer is 
trained on each type of screening technology that they are assigned to 
operate. Training is coordinated to ensure officers are trained on 
machines manufactured by the specific manufacturers of the equipment 
used at their assigned airports.
    Remedial training for Transportation Security Officers (TSOs) who 
fail covert tests remains a requirement throughout TSA. Upon such a 
failure, the TSO is immediately removed from performing the failed 
security function and may not return to duty to perform that function 
until he/she has received the necessary remedial training and the 
training has been documented.

                             TSA OMBUDSMAN

    Question 17a. We have been told that the TSA Ombudsman lacks the 
independence and authority to get personnel issues resolved. As a 
result, employees often avoid the Ombudsman and withhold their 
complaints for fear of retaliation.
    To give this office the independence and weight it needs to resolve 
personnel problems, do you agree that the Ombudsman should have its own 
office in TSA that reports directly to the Administrator?
    Question 17b. Would you support a provision like this in the 
authorization bill?
    Question 18. What will the TSA Ombudsman's role be under the new 
collective bargaining framework?
    Answer. The Transportation Security Administration (TSA) Ombudsman 
reports to the Administrator through the Office of Special Counselor 
(OSC), headed by the Special Counselor. In accordance with the 
Transportation Security Administration's (TSA) Management Directive 
100.0.1, OSC Roles and Responsibilities, one of the responsibilities of 
the Special Counselor is serving as the principal advisor to the TSA 
Assistant Secretary and senior leadership on significant issues and 
concerns brought to the attention of the TSA Ombudsman from employees, 
stakeholders, and the public, and through proactive engagement. OSC 
also oversees the Office of Civil Rights and Liberties (OCRL), giving 
the Special Counselor a unique, expansive view of the TSA workplace 
through the informal and formal issue resolution lenses provided by the 
TSA Ombudsman and the OCRL.
    The details of the collective bargaining framework are still being 
developed. In the TSA Administrator's February, 2011 determination 
regarding Transportation Security Officers and Collective Bargaining, 
it concluded TSA would develop a unitary dispute resolution system that 
included both interest-based and neutral, third-party rights-based 
options, and envisioned that such a system would permit the existence 
of a confidential, neutral, informal issue resolution resource such as 
the TSA Ombudsman. In that framework, the TSA Ombudsman will continue 
to perform its role of providing confidential, neutral, informal 
workplace problem resolution assistance to all TSA employees.

                           TSA AND TECHNOLOGY

    Question 19. Administrator Pistole, many of the existing explosive 
detection system (EDS) machines are reaching the end of their useful 
life. As one of the first new aviation security technologies deployed 
after September 11, 2001 many of the EDS machines have been in constant 
service for nearly 10 years. Will you please provide a detailed plan 
for the acquisition of new machines to replace the aging EDS machines 
now in place?
    Question 20a. I am increasingly concerned that TSA is taking a 
stagnant approach to the utilization of innovative technologies in its 
efforts to achieve 100% screening of air cargo on passenger planes. I 
have heard from some companies that TSA is overly-reliant on incumbent 
companies and not testing and approving innovative technologies from 
other companies that might help us better secure air cargo.
    What efforts is TSA taking to ensure that emerging technologies, 
especially from small businesses, are being approved and used?
    Question 20b. When will it next review potential air cargo 
screening technologies?
    Question 20c. Will you consider entering into more pilot programs 
with innovative non-incumbent companies to test security technologies 
in an operational setting?
    Question 21. CQ noted that TSA is lagging in its efforts to utilize 
non-contact trace detection for explosives in cargo pallets. The 
article discussed some efforts undertaken by the Science & Technology 
Directorate on this front but did not mention whether TSA has actively 
engaged with companies already operating in this space to come up with 
standards and requirements for non-contact trace detection. How is TSA 
preparing to engage in the efforts underway at S&T?
    Answer. While continuing to ensure 100% checked baggage screening, 
the Transportation Security Administration (TSA) will be shifting its 
focus from completion of optimal airport systems to the replacement of 
an aging Explosives Detection Systems (EDS) fleet of equipment. EDS 
equipment is estimated to have a useful life of 10 years and it is 
projected that approximately half of the EDS fleet will have reached 
the end of its useful life by 2013, with up to two-thirds of the fleet 
requiring replacement within 5 years. TSA is currently working to 
finalize a Recapitalization and Optimization strategic plan, which will 
prioritize airports based upon a combination of age and maintenance 
data. To support this effort, TSA has requested an update to the 
authorization language regarding the Aviation Security Capital Fund to 
authorize the purchase and installation of EDS equipment.
    TSA and the Department of Homeland Security's Science and 
Technology Directorate (DHS S&T) continuously explore both the 
commercial marketplace and technology development arenas to find 
innovative technologies that might assist in better screening of air 
cargo. In addition, TSA maintains means to quickly assess promising, 
technically mature innovations.
    TSA and DHS S&T also have several means in place for small 
businesses to propose emerging technologies. TSA maintains a Broad 
Agency Announcement (BAA) encouraging submission of new technologies, 
while also maintaining an on-going BAA specifically for air cargo 
technology qualification. In accordance with the existing TSA air cargo 
BAA, TSA intends to offer at least one qualification opportunity for 
products in each of the major technological groups during fiscal year 
2011 and fiscal year 2012. Through this process, businesses of all 
sizes have equal opportunities for qualification, including several 
small technology vendors whose products have been approved.
    During fiscal year 2011 and fiscal year 2012, TSA intends to offer 
at least one qualification opportunity for products in each of the 
major technological groups. Solicitations for explosives trace 
detection and X-ray technologies were recently conducted. TSA and DHS 
S&T have several means in place for businesses to propose emerging 
technologies which provides for review of inputs by technical experts. 
If a proposal is deemed to have potential for being effective and 
suitable enough to meet requirements for use in the field, TSA 
considers the best means of further evaluation. There is full and 
continuous collaboration between TSA and DHS S&T on all air cargo 
technology initiatives. It should be noted that threat 
characterizations and resulting standards and requirements are based on 
the actual threats, not technology modes. TSA explores effectiveness of 
all technology modes and qualifies those that are proven to be 
successful in detecting threats.

                                  TWIC

    Question 22. Over the last several years, this committee has spent 
significant amounts of time conducting oversight of TSA identity 
management and security program--the Transportation Worker Identity 
Credential. As we all know, this program has had significant challenges 
over its short life--the latest of which is TSA's inability to conclude 
the TWIC reader pilot program and deliver the Congressionally-mandated 
pilot report. TSA's delays have caused Coast Guard to delay issuance of 
the final TWIC reader rule. So, we have these very expensive biometric 
identity cards, which are used as simple flash passes--and clearly, 
this isn't the intent of the program.
    My question is this--when will TSA provide TWIC reader pilot 
program results to Members of Congress so that readers can be deployed 
at our Nation's ports, and when will we see the benefits of this 
program?
    Answer. The Transportation Worker Identification Credential (TWIC) 
reader pilot concluded on May 31, 2011. A draft of the TWIC Reader 
Pilot final report is currently under Department review. The Coast 
Guard intends to publish the Notice of Proposed Rulemaking (NPRM) after 
the Advanced Notice of Proposed Rulemaking (ANPRM) public comments are 
analyzed and results from the TWIC pilot program are available. The 
Coast Guard plans to have a full 90-day comment period for the NPRM and 
have public meetings at various locations across the country. As the 
Coast Guard evaluates the economic and operational impact on the 
maritime industry, they will continue to seek input and recommendations 
to develop and propose regulations requiring industry compliance.
    Initial delays in the pilot program were encountered as the 
Transportation Security Administration (TSA) led a joint effort by 
several Federal agencies, card and reader industry experts, and 
maritime stakeholders to develop a specification enabling readers to 
conduct a biometric match under the harsh conditions found at maritime 
facilities. Later the field phase of the pilot was delayed due to the 
voluntary nature of participation in the pilot. This limited the 
Government's ability to influence the pace at which participants 
completed site plans, obtained authorizations to expend pilot funds 
from the Federal Emergency Management Agency (FEMA), and award reader 
installation contracts. Pilot participants also encountered delays due 
to technical system installation or parts availability issues. Finally, 
the recent economic climate and competitive concerns created 
significant delays in commencing the pilot at a number of the larger 
pilot participant facilities. Work force reductions and layoffs caused 
some facility operators to postpone their participation until shipping 
volumes increased following the economic downturn. Competitive concerns 
with non-pilot facilities caused reluctance among some pilot 
participants to disturb their operations to the extent needed to 
register the TWICs of thousands of workers and truckers into their 
access control systems. All of these challenges have now been overcome, 
all data has been acquired and analyzed, and a final draft of the pilot 
report completed.
    Today, even before the Coast Guard finishes its rulemaking, there 
are already benefits to the TWIC program, and ports are more secure. 
Many facilities have already started using readers either installed 
during the pilot or acquired independently to ensure workers have valid 
TWICs. Some facilities are fully using the card's capabilities by using 
biometric matching to verify identity; the facilities choosing to use 
readers are doing so voluntarily in advance of the reader rule. Some 
facilities have confirmed cost savings afforded by avoiding the cost of 
providing facility badges and automating access control. The security 
director at a major petroleum refinery in Louisiana reported savings of 
$700,000 per year due to TWIC. The savings result from eliminating 
costly employee background checks, using TWICs to replace facility 
badges, and automation of the access process. The Coast Guard also uses 
more than 200 portable readers to check TWICs during routine facility 
inspections.
    TWIC has already standardized the security threat assessment (STA) 
conducted on workers, and providing one standardized biometric 
credential, removing the need to have security personnel discern the 
authenticity of multiple identity documents. Prior to the 
implementation of TWIC, the identity document requirements for access 
to secure areas of ports and vessels were dependent on each facility's 
Facility Security Plan. Facilities often accepted a number of documents 
such as a driver's license, passport, State ID, port/facility specific 
security card, or a Merchant Mariner's Document (also known as a ``Z-
card'' and now known as the Merchant Mariner Credential or ``MMC''). 
Without uniform credential issuance processes, most facilities were 
unable to positively authenticate the identity of an individual or 
determine the authenticity of the identity documents presented. There 
also were no universal methods for determining if a once-valid 
credential holder were no longer eligible for access privileges, or to 
effectively revoke an individual's access permissions or credentials.
    Truckers have specifically benefited from the TWIC as the one 
common credential needed for access to regulated facilities. Prior to 
TWIC some truckers had to obtain, and often pay for, background checks 
and badges for multiple ports and facilities.

                   ADVANCED IMAGING TECHNOLOGY (AIT)

    Question 23a. There are several legislative measures that have been 
introduced concerning AIT.
    What is your position on prohibiting AIT use until the National 
Academy of Science has conducted a study of AIT safety as related to 
radiation exposure?
    Question 23b. What is your position on limiting AIT use until the 
Automated Targeting Recognition (stick figure) software is in place?
    Question 24. To what extent would AIT have detected the hidden 
explosives used in the Christmas day attempted bombing of Flight 253?
    Question 25. To what extent has TSA surveyed passengers' 
willingness to be screened by AIT and addressed public concerns related 
to privacy and health risks? TSOs?
    Question 26a. Since TSA is now planning to deploy about 10 new 
technologies to passenger checkpoints, how will it ensure that these 
different technologies are successfully integrated?
    Has TSA updated its passenger checkpoint program strategy to 
reflect the increased use of AIT?
    Question 27. Could you provide the committee with a copy of the 
updated AIT deployment strategy?
    Answer. The Transportation Security Administration (TSA) 
commissioned the U.S. Army Health Public Command to perform radiation 
safety surveys of currently deployed general-use backscatter X-ray 
Advanced Imaging Technology (AIT) systems and a radiation dosimetry 
study to exam the radiation doses to individuals undergoing screening 
and to system operators. The surveys and study validated that doses to 
individuals undergoing screening are well below the radiation dose 
limits of the American National Standards Institute/Health Physics 
Society (ANSI/HPS) N43.17-2009. Radiation Safety for Personnel Security 
Screening Systems Using X-Ray or Gamma Radiation, a standard that 
applies to systems used to expose people to X-rays for the purpose of 
security screening. Potential doses to AIT operators were found to be 
extremely small. At the maximum possible throughput, the doses to 
operators are still below the public dose limits. The American National 
Standards Institute (ANSI)--Accredited Standards Committee N43, 
Equipment for Non-Medical Radiation Applications, administered by the 
Health Physics Society (HPS), published the current version of the 
American National consensus radiation safety standard for X-ray people 
screening products in 2009. ANSI/HPS N43.17-2009 Radiation Safety for 
Personnel Security Screening Systems Using X-Ray or Gamma Radiation 
sets limits on dose to an individual being screened; sets limits on 
dose to bystanders, operators, and other employees; requires a variety 
of safety features; and establishes operational requirements for 
organizations using these products. It was written, reviewed, and 
approved by a consensus group that included Government regulators, 
product manufacturers, and product users.
    AIT addresses the significant security threat posed by non-metallic 
explosives. Automated Target Recognition (ATR) is an important 
improvement that addresses privacy concerns among some members of the 
public. TSA is confident in the privacy protections offered by its 
existing operational protocols and does not support limiting AIT use 
during the transition to ATR-equipped AIT. TSA is preparing for 
deployment of ATR software to all millimeter wave AIT units. The AIT 
backscatter technology units do not yet have an approved ATR software 
update.
    AIT units address screening for small threat items and non-metallic 
explosive devices and allow Transportation Security Officers to screen 
passengers safely and effectively for both metallic and non-metallic 
threats, including weapons and explosives. After analyzing the latest 
intelligence and studying available technologies and other processes, 
TSA determined that AIT is the most effective method to detect threat 
items concealed on passengers, such as the non-metallic explosives used 
by Umar Farouk Abdulmutallab in the Christmas day attempted bombing of 
Flight 253.
    Since TSA began piloting its use of AIT units in 2007, TSA has been 
forthcoming with the traveling public about the technology, including 
the strong privacy protections in place. To that end, TSA has conducted 
dozens of press conferences in various locations reaching thousands of 
passengers to inform the traveling public about the importance of the 
technology and to advise them that the technology is an optional 
screening method. In addition, multiple signs informing passengers 
about the technology, including sample images, are provided in plain 
sight at airport security checkpoints, in front of the machine, and on 
the machine itself.
    TSA seeks input from the traveling public in a variety of ways via 
a contact center, feedback at airports and through the TSA website. 
Polling by CBS, Gallup, Trip Advisor, Travel Leader, and the Wall 
Street Journal demonstrate strong public support and understanding for 
the need for the technology:

CBS poll: 81% of passengers support the use of imaging technology.
Gallup poll: 78% of air travelers approve of U.S. airports' using 
advanced imaging technology on airline passengers.
Wall Street Journal poll: 73.9% of travelers said they would be willing 
to undergo a body scan before getting on a plane.

    TSA also had extensive internal communications regarding AIT 
technology:

  <bullet> Developed and launched an intranet (iShare) page dedicated 
        to AIT and AIT safety.
  <bullet> Used ad space (``Flashbox'' images) on the intranet homepage 
        to highlight updates made to the AIT page.
  <bullet> Posted content to the Employee Communications Committee 
        (ECC) intranet (iShare) site--a site with 300 members across 
        the country including customer service managers, stakeholder 
        managers, AFSDs, and others--for local distribution of HQ-
        produced AIT-safety products.
  <bullet> Collaborated with the Office of Security Operations (OSO) 
        Communications (Comms) team to push content through OSO 
        channels directly to the coordination centers, Federal Security 
        Directors (FSDs), and others at the airports.
  <bullet> Developed, posted, and/or published the following products 
        about AIT and AIT safety:
    <bullet> Wrote and posted AIT Facts You Can Use--concise list of 
            bullets with the most pertinent AIT facts, including facts 
            about safety (distributed through iShare, OSO Comms, ECC).
    <bullet> Wrote and published multiple internal stories about AIT 
            safety on the agency-wide news blog housed on the intranet 
            (iShare).
    <bullet> Linked to AIT-safety reports (linked from AIT iShare 
            page).
    <bullet> Linked to news reports about AIT safety (linked from AIT 
            iShare page).
    <bullet> Posted multiple videos about AIT and AIT safety.
    <bullet> Produced AIT and AIT safety content for the National shift 
            brief (distributed through OSO Comms).
    <bullet> Wrote FSD talkers--talking points that FSDs could use when 
            talking to stakeholders and staff (distributed through OSO 
            Comms).
    The TSA Office of Occupational Safety, Health, and Environment 
prepared and published a Radiation Safety monthly briefing package that 
included AIT safety. Safety Week 2011 included the topic ``Radiation 
Safety at TSA'' and presented AIT safety. Certified Health Physicists 
from the U.S. Army Public Health Command continue to perform 
independent radiation safety surveys of general-use backscatter X-ray 
AITs. Part of the survey process includes question-and-answer sessions 
with employees who operate and work near the systems.
    TSA employs an agency-wide data management system called the 
Security Technology Integrated Program (STIP) to ensure that equipment 
is successfully integrated. STIP provides a centralized focal point 
connecting passenger and baggage screening security technologies to one 
network, addressing current data, threat response and equipment 
challenges. The goal of STIP is to remotely manage Transportation 
Security Equipment (TSE) threat detection capabilities, which enhances 
TSA's ability to respond to new and emerging threats. STIP will also 
enable TSA to remotely monitor, diagnose, troubleshoot, and manage 
TSEs, allowing TSA to address equipment issues and reduce the need for 
on-site visits.
    The TSA has incorporated AIT equipment and its increased usage into 
the passenger checkpoint program strategy. This strategy is in the 
final review/approval phase.
    The AIT deployment strategy is sensitive security information 
(SSI). TSA is willing to separately provide a SSI briefing and a copy 
of the document to the committee.

                               AIR CARGO

    Question 27. In your opinion, is industry experiencing any supply 
dislocations due to the 100% screening mandate for cargo on passenger 
aircraft?
    Question 28. How are you ensuring or verifying that the private 
sector is properly screening the cargo within its jurisdiction?
    Question 29. Simply put, what are the biggest challenges to 
implementing 100% screening of inbound cargo and how can TSA expedite 
reaching 100% screening for international inbound cargo on passenger 
aircraft?
    Question 30a. Foreign air carriers have said that they can be 
helpful in working with their own governments on harmonization efforts 
for cargo screening.
    Does TSA plan to work with foreign carriers to help establish 
reciprocal cargo screening agreements?
    Question 30b. Does TSA need statutory authority for this?
    Answer. There has been no reported disruption to the air cargo 
supply chain as a result of the 100% screening mandate implemented on 
August 1, 2010, for cargo transported on passenger aircraft originating 
from domestic airports. The Transportation Security Administration's 
(TSA) comprehensive air cargo screening strategy has successfully 
distributed the burden of screening cargo across the supply chain; most 
effectively through the implementation of the TSA Certified Cargo 
Screening Program (CCSP). Under the CCSP, TSA certifies cargo screening 
facilities located throughout the United States to screen cargo prior 
to providing it to airlines for shipment on passenger flights. 
Participation in the program is voluntary and designed to enable 
vetted, validated, and certified supply chain facilities to comply with 
the 100 percent screening requirement. CCSP is a practical, supply 
chain solution, which provides security while ensuring the flow of 
commerce. Cargo is screened at the most efficient and effective point. 
It is done before individual pieces of cargo are consolidated for 
shipment. Up to and concurrent with the release of the 100% screening 
deadline, Certified Cargo Screening Facilities (CCSF) have emerged 
proportionately in geographic regions in response to demand in major 
air cargo gateways; thus avoiding any potential supply dislocations. 
The program allows for the use of multiple screening methodologies and 
has been adapted as necessary to fit each individual situation rather 
than restricting entities to a single universal solution. Because no 
single technology is appropriate for every screening scenario, TSA has 
approved a suite of technologies and associated screening protocols 
from which screening entities may choose on the basis of their unique 
requirements and commodities. This current suite of technologies 
include various X-ray systems, explosive trace detection (ETD) 
technology, explosive detection (EDS) systems, and electronic metal 
detection (EMD) systems, as well as physical screening. TSA continues 
to identify and evaluate various technologies that can efficiently and 
effectively screen different types of commodities and configurations. 
The percentage of cargo screened by CCSP participants indicates that 
screening consistently occurs throughout the air cargo supply chain 
without undue burden on any one entity (CCSFs account for approximately 
50% of total screening).
    TSA is actively conducting inspections and testing screening 
protocols to ensure that CCSFs and aircraft operators are properly 
screening 100% of cargo transported on passenger aircraft. These 
inspections are carried out on a continuous basis.
    TSA has established close links with the foreign air carrier 
community through on-going direct communications via TSA's 
International Industry Representatives (IIR). IIRs serve as liaisons 
between TSA and foreign air carriers. TSA also interfaces with the 
foreign air carrier community through various air carrier associations 
and related forums.
    TSA understands that foreign air carriers play a key role in 
advocating harmonization of air cargo security requirements between 
countries. However, TSA believes that global harmonization of cargo 
security requirements, where and when appropriate, should be handled 
through government-to-government channels as well as through relevant 
regional and international organizations, that are responsible for 
international civil aviation security and that establish the regulatory 
requirements for air cargo security. Specifically, TSA is currently 
engaged with a number of countries seeking recognition of National 
Cargo Security Programs whereby TSA recognizes a foreign government's 
cargo security programs. To effectuate bilateral and multilateral 
partnerships and related initiatives in the air cargo security realm, 
TSA uses already established means of communication, such as its 
network of Transportation Security Administration Representatives 
(TSARs) located in key locations throughout the world and through 
participation in regional and international working groups and related 
forums. Working through the TSARs, TSA has established close working 
relationships with foreign government and other international partners, 
through which we can jointly work on these critical security issues.
    In addition to direct relations with foreign air carriers through 
the IIRs, TSA will continue to leverage established relationships with 
foreign air carrier associations and forums (for example: the 
International Air Transport Association, the Air Transport Association, 
and the Association of European Airlines, and the Association of Asia 
Pacific Airlines) to advocate harmonization of cargo security 
requirements on a global scale, as appropriate.
    TSA does not believe that statutory authority is needed at this 
time.

                           STAKEHOLDER INPUT

    Question 31. It has been brought to my attention that the charter 
of the Aviation Security Advisory Committee (also known as ASAC) has 
apparently lapsed (again) in April 2010. One of the primary functions 
of the advisory committee was to facilitate stakeholder input across 
TSA security policies. What is TSA doing to ensure consultation with 
stakeholders on security policies, and will the ASAC be re-chartered 
this year?
    Answer. During review of the Department's advisory committees to 
ensure they are effectively used and an efficient expenditure of 
resources by the participants, charter renewal actions were placed on 
hold and the Aviation Security Advisory Committee (ASAC) subsequently 
expired on April 3, 2010. A new ASAC Charter was approved in May 2011, 
and the Department of Homeland Security is now in the process of 
appointing members. The Transportation Security Administration (TSA) 
anticipates holding a committee meeting early this fall. TSA has always 
engaged stakeholders, and will continue to do so, through regular 
outreach and coordination including, but not limited to: Sharing best 
security practices, including stakeholders in security planning 
activities, participating in the Critical Infrastructure Partnership 
Advisory Council (CIPAC), web boards, conference calls, and email 
alerts.

                            REPAIR STATIONS

    Question 32. How will TSA assess air carrier security programs at 
foreign repair stations? What roles or responsibilities will be 
required of air carriers in terms of their own oversight of repair 
stations where they outsource repair and maintenance work?
    Question 33. What statutory authority does TSA need in terms of 
working with foreign governments to conduct security assessments at 
repair stations?
    Question 34. Will there be harmonization agreements with certain 
governments where TSA would allow a foreign government's security 
oversight program to satisfy TSA requirements?
    Question 35a. The Notice of Proposed Rulemaking for the aviation 
repair station security program lacked specificity on staffing 
requirements to effectively oversee the repair station security 
inspection program.
    Will TSA conduct a staffing study to determine requirements for 
effectively overseeing a repair station security program?
    Question 35b. Some stakeholders informed the committee that they 
have not been consulted on the repair station rulemaking in several 
years.
    Will TSA reach out to stakeholders for input on how to implement an 
effective repair station security program?
    Question 35c. How will TSA control the dissemination of sensitive 
security information in its oversight of repair stations, particularly 
those in foreign countries?
    Answer. The Vision 100--Century of Aviation Reauthorization Act, 
Pub. L. 108-176, codified at 49 U.S.C.  44924, authorizes TSA to 
develop and issue security regulations to improve the security of the 
Federal Aviation Administration (FAA) part 145 certificated repair 
stations located in and outside the United States. The Transportation 
Security Administration (TSA) has established procedures for conducting 
assessments outside the United States through its Foreign Airport and 
Foreign Air Carrier Assessment Programs and intends to use those same 
procedures when conducting inspections of FAA certificated repair 
stations located outside the United States. These established 
procedures require coordination with the U.S. Department of State and 
the appropriate foreign government authorities. TSA has discussed and 
will continue to discuss current and proposed security requirements 
with its international partners through existing bilateral and 
multilateral mechanisms in order to enhance the compatibility of 
security regulations and standards, including the possibility of 
developing protocols for reciprocity and mutual recognition of repair 
station security regulations.
    TSA has reviewed staffing requirements for the repair station 
security inspection program. TSA continues to evaluate the resource 
needs to implement, carry out, and enforce the proposed regulations. 
Any staffing and resource requests will be transmitted as part of the 
President's budget.
    Throughout the rulemaking process, TSA has engaged the Repair 
Station owners/operators and associations through meetings and site 
visits, both foreign and domestic. These visits provided valuable 
insight into the facilities and existing security procedures already in 
practice. The proposed regulations were published for public comment in 
the Federal Register and TSA received many comments from repair station 
owners and operators. TSA has conducted numerous meetings with 
representatives from major repair station associations, and 
representatives from active repair station owners/operators, wherein 
they were given the opportunity to review and provide feedback on the 
draft Aircraft Repair Station Security Program (ARSSP). Meetings were 
held in the United States; Portugal; Ireland; Singapore; Germany; and 
Switzerland. TSA is continuing these outreach effort, including a visit 
to Thailand on August 23, 2011.
    Additional reviews will be planned as necessary. After the rule is 
published, TSA will leverage headquarters and field inspector resources 
to conduct significant outreach to all affected repair station 
operators to ensure they understand, and are able to comply with, the 
new regulations.
    The only sensitive security information (SSI) that TSA will 
initially generate in support of this rule is the ARSSP. This document 
will only be provided to foreign and domestic repair stations that will 
be required to implement a security program. TSA will follow all 
appropriate markings, protections, and release protocols required by 49 
CFR Part 1520 for each release of the document.

                            GENERAL AVIATION

    Question 36. H.R. 2200, the TSA Authorization bill passed by the 
House last Congress established a grant program for general aviation 
airport operators for security improvements. Do you think this is 
something that is needed in the general aviation community?
    Question 37. What is the status of the final rulemaking for general 
aviation security programs and what can you tell us about how it will 
differ from the poorly received proposed rule issued in 2009?
    Question 38a. What steps, if any, has TSA taken to identify and 
prioritize the need for security enhancements at general aviation 
airports?
    Question 38b. What is the estimated cost of the improvements needed 
to comply with the proposed regulations?
    Answer. The Transportation Security Administration (TSA) will work 
with the Department of Homeland Security and the White House to assess 
the feasibility of developing a grant program.
    In 2008, TSA published the Large Aircraft Security Program Notice 
of Proposed Rulemaking (NPRM), proposing rules for U.S. air carriers 
and GA operators operating aircraft with a maximum takeoff weight of 
more than 12,500 pounds. In the NPRM, TSA noted the possibility that 
large turbine-powered GA airplanes are capable of causing significant 
damage if used in an attack. The 4-month comment period provided in the 
NPRM was extended another 60 days to obtain additional comment from the 
general aviation community. During the original formal comment period, 
TSA conducted five public meetings throughout the country to facilitate 
feedback by the general aviation community. The comments on the 
proposals in the NPRM were generally critical of the approach in the 
NPRM, and repeatedly noted that GA operations differ from air carrier 
operations. Unlike air carriers, GA operators do not offer 
transportation to the public for compensation or hire and, in general, 
TSA has not required GA aircraft operators to adopt security programs. 
The comments obtained pursuant to TSA's outreach provided additional 
detailed insight into GA operations and possible alternative security 
solutions for such operations from those proposed in the NPRM.
    Based on careful review of all comments, TSA is drafting a 
Supplemental Notice of Proposed Rulemaking (SNPRM) that will include 
proposals tailored to GA operations, while maintaining an effective 
level of security. The draft SNPRM is undergoing internal Government 
review and certain provisions could change as a result of that process. 
After that review is complete, the SNPRM will be published in the 
Federal Register for public comment.
    TSA has conducted an airport vulnerability survey to identify the 
overall security posture at certain GA airports across the United 
States. The survey was distributed to approximately 3,000 airports that 
met certain criteria that TSA, in collaboration with industry, 
identified as the airports that both groups are most concerned about. 
These were public-use airports with high numbers of GA operations; the 
ability to accommodate larger aircraft; and in close proximity to 
densely populated areas, highly used airspace, or in close proximity to 
sensitive areas or airspace. The results of the survey were analyzed to 
discover the general strengths and weaknesses at GA airports, as well 
as to identify and prioritize the security measures that airports might 
implement if funding were available.
    As part of the GA airport vulnerability assessment, certain 
security measures were identified with their associated costs. The 
security measures that would be appropriate to implement can vary 
widely depending on an airport's characteristics and what is already in 
place. Thus, many of the associated costs also vary widely depending on 
the size and characteristics of the airport at which they would be 
implemented. This wide variance in airport characteristics and levels 
of security prevent a more specific cost estimate. TSA's security focus 
regarding general aviation is centered around securing aircraft so they 
cannot be used to do harm and the agency is not currently proposing any 
regulations for GA airports.

                             SECURE FLIGHT

    Question 39a. We have been told that Secure Flight would generally 
fix the problem of innocent passengers being mistakenly matched to the 
No-Fly or Selectee lists, due to a similar name.
    Is this situation improving now that Secure Flight is fully 
operational?
    Question 39b. Are you keeping data on passengers requesting 
redress?
    Answer. Yes, Secure Flight has reduced the number of passengers 
mistakenly matched to the No Fly or Selectee Lists. TSA requires 
aircraft operators to collect each passenger's full name, date of 
birth, gender, and Redress Number if available. The use of this data in 
conducting watch list matching significantly decreases the likelihood 
of passenger misidentification. Additionally, in May 2009, GAO 
certified that the Secure Flight system generally met the condition 
that the system does not produce a large number of passengers being 
mistakenly matched to the watch list, as outlined in the 2005 
Department of Homeland Security (DHS) Act. The Secure Flight program 
continues to succeed in reducing instances of passenger 
misidentification.
    DHS Traveler Redress Inquiry Program (DHS TRIP) maintains travel 
data submitted by travelers through the redress inquiry process in 
accordance with the Privacy Impact Assessment for DHS TRIP. DHS TRIP 
has received approximately 135,286 redress requests from the public 
since its launch on February 20, 2007. The results of the redress 
process are directly integrated into Secure Flight through the Redress 
Number to prevent the reoccurrence of known passenger 
misidentifications.

                            IN-LINE BAGGAGE

    Question 40. Some airports have not been reimbursed for terminal 
modifications made to install checked baggage explosives detection 
systems because they made expenditures before a reimbursement program 
was established by TSA, and now these airports are at the bottom of the 
list for receiving reimbursement. H.R. 2200 directed TSA to establish a 
claims process for these airports. Please comment on this.
    Answer. To provide more effective security solutions, the 
Transportation Security Administration (TSA) takes a risk-based 
approach to investing in security programs at airports without 
optimized baggage screening systems. The Implementing Recommendations 
of the 9/11 Commission Act of 2007 (Pub. L. 110-53, Section 1406) 
requires TSA to establish a prioritization schedule for airport 
security projects based on risk. In addition, TSA focuses on compliance 
requirements--such as replacing equipment in the field that has reached 
the end of its life-cycle--to minimize operational impacts. Due to the 
number of airports that are awaiting the replacement of sub-optimal 
baggage screening systems, and other competing program priorities, TSA 
has been unable to address reimbursement requests. Any reimbursement of 
previous efforts outside a formal agreement comes at the cost of 
advancing current or future security measures.


    INDUSTRY PERSPECTIVES: AUTHORIZING THE TRANSPORTATION SECURITY 
             ADMINISTRATION FOR FISCAL YEARS 2012 AND 2013

                              ----------                              


                         Tuesday, July 12, 2011

             U.S. House of Representatives,
           Subcommittee on Transportation Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 3:08 p.m., in 
Room 311, Cannon House Office Building, Hon. Mike Rogers 
[Chairman of the subcommittee] presiding.
    Present: Representatives Rogers, Cravaack, Brooks, and 
Jackson Lee.
    Also present: Representative Clarke of Michigan.
    Mr. Rogers. The Committee on Homeland Security, 
Subcommittee of Transportation Security, will come to order.
    The committee is meeting today to hear different industry 
perspectives on authorizing the Transportation Security 
Administration for fiscal years 2012 and 2013.
    I would like to welcome everyone here to this hearing and 
thank all of our witnesses for their patience. I apologize for 
us being called for votes right when this hearing was supposed 
to start, but it is what it is. But we look forward to your 
testimony and greatly appreciate the time and effort you have 
put into your opening statements and preparing for this 
hearing. I know the Q&A is going to be very worthwhile.
    As many of you already know, this year the committee plans 
to develop a TSA authorization bill which is intended to 
enhance and streamline TSA's transportation security 
initiatives. A few weeks ago, Administrator Pistole testified 
in front of this subcommittee to discuss his priorities. The 
purpose of today's hearing is to hear different industry 
perspectives on the on-going challenges in securing 
transportation systems and what improvements could be made 
through the legislative process.
    TSA plays a critical role in keeping America's travellers 
safe. However, its success hinges on the cooperation and 
support of its public- and private-sector partners. We look 
forward to continuing this conversation and hearing from some 
of the diverse groups of public- and private-sector partners 
that TSA relies on to fulfill its mission of protecting our 
Nation's transportation systems.
    An example of the important collaboration between TSA and 
its partners has been the response to the foiled Yemen Air 
cargo attack. Since October, TSA has been working with private 
industry to develop and implement a short-term security 
directive to address certain vulnerabilities. While challenges 
remain, the open lines of communication between TSA and private 
industry is commendable and should be recognized as such.
    Today's hearing is an opportunity for some of TSA's 
partners, including the rail, trucking, mass transit, pipeline, 
and aviation sectors, to voice their insights as to how the TSA 
authorization bill can improve overall transportation security, 
enhance the effectiveness of TSA's transportation security 
initiatives, and address inefficiencies that still may exist. I 
look forward to an open dialogue that will allow those industry 
partners that interact with TSA on a daily basis the ability to 
inform this committee in its continued development of the TSA 
authorization bill.
    The committee considered a TSA authorization bill last 
Congress as well, H.R. 2200, under the Ranking Member Sheila 
Jackson Lee's leadership. I look forward to continuing to work 
with her on a bipartisan basis through this effort.
    With that, I now recognize the famous Ranking Member, 
Sheila Jackson Lee, the gentlelady from Texas, for 5 minutes 
for her opening statement.
    Ms. Jackson Lee. Mr. Chairman, thank you so very much. 
Again, let me thank you for the cooperation that we have 
promoted on this issue of transportation security.
    To the witnesses who are here, let me thank you very much 
for your presence and take note of the fact of Members' 
schedules that were skewed somewhat because of the long list of 
votes and may be delaying some Members or cause some Members to 
have some additional scheduling concerns. So let me just thank 
you again.
    The Chairman is right; we listened to Administrator 
Pistole, and we now want to listen to the stakeholders. Rail 
workers, transit security professionals, pilots, and flight 
attendants are just a few of the many professionals who find it 
within their job description the responsibility of securing our 
Nation's railroads, skies, and pipelines against terrorist 
attacks, including chiefs of metropolitan rail systems, are all 
at the front lines.
    When we talk about security, we are really talking about 
people. The critical question for me then is, are 
transportation workers in this country trained and equipped to 
recognize and mitigate a potential terrorist act? Let me say, 
just as I did in our first hearing on TSA authorization last 
month with Administrator Pistole, that we simply cannot forget 
the lessons learned from the past as we look to preventing 
future terrorist attacks.
    I think the Chairman and I agree that there are many tools. 
We happen to be unified in our support on canines. Canine is 
not present at the table today, so we won't ask any questions. 
But what we are saying is that we need tools, we need 
professionals persons used to canines, we need persons who are 
professionals who are used to finding those threats that will 
impact the American people.
    As a Congress and as a Nation, we have taken many steps to 
shore up the vulnerabilities in protocols and processes that 
enabled the 9/11 hijackers to penetrate the system and destroy 
thousands of lives. We have made great progress. We decided to 
move away from a system with various security companies 
operating checkpoint security to a Federalized system of 
professional screeners who can quickly adapt to threats based 
upon the latest intelligence. We implemented mandatory 
screening for explosives, for checked bags and cargo on 
passenger planes. We directed that cockpit doors be 
strengthened, and we deployed more air marshals to secure the 
aircraft cabin on high-risk flights. Frankly, I am a supporter 
of increasing those air marshals on our flights 
internationally.
    However, Mr. Chairman, our work is not done, and to the 
witnesses, our work is not done. Just this year alone, there 
have been at least five incidents where a flight attendant has 
had to subdue a passenger to secure the aircraft cabin. I 
request to submit a list of these incidents for the record, Mr. 
Chairman.
    Mr. Rogers. Without objection.
    [The information follows:]

          2011 In-Flight Incidents Involving Flight Attendants

                       UNITED AIRLINES FLIGHT 990

    On June 1, 2011 Government and airline officials stated that a 
United Airlines plane with 144 people aboard returned to Washington-
Dulles International Airport for an emergency landing after a fight 
broke out between passengers. FAA spokeswoman Laura Brown says Flight 
990 bound for Accra, Ghana returned to Dulles after a passenger lowered 
his seat and a passenger behind him objected. Fighter Jets from Andrews 
Air Force Base, Maryland, were confirmed to have escorted the flight 
back to Dulles. United Airlines spokesman Mike Trevino stated that 
``the Boeing 767 dumped fuel as a safety precaution to lighten its 
weight on landing."

                     AMERICAN AIRLINES FLIGHT 1561

    On Sunday May 8, 2011 on a late flight from Chicago to San 
Francisco, passengers helped subdue a man whom authorities say was 
pounding on the cockpit door during the flight. After banging on the 
cockpit door and shouting during the flight, Rageit Almurisi, 28, was 
pinned down by two flight attendants and two Air Marshals. Many aboard 
the flight, airline attendees and security officials believe Almurisi 
had mental issues.

                    CONTINENTAL AIRLINES FLIGHT 546

    On Sunday May 8, 2011 on a flight from Houston to Chicago there was 
an emergency landing in St. Louis, after Reynel Alcaide, a 34-year-old 
passenger, attempted to open a plane exit door. Alcaide has been 
charged with causing a disruption on board. Authorities believe this 
was a suicidal attempt. Passengers subdued the suspect until the safe 
landing was reached.

                       DELTA AIRLINES FLIGHT 1102

    On Tuesday May 10, 2011 a passenger became disruptive and attempted 
to open an emergency door on a flight from Orlando to Boston but was 
subdued by passengers. The flight landed safely at Boston Logan 
International Airport late Tuesday night. An off-duty police officer on 
board assisted the crew in subduing the passenger and got the situation 
under control quickly, according to airline officials.

                       DELTA AIRLINES FLIGHT 413

    Olajide Oluwaseun Noibi, 24, a Nigerian-born man who was found with 
the stolen ID and up to 10 old boarding passes containing various 
names, was arrested Wednesday June 28 after attempting to board a 
flight from Los Angeles to Atlanta; 5 days after passing through layers 
of airport security at New York's JFK airport to board a plane with a 
day-old boarding pass, Federal authorities said. It is unclear how 
Noibi managed to get through security at both airports, and whether he 
left the L.A. airport once flight 415 landed last week and when he 
attempted to board Delta Airlines flight 46 to Atlanta Wednesday, 
although he claims to have cleared security. Noibi was charged with 
being a stowaway aboard an aircraft, according to FBI Special Agent 
Kevin R. Hogg. He is being held at a Los Angeles Metropolitan Detention 
Center and appeared in court on July 1.

    Ms. Jackson Lee. While these were not terrorist incidents, 
they reveal how important a layer of security the flight crews 
represent. In fact, all of us who fly to work, as I tell my 
elementary school children as I visit our schools, when I tell 
them that I fly to work, depend upon those frontline but non-
armed flight attendants, along with our pilots, once those 
doors are closed.
    In the last Congress when we passed our bipartisan TSA 
authorization bill, H.R. 2200, we recognized this and included 
provisions to improve TSA oversight of air carriers' basic 
security programs and directed that TSA work with the industry 
to implement accessible, advanced security training for flight 
attendants.
    Let me be very clear: The airlines need to pay for flight 
attendant security training, and it needs to be part of their 
compensation package, on the airlines' package. Please 
recognize you have the passengers in your hands.
    I continue to support these concepts and continue not to 
understand opposition to improving aircraft cabin security. As 
we reinforce the pilot door, as we have provided for pilots to 
carry arms if trained, let us do something for our flight 
attendants. With a small investment in time and training, we 
can take the next step in aircraft cabin security by ensuring 
that the cabin crew are fully trained to meet today's very real 
threat.
    Let us not forget that when you are in the air, when there 
are no air marshals on board, it is the flight crew that is the 
very last line of defense. Let's let them work together, air 
marshals and flight attendants and our very able pilot force.
    I say again, nearly 10 years later, let us not forget the 
lessons learned from 9/11 as we look to addressing the 
persistent and evolving terrorist threat. Would we, in fact, be 
even having a discussion on crew training on September 12, 
2001? For instance, how many lives were saved when crew and 
passengers foiled the hijackers on United Flight 93--although, 
of course, they lost their lives--sending it into the ground in 
Pennsylvania at 580 miles an hour, sacrificing themselves 
instead of allowing the terrorists to kill thousands more. I 
simply say, let us not be pennywise and pound-foolish when it 
comes to security.
    Regarding mass transit and pipeline security, I have 
introduced H.R. 1900, the Surface Transportation Mass Security 
Act, which establishes the Surface Transportation Inspection 
Office and the Surface Transportation Advisory Committee for 
stakeholder consultation on security programs.
    I look forward to working with the Chairman and his 
leadership on this issue. I might say that H.R. 1900 also would 
increase the number of canine teams for transit security 
purposes, for wherever I go, canines come up as a viable tool 
to be utilized in security.
    Let's be creative. Let's move forward in training flight 
attendants, increasing professionalism, and using the tools 
that are helpful. Given the consistent threat to our 
transportation systems, as evidenced by information made public 
following the demise of bin Laden, we simply must bring our 
surface transportation efforts in line with aviation. I urge 
the majority to consider this bill and to be part of the 
overall TSA authorization.
    Finally, Mr. Chairman, I have requested a field hearing on 
pipeline security, and I know that we are in discussion. I 
thank you very much for your interest. I hope that we will have 
one in Washington, as well. This is a serious matter, and it is 
reflected by recent incidents in Montana.
    I believe we can work together on issues of transportation, 
pipeline security, both aviation and rail and all aspects of 
it. It is important to hear from the stakeholders who are here. 
Again, let me thank you so much very much for being part of 
America's security. Let's overcome some of our disagreements 
and follow through on behalf of the American people in securing 
the homeland.
    I yield back, Mr. Chairman. Thank you very much.
    Mr. Rogers. I thank the gentlelady.
    I would like to remind other Members that if they have 
opening statements, they may be submitted for the record.
    At this time, I would like to, without objection, ask 
unanimous consent to insert into the hearing record statements 
from the Air Forwarders Association, the Aircraft Owners and 
Pilots Association, the Air Line Pilots Association, the 
National Air Carrier Association, and the Chamber of Commerce 
of the United States of America.
    Hearing no objection, so ordered.
    [The statements follow:]

               Letter From the Airforwarders Association
                                     July 11, 2011.
The Honorable Mike Rogers,
Chair, Subcommittee on Transportation Security, Committee on Homeland 
        Security, U.S. House of Representatives, Washington, DC 20510.
The Honorable Sheila Jackson Lee,
Ranking Member, Subcommittee on Transportation Security, Committee on 
        Homeland Security, U.S. House of Representatives,Washington, DC 
        20510.
    Dear Chairman Rogers and Ranking Member Jackson Lee: The 
Airforwarders Association (AfA), the voice of the freight forwarding 
industry representing nearly 400 dues-paying member companies with 
3,000 facilities and 20,000 employees, respectfully submits the 
following comments in advance of the July 12 hearing on industry 
perspectives on TSA reauthorization. Our members are directly and 
indirectly regulated by TSA and must work with inspectors, compliance 
officers and senior officials on a daily basis. As such, AfA applauds 
the committee's efforts to reduce redundancy, improve efficiencies, and 
encourage collaboration with the private sector.
    The Airforwarders Association is committed to improving aviation 
security and understands that the seriousness of the recent threats 
necessitates a change in TSA policies. This commitment drives our 
recommendations, which will improve security and eliminate redundancies 
in TSA's air cargo security policies.
    These areas of improvement AfA are:
    Harmonization of Domestic Security Programs.--TSA has worked 
diligently in partnership with CBP, as well as FDA and other agencies 
to better understand security procedures or authorized agent protocols. 
However, this understanding has yet to lead to action by TSA or other 
agencies their security practices.

Recommendations:
    1. TSA reauthorization should eliminate the inefficient and costly 
        practice of registering authorized agents by each forwarder 
        that may require their services. Oftentimes, such agents are 
        already known in the system due to their work with many 
        forwarders. Requiring reregistration of the same agent is an 
        expensive and redundant security procedure. Forwarders are 
        concerned about the costs to their business as well as the 
        ``passed on'' cost to their customers in this volatile economy. 
        Once an agent is deemed to be ``known'' and passes the 
        necessary security checks, forwarders should no longer be 
        required to re-enter them into the system.
    2. TSA reauthorization should include the Modern Credentialing Act 
        of 2011 (H.R. 1690). This legislation is effective in achieving 
        the goal of harmonizing redundant Government credentialing. AfA 
        supports H.R. 1690. This would lower costs for businesses, as 
        only one credential would have to be issued per employee or 
        agent.
    3. CBP, TSA, and the FDA should work together to harmonize supply 
        chain security standards, audits, and applications so that all 
        agencies together can leverage the strength and membership of 
        their existing programs, and decrease unnecessary redundancy 
        for the private sector.

    Advancement of National Air Cargo Security Programs with Other 
Nations.--TSA has worked diligently with our international partners to 
reach agreements on security protocols. However, this multilateral 
diplomatic effort is not swift enough to include the majority of cargo 
passing through the global supply chain en route to the United States.

Recommendations:
    1. TSA should continue to aggressively review existing security 
        programs, including screening technologies and policies like 
        Known Consignor, and identify points of commonality to 
        streamline the international screening process. TSA should 
        approve other Nation's security programs and immediately list 
        the locations where a level of security commensurate to 
        domestic cargo screening can be verified.
    2. TSA must be directed to harmonize security standards and 
        programs. For example, several European nations are using 
        pallet-screening technologies that have met security standards 
        within their nation. These methods should be recognized and 
        approved by TSA for a limited duration of time leading up to 
        and beyond the 2011 deadline to ensure cargo continues to move 
        efficiently through the supply chain.

    Expansion of Existing CBP/TSA Pilot Program on Screening.--Advanced 
data entry efforts are an important element of a threat-based security 
program. Current efforts to gather advance predeparture information 
have been largely successful because of the cooperative engagement that 
all sides have displayed in the early stages of the pilot program with 
CBP. AfA has been working closely with CBP to provide feedback and 
encourage additional participants in the program. The pilot program 
that has been established has led to positive outcomes already, and the 
alliance should only get stronger.

Recommendations:
    1. TSA and CBP should continue to move forward on the existing 
        pilot program and expand invitations to other forwarders and 
        carriers to participate. Congress should retain robust 
        oversight and be briefed regularly on the status of the 
        program, its successes and policy recommendations gained from 
        the pilot.

    Improvement of Inspector Training.--AfA members often deal directly 
with TSA inspectors in their facilities, where their security, 
personnel, compliance, and other areas are observed. TSA inspectors can 
issue guidance or penalize facilities. Compliance and enforcement are 
necessary and important aspects of a strong cargo security program. 
However, variations in training (or a lack of any formal training at 
all) have led to inconsistent interpretations of regulations resulting 
in unnecessary or inappropriate financial penalties and disruption in 
small businesses.

Recommendations:
    1. All TSA cargo inspectors should complete a mandatory training 
        course prior to engaging in field work. At one time, a training 
        manual was available for inspectors; it is our understanding 
        this was pulled out of circulation.
    2. Inspectors should engage in regular retraining to remain up-to-
        date with new regulations, interpretations from the regional 
        and National TSA offices and the changing security environment.

    Formalization of Stakeholder Engagement.--AfA has worked in 
partnership with the air cargo security team at TSA since the agency 
was established by the 9/11 legislation. In this time, we have found 
TSA officials to be sincere in their efforts to facilitate two-way 
communication with the air cargo industry. AfA has also been a member 
of the Aviation Security Advisory Council (ASAC) since its inception; 
ASAC has served a valuable role in bringing private-sector concerns and 
solutions to the forefront. Friday's announcement that ASAC was being 
re-established and will report to the TSA Administrator is welcome 
news.

Recommendations:
    1. Congress should closely assess the re-establishment process. It 
        is our hope and belief that original members with a key 
        constituency, like AfA, will remain included in ASAC. Moreover, 
        the previous meetings of ASAC were inconsistent and ad hoc. We 
        recommend considering a requirement on a minimum number of 
        meetings per year to ensure feedback is regularly submitted to 
        the agency.

    Expansion of Canine Detection Units in Pallet Screening.--AfA 
advocated for the broad definition of screening, which includes 
multiple methods and offers the greatest flexibility while improving 
security. As such, AfA supports greater utilization of all screening 
methods, including Third-Party Explosive Detection Canines (EDCs). TSA 
has successfully deployed TSA-owned EDC Teams to conduct thorough, 
timely, pallet-level screening to meet the 9/11 Act mandates. EDC has 
been shown to provide highly accurate and efficient screening of cargo 
at the pallet level (indeed, the only efficient pallet screening method 
currently available and certified by TSA), thereby reducing the cost, 
time, and operational impacts associated with ``de-palletization'' and 
``re-palletization'' of cargo.

Recommendations:
    1. AfA supports establishing standards for private-sector, third-
        party EDC teams.
    2. TSA should provide access to their TSA-owned EDC training center 
        for testing and certification of private sector dogs.

    Fast-Tracking Technology Research and Certifications.--As AfA has 
previously discussed with the committee, there are two difficulties in 
TSA's current approach to certifying technology used for cargo 
screening, as part of the Certified Cargo Screening Program (CCSP). The 
first is the lack of certification for pallet screening technologies. 
The second concern of forwarders engaged or desiring to become a CCSF 
is the lack of ``guarantees'' given by TSA. Screening technology is a 
formidable financial expenditure for forwarders and TSA has been 
unwilling to provide assurances that current certified technologies 
will still be approved in the future. This uncertainty has surely 
limited forwarder participation in CCSP.

Recommendations:
    1. While AfA supports a policy that approves only technology that 
        is effective and provides security, there are several pallet 
        screening machines in use in the United Kingdom and European 
        Union. We urge Congress to continue to investigate why these 
        technologies are not approved in the United States and to 
        require TSA to focus on pallet screening technologies in the 
        R&D appropriations.
    2. TSA should improve the speed of reviews and certifications of 
        all new, novel technologies currently in review by the R&D 
        department.
    3. TSA should provide extended ``good until'' dates on all 
        technology currently certified. In order to improve 
        efficiencies in screening, we recommend a period between 3 to 5 
        years.

    The Airforwarders Association looks forward to continuing our 
dialogue on these issues with the committee.
                                             Brandon Fried,
                     Executive Director, Airforwarders Association.
                                 ______
                                 
        Statement of the Aircraft Owners and Pilots Association
                             July 12, 2011

    The Aircraft Owners and Pilots Association (AOPA) is a not-for-
profit individual membership organization representing more than 
400,000 members. AOPA's mission is to effectively represent the 
interests of its members as aircraft owners and pilots concerning the 
economy, safety, utility, and popularity of flight in general aviation 
(GA) aircraft. Each year, 170 million passengers fly using personal 
aviation, the equivalent of one of the Nation's major airlines, 
contributing more than $150 billion to U.S. economic output, directly 
or indirectly, and employing nearly 1.3 million people whose collective 
annual earnings exceed $53 billion. AOPA respectfully submits the 
following recommendations in an effort to strengthen physical and 
economic security while promoting the mobility and economic growth of 
general aviation.

               TSA ISSUED AIRPORT SECURITY DIRECTIVE (SD)

    On December 10, 2008, TSA issued Security Directive (SD) 1542-04-
08F (SD-08F) to commercial service airports. The SD requires Security 
Threat Assessments (STA) to be conducted on an expanded airport 
population including all general aviation owners and operators. 
Additionally, the SD requires all persons with regular and frequent 
access to the Air Operations Area to meet the same requirements as 
persons with access to commercial aircraft. The Security Directive 
changed many provisions of existing TSA regulations outside the normal 
regulatory process, bypassing critical input and comment from impacted 
parties. This change was an abuse of the SD process which was 
established to address specific threats of a finite duration. This 
change has resulted in a patchwork of non-compatible procedures being 
implemented at airports Nation-wide that have the potential to 
significantly harm general aviation operators and the commercial 
service airports where they are based. It has also resulted in concerns 
and unanswered requests for guidance for transient pilots, especially 
those landing after hours. Furthermore, security directives are 
distributed as security sensitive information (SSI), limited to only 
the regulated entities and those the TSA believe have a ``need to 
know''. This has caused a lack of communication and misunderstanding 
for airport tenants, flight schools, transient pilots, and maintenance 
providers at airports with commercial airline service.
    Many of the obstacles and problems with the regulatory changes in 
the Security Directive could have been avoided had the TSA chosen to 
implement them using the Federal rulemaking process, allowing those 
most familiar with the intricacies of general aviation operations to 
provide their comments. Because of the seriousness of the 
aforementioned issues, we would like to see the TSA initiate the 
required rulemaking process to implement a change of this scope. Our 
group understands the need to secure America's airports and stands 
ready to participate fully with the TSA in developing sensible security 
regulations that will prevent unauthorized access to aircraft and 
airport facilities.

                THE ALIEN FLIGHT STUDENT PROGRAM (AFSP)

    The Alien Flight Student Program was established giving the 
responsibility for background checks of aliens seeking flight training 
to DRS and the Transportation Security Administration. While AOPA 
understands the reasons that led to this rule and the efforts by TSA to 
streamline the process and procedures being utilized, problems 
nonetheless remain and place an unnecessary burden on the flight 
training industry. In particular, TSA's Security Regulations governing 
``Flight Schools'' has imposed for several years a requirement that 
individual flight instructors certificated by the FAA receive initial 
and annual security awareness training. The FAA imposes on these same 
flight instructors a requirement for the periodic renewal of their 
flight instructor certificates. A commonly used method of meeting the 
FAA requirement is the successful completion within the past 24 
calendar months of an approved flight instructor refresher course 
consisting of ground training or flight training. The AOPA Foundation 
has for some time been conducting such refresher courses. These two 
requirements, imposed on the same flight instructors, have timing 
limitations that do not mesh, imposing a burden on most flight 
instructors to attend two different training sessions when both 
requirements could be satisfied in a single extended training session, 
without serious derogation to aviation security or safety. It is 
recommended that the TSA rule be amended to allow the requirement for 
security awareness training to be satisfied at an FAA-approved flight 
instructor refresher course. This would modestly extend the period of 
effectiveness of the TSA training received from 1 to 2 years, but would 
also ensure compliance of the security awareness training requirement 
by all active flight instructors.

       AVIATION SECURITY AS A RISK-BASED, MULTI-AGENCY INITIATIVE

    Aviation and airspace security in the years since 9/11 has evolved 
into a complex layered approach that relies on numerous Federal, State, 
local, and private organizations, each with unique roles and 
responsibilities. AOPA supports Administrator Pistole and his 
intelligence-driven, risk-based approach to counterterrorism protection 
of our transportation system. The Administrator fully understands that 
a one-size-fits-all approach to aviation and airspace security is 
ineffective and often counterproductive. Airspace restrictions, 
Temporary Flight Rules, and their impact on the National Airspace 
System must be carefully balanced against the risk and adjusted or 
modified to reflect changes in the threat, developments in technology, 
or actionable intelligence. AOPA urges the TSA to address aviation 
security initiatives from a risk-based, multi-agency perspective and it 
is essential to engage the general aviation industry in the development 
and implementation of aviation and airspace security initiatives.

         GREATER INDUSTRY PARTICIPATION IN PROCESS DEVELOPMENT

    Many of the TSA's current policies, regulations, and procedures 
that have been implemented in aviation security were hastily drafted 
and have dramatically changed the security landscape of general 
aviation and the aviation sector as a whole. Industry experts were 
excluded from the process as the discussions and debates began to take 
on a more law enforcement-centric approach to aviation security. 
Involvement of industry experts early on in the rulemaking process and 
on a regular and frequent basis would ensure workable solutions to 
aviation security problems and add the private sector as a true partner 
in the prevention, mitigation, and response process.

                         AIRPORT WATCH PROGRAM

    AOPA worked in conjunction with TSA to launch a program that uses 
America's more than 615,000 pilots as the eyes and ears for observing 
and reporting suspicious activity at our Nation's airports. Airport 
Watch is modeled after the highly successful ``Neighborhood Watch'' 
program and the initiative has been hailed by Members of Congress and 
the TSA as a blueprint for Government-industry participation. In recent 
years funding for this program has been curtailed and a renewed 
emphasis should be placed on reinvigorating the program and expanding 
its scope.
    AOPA is committed to ensuring the security and economic viability 
of our Nation's aviation transportation system. We thank you for your 
time and consideration and look forward to working with the 
subcommittee in the future.
                                 ______
                                 
       Letter From the Air Line Pilots Association, International
                                     July 12, 2011.
The Honorable Michael Rogers,
Chairman, House Subcommittee on Transportation Security, H2-176 Ford 
        House Office Building, Washington, DC 20515.
The Honorable Sheila Jackson Lee,
Ranking Member, House Subcommittee on Transportation Security, H2-117 
        Ford House Office Building, Washington, DC 20515.
    Dear Chairman Rogers and Ranking Member Jackson Lee: On behalf of 
53,000 pilot members who fly for 39 airlines in the United States and 
Canada, the Air Line Pilots Association, International (ALPA) would 
like to provide you with the aviation security concerns that ALPA 
believes should be brought to the subcommittee's attention during its 
hearing on Industry Perspectives: Authorizing the Transportation 
Security Administration for Fiscal Years 2012 and 2013.

Threat-Based Security
    The attempted bombing of Northwest (NWA) flight No. 253 on 
Christmas day, 2009 served as a catalyst for ALPA to publish its white 
paper: Meeting Today's Aviation Security Needs: A Call to Action for a 
Trust-Based Security System, in January 2010 (attached).* In that 
paper, ALPA articulated its belief that the Transportation Security 
Administration (TSA) needed to change its post-9/11 philosophy of 
screening all people equally for harmful objects to one that focused on 
identifying individuals having evil intent.
---------------------------------------------------------------------------
    * The information has been retained in committee files.
---------------------------------------------------------------------------
    We are pleased to acknowledge the positive response from a number 
of industry partners, as well as from TSA leadership, expressing 
agreement with our call for a philosophical change in underlying 
aviation security philosophy. ALPA has been encouraged by support from 
TSA Administrator John Pistole, and his call for the implementation of 
``risk-mitigation'' security procedures, as well as his public 
statements that a pilot flying an airliner should not be required to 
undergo the same screening procedures as an unknown passenger. TSA's 
support for the ALPA-conceived alternative screening program for pilots 
known as CrewPASS, and its evolution into the TSA-endorsed Known 
Crewmember (KCM) program has been a welcome change to previous ``one-
size-fits-all'' screening requirements.
    We believe that initial steps have been taken by TSA to implement 
more risk-based solutions to securing the aviation sector, and look 
forward to working with our government and industry partners to 
continue the expansion of KCM and the creation of other threat-based, 
risk mitigation programs throughout the aviation security environment.

Federal Flight Deck Officer (FFDO) Program
    The FFDO program, using Federally-credentialed, armed pilots 
trained and managed by the Federal Air Marshal Service (FAMS) to serve 
as the ``last line of defense'' of the flight deck, has dramatically 
increased in size since its inception in 2003. Unfortunately, TSA has 
not requested or received any significant increase in program funding 
since 2004. FFDO funding remains stagnant with an annual budget of 
$22.5 million. Because this funding level is inadequate to support the 
maintenance needs of the existing FFDO force and accommodate processing 
new candidates, TSA/FAMS ceased accepting new applications in 2011 and 
has announced its inability to accept applications to the program 
during 2012, as well.
    The FFDO program has been acknowledged by industry and Government 
to be an extremely successful and cost-effective layer of aviation 
security. Due to its funding deficiencies, however, coupled with the 
inadequate number of FAMS fulltime employees (FTEs) assigned to manage 
the program, it is one of the most under-appreciated, under-utilized, 
cost-effective security programs implemented since the 
9/11 attack on our homeland. We respectfully submit that the FFDO 
program is in need of a significant increase in funding and managerial 
oversight, and that Congressional action is needed to bring about such 
change.

Threatened Airspace Management (TAM)
    The failed attack against NWA flight No. 253 also demonstrated 
deficiencies in ground-to-air communications during or following a 
significant in-flight security event. Pilots in command of other 
aircraft, either airborne or about to take-off, were not advised, real-
time, of the circumstances impacting NWA-253. This lack of 
communications deprived these other aircraft commanders, in their role 
as In-Flight Security Coordinators (ISCs), of critical information 
which related to a potential security threat to their own flights, and 
negatively impacted the ability of flight and cabin crewmembers to best 
protect their passengers and aircraft.
    On April 7, 2010 the FAA and TSA did a better job of communicating 
information to other aircraft regarding an on-going security incident 
involving a diplomat suspected to be assembling a bomb while in the 
lavatory of an airliner traveling from Washington, DC to Denver, CO. 
But even then, the flight decks of only selected airborne aircraft were 
notified of the event. Since then, we have not witnessed the sharing of 
security-related information with aircraft commanders that would be of 
value to them in fulfilling their duties as pilots-in-command.
    As recently as June 19, 2011, a bomb threat was made against a 
Dayton, Ohio to Washington, DC-bound airliner while it was in flight. 
The captain was not notified of the potential danger until landing at 
Ronald Reagan National Airport. The aircraft, with its 44 passengers 
and 3 crewmembers still on-board, sat on the ground for 29 minutes 
before emergency responders arrived at the plane and the passengers and 
crew were allowed to deplane.
    In addition to this communications deficiency, we have seen no 
evidence of a clearly-defined, prioritized plan to control the National 
air space (NAS) in the event of another 9/11-type attack. The U.S. 
economy and the domestic aviation industry cannot sustain the negative 
financial impact resulting from a repeat of a Nation-wide shutdown as 
occurred at that time.
    ALPA urges the Congress to ensure the development of a prioritized 
plan for control of the NAS in such circumstances, with the intent of 
preventing a total or substantial closure.

All-cargo Airline Operations
    In November 2010 law enforcement and intelligence agencies 
interdicted attempts to bomb two U.S. all-cargo aircraft destined from 
international locations to the United States. Successful detonation of 
the explosives, hidden in printer cartridges shipped from Yemen, could 
have resulted in catastrophic loss of life and the aircraft involved.
    These attacks confirmed that all-cargo carriers remain a focus of 
terrorists. Notwithstanding Government and industry awareness of a 
variety of security vulnerabilities which still exist in the air cargo 
domain, all-cargo operations remain exempt from a number of security 
practices mandated for passenger air carriers. Examples include: No 
hardened flight deck door requirement; no mandated All-Cargo Common 
Strategy training for crewmembers; no requirement for fingerprint-based 
criminal history record checks for persons with unescorted access 
privileges to aircraft and cargo, and no uniform requirement for SIDA 
restrictions on all-cargo air operations areas.
    Although the Air Cargo Security Requirements; Final Rule, published 
in May 2006, did much to improve the security of all-cargo aircraft and 
operations, it fell short of the mark in a number of critical aspects. 
A recent investigative report issued by the Government Accountability 
Office (GAO) on June 20, 2011 provides evidence of a number of these 
remaining vulnerabilities and bolsters ALPA's argument that much work 
remains to be done in this regard. Based on the unwillingness of 
regulators Government and industry to adequately address these 
deficiencies, we believe that Congressional action is required to bring 
about needed change.
    ALPA is grateful for the subcommittee's attention to these critical 
transportation security matters and thanks the committee for its 
leadership in this regard. We look forward to working with you as you 
craft a TSA reauthorization bill.
            Respectfully,
                                                  Lee Moak,
                                                         President.
                                 ______
                                 
             Statement of National Air Carrier Association
                             July 12, 2011

    National Air Carrier Association (NACA) appreciates the opportunity 
to submit written testimony on the occasion of the hearing held on July 
12, 2011, before the House Homeland Security Committee's Subcommittee 
on Transportation Security to consider the authorization of the 
Transportation Security Administration (TSA) for fiscal years 2012 and 
2013.
    NACA was founded in 1962. Its 17 current member carriers are: Air 
Transport International, Allegiant Air, Atlas Air, Evergreen Airlines, 
Kalitta Air, Lynden Air Cargo, Miami Air, National Airlines, North 
American Airlines, Northern Air Cargo, Omni Air International, Ryan Air 
International, Southern Air, Sun Country Airlines, USA 3000 Airlines, 
USA Jet, and World Airways.
    All NACA carriers are certificated under Title 14 Code of Federal 
Regulations Part 121. They are a diverse group of air carriers, 
providing non-scheduled and scheduled passenger and cargo services. 
NACA members fill a unique niche in the air carrier industry, offering 
services in response to ever-changing demands by the travelling public 
and businesses.
    NACA carriers are significant partners with the U.S. Department of 
Defense (DOD) in the Civil Reserve Air Fleet (CRAF) program. NACA 
airlines currently carry nearly 95% of the military passengers around 
the world and 40% of the military cargo.
    We appreciate the subcommittee seeking industry views regarding 
authorization for TSA. Aviation security is a tremendously important 
facet in the operation of a commercial airline. Al-Qaeda and its 
affiliates have continued to show an affinity for attacks on the 
aviation system. Recent news reports and open-source intelligence 
indicate terrorists are seeking the ability to conduct new attacks 
involving body IED's that can evade current screening technology. It is 
critical for the aviation industry and TSA to work closely together to 
create, deploy, and maintain risk-based layered protections that 
maximize security against these evolving threats. NACA strongly agrees 
with Administrator John Pistole that a risk-based approach to airline 
and airport security is the most cost-efficient and effective means of 
mitigating the various threats facing the aviation industry.
    On June 2, 2011, Administrator Pistole testified before this 
subcommittee specifically on TSA's efforts regarding risked based 
security: ``TSA has 2 implemented an effective and dynamic security 
system in the aviation domain consisting of multiple layers of risk-
based measures. In the aviation arena, our security approach begins 
well in advance of a traveler's arrival at an airport, with our vetting 
programs and intelligence analysts, cargo and compliance inspectors 
ensuring that airport security plans are followed, and our law 
enforcement and intelligence community partners working to detect, 
deter, and prevent terrorist plots before they happen. The security 
system continues at the airport, including, but not limited to, the 
work of our Behavior Detection Officers (BDO); Transportation Security 
Officers (TSO) and the technology that supports the screening of 
passengers and baggage; Bomb Appraisal Officers (BAO); and canine 
teams, as well as our partnerships with local law enforcement. In 
flight, thousands of Federal Air Marshals (FAM) and Federal Flight Deck 
Officers (FFDO) protect the traveling public.''
    The broad array of capabilities and resources are designed to fill 
any holes by coordinating multiple layers of technological and physical 
security that exists throughout the system. NACA members endorse this 
approach to ensure our aviation security system is strong, economical, 
and flexible.
    With the subcommittee and full committee considering the 
development of a full Department of Homeland Security (DHS) 
reauthorization bill, there is at least one area for which we ask 
Members of Congress to make a change to public law.
    Commercial air carriers providing private charter services must now 
use their own flight crews or a TSA-certified private screening company 
to screen sports and other private charters. There are times when 
commercial charter carriers would like to use on duty TSA screeners to 
clear passengers and baggage onto the aircraft. Carriers would pay TSA 
for such services rendered.
    This issue has long been a problem for commercial charter carriers. 
The Federal Aviation Administration (FAA) requires virtually anyone who 
has contact with the aircraft to be a part of the carrier's Drug and 
Alcohol Abatement Program (D&O Program) or be covered by an FAA-
certified program of their own. When private charters are performed on 
short notice, commercial charter carriers have extremely limited 
options for screening the operation as they are unable to bring on off-
duty TSA screeners onto their D&O Program on short notice. It is also 
too expensive to bring a private screening company out to a small 
airport, which requires long transit times.
    NACA and its member carriers believe the best way to solve this 
problem is to utilize on-duty TSA screeners who are covered by DHS's/
TSA's drug abatement program.
    The program would work as follows:
    1. Commercial air carrier submits a request to the Federal Security 
        Director (FSD) at the airport of departure and requests the use 
        of on-duty TSA screeners to conduct the screening of passengers 
        and baggage for charter flight;
    2. Screeners are provided if FSD has personnel available for the 
        requested time;
    3. TSA bills the air carrier for the use of the screeners at the 
        regular hourly rate plus any overtime chargers that may apply.
    TSA does not believe it has the statutory authority to charge air 
carriers for this requested service. TSA must be granted the authority 
to charge air carriers for the use of on-duty screeners when requested 
(and available).
    NACA and its member carriers respectfully request the Homeland 
Security Committee include language in the Chairman's mark that would: 
(1) Permit TSA screeners to conduct screening of passengers and baggage 
for commercial air carrier charter flights, and, (2) permit TSA to 
charge the air carrier the regular hourly rate plus any overtime 
charges for providing such screening service.
    We now offer a comment on a matter of broader TSA policy. The 
working relationship between the aviation industry and TSA has 
continued to evolve since the agency was created in 2001. We believe, 
however, there is always room for improvement that reflects the costs 
of implementing security measures and the highest value of threat 
detection, as well as countermeasures that add tangible value to our 
security efforts.
    NACA believes the subcommittee, and Congress as a whole, needs to 
conduct stronger oversight of the TSA and its possible promulgations of 
new regulations without industry input.
    TSA regularly issues Security Directives (SDs) to the commercial 
aviation industry in response to real-time intelligence suggesting an 
`imminent' threat. SDs have an immediate or short-notice compliance 
date assigned to them that mandate actions--often obtaining certain 
equipment, changes in procedures, or restrictions on operations. TSA 
rarely seeks industry input regarding how operations will be impacted 
due to the issuance of an SD. TSA seems surprised when industry has 
logistical problems with implementation after it imposes an SD. Some 
issues could be worked out with minimal notice (a few hours) to 
industry and granting it the ability to provide comment.
    This lack of consultation on the pre-issuance of SD's has created 
the impression that TSA uses SD's to bypass the normal rulemaking 
process, which relies on industry comment and participation to craft 
the best rule. We urge the subcommittee to examine TSA's use of SD's 
and test whether rules are being set that would more properly be the 
subject of a rulemaking.
    We appreciate the committee's consideration of these requests. 
Having the flexibility to use on-duty TSA screeners in certain 
situations will provide tremendous economic value and flexibility to 
the commercial charter carriers in this difficult business environment. 
NACA also believes the subcommittee would benefit by learning about 
TSA's system of issuing SD's and how that process has evolved. We stand 
ready to work with you on this and all other enhancements to our 
aviation security system.
    In closing, National Air Carrier Association and its 17 member 
airlines are committed to working closely with TSA, intelligence 
agencies, and Congress in developing the best possible aviation 
security system.
                                 ______
                                 
   Letter From R. Bruce Josten, Executive Vice President, Government 
      Affairs, Chamber of Commerce of the United States of America
                                     July 12, 2011.

The Honorable Mike Rogers,
Chairman, Subcommittee on Transportation Security, Committee on 
        Homeland Security, U.S. House of Representatives, Washington, 
        DC 20515.
The Honorable Sheila Jackson Lee,
Ranking Member, Subcommittee on Transportation Security, Committee on 
        Homeland Security, U.S. House of Representatives, Washington, 
        DC 20515.
    Dear Chairman Rogers and Ranking Member Jackson Lee: The U.S. 
Chamber of Commerce, the world's largest business federation 
representing the interests of more than 3 million businesses and 
organizations of every size, sector, and region, submits this letter in 
advance of your hearing entitled ``Industry Perspectives: Authorizing 
the Transportation Security Administration for Fiscal 2012 and 2013,'' 
and the Chamber commends your leadership in addressing these important 
issues that impact the security and economic competitiveness of the 
United States.
    We offer these recommendations in the spirit of cooperation and 
will continue to work with the subcommittee on a bipartisan basis to 
solve these important issues.

Redundant Credentialing Process
    Congress should strive to remove unnecessary burdens on American 
businesses. The Transportation Security Administration (TSA) should 
move forward with harmonizing redundant government credentialing 
requirements. The Transportation Worker Identification Credential 
(TWIC) and the Hazmat Endorsement (HME) are redundant credentials 
administered by TSA. Both programs query the same databases for 
criminal, immigration, and other violations, utilizing the same 
disqualifying criteria, appeal, and waiver processes. Yet, 
transportation workers must pay: $94 for a HME to carry hazmat; $132.50 
for a TWIC to enter the ports; $50 for a FAST card at the border; and 
$27 for a Security Identification Display Area (SIDA) badge at each 
airport for a total cost of $303.50.
    The Chamber believes that the redundant fees and background checks 
of U.S. transportation workers is an unnecessary cost for businesses. 
These sentiments are echoed by the U.S. Small Business Administration, 
which added the TSA's inaction in implementing Section 1556 to its 
Regulatory Review and Reform (r3) program's Top 10 list of most 
egregious regulations on small businesses.
    H.R. 1690, the ``Modern Credentialing Act of 2011'' would achieve 
the goal of harmonizing redundant Government credentialing. The Chamber 
would support H.R. 1690 and encourages its inclusion in the TSA 
Authorization Bill.

Aviation Security Advisory Committee
    All of TSA's regulatory action and inherent functions have a 
dramatic impact on the private sector. Whether TSA is screening 
passengers or air cargo, their activities and mandates significantly 
hinder travel and tourism, and the domestic and global supply chain. A 
more effective and efficient TSA would have a positive impact on the 
global competitiveness of U.S. industry globally.
    However, TSA has no formal advisory committee where the private 
sector can engage in discussions regarding TSA policy. The Commercial 
Operations Advisory Committee (COAC) reports to the Commissioner of 
U.S. Customs and Border Protection (CBP) and the Secretary of the U.S. 
Department of Treasury. The Chamber believes that a similar committee 
reporting directly to the Administrator of TSA would be an effective 
mechanism to ensure that private sector opinions are considered in 
policy development.
    While H.R. 1447, the Aviation Security Stakeholder Participation 
Act of 2011, is a partial step toward this goal, we recommend that the 
Aviation Security Advisory Committee (ASAC) report directly to the 
Administrator of TSA. It is essential to the effectiveness of such a 
committee that agency leadership is engaged in regular discussions with 
industry stakeholders.
    Furthermore, such legislation should not specify a subcommittee 
structure. Members of the ASAC should be permitted to establish 
subcommittees relevant to current issues at the beginning of their term 
in office. Should these changes be made, the Chamber would support H.R. 
1447, and would recommend that it be included in the broader TSA 
Authorization legislation.

Multilayered Risk-Based Approach to Security
    The Chamber supports Administrator Pistole's efforts to develop the 
agency into a risk-based, intelligence-driven counterterrorism agency 
dedicated to protecting the transportation system. We agree that a 
multilayered risk-based approach is the most effective way to ensure 
security and facilitate legitimate trade and travel. The TSA 
Authorization bill should facilitate these risk-based methods. The 
Chamber urges the subcommittee to stand firm in support of risk-based 
approach and reject any 100 percent mandates.

Air Cargo Security
    The Chamber has been encouraged by the work among the private 
sector, CBP, and TSA in reaction to recent terrorist attempts on air 
cargo planes. Efforts to gather advance predeparture information have 
been largely successful because of this cooperative engagement. The 
established pilot program has already led to positive outcomes, and the 
alliance should only get stronger.
    The collective reaction to these terrorist attempts is a model for 
how Government and the private sector can work together to secure the 
supply chain, without having a detrimental impact on business 
operations. Rather than push for more regulation or legislation, the 
Chamber supports the current pilot program and its gradual expansion to 
more carriers.

Next Generation Global Supply Chain Security
    The Chamber supports trusted shipper programs, which encourage 
security investment while providing strong trade facilitation benefits 
to members. These programs help focus limited resources on high-risk 
shipments, and should be developed further.
    However, the subcommittee should consider ways to harmonize and 
streamline existing U.S. and international programs. For example, there 
are striking similarities between CBP's Customs-Trade Partnership 
Against Terrorism, TSA's Certified Cargo Screening Program (CCSP), and 
the Food and Drug Administration (FDA) is also developing their own 
trusted shipper program. International equivalent programs also exist 
such as Canada's Partners in Protection (PIP) or the internationally 
recognized Authorized Economic Operator (AEO).
    All of these programs focus on the same mission, and have similar 
mandates. Yet, rather than cooperate with applications, audits, and 
other requirements, U.S. Government agencies appears to be siloed in 
their approach. CBP, TSA, and the FDA should work together to harmonize 
supply chain security standards, audits, and applications so that all 
agencies together can leverage the strength and membership of their 
existing programs, and decrease unnecessary redundancy for the private 
sector.
    Harmonizing and streamlining would help TSA efforts to reach the 
100 percent screening mandate for international in-bound passenger 
flights. Greater focus should be given to seeking harmonization with 
international screening methods and international supply chain security 
programs. Rather than creating new and redundant screening programs, 
the TSA should work with their international counterparts, to leverage 
the strength of existing programs. This effort would ensure that 
resources are being used to improve security rather than being focused 
on redundant screening methods.

Canine Inspection Programs
    Industry shares the mission and goal of TSA to ensure the safe and 
secure transport of cargo throughout the supply chain. Companies have 
invested heavily in equipment, training, labor, and screening 
technicians to administer the various screening programs, to meet new 
security program requirements and to comply with emergency-based 
security directives. The tight timelines for screening, increased 
volumes from an economy emerging from economic recession, and lack of 
screening alternatives have strained the private sector's ability to 
efficiently and effectively meet the goal of securing the supply chain.
    To best utilize the flexibility in the 9/11 Act and assist industry 
in meeting the common security goals, the Chamber urges greater 
utilization of all screening methods, including Third-Party Explosive 
Detection Canines (EDCs). Canines were specifically included in the 9/
11 Act as an authorized screening method, and TSA has successfully 
deployed TSA-owned EDC Teams to conduct thorough, timely, pallet-level 
screening to meet the 9/11 Act mandates. EDC has been shown to provide 
highly accurate and efficient screening of cargo at the pallet level, 
thereby reducing the cost, time, and operational impacts associated 
with ``de-palletization'' and ``repalletization'' of cargo.
    With third-party EDC teams currently used to protect many Federal 
facilities and screen cargo bound for the United States on commercial 
ships and some air cargo locations, the Chamber supports standards for 
private sector, third-party EDC teams. Further, TSA should provide 
access to their TSA-owned EDC training center for testing and 
certification of private sector dogs. Finally, the Chamber encourages 
TSA to consider greater harmonization and mutual recognition of 
internationally certified EDC teams to help address the challenge of 
screening the high-risk air cargo bound for the United States at or 
before the point of departure.
    The Chamber remains committed to ensuring that the United States 
remains secure, and prosperous. We look forward to working with the 
subcommittee on this important legislation.
            Sincerely,
                                           R. Bruce Josten.

    Mr. Rogers. We are pleased to have several distinguished 
witnesses----
    Ms. Jackson Lee. Mr. Chairman, if I might, I have a 
unanimous consent request.
    Mr. Rogers. Please.
    Ms. Jackson Lee. I would ask unanimous consent that the 
gentleman from Michigan, a Member of the full committee, Mr. 
Clarke, be authorized to sit for the purpose of questioning 
witnesses during the hearing today.
    Mr. Rogers. So ordered.
    Ms. Jackson Lee. Thank you.
    Mr. Rogers. We have several distinguished witnesses before 
us today on this important topic.
    Let me remind the witnesses that their entire statements 
will be submitted for the record. So if you would like to 
summarize those, we will get through the panel as quickly as 
possible and get to the questions.
    First, we have Mr. Tom Farmer, who currently serves as the 
assistant VP at the Association of American Railroads. I have 
enjoyed working with him during my tenure and am proud to have 
him on the panel.
    The floor is yours, Mr. Farmer.

  STATEMENT OF THOMAS L. FARMER, ASSISTANT VICE PRESIDENT FOR 
   SECURITY, SAFETY, AND OPERATIONS, ASSOCIATION OF AMERICAN 
                           RAILROADS

    Mr. Farmer. Thank you, sir, very much.
    Mr. Chairman, Ranking Member Jackson Lee, Members of the 
committee, on behalf of the Association of American Railroads, 
thank you very much for this opportunity to appear today.
    At the outset, I must emphasize that nothing is more 
important to railroads than the safety of their employees--
safety and security of their employees, of their operations, 
and of the communities that they serve.
    As all of you know, the issue of rail security garnered 
significant attention in early May with the reporting on al-
Qaeda interest in attacking trains following the operation in 
Abbottabad, Pakistan, that ended with the demise of Osama bin 
Laden. The reference to railroads as a potential terrorist 
target is not surprising, however. Indeed, the extensive 
efforts that we, as an industry, have devoted to rail security 
enhancement since the 9/11 attacks have been premised very much 
on this reality.
    Immediately following 9/11, acting on their own initiative, 
freight railroads formed a top-level security task force, 
consisting of more than 150 industry experts, to conduct a 
thorough evaluation of risk and security in the rail network. 
Key focus areas included critical infrastructure, freight rail 
operations, hazardous materials, communications and control 
systems, and military shipments.
    This effort produced the rail industry's ``Terrorism Risk 
Analysis and Security Management Plan.'' It is a comprehensive, 
priority-based blueprint of actions that the industry developed 
to deal with the new realities. This plan was adopted by the 
industry in December 2001, within just 3 months of the 9/11 
attacks. It remains the foundation of our security efforts 
today, updated as necessary based on experience in its usage 
and on changing circumstances with the threat.
    The plan defines four progressively higher-security alert 
levels and details a series of actions to be taken at each 
level. There are more than 50 permanent countermeasures that 
were implemented as a result of the development of this plan. 
In addition, those areas that those countermeasures cover focus 
upon expanding the skills of our people, the effectiveness of 
our procedures, and the use and the protection of technology. 
In addition to regular exercises conducted both industry-wide 
and by individual railroads, we test the effectiveness of this 
plan under realistic terrorism prevention and response 
scenarios.
    A particular area of emphasis in what we do is intelligence 
and security information. The railroads maintain for this 
purpose the Surface Transportation Information Sharing and 
Analysis Center and the Railway Alert Network, and these two 
entities work in concert to provide effective means for timely 
notification of security threats, incidents, and other 
emergencies, to assure daily security awareness, and to expand 
the understanding of terrorist tactics.
    One of the key initiatives of these two bodies, in 
partnership with the American Public Transportation 
Association, is a daily brief called the ``Transit and Rail 
Intelligence Awareness Daily.'' This product is a very concise 
overview of the most significant matters of the day in the 
areas of suspicious-activity reporting, terrorism analysis, 
general security awareness, and cybersecurity. The information 
provided by this means can be used by railroads to augment 
training and awareness briefings for employees. It can also be 
shared with local, State, and Federal authorities to expand 
partnerships.
    Now, the railroads set as a top priority working closely 
with TSA and other Federal components to enhance our collective 
effectiveness and security. In the written testimony, there are 
several areas we address of concern. There are three I would 
like to highlight here.
    First, as we approach the 10th anniversary of the 9/11 
attacks, the timing is right for a thorough review of rail 
security strategy and programs. What are we doing? Why? How can 
we be more effective in a sustainable way? The objective is 
agreed security priorities that set the framework for how we 
measure the effectiveness of our policies, our programs, and 
our initiatives. TSA's freight rail division, very much to its 
credit, has agreed to meet with the railroads for this purpose 
next month.
    Second, we need better information sharing between the 
railroads and the Government agencies we work with. Railroads 
provide a wealth of security-related information every day to 
various Government entities, but we get too little back that 
helps us perform the security mission effectively.
    We have submitted to TSA and DHS an intelligence 
requirement to close this gap, one that is focused on looking 
for in-depth analysis of the preparatory actions that 
terrorists take--in successful attacks, that they have tried in 
foiled plots, they tried in failed attempts--looking for 
insights into the mindset and the thinking of the adversary, 
how they function, to enable better-informed and more effective 
security measures.
    Third, the railroads believe that security and efficiency 
would be enhanced if there were more consistency and 
standardization in TSA's inspection activities, especially in 
the interpretation of TSA's security regulations. 
Inconsistencies among field offices and departures from the 
priorities and policies set by TSA headquarters are causing 
adverse but avoidable impacts on rail operations. We believe 
that the TSA regional security inspectors that have been 
appointed as liaison to the Class I railroads and to Amtrak 
offer a viable and a sustainable solution to these concerns.
    I thank you for this unique privilege, and I am very happy 
to answer any questions you may have.
    [The statement of Mr. Farmer follows:]

                 Prepared Statement of Thomas L. Farmer
                             July 12, 2011

    On behalf of the members of the Association of American Railroads 
(AAR), thank you for the opportunity to appear before the committee and 
discuss the reauthorization of the Transportation Security 
Administration (TSA) and rail security issues generally. In freight 
rail, AAR members account for 72 percent of track mileage, 92 percent 
of the industry's employees, and 95 percent of revenue. North American 
freight railroads provide the vital link for goods and commodities used 
by industries and consumers throughout the continent and in the global 
market. Indeed, one-third of all U.S. exports are transported by rail 
at some point en route to their destinations world-wide. Amtrak, 
America's National passenger railroad, is a member of AAR, as are 
several commuter railroads. A joint Freight and Passenger Coordinating 
Committee established by AAR provides a forum to advance an integrated 
approach on matters relating to rail safety, operations, and security.

             OVERVIEW OF THE RAIL INDUSTRY SECURITY PROGRAM

    The Industry Commitment. Safety and security are top priorities for 
railroads, freight and passenger, for their employees, for their 
operations, and for the communities they serve. In early May, following 
the raid that resulted in the killing of Osama bin Laden and the 
seizure of a high volume of materials on al-Qaeda's operational status 
and plans--an achievement for which all involved in the United States 
Government and military deserve the highest commendation--widespread 
media reporting focused on a document indicating al-Qaeda interest as 
of February 2010 in attacking trains, potentially in connection with 
the tenth anniversary of the terrorist attacks on the United States on 
September 11, 2001. This revelation produced a unique opportunity--
insight into the adversary's thinking, gained from a place believed 
impregnable to intrusion or seizure. However, al-Qaeda's inclusion of 
rail as a target is not surprising. The extensive efforts devoted to 
security enhancement since the 9/11 attacks, by the railroads at their 
initiative and by the Federal security and intelligence agencies, have 
been premised on this reality.
    In the immediate aftermath of those attacks, a security task force 
consisting of some 150 officials representing railroads, supported by 
experts in security and intelligence, conducted a comprehensive risk 
assessment with the objective of developing an industry-wide security 
plan. Using National intelligence community best practices, five 
critical action teams scrutinized different aspects of the railroad 
system: hazardous materials transport; rail operations; critical 
infrastructure; information technology and communications; and military 
movements. Collectively, this analysis examined and prioritized 
railroad assets, evaluated potential vulnerabilities, and assessed 
threats, and then identified a range of countermeasures.
    This effort culminated in December 2001 with issuance of the 
Terrorism Risk Analysis and Security Management Plan, a comprehensive, 
priority-based blueprint of actions that remains the foundation for the 
industry's proactive, coordinated approach and for individual 
railroads' security programs. The plan included more than 50 permanent 
security-enhancing countermeasures that were immediately implemented 
and provided for elevated security based on increases in the terrorist 
threat.
    Continuous Improvement. But no one is resting on laurels. The Class 
I railroads, and many regional and short-line carriers, have adapted 
the plan to their unique operating circumstances. Implementation of the 
plan is exercised on a recurring basis--by railroads individually and 
collectively as an industry on an annual basis. These exercises 
appraise the effectiveness of the industry's security plan in realistic 
terrorism prevention and response scenarios. The most recent industry-
wide exercise occurred on October 15, 2010; the next is scheduled for 
October 13, 2011. For this year's event, we have invited direct 
participation by Federal entities--TSA, DHS, FBI, and the Federal 
Railroad Administration (FRA)--specifically to assure effective 
implementation of an efficient, understandable, and sustainable process 
for sharing of intelligence on security threats and incidents with the 
rail industry, freight and passenger.
    The industry security plan is regularly evaluated and modified as 
needed to ensure maximum continued effectiveness. Lessons learned from 
exercises and experiences in actual security-related incidents inform 
reviews and updates of the plan with the specific purpose of assuring 
its viability to meet changing threat circumstances. A comprehensive 
review completed in 2009 evaluated the plan's guiding assumptions, risk 
methodology, and countermeasures, yielding an updated version that took 
effect in November of that year. Indeed, railroads--in conjunction with 
the TSA, other Federal security partners, rail customers, and others--
are constantly evaluating approaches to further enhance rail security 
as part of a continuous improvement process.
    Persistent Coordination. An integral element of this effort is the 
Rail Security Working Committee, supported by AAR's security staff. 
Reporting to the railroads' chief operating officers in the industry's 
Safety and Operation Management Committee, the Security Committee 
consists of senior executives, security officials, and police chiefs 
with our member railroads, coordinates the overall rail industry 
security effort, and reflects the industry's on-going commitment to 
work in a coordinated fashion, amongst railroads and with government 
agencies at all levels. Through monthly consultations, the committee 
identifies issues of concern, develops and coordinates implementation 
of solutions, and presents proposals for coordinated effort with the 
Federal Government. The committee also participates in joint security 
coordination meetings with TSA's Freight Rail Division under the 
Intermodal Security Training and Exercise Program (I-STEP). These 
sessions sustain constructive relationships and effective communication 
between the railroads' security and law enforcement officials and their 
counterparts in TSA, DHS's Office of Infrastructure Protection, FRA, 
and the FBI. The I-STEP forum allows for open and candid discussion of 
current programs and initiatives, future priorities, and prevailing 
security issues and concerns.
    Information Sharing. Essential to success in the security mission 
is timely access to accurate and relevant intelligence and security 
information--an area on which the rail industry security committee 
places particular emphasis. To sustain effectiveness, the railroads 
maintain two standing capabilities focused on the railroads security 
information needs--the Surface Transportation Information Sharing and 
Analysis Center (ST-ISAC) and the Railway Alert Network--and assign 
highly experienced liaison officers with the FBI's National Joint 
Terrorism Task Force and Southwest Border Joint Terrorism Task Force.
    Originally established in the 1990s in coordination with the 
Department of Transportation, the ST-ISAC applies analytical expertise 
for threats and security incidents that either affect or have 
significant implications for critical infrastructure, physical and 
cyber. Working in secure facilities, the ST-ISAC taps a broad range of 
sources daily, including analytical products from the Federal 
Government (classified and unclassified), to develop and disseminate 
material to aid in the protection of physical assets and information 
technology networks and systems. Especially noteworthy are the ISAC's 
efforts in cybersecurity. Each day the ISAC issues multiple advisories 
to the railroads each day addressing potential vulnerabilities in 
specific software or equipment and providing guidance on protective 
measures. This material directly supports the extensive and effective 
cybersecurity programs maintained by the major railroads. A standing 
Rail Information Security Committee provides a forum for regular 
consultations amongst professionals across the industry and a mechanism 
for the sharing of effective security practices.
    The Railway Alert Network (RAN) serves as the security information 
center for the rail industry, focused on providing immediate alert 
notification of serious incidents and emergencies and on analysis of 
the implications to freight and passenger railroads of intelligence and 
security information relating to threats, incidents, suspicious 
activity, and terrorists' capabilities, tactics, and techniques. 
Functioning within a secure facility with classified communications 
capabilities, the RAN performs a daily review of information from a 
broad range of sources for relevance to rail and homeland security. 
Targeted security information and awareness messages are developed for 
the railroads and shared with security partners in their operating 
areas at the local, State, and Federal levels.
    A particularly noteworthy initiative is the Transit and Rail 
Intelligence Awareness Daily (TRIAD), produced jointly with the 
American Public Transportation Association (APTA), the ST-ISAC, and the 
Public Transit Information Sharing and Analysis Center (PT-ISAC). TSA 
supports this cooperative effort through a joint information sharing 
working group and funding of the PT-ISAC, pursuant to the authorization 
of section 1410 of the Implementing Recommendations of the 9/11 
Commission Act of 2007 (9/11 Act). The purpose of TRIAD is to present 
the most significant matters of the day in the areas of suspicious 
activity and incident reporting, counterterrorism analysis, general 
security awareness, and cybersecurity. The target audience is senior 
executives, and security and law enforcement officials with railroads 
and mass transit agencies and local, State, Federal, and private sector 
security partners.
    Partnership for Security. Maintaining a constructive relationship 
with TSA is a top priority of the rail security effort. In 2006, both 
the freight railroads and passenger railroads, the latter in 
conjunction with mass transit agencies, agreed with TSA on a series of 
security action items and on inspection of the effectiveness of their 
implementation by TSA Transportation Security Inspectors--Surface. The 
action items focus on areas foundational to an effective security 
program--planning, training, exercises, physical security, information 
security, personnel security, means to raise security posture in 
response to threats, and related matters. The cooperative program 
proved quite effective. For passenger railroads and transit agencies, 
TSA gained a wealth of information on security posture that informed 
program development, grant program priorities and awards, and 
identification of ``smart security practices.'' In freight rail, the 
demonstrably successful partnership produced substantial reduction of 
risk associated with transport of toxic inhalation hazardous (TIH) 
materials. For the DHS Annual Performance Report (2008-2010), TSA 
reported a 53.6% reduction in risk as of the end of 2008 against the 
baseline defined in 2006. Significantly, all of this risk reduction, 
which exceeded the 50% target set by TSA, occurred under the agreed 
action items, without regulatory compulsion. AS of 2010, TSA reports 
``an industry-wide risk reduction variance of 95.73% against the 
original 2005/2006 baseline.'' Again, the measures and procedures that 
made this significant achievement possible predated the promulgation of 
the Rail Transportation Security Rule (49 CFR Part 1580), their having 
been implemented by the railroads either on their own initiative 
pursuant to the industry security plan or to meet the agreed security 
action items.
    Complimenting this progress are cooperative efforts with emergency 
responders in local communities to enhance awareness and elevate 
preparedness to respond to hazardous materials (HAZMAT) emergencies. 
These initiatives include funded, in-depth, hands-on training under 
realistic conditions for first responders at the Security and Emergency 
Management Training Center, a component of the rail industry's 
Transportation Technology Center, Inc., in Pueblo, CO. This premier 
first responder training center is a member of FEMA's National Domestic 
Preparedness Consortium. Individual railroads conduct training programs 
and joint exercises with local and regional emergency response units as 
well.
    The rail industry remains committed to cooperative efforts with the 
Federal Government for sustainable security enhancement. In this 
context, there are several areas that warrant attention.

              ISSUES OF SECURITY CONCERN TO THE RAILROADS

    Rail Security Strategy. We are approaching the 10th anniversary of 
the 9/11 attacks. The timing is opportune for a thorough review of the 
strategy and programs for rail security generally (freight and 
passenger). What are we doing? Why are we doing it? What are the core 
priorities? How can we be more efficient and effective? TSA's Freight 
Rail Division has agreed to discuss these issues at a meeting to be 
held next month.
    Intelligence Support for Rail Security. The foundation for the 
effectiveness of any security strategy is intelligence. On multiple 
occasions since May 2010, the rail industry has submitted, separately 
to DHS and to TSA, a priority intelligence requirement seeking 
expansion of the depth of analysis of past terrorist attacks, attempts, 
and plots targeting rail. The objective is to know what we can know--as 
fully as possible--through in-depth analysis of the preparatory actions 
in successful terrorist attacks, failed attempts, and foiled plots that 
have targeted rail. The purpose: To draw insights into the mindset and 
thinking of the adversary, of how terrorist operatives function, and 
thereby enable better informed and more effective security measures.
    DHS and FBI intelligence products commonly reference the Terrorist 
Planning Cycle as a means to ``assist organizations with their 
development and implementation of protective measures to deter, detect, 
disrupt, and defend against attacks from both domestic and 
international terrorists.'' Substance needs to be added to this good 
advice. For rail security, this substance entails a breakdown against 
each phase of the cycle, in as much detail as the available information 
allows, of the known or inferred elements of target selection, 
planning, preparation, and execution, either by single operations 
targeting rail or by a composite analysis of multiple such operations. 
With preparatory and execution activities so delineated, opportunities 
can be identified where particular types of security measures and 
activities may prove effective in deterrence or disruption. In essence, 
we are seeking to expand the concept of ``actionable intelligence'' to 
include analysis that creates opportunities for security.
    Rail Security Inspection Activities. In multiple forums over an 
extended period, the railroads have expressed concern with inspection 
activities by TSA's Transportation Security Inspectors--Surface. The 
industry's principal concern is the inconsistency and lack of 
standardization in inspectors' interpretations of TSA's security 
regulations and expectations regarding rail security in general. There 
are disparities between the policies and guidelines set by TSA's 
Freight Rail Division and the actions of surface inspectors in the 
field. Actions accepted by some TSA field offices result in official 
citations as violations by others. Another problem is repeated 
bypassing of the communication and coordination process--with the Rail 
Security Coordinators (RSCs)--appointed pursuant to TSA regulations. 
TSA, and other DHS components, sometimes directly engage with rail 
employees in the field, who often lack the authority and means to 
address the issues raised by the inspectors.
    AAR believes the Regional Security Inspectors (RSIs) appointed as 
liaison to the Class I railroads and Amtrak offer a viable and 
sustainable means to resolve these concerns. However, organizationally 
they are not in the chain of command of the surface inspectors in the 
field. Yet, the official correspondence sent to the railroads that 
announced the appointment of the RSIs defines a scope of authority and 
responsibility well-tailored to attaining this objective. Key points 
from these letters include:
  <bullet> ``the RSIs-Surface will act as the points of contact for the 
        Class 1 and Regional Railroads'';
  <bullet> ``to ensure consistent application of regulations both 
        nationally and across a railroad's operating system'';
  <bullet> ``coordinate TSA field activities . . . to minimize negative 
        impact on your railroad operations''; and
  <bullet> ``use your new RSI-Surface to the fullest extent.''
    Substantively engaged, consistent with the above commitments, we do 
believe the RSIs can bring about greater consistency and 
standardization in inspection priorities and activities, with benefits 
for the Government in quality of results and for the railroads in 
operational efficiency. Further, this approach can assure early and 
efficient resolution of issues of security concern--using the 
communications process TSA has established by regulation and expressly 
referenced in the RSIs' appointment letters.
    Effective Deployment of Visible Intermodal Prevention and Response 
(VIPR) Teams. The rail industry acknowledges the potential value of the 
VIPR program's random and unpredictable security measures for 
deterrence and disruption of terrorist planning and preparations. 
Indeed, some railroads, passenger and freight, have hosted deployments 
and derived substantial benefits from the visible security enhancement. 
Across the industry, however, inconsistency in the implementation of 
this program remains a significant concern--in management (conflicts 
and duplications between TSA field offices) and in execution of 
operations (continuing instances of inadequate notice to and 
coordination with railroads on operations). For mass transit and 
passenger rail, TSA abides by agreed protocols for notice, 
coordination, planning, preparation, execution, and after-action 
review. A similar approach should be used for the rail industry as a 
whole. Fundamental aspects of the program should include:
  <bullet> Prior notice to the railroad by TSA of all proposed VIPR 
        deployments at least 2 weeks in advance, unless a credible 
        threat or other emergency circumstances dictate otherwise.
  <bullet> Joint development by TSA and the affected railroad(s) of the 
        operations plan for each VIPR deployment or group of 
        deployments.
  <bullet> Integration of local law enforcement in the VIPR 
        deployment(s) to foster informed partnerships and elevated 
        preparedness for joint security enhancement actions.
  <bullet> Clearly stated risk-based justifications for the 
        deployments.
    Analysis and Use of Reports on Significant Security Concerns 
Submitted to the TSA Freedom Center (TSOC). The Rail Transportation 
Security Rule, at 49 CFR section 1580.105 for freight railroads and 49 
CFR section 1580.203 for passenger railroads, requires the reporting of 
significant security concerns to the TSA Freedom Center. To date, 
despite its substantial volume, this reporting has not produced 
consistent analysis for trends of concern in rail security or for 
educative value from the security awareness and heightened vigilance 
perspective. However, the Freedom Center does widely disseminate the 
railroads' reports to an extensive audience of Federal, State, and 
local government officials, selected public transportation authorities, 
and other private sector representatives. The criteria for this 
distribution are unclear, as many recipients have no responsibilities 
for rail security. Meanwhile, the railroads do not receive directly the 
TSOC reports or any significant feedback on the analysis or 
implications of the reports they submit. Yet, this reporting does 
create an opportunity to identify potentially ``high value'' 
information, discern developing trends of potential concern or their 
absence, and disseminate analyses that will inform steps to elevate 
preparedness and capabilities to prevent and immediately respond to 
acts of terrorism. A consistent process would enable a continuing 
educational opportunity for application by railroads in their efforts 
to assure continuous vigilance and security awareness. The existing 
intelligence and security information dissemination process maintained 
through the Railway Alert Network (RAN) would assure distribution of 
these analytical products to appropriate officials with railroads 
nationally, freight and passenger.
    Flexibility in Grant Investments to Expedite Security Solutions. 
DHS manages a wide range of grant programs aimed at enhancing 
capabilities to prevent, respond to, and recover from acts of terrorism 
and natural disasters. Often, investments in these capabilities yield 
benefits for resiliency that offer advantages in both categories of 
risk. Unfortunately, however, the rules associated with these grant 
programs frequently impose limitations on the ability to apply them in 
effective ways for expedited and sustainable solutions. As all of these 
programs aim to achieve a similar purpose, the guiding principle should 
be: Enable the grants to solve the most pressing problems instead of 
allowing program rules to limit the problems that can be solved. 
Wherever practicable, the benefits of unity of effort and economies of 
scale should inform decisions on funding for projects. As a 
representative example, TSA's Freight Rail Division has worked in 
coordination with the railroads to complete vulnerability assessments 
on more than 70 rail bridges in the Western Rivers System--principally 
crossings of the Mississippi, Missouri, and Ohio rivers. The resulting 
reports make recommendations on mitigation measures, ranking the 
bridges in priority. A composite approach to Federal support through 
grant funding of bridge-hardening projects--drawing upon not just the 
Freight Rail Security Grant Program but also the State Homeland 
Security Grant Program, the Urban Area Security Initiative where 
applicable, the Transit Security and Intercity Passenger Rail Security 
Grant Programs for structures with passenger train service, and the 
Port Security Grant Program--can expedite redress of the potential 
security concerns identified in the assessment process.
    To TSA's credit, significantly broader flexibility has been shown 
in the outreach forums to grant-eligible entities for the fiscal year 
2011 cycle. Support has been expressed for composite projects, both 
those integrating different functional areas, such as a single 
application seeking funding of technological enhancements and 
operational activities to enhance security at a critical rail station, 
and those that offer the potential to link funds from the Freight and 
Transit Security Grant Programs. We hope this positive trend continues.
    Commuter Rail Security Enhancement. As noted at the outset, AAR has 
established a joint Freight and Passenger Rail Coordinating Committee 
to foster sustained, cooperative effort on issues of security concern. 
Major terrorist attacks overseas have targeted commuter trains in major 
cities, with the bombings in Madrid (2004) and Mumbai (2006) as 
dramatic examples. In the United States, commuter rail has been the 
subject of threats, notably the expressed interest in targeting 
commuter trains revealed in November 2008. A collaborative project, 
integrating Government and industry, focused on development of a 
sustainable security enhancement strategy for commuter rail would 
provide substantial benefits. This effort should combine varied joint 
operations with local law enforcement departments and testing of 
tailored security technologies, with resource support from security 
grant allocations.

                               CONCLUSION

    Assuring the security of the Nation's passenger and freight 
railroads requires a multi-faceted, cooperative effort that taps the 
full range capabilities--in the private sector and at all levels of 
government--and applies them to best effect to assure preparedness and 
enhance capabilities to prevent and respond to acts of terrorism.
    Our Nation's railroads look forward to working with policymakers 
and others in a true public-private partnership to see that this 
objective is met successfully.

    Mr. Rogers. Thank you, Mr. Farmer, for your testimony. We 
appreciate you being here and know your time is valuable and it 
took a lot of time to prepare for that. So I appreciate that.
    Our second witness is Martin Rojas. He is the vice 
president of the American Trucking Association.
    The Chairman now recognizes Mr. Rojas for your opening 
statement.

  STATEMENT OF MARTIN ROJAS, VICE PRESIDENT FOR SECURITY AND 
           OPERATIONS, AMERICAN TRUCKING ASSOCIATION

    Mr. Rojas. Thank you very much, Mr. Chairman. It is a 
pleasure to be here again.
    Chairman Rogers, Ranking Member Jackson Lee, and Members of 
committee, thank you for the opportunity to testify today on 
the authorization of the Transportation Security 
Administration.
    The trucking industry is an integral component of our 
economy, earning more than 80 percent of all domestic freight 
revenues. It is important to note that the trucking industry is 
comprised primarily of small businesses, with 97 percent of 
trucking companies operating 20 trucks or less. In addition, 80 
percent of all U.S. communities depend solely on trucks to 
deliver and supply their essential everyday commodities.
    Because trucking is such a vital link in our economy, it is 
critical that Government requirements improve security without 
curtailing our ability to deliver America's freight efficiently 
and safely.
    As this committee is aware, since the terrorist attacks of 
9/11 Government agencies have implemented various security 
initiatives impacting the transportation sector as a whole. In 
today's multimodal, intermodal transportation system, this 
means that a requirement on one specific mode can indirectly 
impact the operations of other modes. This is certainly the 
case in the trucking industry, considering that trucks and 
commercial drivers operative at maritime facilities, rail 
yards, airports, chemical facilities, and across our Nation's 
international borders.
    To mitigate the risk of future terrorist attacks and to 
ensure both our National security and our economic security, 
ATA agrees with the recent statements by TSA Assistant 
Secretary John Pistole. In early June, Mr. Pistole testified 
that we must reduce the vulnerabilities in our transportation 
system by establishing risk-based approaches and by using sound 
intelligence in making decisions and in carrying out our 
operations. The trucking industry favors such an approach.
    As this committee considers how to improve the security of 
the country's transportation system, ATA suggests the following 
four observations:
    First, mandating more security requirements does not 
necessarily improve the security of the transportation system. 
As an industry already heavily regulated by safety and security 
requirements, more regulations will only increase the 
compliance burden on trucking companies, rather than improve 
security. From multiple background checks and security plans to 
overlapping security training and en route security, the 
trucking industry is already saturated by such requirements.
    Second, ATA encourages improving Government/industry 
information sharing. Trucking companies have embraced several 
initiatives by law enforcement agencies and the intelligence 
community to exchange and better understand our mutual 
information needs to improve our Nation's security. Today, ATA 
members are involved in various programs including with the 
Director of National Intelligence, the FBI's InfraGuard Program 
and its Domestic Security Alliance Council, as well as the 
Homeland Security Information Network. ATA believes that 
enhancing information-sharing efforts at the Federal, State, 
and local level will improve the security posture of the 
trucking industry.
    Third, Government agencies must continue to improve 
coordination of their respective security regulations. ATA 
recognizes that higher-risk operating environments must address 
specific risks associated with such operations. Because of the 
differing environments in which trucking companies operate, 
applying a one-size-fits-all approach is not practical for the 
trucking industry. However, Federal agencies must improve 
interagency coordination to establish mechanisms that recognize 
some basic common requirements or protocols in other security 
programs. Complying with multiple security requirements by 
various Government agencies is simply not suitable for motor 
carriers.
    Last, ATA believes that the TWIC Reader Rule must be 
finalized and the program's application process must be 
improved. TSA and the U.S. Coast Guard must finalize the TWIC 
Reader Rule and ensure that the processes and systems are 
hardened to prevent counterfeiting and the use of false 
identity information to obtain a real TWIC.
    ATA still believes that the TWIC should function as a 
single security threat assessment and credential that satisfies 
the background check requirement of multiple programs. In this 
regard, I want to thank again this committee's bipartisan 
leadership in addressing the multiplicity of background checks 
and credentials. ATA is a strong supporter of the Modern 
Security Credentials Act of 2011, and we look forward to this 
bill becoming law.
    On behalf of ATA and its members, I thank you for the 
opportunity to share some comments, and I look forward to 
answering your questions.
    [The statement of Mr. Rojas follows:]

                   Prepared Statement of Martin Rojas
                             July 12, 2011

                              INTRODUCTION

    Chairman Rogers, Ranking Member Jackson Lee, and Members of the 
Subcommittee on Transportation Security, thank you for the opportunity 
to testify today on the Authorization of the Transportation Security 
Administration for fiscal year 2012 and 2013. My name is Martin Rojas 
and I am Vice President for Security and Operations at the American 
Trucking Associations (ATA). Founded in 1933, ATA is the Nation's 
preeminent organization representing the interest of the U.S. trucking 
industry. Directly and through its affiliated organizations, ATA 
encompasses over 37,000 companies and every type and class of motor 
carrier operation.
    The trucking industry is an integral component of our economy, 
earning more than 80% of U.S. freight revenues and employing 
approximately 7 million workers in trucking-related jobs, including 
over 3 million commercial drivers. It is important to note that the 
trucking industry is comprised primarily of small businesses, with 97% 
of trucking companies operating 20 trucks or less, and 90% operating 
six trucks or less.\1\ More importantly, about 80 percent of all U.S. 
communities depend solely on trucks to deliver and supply their 
essential commodities.
---------------------------------------------------------------------------
    \1\ American Trucking Associations, American Trucking Trends 2011 
(March 2011).
---------------------------------------------------------------------------
     highway sector supports strong national and economic security
    The U.S. highway and motor carrier sector has been defined by the 
U.S. Department of Homeland Security (DHS) as one of 19 Critical 
Infrastructures/Key Resources (CI/KR). In 2006, various private sector 
highway-related organizations established the Highway and Motor Carrier 
Sector Coordinating Council (SCC). The SCC works in partnership with 
public sector representatives established under a counterpart 
Government Coordinating Council (GCC) under the auspices of the 
Critical Infrastructure Protection Advisory Committee (CIPAC). The SCC 
and GCC have met for the past 5 years on a quarterly basis to share 
ideas and exchange information to improve the security of the Nation's 
highways. In addition to the SCC, ATA and its members participate in 
many industry and Government-led initiatives focused on enhancing 
security and ensuring an open and efficient transportation system to 
deliver America's freight.
    Today's hearing takes place just 2 months away from the tenth 
anniversary of the terrorist attacks of September 11, 2001. Since that 
day, the United States has undertaken various initiatives, both 
domestically and abroad, to prevent our enemies from planning and 
executing further terrorist attacks against us. From sending thousands 
of heroic men and women to fight abroad, to implementing laws, 
regulations, and strategies at home to reduce the risk of terrorist 
attacks on U.S. soil, our country has mobilized an immeasurable amount 
of public and private resources to defeat our enemies and secure our 
country. To further mitigate the risks of future attacks, we must 
continue to strengthen cooperation among Government agencies and 
private sector entities, improve coordination among Government agencies 
at the Federal, State, and local level, and we must coordinate closely 
with our international trade partners and allies. Established by the 
Homeland Security Act of 2002, DHS absorbed a number of Federal 
agencies with the overall goal of improving coordination and 
intelligence sharing under a single Federal entity. One of the main 
early objectives of DHS was to ``unify authority over major Federal 
security operations related to our borders, territorial waters, and 
transportation systems.''\2\ After almost a decade since the 9/11 
terrorist attacks, it is appropriate that we review and assess the 
effectiveness of various security regulations and programs implemented 
to improve our Nation's security.
---------------------------------------------------------------------------
    \2\ President George W. Bush, ``The Department of Homeland 
Security'' Proposal, June 2002, p. 2 http://www.dhs.gov/xlibrary/
assets/book.pdf.
---------------------------------------------------------------------------
   implementing more security regulations does not increase security
    As a key agency within DHS, TSA can have a positive impact by 
strengthening the partnership with private sector counterparts instead 
of seeking to increase the number of security regulations on industry. 
As a country, we will never fully eliminate the risk and potential for 
terrorist attacks. But the trucking industry believes that by working 
together, we can improve our Nation's security posture without 
sacrificing the need for an efficient and effective transportation 
system hampered by excessive security regulations and requirements.
    At a recent hearing before this committee, TSA Assistant Secretary 
John Pistole stated:

``TSA employs risk-based, intelligence driven operations to prevent 
terrorist attacks and to reduce the vulnerability of the Nation's 
transportation system to terrorism . . . TSA works collaboratively with 
industry partners to develop and implement programs that promote 
commerce while enhancing security and mitigating the risk to our 
Nation's transportation system.''\3\
---------------------------------------------------------------------------
    \3\ Pistole, John S.; Statement before the Subcommittee on 
Transportation Security, June 2, 2011, p. 1.

    ATA fully agrees with Mr. Pistole's approach and stands ready to 
work with him, his TSA colleagues, and other Federal agencies to 
improve the security and safety of the transportation sector. As we 
have encouraged past TSA leaders, we recommend that Mr. Pistole perform 
a review of all the security regulations and programs throughout the 
Federal Government that presently affect all transportation modes so 
that the agency has a better appreciation of the numerous security 
initiatives in place today. Because of the ubiquitous nature of the 
trucking industry throughout the transportation system, Government 
mandates established to improve security in other modes or sectors have 
both direct and indirect impacts on trucking operations.
    As this committee considers the present security challenges faced 
by the highway transportation sector and how to mitigate these risks, 
it must also recognize that the trucking industry must also comply with 
a number of other regulations. In addition to security regulations, the 
trucking industry faces far-reaching and complex Federal safety 
regulatory system. Increasing the regulatory burden on trucking 
companies as they are struggling to recover from the ``Great 
Recession'' does not help this critical industry improve its security 
nor its ability to grow its bottom line to spur economic growth and 
create more jobs. Since both Government and private sector resources 
are finite, we must choose carefully how we invest them to ensure our 
operations are secure, safe, and efficient.
    At a hearing held on May 4, ATA expressed its gratitude to 
committee Members for their efforts and bipartisan leadership in 
addressing the continued multiplicity of Security Threat Assessments 
(STAs) that commercial drivers undergo to deliver America's freight. 
ATA and its members strongly support enacting the MODERN Security 
Credentials Act of 2011 and we look forward to Congress passing this 
important legislation. This issue remains ATA's top security policy 
priority for its potential to bring relief to millions of truck drivers 
and thousands of trucking companies from unnecessary and overlapping 
background checks and the resulting excessive costs.
    In addition to multiple STAs, there are several Government 
regulations and programs that require trucking companies to develop 
security plans, provide security training, develop en-route security 
procedures and incorporate security designs at company facilities, many 
with overlapping requirements, including the following:
  <bullet> HM-232F.--The Pipeline and Hazardous Materials Safety 
        Administration (PHMSA), an agency within the U.S. Department of 
        Transportation (DOT), promulgated HM-232 soon after the 9/11 
        attacks. HM-232 required companies transporting placarded loads 
        of hazardous materials to develop security plans, security 
        awareness training (both general and in depth), and en-route 
        security requirements. In March 2010, PHMSA issued a final 
        rule, HM-232F, refining the list of hazardous materials that 
        require transportation security plans. Carriers that transport 
        this security-sensitive subset of hazardous materials must 
        perform risk assessments of their operations and facilities, as 
        well as provide in-depth security training to employees 
        handling these hazardous materials. The Federal Motor Carrier 
        Safety Administration (FMCSA) assures compliance with HM-232F 
        during regular motor carrier visits where safety and security 
        reviews are conducted. ATA supported PHMSA's rulemaking efforts 
        to establish a risk-based approach to the transportation of 
        hazardous materials.
  <bullet> Customs-Trade Partnership Against Terrorism (C-TPAT).--U.S. 
        Customs and Border Protection (CBP) worked with industry 
        immediately after the 9/11 attacks to develop a ``supply-
        chain'' security program to increase the security of 
        international shipments imported into the United States by all 
        modes of transportation, including trucks. Though C-TPAT is not 
        mandated by statute and remains a ``voluntary'' security 
        program, most carriers are required to become C-TPAT members by 
        their C-TPAT certified customers/importers with international 
        cross-border shipments from Canada and Mexico. The program 
        requires participating companies to conduct risk-assessments, 
        develop security plans, and implement specific security 
        recommendations made by CBP Supply Chain Security Specialists 
        (SCSS) to become certified and validated by CBP. As part of the 
        Free and Secure Trade (FAST) program, Canada implemented a 
        parallel program for imports called Partners-In-Protection 
        (PIP) that incorporates similar requirements and a separate 
        application and validation by Canadian officials.
  <bullet> Certified Cargo Screening Program (CCSP).--TSA's CCSP 
        program requires participants to establish personnel security, 
        physical security, and procedural security requirements. The 
        CCSP recognizes other STAs such as the Hazmat Endorsement, the 
        Transportation Worker Identification Credential (TWIC) and the 
        FAST card. As with other programs, CCSP has security 
        requirements that are unique to the air cargo environment 
        regarding technologies for screening cargo as well as chain of 
        custody procedures.
    ATA recognizes that higher-risk operating environments, such as air 
cargo or cross-border operations, have security requirements that must 
address specific risks associated with such operations. Because of 
this, a ``one-size-fits-all'' security approach is not a viable 
methodology for designing and implementing security requirements for an 
industry with such diverse operations. However, Federal agencies must 
improve inter-agency communication and coordination to establish 
mechanisms that recognize basic ``common requirements'' in other 
security programs. In essence, if a CCSP compliant carrier is applying 
for C-TPAT certification, the carrier's application should undergo an 
accelerated C-TPAT certification and validation process.
    Because several Federal agencies already require motor carriers to 
implement security measures, the trucking industry does not support 
Federal agencies, including TSA, implementing additional security 
regulations. Agencies that are considering implementing security 
requirements for the transportation of specific types of regulated 
commodities should first review all three of the above-listed 
programs--HM-232F, C-TPAT, and CCSP--and consider if those programs 
meet their requirements for the secure transportation of their 
regulated commodities.
    A positive example of the above scenario has been the 
implementation of the Chemical Facilities Anti-Terrorism Standards 
(CFATS) by DHS's Infrastructure Protection (IP) office. In early 
discussions between IP and transportation industry stakeholders, IP 
recognized that commercial drivers already undergo various STAs when 
transporting certain cargo, including chemicals, or when operating in 
certain environments. Thus, DHS considers the Hazardous Materials 
Endorsement (HME), TWIC and FAST screenings as compliant with the CFATS 
background check requirement. DHS also recognized the oversight 
authority of other Federal agencies over chemical products, including 
DOT's regulations for the safe and secure transportation of hazardous 
materials. Thus, DHS stated that CFATS regulations would not supersede 
other Federal agencies' chemical security requirements.

 TRANSPORTATION WORKER IDENTIFICATION CREDENTIAL: FOCUS ON OUTCOME NOT 
                               ON OUTPUT

    ATA views the TWIC as a single instrument that can satisfy the 
needs of multiple agencies requiring background checks in various 
operating environments. The original concept of the TWIC, as espoused 
as far back as 2003, was to establish a single process, system, and 
credential with broad application across multiple programs and 
transportation modes requiring workers to undergo a STA. This concept, 
known as ``enroll once, use many'', was included as one of the 20 key 
recommendations in the Surface Transportation Security Priority 
Assessment prepared by the Transborder Security Interagency Policy 
Committee (IPC)\4\ with industry input and support.
---------------------------------------------------------------------------
    \4\ National Security Council, The White House, March 2010.
---------------------------------------------------------------------------
    On May 10, 2011, the Government Accountability Office (GAO) 
released a study during a hearing held by the Senate Committee on 
Science, Commerce, and Transportation to review the impact of the TWIC 
on port security. The GAO report found a number of security concerns 
with the implementation of the TWIC program, including the use of 
counterfeit TWICs to gain access to maritime facilities and the use of 
counterfeit identifications and fake identity data to apply and 
successfully obtain authentic TWICs. As a result, some Members of 
Congress are questioning if the TWIC has added any true value to the 
security of maritime facilities and to the entire transportation 
sector.
    GAO has recommended a number of steps be taken by TSA and the U.S. 
Coast Guard (USCG), including the need for internal controls and 
effectiveness assessments to evaluate compliance with the program's 
original objectives. GAO also suggested that TSA analyze and determine 
what cost-effective measures can be taken to ensure that the program 
corrects the specific weaknesses found during the assessments, 
especially as they relate to identity fraud and the use of counterfeit 
TWICs. As a long-standing member of the TWIC private sector stakeholder 
group, ATA is concerned about the GAO findings.
    As long as TWIC is simply used as a flash-pass it will be no more 
secure than a driver's license or any other photo identification. ATA 
urges this committee to ensure TSA and USCG do not delay issuing a 
Final Rule for TWIC readers so that maritime facilities can use the 
technology established under the TWIC program to verify the identity of 
the card holder prior to accessing a facility. The technology embedded 
in the TWIC and the readers should help deter the use of counterfeit 
TWICs. TSA and the TWIC contractor must also take the necessary steps 
to ensure that TWIC applicants are presenting valid identification and 
biographical data upon application.

   INFORMATION SHARING TRUMPS SECURITY REGULATIONS TO FIGHT TERRORISM

    Last February, an alert trucking company employee prevented a 
terrorist plot involving explosives. A visiting Saudi student, Khalid 
Ali-M Aldawsari, was arrested in Lubbock, Texas for plotting to bomb 
several locations throughout the State, including the home of former 
President George W. Bush. Luckily, Mr. Aldawsari was arrested and his 
plans came to an end.
    The incident reflected the positive effects of implementing 
appropriate security training for employees, while encouraging them to 
remain alert and report any suspicious activity or other concerns. In 
this case, a trucking company employee recognized and researched some 
of the materials listed in a package and alerted the company's security 
team. Federal law enforcement personnel were brought in and the would-
be terrorist was eventually arrested when he tried to pick up the 
package.
    As with other terrorist plots inside the United States, this event 
garnered much media attention. However, among the various media outlets 
that covered the story, it was a CNBC story that truly captured the 
essence of what transpired:

``In the end, it wasn't a TSA agent, a Homeland Security operative or 
an FBI agent who first spotted alleged terror plotter Khalid Ali-M 
Aldawsari. It was the employees of a private shipping company. 
According to the Government, somebody at the shipping company called 
local police after becoming suspicious about a chemical package that 
Aldawsari was set to receive.
``Meanwhile, officials at the chemical company that sent the material 
called the FBI with their suspicions about Aldawsari--and later worked 
with an FBI agent who posed undercover as a company employee in 
dealings with the suspect.''\5\
---------------------------------------------------------------------------
    \5\ ``How Two Companies Stopped a Terror Suspect'', CNBC.com; 
February 24, 2011; http://m.cnbc.com/us_news/41766933.

    What this story highlights is that all of us, Government agencies, 
private industry, and concerned citizens all share the responsibility 
for fighting terrorism. In the end, information sharing is the best and 
strongest tool that we have to stop potential terrorist plots and to 
fight terrorism at home and abroad.
    As this event demonstrates, the private sector is an essential 
partner and part of the solution for combating terrorism. We don't need 
more regulation, we need more cooperation.
    ATA and its members are presently participating in a number of 
information-sharing initiatives to facilitate the flow of information 
and intelligence to improve the security posture of our industry. 
Initiatives involving the Homeland Security Information Network, the 
Office of the Director of National Intelligence, the FBI's InfraGard 
program, as well other Federal, State, and local efforts, are allowing 
industry to share information directly with the intelligence and law 
enforcement community. ATA urges this committee to support such 
exchanges of information as a better alternative to establishing 
additional security regulations on an industry already over-burdened by 
safety and security regulatory mandates.

                               CONCLUSION

    In the past 10 years, many legislative, regulatory, and voluntary 
efforts have been implemented to minimize the threat of another 
terrorist attack in the United States. Though well-intended, many 
initiatives have resulted in a multiplicity of overlapping and 
burdensome security requirements on trucking companies. Unfortunately, 
rather than augmenting the security of the transportation sector, the 
focus has been more on regulatory compliance rather than evaluating the 
impact of existing security requirements.
    ATA urges the committee to consider the following recommendations 
as it deliberates TSA's Authorizations for fiscal year 2012 and 2013:
  <bullet> Do not mandate more security regulations.--As an industry 
        already heavily regulated by safety and security requirements, 
        more security regulations will not improve security but will 
        only increase the compliance burden on trucking companies;
  <bullet> Encourage information sharing.--Industry has embraced 
        several initiatives by law enforcement and intelligence 
        agencies to exchange information and increase our mutual 
        understanding and information needs to improve our Nation's 
        security posture;
  <bullet> Improve agency coordination.--Increase the communication and 
        coordination among Federal agencies that have established 
        security requirements and programs that impact the surface 
        transportation sector. TSA's Transportation Sector Network 
        Management (TSNM) could play a role in such an initiative;
  <bullet> Ensure the TWIC reader rule is issued promptly.--TSA and the 
        USCG must finalize the TWIC reader rule and ensure that the 
        processes and systems are hardened to prevent counterfeiting 
        and the use of false identity information to obtain a real 
        TWIC.
    Again, on behalf of ATA and its members, I thank you for the 
opportunity to share some comments regarding our industry's perspective 
and priorities as this committee considers authorizing TSA for fiscal 
year 2012 and 2013. I look forward to answering any questions you may 
have.

    Mr. Rogers. Thank you. Thank you for that remark. The fact 
is, this issue was brought to the attention of this committee 
by your association. So I really appreciate the fact you gave 
us a heads-up and we were able to do something about it.
    Our next witness is Chief Wanda Dunham. I am proud of 
Wanda; she is an alumni of the same university from which I 
graduated. She is just younger than I am. But it is good to 
have her here. She is the chief of police for the Metropolitan 
Atlanta Rapid Transit Authority Police Department. We look 
forward to hearing her testimony.
    I will tell you, Madam Ranking Member, you are going to 
hear about canines today after all. They have vapor-wake 
canines in the Atlanta transit system.
    Ms. Jackson Lee. Smart people.
    You can advertise your school where you graduated.
    Mr. Rogers. Okay. Jacksonville State University. That is 
where we went to school.
    Chief Dunham. That is right.
    Mr. Rogers. The floor is yours.

  STATEMENT OF WANDA Y. DUNHAM, ASSISTANT GENERAL MANAGER AND 
CHIEF OF POLICE AND EMERGENCY MANAGEMENT, METROPOLITAN ATLANTA 
                    RAPID TRANSIT AUTHORITY

    Chief Dunham. Yes, sir.
    Good afternoon, Mr. Chairman and distinguished committee 
Members, and thank you for the opportunity to provide my 
testimony on behalf of the Metropolitan Atlanta Rapid Transit 
Authority in Atlanta, Georgia, and as a representative of 
public transportation systems throughout our Nation.
    My name is Wanda Dunham, and I am privileged to serve as 
the police chief and assistant general manager for police 
services and emergency management to the ninth-largest public 
transportation system. I speak to you as someone with more than 
24 years of police experience in a mass transit environment and 
as someone who collaborates with industry as a member of the 
American Public Transportation Association's--that is 
``APTA''--Committee on Public Safety. Sincerely, I truly 
appreciate your interest in improving public transportation 
security across the country.
    Today, the Transportation Security Grant Program and other 
Federal funding programs remain a significant resource in the 
development and implementation of key countermeasures against 
terrorist threats. Since 2003, MARTA has received approximately 
$31 million in Federal funding in support of various target 
hardening and security initiatives. With the support of this 
investment, MARTA has been able to develop or expand key 
programs, such as our CCTV camera system, as well as acquiring 
15 bomb-detection canine teams, including three vapor-wake 
canine teams that can actually detect the presence of odors 
related to an explosive device.
    I would like to spend a few minutes to discuss the canine 
teams at MARTA. Proudly, I am pleased to report that MARTA has 
been at the forefront in the use of this unique canine 
application in the detection of explosive devices. We were the 
first transit agency to be part of the canine explosives 
detection program for TSA at Lackland Air Force Base in San 
Antonio, Texas.
    In August 2004, MARTA was asked to participate in a pilot 
program for the first vapor-wake canine program in the country. 
This program was spearheaded by the prestigious Auburn 
University Canine Detection Training Center in Auburn, Alabama. 
Our canine, Tabby, was the first graduate of this impressive 
training program. Although Tabby was retired last year, we 
recognize her today for her 6 years of dedicated service to our 
department.
    While there has been a great degree of progress made at 
MARTA and other transit systems across the country, there is 
still much work that is required to continue to keep our Nation 
safe. Much of the efforts and focus of this investment to date 
has been in the area of infrastructure and target hardening.
    Many transit systems are experiencing the need for 
additional funding and broader funding guidelines to leverage 
existing capital investments with operational support. An 
increase in the limitation on operational funding from 10 
percent to 20 percent and allowing personnel costs where the 
need can be strongly substantiated will be of great support to 
many transit systems.
    Additionally, recent intelligence information has 
substantiated what we have known for some time: That transit 
systems remain highly vulnerable for potential attacks. To that 
point, it is highly recommended that Congress reauthorize the 
Transit Security Grant Program at levels similar to those 
authorized under the 
9/11 Commission Act.
    Finally, I cannot emphasize how important and critical the 
financial support provided by Congress through the Transit 
Security Grant Program has been to local and regional efforts 
across the country in keeping our customers safe. As we prepare 
at a regional level to ensure we are responsive and prepared 
for new and emerging 21st-Century security threats, the support 
of Congress and your continued commitment to keeping stride 
with the financial needs are vital to our success.
    I will entertain any questions. Thank you for your time.
    [The statement of Chief Dunham follows:]

                 Prepared Statement of Wanda Y. Dunham
                             July 12, 2011

    Good afternoon, Mr. Chairman and committee Members, and thank you 
for the opportunity to provide my testimony on behalf of the 
Metropolitan Atlanta Rapid Transit Authority, in Atlanta, GA and as a 
representative of public transportation systems throughout our Nation. 
My name is Wanda Dunham and I am privileged to serve as the Police 
Chief and Assistant General Manager, for Police Services and Emergency 
Management to the 9th largest public transportation system in our great 
Nation. As you may be aware, MARTA is one of eight identified Tier 1 
transit agencies in the Nation, which means that it warrants especially 
high considerations for security investments. I speak to you as someone 
with more than 24 years of police experience in a mass transit 
environment, as a member of the TSA Peer Advisor Group and as someone 
who collaborates within the industry as a member of the American Public 
Transportation Association's (APTA) Committee on Public Safety. 
Sincerely, I truly appreciate your interest in improving public 
transportation security across the United States. My testimony today is 
to speak to the growing demand and need for continued homeland 
security-related investments.

                             MARTA OVERVIEW

    There exists no priority higher than the safety and security of the 
more than 500,000 unlinked passenger trips we deliver on a daily basis. 
Our multi-modal transit system includes 48 miles of heavy rail serving 
38 stations with 318 railcars and 505 buses on 91 routes. Our rail 
system, which began service in 1979, has a direct connection to 
Hartsfield-Jackson International Airport. As MARTA has expanded over 
the last 3 decades to remain an economic engine for the region, so has 
our attention to security-related needs and proactive strategies. MARTA 
is the longest-serving transit police agency in the country designated 
as a CALEA (The Commission on Accreditation for Law Enforcement)-
certified agency. MARTA Police is a full-time, full-service agency with 
321 sworn officers including detectives, uniform patrol, and explosive 
detection units, etc. It is the availability of resources such as the 
Transit Security Grant Program (TSGP) and a collaborative effort with 
Federal, State, local agencies and community partners that has allowed 
MARTA Police to implement multi-level, comprehensive strategies to 
ensure the safety of our riders. Now, more so than ever, recent events 
and intelligence regarding terrorist plans reinforces our need to be 
all the more vigilant and continue to make security-related investments 
a high National priority.

                       TSA & MARTA COLLABORATION

    The Transit Security Grant Program and other Federal funding 
programs remain a significant resource in the development and 
implementation of key countermeasures against terrorist threats. Since 
2003, MARTA has received approximately $31 million in Federal funding 
in support of various target hardening and security initiatives. With 
the support of this investment, MARTA has been able to develop or 
expand key programs, such as the following:
  <bullet> The implementation of Homeland Security CCTV cameras in all 
        38 stations, with cameras soon to be installed in over 500 
        buses and 200 railcars.
  <bullet> Increased access control systems at a number of critical 
        infrastructures.
  <bullet> Conducted over 10 Homeland Security Emergency and Evaluation 
        Plan (HSEEP)-compliant security exercises within the last 5 
        years to include various State, local, and Federal partners.
  <bullet> Enhanced protective measures (e.g., fencing, lighting, 
        barrier gates) at critical and vulnerable infrastructures such 
        as rail yards and bus garages.
  <bullet> Secured & updated more effective bomb abatement equipment 
        such as a Total Containment Vessel (TCV) and a bomb robot.
  <bullet> Acquired 15 bomb-detecting canine teams, including 3 ``vapor 
        wake'' canine teams that can actually detect the presence of 
        odors related to an explosive device.
    I would like to spend a few minutes to discuss the canine teams at 
MARTA. Proudly, I am pleased to report that MARTA has been at the 
forefront in the use of this unique canine application in the detection 
of explosive devices. We were the first transit agency to be part of 
the Canine Explosives Detection program for TSA at Lackland Air Force 
Base, in San Antonio, Texas. Since our involvement with the TSA canine 
program, our canine teams have received numerous ``Top Dog'' 
recognitions for their exemplary performance. In August 2004, MARTA was 
asked to participate in a pilot program for the first vapor wake canine 
program in the country. This program was spearheaded by the prestigious 
Auburn University Canine Detection Training Center in Auburn, Alabama. 
Our canine, Tabbie, was the first graduate of this impressive training 
program. Although Tabbie was retired last year, we recognize her today 
for her 6 years of dedicated service to our department. Since the 
Auburn program's inception, we have had five additional canines who 
have participated in this exceptional program.
    We have discovered that transit riders report feeling safer when 
Canine Units are present. Their presence and visibility has helped to 
prevent the introduction of explosive devices and deter criminal 
activity in the transit system, all the while providing a more secure 
environment for our customers. I cannot say enough about the TSA Canine 
Program. TSA is committed to this program and has done an excellent job 
providing transit agencies such as MARTA with the resources to keep 
this program viable and accessible to assist in the fight against 
terror on our systems.
    Furthermore, TSA has been responsive to many of our concerns within 
the transit community. For example, we recognize and appreciate the 
recent changes to the Transit Security Grant Program guidelines to 
allow for maintenance and sustainability as allowable expenses, and the 
revised timeline for the execution of capital projects from 36 to 48 
months.
    Most recently, the TSA Administrator, John Pistole, visited MARTA 
to witness first-hand the many effective security measures made 
possible through TSA grant funding.

            OPPORTUNITIES FOR IMPROVEMENT WITH TSGP FUNDING

    While there has been a great degree of progress made at MARTA and 
other transit systems across the country, there is still much work that 
is required to continue to keep our Nation safe. Much of the effort and 
focus of the investments to date has been in the area of infrastructure 
and target hardening. Many transit systems are experiencing the need 
for additional funding and broader funding guidelines to leverage 
existing capital investments with operational support. An increase in 
the limitation on operational funding from 10 percent to 20 percent and 
allowing personnel cost, where the need can be strongly substantiated, 
will be of great support to many transit systems. For instance, a COPS 
program specifically for transit has been a funding proposal strongly 
supported by other Tier 1 agencies.
    Additionally, recent intelligence information has substantiated 
what we've known for some time; that is, those that mean to do our 
country harm have not eased up on their determination. In addition, 
we've also learned that transit systems remain highly vulnerable for 
potential attacks. To that point, it is highly recommended that 
Congress reauthorize the TSGP at levels similar to those authorized 
under the 
9/11 Commission Act. The eligible use of funds included in Section 
1406(b) of the 9/11 Commission Act should be maintained and broadened. 
This measure would allow for transit systems to continue to provide 
security countermeasures at all vulnerable locations at risk of 
terrorist attack versus having to prioritize vulnerable assets based on 
funding restrictions.
    Furthermore, the ability to communicate and coordinate with other 
public safety agencies, such as police and fire, is vital to our 
ability to respond and guard against any perceived or real threats. 
Legislation in Congress to allocate spectrum to public safety agencies 
has the potential to further the interoperability challenges among 
transportation agencies. A change in the definition of public safety in 
Section 337 is recommended to reflect the need of transit security and 
emergency services to access the public safety spectrum for emergency 
service purposes. MARTA also supports the allocation of the 700 MHz 
spectrum (D-Block) to public safety, if the aforementioned change is 
made.
    Finally, we also urge the committee to support the security 
legislative recommendations of the American Public Transportation 
Association, including support for the Public Transportation 
Information Sharing and Analysis Center (PT-ISAC) and Security 
Standards programs, which have been submitted to the committee under 
separate cover.
    I cannot emphasize how important and critical the financial support 
provided by Congress through the TSGP has been to the local and 
regional efforts across the country in keeping our customers safe. 
Unfortunately, we cannot say that the threat today is any less than it 
was 10 years ago. As we prepare at a regional level to ensure we are 
responsive and prepared for new and emerging 21st Century security 
threats, the support of Congress and your continued commitment to keep 
in stride with the financial needs are critical to our success.
                               conclusion
    I appreciate the committee for allowing me to provide testimony on 
these critical security-related issues. MARTA and our fellow transit 
agencies look forward to working with you and the Members of the 
committee as you work to develop this next critical authorization bill. 
I will be happy to answer any questions at this time.

    Mr. Rogers. Thank you, Chief Dunham.
    Our fourth witness, Mr. Raymond Reese, is the corporate 
health, safety, and security leader for Colonial Pipeline and 
will be testifying on behalf of the Alabama--Alabama--the 
Association of Oil Pipe Lines, of which I am sure Alabama is a 
part.
    The Chairman now recognizes Mr. Reese for his testimony.

 STATEMENT OF RAYMOND J. REESE, CORPORATE HEALTH, SAFETY, AND 
 SECURITY LEADER, COLONIAL PIPELINE COMPANY, ON BEHALF OF THE 
   ASSOCIATION OF OIL PIPE LINES AND THE AMERICAN PETROLEUM 
                           INSTITUTE

    Mr. Reese. Thank you, sir. Yes, it is. In fact, we have an 
asset going through your fine State.
    Good afternoon, Chairman Rogers, Ranking Member Jackson 
Lee, and Members of the subcommittee. My name is Raymond Reese. 
I am the corporate health, safety, and security leader for 
Colonial Pipeline. I appreciate the opportunity to appear on 
behalf of the Association of Oil Pipe Lines, the American 
Petroleum Institute, and as the chairman of the Oil and Natural 
Gas Sector Coordinating Council.
    America relies on a network of more than 170,000 miles of 
liquid pipelines to move the energy that fuels our Nation's 
economy and supports our quality of life. One of these 
pipelines is Colonial. Colonial is headquartered near Atlanta, 
Georgia, where we operate a system consisting of 5,500 miles of 
pipeline. When measured by volume transported, Colonial is the 
largest refined products pipeline in the world.
    Colonial and the pipeline industry are committed to 
delivering these materials safely and efficiently. We are also 
committed to keeping our facilities secure. With regard to the 
security of the pipeline system, the private and public sectors 
share the same goal: Protecting our facilities from attack so 
that we can avoid loss of life, disruption of service, damage 
to assets, injury to our employees or the public, or harm to 
the environment and National economy.
    One key element to effectively managing these risks is what 
TSA has properly called a partnership between the private and 
public sectors. The success of this and any partnership is 
dependent upon communication and collaboration. In my view, the 
most effective security program will be one that is not static 
but, rather, constantly adjusting to ensure we are staying 
ahead of an increasingly sophisticated adversary. Regular 
interaction with TSA through a strong industry partnership 
provides this flexibility.
    TSA's Pipeline Security Division, or PSD, regularly 
conducts corporate security reviews of major pipeline operators 
to assess their security plans, and critical facility 
inspections of the most sensitive locations in the pipeline 
industry to focus on implementation of security practices at 
pipeline facilities. The results of these two reviews have been 
used to develop security smart practices that are then shared 
across the industry. I can personally attest to the thorough 
nature of the CSR review and how extensive some of these on-
site visits can be.
    TSA has also issued pipeline security guidelines which are 
specific Federal recommendations for security practices 
throughout the pipeline industry. These were built on previous 
guidance and the requirements of the 9/11 Commission Act. Our 
industry has worked with TSA in the development of these 
guidelines.
    Rarely will industry and regulators agree on every point or 
proposal. The very nature of effective partnership necessitates 
some level of mutual compromise. As mentioned, the pipeline 
industry has a constructive working relationship with PSD. 
However, we believe there are opportunities for improved 
communication elsewhere within DHS.
    Our industry seeks appropriate risk-tiering for gasoline 
storage facilities in the CFATS program and a conclusion to a 
process that has gone on for a very long time. Contrary to 
initial indications from DHS, CFATS regulations were expanded 
to include operators of gasoline storage facilities by the 
incorporation of a flammable-mixtures provision late in the 
regulatory development process. Comments were filed asking DHS 
to review the technicalities of its rulemaking, and for over 2 
years our industry has awaited a formal reply.
    Another concern is with credentialing. The liquid pipeline 
industry and others within the oil and natural gas sector 
support effective risk-based security standards of high-risk 
facilities to protect critical infrastructure. We support 
credentialing programs that check personally identifiable 
information against the terrorist screening database.
    We are concerned, however, that DHS's proposal for a 
personal surety program would create significant new 
administrative burdens with little or no security enhancement. 
Rather than creating a redundant credentialing program, it 
would appear more logical for DHS to leverage the already 
widely accepted and utilized TWIC program.
    I want to thank this subcommittee and its members for 
addressing this issue in your recent markup of H.R. 901. It is 
our hope that this proposal will be a part of the final CFATS 
reauthorization this year.
    In conclusion, it has been my personal experience that 
TSA's Pipeline Security Division has assumed a responsible 
approach to pipeline security, working with industry to 
identify effective and practical security practices for 
pipeline operators. In my view, this partnership serves the 
American public well.
    And I thank you for the opportunity to comment, and I look 
forward to your questions.
    [The statement of Mr. Reese follows:]

                 Prepared Statement of Raymond J. Reese
                             July 12, 2011

    Good afternoon Chairman Rogers and Ranking Member Jackson Lee and 
Members of the subcommittee, my name is Ray Reese and I am the 
corporate health, safety, and security leader for Colonial Pipeline. I 
appreciate this opportunity to appear before the subcommittee today on 
behalf of the Association of Oil Pipe Lines (AOPL) and the American 
Petroleum Institute (API). In addition, I serve as the Chair of the Oil 
and Natural Gas Sector Coordinating Council (ONG SCC), which I will 
discuss in further detail below.
    Colonial Pipeline is headquartered in suburban Atlanta, Georgia, 
where we operate a pipeline system consisting of 5,519 miles of 
pipeline, beginning in Houston and crossing the South and East before 
terminating at the New York harbor. When measured by volume 
transported, Colonial is the largest refined products pipeline in the 
world, daily delivering about 100 million gallons of gasoline, diesel 
fuel, jet fuel, and home heating oil and fuels for the U.S. military.
    AOPL is an incorporated trade association representing 49 liquid 
pipeline transmission companies. The American Petroleum Institute (API) 
represents more than 470 oil and natural gas companies, leaders of a 
technology-driven industry that supplies most of America's energy, 
supports more than 9.2 million U.S. jobs, accounts for 7.7 percent of 
the U.S. economy, and delivers more than $85 million a day in revenue 
to the U.S. Treasury. Together, our organizations represent the 
operators of approximately 90 percent of total U.S. oil pipeline 
mileage in the United States.
    Pipelines are the safest, most reliable, economical, and 
environmentally favorable way to transport oil and petroleum products, 
other energy liquids, and chemicals throughout our Nation.
    Liquid pipelines bring crude oil to the Nation's refineries and 
petroleum products to our communities, including all grades of 
gasoline, diesel, jet fuel, home heating oil, kerosene, and propane. 
AOPL's and API's member companies provide hydrocarbon feedstocks for 
use by many other industries, including food, pharmaceuticals, 
plastics, chemicals, and road construction. America relies on the 
network of more than 170,000 miles of liquid pipelines to move the 
energy that fuels our Nation's economic engine and delivers the 
products to keep our Nation's industry in operation. Colonial as a 
company, and the pipeline industry as a whole, are committed to 
delivering these materials safely and efficiently.
    I am pleased to have the opportunity to provide some perspective on 
behalf of the liquid pipeline industry as the subcommittee conducts its 
important oversight of the reauthorization of the Transportation 
Security Administration (TSA).

                  PIPELINE OPERATORS INSIST ON SAFETY

    Pipeline operators have every incentive to invest in safety. 
Indeed, in our members' view, there are no incentives to cut corners on 
pipeline safety. Most important is the potential for injury or loss of 
life to members of the public, pipeline employees and contractors. As 
an industry we also recognize the impact we could have on the 
environment and to our country's economy. In addition to the public and 
third-party impact, if a pipeline experiences a failure or a release, 
there are numerous potentially harmful consequences for the operator 
and its reputation. The operator could face litigation, fines, incur 
potentially costly repairs and cleanup costs. Further, the pipeline 
could suffer a significant loss of revenue and goodwill by not being 
able to serve its customers for extended periods of time. In short, 
when it comes to safety, pipeline operators have every reason to 
operate in a manner consistent with the public interest.
    Pipeline operators invest millions of dollars annually to maintain 
their assets and comply with Federal safety laws and regulations. A 
large percentage of liquid pipeline assets are inspected regularly and 
all are monitored continuously. Safety measures include proper pipeline 
route selection, design, construction, operation, and maintenance, as 
well as comprehensive public awareness and excavation damage prevention 
programs.
    Pipeline safety is closely regulated by the Department of 
Transportation's Pipeline and Hazardous Materials Safety Administration 
(PHMSA). PHMSA is responsible for establishing and enforcing 
regulations to assure the safety of pipelines (Title 49 CFR Parts 190-
199). Operators face a rigorous set of PHMSA regulations pertaining to 
pipeline construction, operation, and maintenance. Regulations also 
cover public awareness, reporting, design standards, construction 
methods, operational controls and limitations, pressure testing, 
maintenance standards, qualification of personnel, and emergency 
response. These same laws and regulations also address the leading 
causes of pipeline failures, including corrosion, excavation damage, 
materials and equipment failure, and operational errors.

                      PIPELINE SECURITY--OVERVIEW

    With regard to the security of the pipeline industry, the private 
and public sectors share the same goal: To protect our facilities from 
attack so that we can avoid loss of life, disruption of service, damage 
to our assets, injury to our employees and the public, and harm to the 
environment and the economy. We must, however, also recognize that our 
sectors share the same limitation: We must allocate resources through a 
risk-based approach that properly assesses the likelihood and 
consequence of an event at a facility.
    I cannot stress enough that the key to effectively managing this 
risk requires what TSA has properly called a ``partnership'' between 
the private and public sectors. The success of this and any 
``partnership'' is dependent upon communication and collaboration 
between the parties. In my view, the most effective security program 
will be one that is not static, but rather constantly changes and 
improves to ensure that we are staying ahead of increasingly 
sophisticated adversaries that would do us harm. Regular interaction 
with TSA through a strong partnership ensures that we are evolving at 
the greatest speed possible by taking advantage of the knowledge and 
strengths that each sector can provide.
    Prior to the tragic events of September 11, 2001, pipeline safety 
and security were both under the jurisdiction of what is now PHMSA's 
Office of Pipeline Safety (OPS). On November 19, 2001, President George 
W. Bush signed the Aviation and Transportation Security ACT (ATSA) 
establishing TSA and designated it as the lead Federal agency for 
transportation security including pipelines. Following these events, 
the Department of Homeland Security (DHS) was created on November 25, 
2002, transferring TSA into the newly created DHS. Federal guidance was 
published by OPS on September 5, 2002, through a circular notice that 
recommended pipeline operators identify critical facilities, develop 
security plans, an implementation schedule for these plans, and the 
need to review them annually. On December 17, 2003, President Bush 
issued Homeland Security Presidential Directive--7 (HSPD-7) that 
required DHS and other Federal agencies to collaborate with appropriate 
private sector entities to assist in the protection of National 
critical infrastructure. Further, representatives of DHS and DOT signed 
a Memorandum of Understanding (MOU) in September of 2004, which 
reiterated DHS's jurisdiction for the security of all modes of 
transportation. In essence, the role of PHMSA's oversight is related to 
the safe operation, construction, and maintenance of pipelines, and PSD 
is responsible for ensuring that pipeline facilities are adequately 
secure from security-related threats.
    PSD is located within the Office of Transportation Sector Network 
Management (TSNM) and has been directed to enhance the security 
preparedness of the Nation's liquid and natural gas pipeline systems 
by:
  <bullet> Developing security programs and conducting analysis to 
        maintain pipeline and domain awareness with particular focus on 
        critical systems and infrastructure;
  <bullet> Identifying industry best practices and lessons learned; 
        and,
  <bullet> Maintaining a dynamic modal network through effective 
        communications with the pipeline industry and Government 
        stakeholders.

                              PSD ACTIVITY

    Following the direction of HSPD-7, PSD developed a comprehensive 
security program that is predicated on the agency's interaction with 
the pipeline industry.
    PSD regularly conducts Corporate Security Reviews (CSR) of major 
pipeline operators to assess their security plans and implementation. 
As the PSD staff conducts on-site reviews, the CSRs also help to 
establish working relationships with key security representatives in 
the pipeline industry.
    To date, PSD has conducted 115 CSRs of the largest operators in the 
United States, and it has also conducted Critical Facility Inspections 
(CFI) of the most sensitive locations in the pipeline industry. The 
CFIs are in-depth reviews that focus on the implementation of security 
plans and actual practices at critical facilities. The results of these 
reviews have been used to develop security ``smart practices'' that can 
be shared across the industry. According to the PSD, they completed 
CFIs of all identified locations earlier this year.
    PSD has also promoted the use of the Transportation Security 
Operations Center (TSOC) as a point of contact for pipeline operators 
to report any significant security incidents or suspicious activities. 
The TSOC is staffed 24 hours per day and disseminates the information 
it receives to the appropriate agency or division for response.
    In May 2007, TSA issued the Transportation Systems Sector Specific 
Plan and Pipeline Modal Annex that is part of the National 
Infrastructure Protection Plan. The Pipeline Modal Annex has many 
items, including: A description of risk-based security programs, 
security program management, and site and program assessment.
    Most recently, PSD completed more detailed and specific Pipeline 
Security Guidelines in December 2010. The pipeline industry has worked 
with PSD for several years in the development of the Pipeline Modal 
Annex and generally supports the recently issued Pipeline Security 
Guidelines. TSA built on the previous guidance issued in 2002 and the 
requirements of the 9/11 Commission Act of 2007 to provide specific 
Federal recommendations for pipeline safety security practices.

                            TSA AND INDUSTRY

    Communicating and coordinating with stakeholders enables the public 
sector to have an uninhibited view of the pipeline industry's approach 
to security. With this enhanced perspective, PSD not only gains a clear 
and accurate view of the industry's capabilities, but is also able to 
identify any gaps that may exist. The private sector benefits from this 
collaboration because any potential shortfalls identified by PSD can 
quickly and effectively be communicated to the industry and acted on 
immediately. Again, the goal of providing appropriate security for the 
pipeline industry as a component of our Nation's critical 
infrastructure is one that is shared.
    Overall, PSD has assumed a responsible approach to pipeline 
security. PSD has worked with other agencies, including DOT and the 
Department of Energy (DOE), and with industry, through the Oil and 
Natural Gas Sector Coordinating Council (ONG SCC) and the Pipeline 
Sector Coordinating Council (Pipeline SCC), to identify effective and 
practical security practices for pipeline operators.
    In accordance with the National Infrastructure Protection Plan 
(NIPP), a Critical Infrastructure Partnership Advisory Council (CIPAC) 
Oil and Natural Gas (ONG) Joint Sector Committee was established to 
provide a legal framework for members of the Energy and Transportation 
Sector GCC and ONG SCC to engage in joint critical infrastructure 
protection discussions and activities, including those involved with 
pipeline security. Nineteen industry trade associations came together 
to form the ONG SCC to help facilitate communications between industry 
security professionals and representatives of the Energy Sector 
Government Coordinating Council. Soon after, the Pipeline Working Group 
(Pipeline Sector Coordinating Council) was formed to further improve 
communication and collaboration among pipeline operators and various 
Government agencies.
    The ONG SCC provides a forum for industry to discuss relevant 
security issues and coordinate and communicate with agency 
counterparts. Quarterly meetings are held with SCC representatives and 
also jointly with members of the Government Coordinating Council (GCC). 
The ONG SCC serves as a point of coordination for broad communication 
with the security representatives of the oil and natural gas industry 
as well as partners in State and Federal Government. Members of the ONG 
SCC provided significant input to TSA during the development of the 
Transportation Sector Specific (Security) Plan that was included as 
part of the National Infrastructure Protection Plan process.
    The ONG SCC has several different working groups that specialize in 
key security areas, such as Information Sharing--Homeland Security 
Information Network, Cyber Security, and Pipeline Security. The 
Pipeline Working Group includes representatives of industry operators 
and four of its major trade associations: AOPL, API, the American Gas 
Association (AGA), and the Interstate Natural Gas Association of 
America (INGAA). The Pipeline Sector Coordinating Council also meets 
periodically with its counterparts in the Pipeline Government 
Coordinating Council, which is chaired by a representative of PSD and 
includes representatives of DOT and other Federal agencies. Members of 
the Pipeline Working Group have provided substantial input to TSA PSD 
to assist in its development of the 2010 Pipeline Security Guidelines. 
The Pipeline SCC and GCC have proven to be positive venues to improve 
communications between industry and the agencies.
    PSD also interfaces with industry by providing important services 
and tools, such as Pipeline Security Training videos, conferences, and 
forums to share information and experiences to improve security at our 
Nation's critical infrastructure. For example, TSA conducts an annual 
International Pipeline Security Forum in partnership with Natural 
Resources Canada that brings together pipeline security professionals 
and representatives of other appropriate Federal agencies that have a 
nexus. These programs have not only provided a means of evaluating the 
actual security practices of the pipeline operators, but have also been 
a means of promoting industry familiarity with the responsibilities and 
personnel of the PSD.

                     AREAS OF SUGGESTED IMPROVEMENT

    As I have mentioned above, the pipeline industry has a constructive 
working relationship with PSD. In light of the oversight role today's 
hearing will play in the reauthorization of TSA, it is important to 
highlight a few areas of concern. Rarely will industry and regulators 
agree on every point or proposal, however, we believe there are some 
issues that could be resolved at DHS with improved communication and 
reasoned decision-making.
    For instance, this subcommittee is well aware of the need and 
importance of the Chemical Facilities Anti-Terrorism Standards, also 
known as CFATS. Section 550 of the Homeland Security Appropriations Act 
of 2007 required DHS to establish risk-based security standards for 
chemical facilities. Contrary to initial indications from DHS, CFATS 
regulations were expanded to include operators of gasoline storage 
facilities by the incorporation of a ``flammable mixtures'' provision 
late in the regulatory development process. AOPL, API, and the National 
Petrochemical and Refiners Association (NPRA) filed joint comments 
asking DHS to review the technical deficiencies of its rulemaking, and 
industry suggested the creation of a technical panel comprised of 
independent experts to assist the agency in making its tiering 
decisions. For over 2 years, industry has awaited a formal reply from 
DHS in response to what we believe to be very legitimate scientific 
concerns about how CFATS risk decisions were determined with respect to 
flammable mixtures in above-ground storage tanks.
    Another, and less technical, example at DHS is the issue of 
proposed redundant background checks through proposals such as the 
Personnel Surety Program (PSP). The liquid pipeline industry and others 
within the Oil and Natural Gas Sector support strong and effective 
risk-based security standards of high-risk facilities in order to 
ensure safeguards are in place to protect critical infrastructure. Our 
industry supports credentialing programs that can efficiently and 
seamlessly check Personally Identifiable Information (PII) against the 
Terrorist Screening Database (TSDB). However, we are concerned that 
DHS's proposal would create significant new administrative burdens by 
making personnel vetting applicable to facilities rather than 
individuals, with no enhancement to security. Rather than creating a 
redundant PSP to be administered by the Chemical Compliance Division, 
it would be more logical for DHS to leverage the existing 
Transportation Worker Identification Credential (TWIC) program to 
provide personnel security clearances at chemical facilities. The TWIC 
program is already administered by TSA and the U.S. Coast Guard, and is 
widely accepted and utilized in the pipeline industry. Making specific 
enhancements to the existing, in-place TWIC program as opposed to 
initiating what appears to be a redundant and duplicative PSP effort is 
a more logical approach. Despite the many talented and well-intentioned 
individuals within DHS, this general lack of transparency in their 
decision-making process hampers productive dialogue between Government 
and industry, and ultimately, threatens to errantly commit precious 
resources needed to help ensure a secure National infrastructure. I 
want to thank this subcommittee and its Members for addressing this 
issue in your recent mark-up of HR 901. It is our hope that this 
proposal will be a part of a final CFATS reauthorization bill this 
year.
    In closing, thank you again for the opportunity to appear before 
you today and share my views and can personally attest to the 
productive working relations the pipeline industry has with PSD. I 
would be happy to answer any questions that you may have.

    Mr. Rogers. Thank you, Mr. Reese, for your testimony. As I 
pointed out a little while ago, your pipeline runs through my 
district, so I really like it.
    Our fifth witness Mr. John Risch. He is the alternate 
National legislative director for the United Transportation 
Union.
    The Chairman now recognizes Mr. Risch for your testimony.

 STATEMENT OF JOHN RISCH, III, ALTERNATE NATIONAL LEGISLATIVE 
             DIRECTOR, UNITED TRANSPORTATION UNION

    Mr. Risch. Chairman Rogers, Ranking Member Jackson Lee, 
Members of the committee, on behalf of the 85,000 members of 
the United Transportation Union, I would like to thank you for 
the opportunity to address this committee today.
    UTU represents thousands of transit and rail employees. 
Each and every day, our members are on the front lines of the 
battle to keep our transportation network secure. Our members 
are committed to work with their employers and our Government 
to improve our lines of defense against those who wish our 
Nation harm. UTU has offered to work with our Nation's 
railroads on security training and has had positive discussions 
on possible joint partnerships.
    A primary concern to our rail members is the lack of locks 
for doors and windows on locomotive cabs. We believe it should 
be a requirement that all locomotives be equipped with locks 
for the doors and windows to prevent unauthorized entry into 
the operating compartment. When windows and doors are closed 
and locked, the locomotive cab needs to be air-conditioned. 
Certainly, in cold weather, operating crews will close the 
windows and doors. However, in hot weather, without air-
conditioning, operating crews are forced to open the doors and 
windows, compromising their personal safety and that of others.
    Currently, there is no Federal standards for equipping 
locomotives with air-conditioning or for secure locks on doors 
and windows. But we are pleased to say that the Federal 
Railroad Administration is currently developing regulations 
that address the issue of air-conditioning, but not on locks 
and doors.
    I would like to clarify, in my written statement I did 
mention a terrible incident that happened in New Orleans last 
year. I have now been told by the railroad involved that the 
cab did have locks on the windows and that particular 
locomotive cab did have air-conditioning.
    In regards to our bus members, operations in the bus 
industry, we recommend that bus terminals be secured with 
fencing, video cameras, security personnel, or a combination of 
all three. Many bus yards are not fenced, and many that are do 
not have locked gates.
    In regards to security training for employees, we need to 
adequately train hundreds of thousands of transit and rail 
workers across America so that they are ready in the event of a 
terrorist threat or attack. In emergency situations, our 
members are the first on the scene, even before police, 
firefighters, and emergency medical responders, and what they 
do in the first few minutes is crucial to minimizing 
destruction and loss of life. These employees need to know how 
to recognize a potential problem, what protocols to follow for 
reporting and responding to potential threats, and how to 
protect themselves and others from harm.
    This committee worked diligently to address these concerns 
by including comprehensive training in the 9/11 Commission Act. 
That legislation mandated that all front-line transit, rail, 
and over-the-road bus employees undergo live training 
exercises, receive training on evacuation procedures, and be 
instructed on crew and passenger communications and 
coordination.
    Unfortunately, these training mandates are nearly 4 years 
overdue. In fact, this administration has failed to issue a 
notice of proposed rulemaking on these essential training 
issues. We believe this is unacceptable, and further delay only 
perpetuates the existing dangers.
    I worked as a locomotive engineer for 30 years on a large 
freight railroad. In my entire career, my security training 
consisted of watching a 30-minute video in a cubicle by myself. 
The video was well-done, and it urged me to report any 
suspicious activities and how to be more aware of my 
surroundings. However, it was not tailored to my job 
responsibilities, and I didn't learn any specific skills. That 
video, while a good tool, did not constitute meaningful 
training.
    In our industry, training in general has evolved away from 
the classroom and into the cubicle. Where we once had 
discussions with coworkers and instructors, we now have hours 
in front of computer screens with no opportunity to interact 
and ask questions. It is tantamount to training on your own. We 
need legitimate classroom training using security 
professionals. Security training should also be redundant and 
not a one-time, check-the-box exercise for employers.
    In closing, workers must be treated as partners in the 
battle to protect our vulnerable rail and public transit 
systems, and, through proper training, they will be prepared to 
do so. We appreciate this committee's efforts to push for 
meaningful security initiatives. We strongly urge TSA to 
implement the training mandated in the 
9/11 Act to ensure front-line workers are prepared to assist in 
the event of an emergency.
    Thanks again for the opportunity to appear.
    [The statement of Mr. Risch follows:]

                 Prepared Statement of John Risch, III
                             July 12, 2011

    Chairman Rogers, Ranking Member Jackson Lee, and Members of the 
subcommittee, on behalf of the 85,000 members of the United 
Transportation Union (UTU) thank you for the opportunity to testify 
today at this important hearing on transportation security.
    UTU represents thousands of transit and rail employees on our 
Nation's freight and passenger rail systems, including Amtrak. Each and 
every day these workers are on the front lines of the battle to keep 
our transportation networks secure. Our members are committed to work 
with their employers and our Government to improve our lines of defense 
against those who wish our Nation harm. UTU has offered to work with 
our Nation's railroads on security training and have had positive 
discussions on possible joint partnerships.
    A primary concern to our rail members is the lack of locks for 
doors and windows on locomotive cabs. On June 20, 2010, in New Orleans 
a conductor was shot to death and the locomotive engineer was injured 
during an armed invasion and robbery in their locomotive cab. The lack 
of a secure operating cab allowed that individual to easily enter the 
cab and commit this terrible crime. Also in 1998 a commuter train was 
hijacked when an intruder entered the unlocked locomotive cab. The 
locomotive engineer was held at gunpoint and the train was hijacked to 
Philadelphia. We believe it should be a requirement that all 
locomotives be equipped with locks for the doors and windows to prevent 
unauthorized entry into the operating compartment.
    When windows and doors are closed and locked, the locomotive cab 
needs to be air conditioned. Certainly in cold weather operating crews 
will close the windows and doors; however, in hot weather without air 
conditioning, operating crews are forced to open the windows and doors, 
compromising their personal safety and that of others.
    Currently there are no Federal standards for equipping locomotives 
with air conditioning or for secure locks on doors and windows. We are 
pleased that the Federal Railroad Administration (FRA) is considering 
the issue of air conditioning in a pending rulemaking, but 
unfortunately requiring locomotive doors and windows to have locks is 
not part of that rulemaking.
    In regards to bus operations, we recommend that bus terminals be 
secured with fencing, video surveillance, security personnel or a 
combination of all three. Many bus yards are not fenced and many that 
are do not have locked gates.
    In regards to security training for employees, we need to 
adequately train hundreds of thousands of transit and rail workers 
across America so they are ready in the event of a terrorist threat or 
attack. Properly training frontline workers is vital to surface 
transportation security and is a cost-effective way to secure and 
safeguard our transit and rail networks.
    In the event of an incident or attack, our members are the first on 
the scene--even before police, fire fighters, and emergency medical 
responders--and what they do in the first few minutes is crucial to 
minimizing destruction and loss of life. On the transit and passenger 
rail side, workers are often called upon to evacuate passengers away 
from an incident. On freight railroads, workers are needed to help 
mitigate damage to facilities and equipment and alert first responders. 
These employees need to know how to recognize a potential problem, what 
protocols to follow for reporting and responding to potential threats, 
and how to protect themselves and others from harm.
    Officials from the Federal Transit Administration (FTA) and the 
Transportation Security Administration (TSA) have testified before 
Congress on the need for, and the inherent value of, worker security 
training. Yet too little has been done to actually ensure that 
employees receive adequate security training because railroads and 
transit systems are not currently required to provide adequate 
training.
    This committee worked diligently to address these concerns by 
including comprehensive security training in the 9/11 Commission Act. 
That legislation mandated that all front-line rail, transit, and over-
the-road bus employees undergo live training exercises, receive 
training on evacuation procedures, and are instructed on crew and 
passenger communications and coordination. Unfortunately, these 
training mandates are nearly 4 years overdue. In fact, this 
administration has failed to issue a Notice of Proposed Rulemaking 
(NPRM) on these essential training issues. We believe this is 
unacceptable and further delay only perpetuates the existing dangers.
    In many cases security training consists of a pamphlet or a short 
video. I worked as a railroad engineer on a large freight railroad for 
30 years and my entire security training consisted of watching a 30-
minute video in a cubical by myself. The video was well done and it 
urged me to report any suspicious activities and to be more aware of my 
surroundings. However, it was not tailored to my job responsibilities 
and I didn't learn any specific skills--I was simply instructed to be 
more vigilant. That video, while a good tool, did not constitute 
meaningful training.
    In the railroad industry there are enormous amounts of operational 
testing that takes place, where supervisors spy on workers hoping to 
catch someone committing some petty infraction of the rules. We have 
had supervisors sneak around in camouflage clothing, use unusual 
vehicles and use other means to disguise their identity. Many of my co-
workers didn't report suspicious activities because they believed that 
the person sneaking around was probably a supervisor.
    Another concern to us is the way in which training in general has 
evolved away from the classroom and into the cubical. Where we once had 
discussions with instructors and co-workers, we now have hours in front 
of computer screens with no opportunity to interact and ask questions. 
This is tantamount to ``training on your own.'' We need legitimate 
classroom training, using security professionals. While videos and 
computer-based training can be supplements, they are not a meaningful 
substitute for classroom training. Workers need the opportunity to ask 
questions about their particular workplaces and need training that is 
designed to fit their craft and work environment.
    Security training should also be redundant, not be a one-time, 
check-the-box exercise for employers. Workers cannot be expected to 
retain and apply skills that they were exposed to only once. Regularly 
scheduled follow-up training is critical to make sure workers are 
effective on our Nation's front lines.
    Some additional recommendations are:
  <bullet> The security of major rail terminals where chemicals are 
        stored requires increased protection whether by additional 
        fencing, video surveillance, security personnel, or a 
        combination all these tactics.
  <bullet> We recommend additional track inspections to verify the 
        integrity of the right of way as a cost-effective way in which 
        to protect our rail system.
  <bullet> We believe that the current FRA regulation on glazing 
        standards provides an insufficient level of protection for crew 
        members. Those standards require locomotive glass to withstand 
        the ballistic impact of a .22 caliber lead bullet of 40 grains. 
        This standard has been in effect for decades and is outdated. 
        Most firearms far exceed this level of protection. While there 
        are firearms that can penetrate almost any glass thickness, we 
        don't believe that is a legitimate reason to do nothing. If a 
        glazing is available that can protect operating employees from 
        most of the firearms available to today, then Congress should 
        require the installation of such glazing on locomotives.
    In closing, workers must be treated as partners in the battle to 
protect our vulnerable rail and public transit systems, and through 
proper training they will be prepared to do so.
    We appreciate this committee's efforts to push for meaningful 
security initiatives. We strongly urge TSA to implement the training 
mandated in the 9/11 Act to ensure front-line workers are prepared to 
assist in the event of a transportation security incident.
    Thank you for the opportunity to share the United Transportation 
Union's views.

    Mr. Rogers. Thank you for that testimony.
    I thank all the witnesses.
    We will start with questions now, and I will lead off.
    I want to follow up on that point right there, because I 
met with Chief Dunham before the hearing, and she talked about 
the extensive training that her transit employees undergo.
    Is it automated like that? Describe what your training is 
for your transit security individuals.
    Chief Dunham. Yes, sir. As we spoke earlier, we were 
talking about the fact that you have to train every employee. I 
think as we were talking about with the airlines, the flight 
attendants, everyone, whoever is going to be the first person 
there. So you have to train everyone, not just specialized 
teams of people, but you have to train everybody. So we make 
sure that every one of our employees is trained on any active 
shooter----
    Mr. Rogers. Is it just watching videos, or do they train--
--
    Chief Dunham. Oh, no, no. There is live instruction. It is 
a layered approach. So there is live instruction. There is 
hands-on, because I think we learn from hands-on, as well. So 
it is a lot of participation--a lot of participation in 
whatever the training is.
    So, I think it--and the good thing about it is that all the 
training is grant-funded.
    Mr. Rogers. Right.
    Mr. Risch, you talked about, all you had was a video to 
watch. Do you still see that occurring in any of the 
transportation modes that we are talking about here today?
    Mr. Risch. Well, I only represent the bus and the rail 
industry. It varies from railroad to railroad, bus company to 
bus company. It is not uniform. Currently, there is nothing 
requiring the length and type of training that is going on.
    The Federal Railroad Administration is actually adopting 
some regulations on training standards, but they only apply to 
operational rules in Federal regulations. They don't apply to 
security training. Through that process, we have urged more 
comprehensive hands-on training.
    Mr. Rogers. Well, that is why I wanted to visit that, 
because my interaction with all the various transportation 
sectors has led me to believe that the training is, today, more 
detailed than having people watch a video. If that is 
prevalent, you know, we want to know about it so we can work to 
change that fact.
    I want to go to Mr. Farmer.
    You talked in your opening statement about the need for 
better intelligence sharing, and you have told me that months 
ago in a private meeting. Are you seeing any improvements? If 
so, or even if not, what can we do in the reauthorization that 
would facilitate better communication to and from TSA to the 
rail industry?
    Mr. Farmer. Sir, we are seeing improvement in at least a 
willingness to discuss changes in approach.
    We have presented our intelligence requirement to a number 
of entities: TSA's Office of Intelligence, DHS's Office of 
Infrastructure Protection. We even had a chance to participate 
in a stakeholder outreach program with the Office of the 
Director of National Intelligence.
    The problem is, there was a lot of nodding of heads that it 
is a good idea, this focus on the preparatory aspects of 
terrorist operations, but there does not seem to be a 
willingness to make the necessary adjustments in priorities for 
any one of those entities to take that on.
    Mr. Rogers. Well, and that is what I am asking. Is there 
something that you would like to see in the reauthorization 
language that would set that framework so that you would have a 
higher degree of confidence in this necessary back-and-forth of 
information?
    Mr. Farmer. I think what the authorization act could 
discuss, in particular, are two areas: A rail security 
strategy--let's boil this down to some fundamental priorities.
    One of the best documents you can read is National Security 
Decision Directive 75. It was put out by the Reagan 
administration in 1983. It is now declassified. It was the 
strategy that won the Cold War. It is 8 pages long.
    Mr. Rogers. Uh-huh.
    Mr. Farmer. Most of what you see coming from the Federal 
Government is in the dozens to hundreds of pages in length. So 
that is one area; let's talk about some very core, fundamental 
priorities that we can measure each other against.
    On the issue of information sharing, there is a lot of 
volume shared but, often, it is after the fact. We are told 
that on a certain date at a certain time an event happened, it 
involved this type of explosive, and there were this many 
casualties. What we are not getting is an analysis of, well, 
what happened on the beforehand?
    So, really, what we are looking for is some entity in the 
Federal Government--and I think TSA is the best place to do 
this, with its Office of Intelligence--to do that analysis, to 
become for the Federal Government the resource for 
transportation-related security intelligence.
    DHS has an excellent tool; it is a diagram that shows the 
various steps of the terrorism planning cycle. But what we have 
never seen is someone break down an operation or a composite of 
operations against that cycle. Then we can look at it and see 
where opportunities for security existed that could have made a 
difference.
    So in terms of an authorization, setting as a priority for 
preparing security professionals in railroads, in transit 
agencies, in trucking, to understand the nature of the 
adversary they face by knowing what we can know. These attacks 
have happened. They have happened overseas. We have had 
disrupted plots here. We are not drawing enough from what can 
know about how this is done.
    Mr. Rogers. Excellent.
    My time is up, and I look forward to asking some more 
questions in our second round.
    The Chairman now recognizes the Ranking Member for any 
questions she may have.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    I have so many, and I am going to ask as many as I can. I 
would ask you to help me with your answers so that I can ask 
all of you questions based on some very, very important 
testimony.
    The continuing theme that I heard is we need training, 
training, training, and we need access to information to help 
us be able to interpret the threat that is around us. I thank 
you for that, and I think that is going to be very important as 
we move toward an authorization bill.
    If I might ask Mr. Risch specifically, I have the privilege 
of representing Houston, Texas, that has as its insignia or its 
motto--insignia, let me say--is a railroad as the symbol of our 
city. That means that we have rail lines through residential 
neighborhoods and near schools and a lot of facilities where 
people are ingressing and egressing.
    Tell me, if you could create a training program for this 
environment, what types of things would you focus on?
    Mr. Risch. Well, certainly, you need to train people to be 
vigilant and watch out for suspicious activity and a real 
opportunity to report those to the right people so action can 
be taken.
    I think what you need is a classroom environment, where an 
instructor is there, where the individual workers can interact 
with the instructor and their co-workers saying, well, you 
know, discuss things like there may be places where chemical 
cars are parked or routinely stored, that you have to be very 
diligent in those types of areas.
    There would be a host of things--I think people that are 
trained in security and know what to look for would be the 
appropriate ones to do the training, not some----
    Ms. Jackson Lee. Video.
    Mr. Risch [continuing]. Railroad guy or video that really 
doesn't understand the potential threats.
    Ms. Jackson Lee. So we need hands-on training.
    Mr. Risch. That is correct.
    Ms. Jackson Lee. Mr. Reese, working with the pipelines 
certainly is very familiar in the State of Texas. You had an 
incident that just occurred in Montana. The potential for 
terrorist threats against pipelines, I think, is great.
    What specifically can we do to add to the securing of 
pipelines, training and otherwise?
    Mr. Reese. That is a great question, ma'am.
    What I see going on right now with TSA is a lot like what I 
have heard elsewhere: The default is a video, because it 
leverages so much in such an efficient manner. I am not 
necessarily opposed to video as a platform for training. I 
think more importantly is knowledge transfer. So if there is 
some kind of confirmation process to ensure that the instructor 
is qualified and that the individuals who sat in on the 
training actually understand the mission, I think video can be 
incorporated in an overall training program.
    What TSA chooses to do is provide video that is targeted 
for both law enforcement and operators, which I think is 
effective because the interests are slightly different, the 
needs for information are slightly different, but they both 
need to have training.
    I also see more in-depth training being offered that would 
be, by default, reserved for the Government, the public side of 
the house, but that is extended to the private side based on 
positions and so forth inside companies, where there are 
security experts and so forth. That is helpful. There are also 
forums and the clearance process that allows people in industry 
to have access to classified information on a need-to-know 
basis.
    Ms. Jackson Lee. Maybe I will come back to you, because I 
wanted to focus on what you can do to secure your pipelines. 
But let me quickly ask--and I appreciate that answer.
    Let me quickly ask the chief, Mr. Rojas, and Mr. Farmer:
    Chief, what would happen to you with the underfunding of 
the Transportation Security Grant Program?
    Mr. Rojas, could you re-emphasize the importance of 
streamlining TWIC, making it the single security document, in 
helping us with security?
    Mr. Farmer, can you tell us how we can harmonize TSA's rail 
security standards and expectations with the issues and 
concerns you have with the American Railroad Association?
    Let me go to the chief first, please. Thank you.
    Chief Dunham. Yes, ma'am, thank you. That is a great 
question.
    In the State of Georgia, we are one of the only transit 
agencies to not really receive any grant funding--or, any kind 
of subsidies from the State of Georgia. So grant funding is the 
only thing that we have in order to target harden our system. 
So, without that funding, you know, we would be left 
susceptible to any kind of terrorist threats.
    So it is very important for us, and that is why we really 
need to continue this program and get more allocations. Because 
we are considered a Tier 1 agency, which means that, you know, 
a terrorist attack is likely to occur in our city. So we 
definitely would need that funding.
    Ms. Jackson Lee. We thank you.
    Mr. Rojas.
    Mr. Rojas. Thank you. We believe----
    Ms. Jackson Lee. Microphone.
    Mr. Rojas. Sorry.
    We believe the TWIC credential can certainly function as an 
excellent both security threat assessment and an access 
credential for multiple facilities. As I explained in my 
comments, the issue is that we enter so many different types of 
facilities, from maritime to rail yards. As Mr. Reese explained 
in his comments--and that was not purposely done so--was the 
fact that there are so many areas that we have to gain access 
to, that if each one of these different facilities required a 
separate credential and a separate access card per se and a 
separate background check potentially, we would find ourselves 
wearing too many credentials and having to undergo too many 
background checks.
    So I think we can arrive at a point where we have a single 
process and a single system. We recognize that we have to make 
the credentialing process better, and I think TSA is aware of 
that, too. So we are very supportive of the TWIC concept.
    Ms. Jackson Lee. Mr. Farmer, quickly on my question. Thank 
you.
    Mr. Farmer. Yes, ma'am.
    The challenge that the railroads face, because they operate 
across many States, and particularly the Class I railroads and 
Amtrak, is that, because the TSA surface inspectors are 
supervised locally, the priorities they pursue, the 
interpretations of the regulations that they bring to bear, can 
vary significantly from place to place.
    So we have had situations where railroads are taking 
actions that are seen as compliant by some TSA officers in the 
field and yet are treated as violations by others. We believe 
some form of oversight from the headquarters level or through 
these regional security inspectors that I referenced would be a 
way to overcome that problem.
    I will give you a very practical example of what happens. 
The last statistic I heard, at a meeting we had with TSA in 
March in Fort Worth, was that the agency had issued 17 letters 
of investigation alleging potential violations of TSA security 
regulations. Seven of those had to be withdrawn by TSA 
headquarters because they simply did not state a meritorious 
case. Yet when those letters show up at the railroad, they are 
talking about fines measured at $10,000 per violation. Of the 
remaining 10, none actually alleged any sort of noncompliance 
with a substantive security issue at hand. They were alleging 
errors in documentation.
    The concern, again, is that, when these standards vary, you 
have a situation where 40 percent of the letters of 
investigation sent to railroads are kicked out because they are 
simply not meritorious. Better coordination between the 
headquarters, where the inspectors are following the 
headquarters' priorities, can bring that consistency, so a 
railroad, Class I freight railroad, Amtrak, can rely upon a 
similar interpretation of a rule wherever it operates.
    Ms. Jackson Lee. Thank you.
    Mr. Chairman, on his point, I just can't imagine not having 
consistent inspectors--which my legislation, H.R. 19, tries to 
address--well-trained Federal inspectors that are consistent 
all over America when they inspect these railroads.
    Let me thank the witnesses.
    Thank you for your indulgence, Mr. Chairman. I yield back.
    Mr. Rogers. I thank the gentlelady.
    The Chairman now recognize the gentleman from Minnesota, 
Mr. Cravaack, for 5 minutes.
    Mr. Cravaack. Thank you, Mr. Chairman. I appreciate it.
    Thank you very much for being here today.
    A real quick question. I understand that, from 2008 to 
2011, we have gone from 175 inspectors to 380 inspectors.
    In your opinion, Mr. Farmer, do you think that that has 
increased the security of your system while, at the same time, 
maybe the inconsistencies you were just speaking of are because 
of the rapid deployment of the security force? What is your 
opinion?
    Mr. Farmer. The rapid increase of the force--and I think 
now it is actually over 400, is the most recent statistic that 
I heard. The rapid increase of the force has caused a departure 
from what was the fundamental premise of the hiring of those 
inspectors at the outset of the program back in 2005-2006. 
There was very much then a focus on hiring people with a rail 
background, a transit background. One of the concerns now is 
that they are not getting those people into these positions. 
They don't have extensive rail or transit experience. They are 
not bringing to bear a familiarity with the environment.
    That does create safety concerns, since, often, railroads 
are the entities that are orienting the inspectors to the 
dangers in the environment. But, more importantly, the lack of 
familiarity with rail generally does create a situation where 
these sorts of inconsistencies become more likely, especially 
if there seems to be a disconnect, often, between what 
priorities are set at the headquarters and what gets executed 
in the field.
    Mr. Cravaack. Mr. Rojas, do you feel the same way?
    Mr. Rojas. The issue for us has to do with, obviously, we 
have a much larger population of trucking companies out in the 
field, with about 600,000 trucking companies registered with 
the U.S. Department of Transportation for interstate commerce 
and another 500,000 registered for intrastate commerce.
    So we need to have some level of harmonization in that 
area. I think it would be important, because we have had some 
issues where inspectors have come up, some of the VIPR teams 
actually, we have had some issues with VIPR teams asking truck 
drivers if they actually have a TWIC, for example, and for no 
specific reason. They might not be near a port.
    So we have some issues in this area, and we certainly, you 
know, look forward to working with TSA and the committee on 
this issue.
    Mr. Cravaack. So you probably think that training of the 
inspectors themselves is the issue?
    Mr. Rojas. Well, the problem is that we deal with a lot of 
different law enforcement agencies. If you think about it, the 
commercial vehicle inspectors are State troopers. We obviously 
deal with different--on the highways, we deal with a number of 
different law enforcement agencies. I think there is a concern 
by the drivers sometimes, in dealing with too many law 
enforcement people, you know, there is a sense that it is a bit 
overwhelming for the drivers in how many law enforcement 
agencies we have to deal with.
    So, all of a sudden, they have one more inspector asking 
them for yet another credential or another training component 
or something like that. It gets a little overwhelming for the 
truck drivers.
    Mr. Cravaack. While they are trying to get their freight 
delivered on time.
    Mr. Rojas. That is correct.
    Mr. Cravaack. Chief Dunham, could you expound, ma'am?
    Chief Dunham. Yes, sir. Thank you.
    One thing to keep in mind is that the increase in security 
inspectors does not mean more security. I think people get 
confused by that. They are kind of an oversight. Sometimes it 
is a little bit much for them to come in, like Mr. Rojas said, 
yet another inspector to come in. I need more boots on the 
ground. I need more people in the field.
    Mr. Cravaack. Thank you, ma'am.
    Mr. Reese, would you care to comment, sir.
    Mr. Reese. I would echo Mr. Rojas' comments concerning 
harmonization. I don't know that it is as much a training issue 
as it is a standardization issue. If the collective inspectors 
interpret their regs the same way, approach the work the same 
way, then you get a more consistent application of the 
inspection process. I will hold it there.
    Mr. Cravaack. Thank you, sir.
    Mr. Farmer, I am very fortunate to have International 
Falls, Minnesota, in part of my district, which is a big rail 
point for border security.
    Can you tell me a little bit about the TSA's rail security 
inspection activities at points such as that, which has a lot 
of rail go through it? I was wondering if you could expound 
upon that a little bit?
    Mr. Farmer. Well, I think, sir, in areas like that, you 
would have inspections from the two DHS components, the TSA 
surface inspectors, looking to any issues involving the various 
action items they oversee or regulations, particularly 
pertaining to transport of hazardous material. Obviously, you 
also have potential interest from Customs and Border Protection 
looking at issues there as commerce goes back and forth across 
the border.
    The railroads spend an awful lot of time and effort in 
cooperation with both CBP and TSA in this area. In particular, 
with Customs and Border Protection, there are joint working 
groups that focus specifically on enhancing cross-border 
security. Some of our railroads actually operate across border, 
and particularly on the northern border, Canadian National and 
Canadian Pacific.
    Each of those railroads has their own rail police 
departments. When the traffic crosses the border, when it goes 
through the Customs and Border Protection checkpoint, there is 
a screening system that evaluates those cars to look for any 
indications of contraband.
    So it is a good collective and extensive effort where 
significant attention is paid both by the rail industry and the 
Government to try to mitigate and minimize the use of a train 
as a means to get something illicit into the country.
    Mr. Cravaack. I have been up there to see those teams. They 
are great teams up there.
    With that, sir, I will yield back.
    Mr. Rogers. I thank the gentleman.
    The Chairman now recognizes the gentleman from Michigan, 
Mr. Clarke, for any--all right. Well, then we will go back to 
the Chairman.
    One of the things that I wanted to visit--and I have talked 
with most of you about this privately--is, do you see any rules 
and regulations that are still hanging out there that really 
need to be pruned back that are no longer relevant or 
applicable or are duplicitous?
    Let's start with Mr. Rojas on that.
    Mr. Rojas. Thank you, Mr. Chairman.
    I think the Obama administration actually issued an 
Executive Order, 13563, in relation to this very issue of 
overlapping regulations, and we certainly submitted comments. 
Obviously, for us, the major one, the first one is the 
credentialing, as you well know.
    Some of the other issues that we have been dealing with 
relate to some of the validation process of some of the audits 
or visits that multiple agencies do sometimes. I know TSA has 
been developing a corporate security review. At the same time, 
the U.S. Department of Transportation has been doing security 
compliance reviews. It just seems to us that there should be an 
ability to coordinate and communicate a little closely as to 
what the results of each are so we don't get multiple visits 
per se.
    At the same time, many of our carriers are also members of 
the Customs-Trade Partnership Against Terrorism, and they have 
undergone validations for C-TPATs. So the number of programs 
out there is certainly a concern to our industry, in that 
sense.
    Mr. Rogers. Excellent.
    Mr. Farmer.
    Mr. Farmer. In the area of security, one of the challenges 
that you run into is overlap, at times, between regulations 
maintained by the Department of Transportation and then those 
subsequently put in place by TSA--or, to be put in place by 
TSA. There was reference earlier to the rulemakings under the 
9/11 Act for training, and there is also one that pertains to 
security plans.
    Specifically with TSA, the predominant regulation that has 
an effect on the railroads is 49 CFR part 1580. It focuses on 
reporting of security concerns, appointment of a security 
coordinator, and, in particular for freight railroads, specific 
requirements that pertain to the transport of toxic inhalation 
hazardous materials.
    We do believe that those regulations, now in effect for a 
couple of years--the process to develop them started 5-plus 
years ago--that there is an opportunity to look at some of the 
specific processes under those rules to determine whether they 
are necessary at this point.
    In the area of training, the railroads are meeting already-
existing Department of Transportation requirements to emergency 
preparedness training. As TSA looks to regulate in that area, 
it is very important that you harmonize that or that one agency 
takes the field so that you have one set of requirements that 
pertain.
    As Mr. Rojas has pointed out, DHS has acted upon the 
Executive Order calling for a review. One concern we have, 
though, is, the document that was accomplished in the Federal 
Register seemed to indicate the focus of that review would be 
only on rules that were 5 years old or more. With DHS, it has 
not been in existence that long. Particularly in the area of 
surface transportation, essentially any regulation that is put 
out has come out within the past 5 years. So, in a sense, they 
have taken that off the table.
    We would hope that the Department would take a broader look 
at that action on the President's Executive Order, look at 
regulations as they exist, and also look at ones that have been 
legislatively mandated for their necessity at this point.
    Mr. Rogers. Okay.
    This will be for Mr. Farmer and Chief Dunham. Currently, 
TSA has separate offices for freight, rail, and mass transit. 
Do you support this structure or not?
    Chief Dunham.
    Chief Dunham. I do. I do support it, because we do totally 
different things, and our challenges are totally different. So 
I do support having two different structures for----
    Mr. Rogers. How about you, Mr. Farmer?
    Mr. Farmer. Sir, I think a split between freight rail and 
mass transit is sound. We can run into difficulties in 
coordination, however, with passenger railroads.
    Often, freight and passenger railroads operate on the same 
infrastructure. So it is important there is a common awareness 
within Government of what the railroads are doing collectively 
for security. Often, because they are on the same routes, 
freight railroads are doing things that benefit passenger rail 
security and vice versa. Some of the investments, particularly 
through the grant programs that this committee has been so 
instrumental in making happen, have benefits that accrue to 
freight railroads when passenger railroads are recipients.
    In the AAR, we have actually formed a joint committee, a 
freight and passenger coordinating committee, specifically to 
ensure that, from a security perspective, as well as operations 
and safety, freight and passenger rails are working well in 
concert together.
    We would just ask that when TSA considers matters 
pertaining to rail that they look at it from that integrated 
approach, that these are not separate channels, that there is 
many common synergies that can be gained in passenger and 
freight rail security.
    Mr. Rogers. Okay.
    My last question is for Chief Dunham.
    Your system is literally a leading system on the security 
front. It is just very impressive. You know, I feel strongly 
about your closed-circuit cameras and how far you have come 
with those and plan to go and, of course, canines, which is my 
pet issue.
    But I would like for you to speak briefly on how the VIPR 
teams fit into your operations.
    Chief Dunham. We are very fortunate in Atlanta to have a 
really good working relationship with our VIPR team with the 
FAM, under the Federal Air Marshals program. The VIPR teams are 
a great resource for us, because when you don't have extra 
resources, you can call the VIPR teams in. They are acclimated 
to the rail environment, and so they come in, especially for 
special events, large-scale events, they come in, and they 
blend in to our environment.
    So there are an extra resource, an added resource for us. 
So we have been really fortunate and have a great working 
relationship with the VIPR teams.
    Mr. Rogers. Excellent.
    That is all I have. The Ranking Member is recognized for 5 
minutes if she has any additional questions.
    Ms. Jackson Lee. I thank the Chairman very much.
    Mr. Farmer, you have raised some very important issues on 
how we can make our inspectors really focus in on the work that 
would secure the railroads. So I raise with you a question of 
your support for the establishment of a surface inspector 
office at TSA which would improve oversight and training and 
would give greater attention to surface programs. The provision 
is in H.R. 1900.
    Mr. Farmer. Interestingly enough, I actually worked at TSA 
when the program started. At its outset, it was very much 
coordinated from the headquarters level, which did enable some 
substantial progress in some key areas to take place: In 
particular, the arrangements between the railroads and transit 
agencies on security action items that each agree to, and then 
the transit and rail communities agreed to have inspectors come 
in and evaluate those.
    In both areas, in freight rail and in mass transit and 
passenger rail, a substantial value accrued from that 
coordinated effort driven by well-defined priorities: Assessing 
action items and producing reports that proved valuable to TSA 
in developing its programs and certainly proved valuable to 
railroads, passenger and freight, in looking at how well they 
were doing and seeing where opportunities for improvement may 
exist.
    The regional security inspectors that I referenced earlier 
were actually specifically appointed to achieve the purpose 
that you have referenced, to bring that oversight, to bring 
that consistency. In fact, the letters that appoint them are 
very expressive in how the railroads should be willing and able 
and, certainly, frequently take advantage of this position. 
But, unfortunately, it seems that in the actual implementation 
of those inspectors, the original inspectors have not been able 
to do the job in the way that the letters indicated they would. 
They are not even, actually, in the organizational structure 
for the inspectors in the field.
    So some approach that brings back a marrying of the 
priorities that the field inspectors have with the policies and 
priorities that are being set by TSA headquarters. Often, that 
is a concerted effort between the modal divisions, like the 
freight rail division, mass transit division, with the 
representatives of the industry--railroad officials, transit 
officials, people in my position.
    So, whatever approach can get us back to that marrying of 
priorities between the headquarters and the activities in the 
field is one that I think would be beneficial across the board.
    Ms. Jackson Lee. The intent of the surface inspector office 
would be just that, and also to focus on the security side of 
an inspection, things that would prevent harm from coming to 
the railroad processes and their business. Certainly, I think 
it is important to look at paperwork, but I think our resources 
on the Transportation Security Administration should be focused 
on what is there that is threatening that facility.
    Would you agree to that?
    Mr. Farmer. Absolutely, ma'am. I think the focus should be 
on the substance of what is taking place in security in the 
railroad. It is a very positive story of extensive effort on 
the freight side and the passenger side to put in place 
procedures to make that happen.
    Documents are important, but when an inspector knows, as in 
many of those cases I referenced, when an inspector actually 
knows that the appropriate chain of custody and secure handoff 
occurred with that tank car and yet makes an issue, a 
significant issue, of an error in documentation, that is a 
distraction. That is taking us away from those fundamental 
priorities that should be driving our program.
    Ms. Jackson Lee. We want to make sure we comply with 
regulations, but I understand what you are saying. We need to 
find a way to ramp up one aspect and make sure we are complying 
with the second aspect, which is paperwork and who transferred 
it, but find a way to handle that in a manner that doesn't 
interfere in the real serious work of securing that area. Thank 
you for that.
    Mr. Reese, let me pursue the questions on pipelines. We 
know that pipeline systems are highly automated, and, 
therefore, we are hoping that there is technology of the most 
sophisticated kind that is now being used. So I would 
appreciate you speaking to the latest security technologies 
that may be used on pipelines and what discussions, if you have 
had any, with the Department of Homeland Security regarding 
dealing with improved pipeline security.
    I raise the issue of the incident in Montana, which was not 
a purposeful act, it was not an act by a terrorist, but our 
pipeline system is vulnerable. What can we do, what are you 
doing, what is happening with the security technology for 
pipelines?
    Mr. Reese. Yes, ma'am. First, the overarching challenge 
with pipelines is they are so geographically diverse, there is 
so much asset to protect. What it necessitates from the 
beginning is prioritizing those facilities that are most 
critical to you. TSA does have a pretty prescriptive process by 
which operators are to determine. But, ultimately, the operator 
knows, or should know, what is most at risk and so forth. So it 
begins with prioritizing those things. Their CCTV systems and 
the like can be applied effectively. Across miles and miles of 
pipeline, it is very difficult.
    There are some things working in our favor. For instance, 
because of the DOT and EPA requirements about monitoring rights 
of way, we do have--in our case, at Colonial, we have aircraft 
that fly continuously. Those folks are well aware of the 
security implications, and they know to report abnormalities 
and so forth.
    We still consider our greatest risk to be a third party 
with a big piece of yellow iron, you know, digging a water well 
or some kind of trenching that is outside of our company. 
Basically, a third-party line strike is our greatest risk. But 
it has the added effect of monitoring for surreptitious 
activity, or if someone was out there to do us harm, it was 
detected.
    Beyond that, it is a lot of emphasis being placed on the 
operators to understand what to look for and what to report, 
suspicious activities. We do reach out to our local law 
enforcement committees and invite them to our facilities. We 
get together and look at the facilities and talk, so that those 
folks have it in their mind what we are, what we are worried 
about, what we are not worried about, and are able to respond. 
It is a grassroots, knit-together awareness campaign across the 
system. We even involve the general public and landowners in 
that effort.
    Ms. Jackson Lee. Well, I know your challenge is vast. I 
know pipelines are where we wouldn't even imagine that they 
are.
    Mr. Reese. Yes, ma'am.
    Ms. Jackson Lee. I think, in working with the Chairman, I 
would like to suggest that this is an important issue for this 
committee, and working with our stakeholders, that we need to 
focus on ways that we can ensure the highest level security for 
this infrastructure that is everywhere.
    Let me do a final quick question to the chief.
    You made an interesting point, and it was really unique, 
that you do not get funding from the State of Georgia. So you 
are dependent on resources, I assume, that you might secure 
through the fee process, but very dependent on Federal 
resources. I am reminded, even though it was a strange set of 
facts, of the Olympics and the incident that occurred there. I 
know that you all were heavily rail--had initiated or boosted 
your rail because of the Olympics.
    So tell me, if DHS funding was zeroed out--we mentioned the 
transportation security grants, but I know have you access to 
others; I think you mentioned UASI grants--how devastating that 
would be on a large metropolitan area like yours.
    Chief Dunham. Yes, ma'am. Thank you.
    We are in a unique situation, as I stated, that the State 
of Georgia does not fund transit. So every day is a challenge 
for operating budget. So you can imagine that when you start 
asking for target hardening, things, extra CCTV cameras, or 
intrusion detection for our rail fence line, you know, you have 
to get in line. So, you know, other things take priority.
    So we always have to be conscious of the fact that, if we 
don't have grant funding for certain items, we don't get them. 
So if we would not receive any more grant funding----
    Ms. Jackson Lee. Federal funding.
    Chief Dunham [continuing]. Federal funding, then we would 
be in trouble. I mean, our system would be left vulnerable for 
attacks. Of course we would do as much as we could, but, of 
course, we can do so much more with the Federal funding that we 
need to receive every day.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Thank you to the witnesses.
    Mr. Rogers. Just to follow up on the Ranking Member's 
question, what percentage of your security funding does come 
from these Federal sources?
    Chief Dunham. Oh, we have--75 percent of our funding for 
target hardening comes from grant funding.
    Of course, we talked about UASI. We get very little from 
UASI because they know that we get a lot more from the 
Department of Homeland Security, and so they go to other 
agencies first.
    Mr. Rogers. Okay.
    The Chairman now recognizes the gentleman from Minnesota 
from any additional questions he may have.
    Mr. Cravaack. I will try to make it real quick, Mr. 
Chairman. Thank you.
    Just real quick, after 9/11 unfortunately we have now all 
been incorporated in part of our National security system. All 
of us have a due diligence to ensure the homeland security.
    With that said, I was kind of wondering, in regards to the 
different modals here, the ``See Something, Say Something'' 
campaign, have you seen that to be fruitful for us?
    Could you start off, Mr. Farmer?
    Mr. Farmer. Yes, sir, that campaign has been effective in a 
number of modes of transportation, in particular passenger 
rail. Amtrak has a very proactive program. A number of commuter 
railroads around the country promote ``See Something, Say 
Something.''
    It is actually a program that started with the New York 
Metropolitan Transportation Authority. It has been widely laid 
out across the country. Last year, DHS adopted it essentially 
as a Nation-wide program and has introduced it in many critical 
infrastructure sectors.
    So we see it as a very effective means by which the 
public--which is quite familiar with what goes on in a train as 
they use it each day because of the time they spend on it--a 
means for them to understand how to report security concerns.
    The freight railroads have programs, as well, that entail 
reaching out to those who live near their operations or have 
interest in their operations and can become additional eyes and 
ears for security, as well.
    Mr. Cravaack. Thank you, sir.
    Mr. Rojas.
    Mr. Rojas. I would subscribe to your statement that 
National security is embedded in everybody's psyche, and I 
would say that everybody is much more alert now as we look out.
    We had an incident back in February in the Ranking Member's 
State, in Lovett, Texas, where a student was actually--a Saudi 
student was actually arrested after trying to procure some 
material to develop a bomb. The reason why the student was 
actually arrested was because an employee of the carrier 
company noticed that the elements--that the cargo was suspect. 
He did some research on the person and decided to call. They 
called in his security team within the company, and they called 
law enforcement. At the same time, the chemical company also 
called in the FBI.
    So I think there is this level of alertness that is out 
there that--that is part of that information-sharing component 
that we are talking about. It goes both ways. It is very 
important to ensure that that critical information sharing and 
that component of, how can we communicate with law enforcement 
to ensure that what we see--if we see something suspicious, 
that we are able to call it in?
    So I think I would agree, I think it is embedded into 
everybody's psyche now.
    Thank you.
    Mr. Cravaack. Good to know. Thank you, sir.
    Chief Dunham.
    Chief Dunham. Yes, sir. ``See Something, Say Something'' 
has become a way of life. It is not just a program. You have to 
embed it into your everyday operation. So, ``See Something, Say 
Something'' is valuable.
    One thing we did learn from 9/11 is that we can't do it 
alone. Even the amount of officers, we can't do it alone. So we 
need our customers to be our eyes and ears and to help us. So 
this is something that we can ask them to help us.
    We have a very aggressive ``See Something, Say Something'' 
program. But not only that, we have a ``Not On My Shift'' 
program for our employees. So they help us, as well, because 
the employees are your first line of defense, and so they tell 
us what is going on.
    So we are very pleased with our ``See Something, Say 
Something'' campaign. Tougaloo University just came down last 
month to actually take a look at our program because it is one 
of the cutting-edge programs for ``See Something, Say 
Something.''
    Mr. Cravaack. Thanks, Chief. You kind of sparked a memory 
of when I was in Navy, ``Not On My Watch.''
    Chief Dunham. Yes, that is right.
    Mr. Cravaack. Got it. Okay. Thank you very much.
    Mr. Reese, how about in the pipeline industry?
    Mr. Reese. You know, most definitely applicable.
    You know, pipeline plans are typically threat-based. So 
there is a baseline of security measures, and then there are 
additional measures that would be evoked based on threat. 
However that threat information is obtained, whether it is 
provided by the Government or whether it is a concerned citizen 
or it is an employee who is alert and aware, that information 
is valuable, and it ought to trigger.
    In fact, I would suggest it is the cornerstone of any good, 
effective pipeline security plan. ``See Something, Say 
Something'' is an excellent tenet of security in general.
    Mr. Cravaack. Good to know. Good information. Thank you for 
that.
    Mr. Chairman, due to the time, I will yield back, sir.
    Mr. Rogers. I thank the gentleman.
    Ms. Jackson Lee. Mr. Chairman, could I just----
    Mr. Rogers. Go ahead. The Ranking Member.
    Ms. Jackson Lee. I can't miss this opportunity. I want to 
thank Chief Dunham for now publicly announcing a new National 
effort--``Not On My Shift''--the Chairman and I have just made 
an agreement, ``not on our time on this committee''----
    Mr. Rogers. That is right. Not on our shift.
    Ms. Jackson Lee [continuing]. That anything is going to 
happen to the Nation's transportation systems. We just put a 
heavy burden on ourselves. So let's see how fast and furious--
``Not On My Shift.'' I am going to take it to Houston, Texas. 
That is a great one.
    Mr. Rogers. It is.
    Ms. Jackson Lee. Thank you. I yield back, Mr. Chairman.
    Mr. Rogers. I thank the gentlelady.
    Thank all the witnesses for your time and preparation. It 
has been very helpful.
    We have another panel; otherwise, I would keep asking 
questions. But I would remind all the witnesses that Members 
may have additional questions. The whole purpose of this 
hearing is to lay on the record some facts that we then can 
draw upon to justify changes in the authorization bill. So I 
know I have some additional questions, and other Members may. I 
would ask that when those are submitted to you, within 10 days 
you try to get us back a written response to those.
    With that, thank you. This panel is dismissed, and we call 
up the second panel.
    The Chairman now recognizes the second panel. We are 
pleased to have with us several distinguished witnesses before 
us today on this important topic.
    Let me remind the witnesses that their entire statements 
will be appearing in the record.
    Our first witness is Mr. Nicholas Calio.
    How did I pronounce that? I am sure I butchered it.
    He is president and chief executive officer of the Air 
Transport Association.
    The Chairman now recognizes Mr. Calio for his opening 
testimony.

 STATEMENT OF NICHOLAS E. CALIO, PRESIDENT AND CHIEF EXECUTIVE 
      OFFICER, AIR TRANSPORT ASSOCIATION OF AMERICA, INC.

    Mr. Calio. Thank you.
    Chairman Rogers, Ranking Member Jackson Lee, and Members of 
the committee, thank you for the opportunity to testify here 
today.
    As the committee undertakes reauthorizing TSA, I think it 
might be helpful to set a little perspective by recalling why 
TSA was created to begin with: To protect the United States, 
its citizens, our economy, and our way of life from terrorist 
attacks.
    The reason I mention this is because, as I travel around in 
airports, I often observe travelers or passengers who, with the 
passage of time, don't seem to understand why the screening 
process is necessary. It is. Can it be better? Yes. ATA is 
working with TSA to try to improve it.
    Effective, efficient security is vital to the United States 
airline industry in fulfilling our central role in propelling 
commerce and economic vitality and global competitiveness of 
the United States. Terrorist attacks either on or through 
airlines underscore a simple fact: Aviation security is a core 
homeland security function.
    Our airlines appreciate the collaborative relationship we 
have with TSA and their willingness to partner with us, which 
has greatly improved the regulatory process and, we believe, 
aviation security.
    ATA supports the risk-based approach to security for 
passengers, cargo, and crew that Administrator Pistole has 
endorsed. Allowing TSA to focus its finite resources on that 
which creates the greatest risk is both good policy and good 
security. In conjunction with TSA's long-standing strategy of 
multilayered countermeasures and the incorporation of random 
measures, this approach allows the agency to further 
concentrate resources on high-risk passengers and cargo. 
Targeted security includes differentiating individuals and 
shippers whose backgrounds are known.
    The Air Transport Association, along with the Airline 
Pilots Association and TSA, has developed a known-crew-member 
program, which will begin a 90-day pilot program next month at 
seven major airports. ATA has advocated and discussed with TSA 
having flight attendants included in that program as soon as 
possible.
    Moving crew out of the regular security line also has a 
secondary benefit: It speeds up the entire process, which is 
something that we all, I think, recognize that we need to do. 
Passengers could also benefit from a known-traveler program. 
ATA strongly endorses TSA's intention of introducing such a 
program. In our view, the sooner, the better.
    Finally, we support a similar program for cargo. We are 
working with TSA and Customs and Border Protection toward 
further risk-based screening of international in-bound air 
cargo. The goal is for TSA and CBP to receive and process 
information about shippers earlier in the process so they can 
do it more effectively and without stopping the flow of goods.
    Everything we are discussing here today is about the safe 
and secure transportation of the people and goods that make 
America what it is today, connecting small and large 
communities and connecting America to the global economy. 
Today, U.S. airlines and their passengers continue to bear the 
burden of funding a system that benefits the entire Nation. 
Those who seek to harm our country by targeting commercial 
aircraft are attacking the entire U.S. population and our way 
of life, not just the airlines.
    Yet, in 2010, passengers and airlines paid DHS $3.4 billion 
in taxes and fees, $2 billion of which went to TSA. This is a 
50 percent increase over what was collected in 2002. It is an 
enormous contribution from a single segment of the private 
sector. No other industry or mode of transportation, including 
anyone on the previous panel, is required to fund their own 
security, only the airline industry and its passengers. This 
really has got to change.
    In conclusion, the Air Transport Association will continue 
to work with TSA to evolve our practices to ensure that we have 
the best possible security so that U.S. airlines can continue 
to move goods and people to the benefit of our Nation's economy 
and our global competitiveness. We look forward to working with 
you and with TSA to reinforce these mutual goals.
    Thank you very much.
    [The statement of Mr. Calio follows:]

                Prepared Statement of Nicholas E. Calio
                             June 12, 2011

                              INTRODUCTION

    As the committee undertakes reauthorizing the Transportation 
Security Administration (TSA), some perspective is in order by 
recalling why TSA was created . . . to protect the United States, its 
citizens, and our economy and way of life from terrorist attacks. I say 
that because I often observe travelers at airports who, with the 
passage of time, seem to have forgotten why the screening process in 
necessary.
    A secure aviation system benefits all Americans. Effective, 
efficient security is vital to a robust and financially sound U.S. 
airline industry, an industry that propels more than 5 percent of our 
Nation's Gross Domestic Product. The airline industry's central role in 
commerce and the economy, and the terrorist strategy to attack America 
by attacking airlines, underscores a simple fact: Aviation security is 
a core homeland security function.
    At the outset, I would like to state that the Air Transport 
Association of America (ATA) appreciates the collaborative relationship 
that we have with TSA. We understand that TSA is the regulator and that 
airlines are the regulated parties, but TSA's willingness to work 
cooperatively--to the point of partnership--has greatly improved the 
regulatory process and ultimately, aviation security.
    ATA's priorities in this reauthorization bill include enabling a 
risk-based, intelligence-driven approach to aviation security that:
  <bullet> enhances security overall;
  <bullet> streamlines the passenger screening process, and;
  <bullet> expedites the movement of goods within the United States and 
        across international borders.
    We want to continue to work closely with Congress and the TSA to 
ensure implementation of the best possible policies to promote commerce 
and travel while ensuring a secure aviation system.
    ATA members understand that security measures are a necessary 
factor in keeping Americans safe from another terrorist attack. The 
Christmas day plot in 2009 and the October 2010 cargo plot highlight 
the fact that aviation is still a terrorist target. However, experience 
has demonstrated that increased security and facilitation of travel and 
cargo are not mutually exclusive. Smart investments and policies can 
make aviation security more effective and efficient and, in turn, 
enhance travel and trade, thereby benefiting the traveling and shipping 
public and our economy.
    That, in turn, will improve the economic outlook of the U.S. 
airline industry and realize the potential it holds for job creation. 
This subcommittee can do its part in achieving that outcome by not 
imposing new or increased security-related taxes and fees. Commercial 
aviation is a cornerstone of the U.S. economy. It drives approximately 
$1.2 trillion in annual economic activity in the United States, roughly 
5.2 percent of our Gross Domestic Product (GDP). Airlines are 
responsible for 10.9 million U.S. jobs and $371 billion in personal 
earnings. Every $1 million of commercial aviation activity generates 
24.6 jobs. Every 100 airline jobs help support some 388 jobs outside of 
the airline industry.
    Airlines in 2010 enplaned more than 720 million passengers and 
operated more than 10 million flights. Exports by air in 2009 topped 
$334 billion in value.

          ENABLING A RISK-BASED APPROACH TO AVIATION SECURITY

    A risk-based approach to aviation security is grounded in solid 
intelligence and information sharing among Government and industry 
stakeholders. It proceeds from an examination of the sources, nature, 
and capabilities of potential threats, and the nature and extent of the 
security systems and measures in place to defeat such threats. This 
approach embraces disciplined analysis and recognizes the value it 
brings to directing the intensity and allocation of security resources 
where they are most appropriate. It inherently recognizes that ``one 
size fits all'' security is inefficient and fails to direct finite 
security resources appropriately.
    Risk-based analysis is a widely accepted approach. The 9/11 
Commission, for example, advocated thorough, risk-based analysis in 
evaluating aviation-security issues. In its final report, the 
Commission stated:

``The U.S. Government should identify and evaluate the transportation 
assets that need to be protected, set risk-based priorities for 
defending them, [and] select the most practical and cost-effective ways 
of doing so . . .'' Final Report of the National Commission on 
Terrorist Attacks Upon the United States, at 391 (2004).

    Administrator Pistole's strong endorsement of a risk-based based 
approach to aviation security in his June 2 testimony before this 
subcommittee is gratifying. We support his efforts to lead the TSA to 
develop and employ a more targeted, truly risk-based strategy. This 
approach, in conjunction with the multi-layered strategy already in 
place and the incorporation of random measures, will allow TSA to focus 
its resources on higher-risk passengers and cargo and strengthen the 
overall level of security while easing the burden of checkpoint 
security on the vast majority of passengers and focusing cargo-
screening resources on shipments that may pose a higher-risk level.
    Increased sharing of actionable intelligence information among 
Government and industry goes hand-in-hand with a risk-based security 
system. Such collaboration produces smarter security and improves the 
performance of all parties. ATA's partnership with TSA must extend at 
least to this degree of cooperation and confidence, and we are pleased 
that our working relationship with TSA continues to grow in this 
direction.

       SPECIFIC RISK-BASED PROGRAMS THAT SUPPORT SMARTER SECURITY

    A. Known Traveler Program.--Administrator Pistole has not only 
embraced a risk-based conceptual approach to aviation security, he has 
identified a specific goal of risk-based passenger screening which will 
allow the TSA to focus limited resources on higher-risk passengers. We 
commend him for pursuing this concept in order to shrink the 
``unknown'' category of passengers.
    Under a Known Traveler Program, passengers would volunteer 
information about themselves, enabling TSA to create an alternative 
type of screening for these passengers, which ultimately will reduce 
the screening lines for everyone. This program should not simply allow 
certain passengers to go to the front of the line as previous programs 
have. Rather, TSA should use current databases of information such as 
Advanced Passenger Information Systems, Global Entry and Secure Flight, 
as well as other factors, to actually create a different, expedited 
screening regime for these travelers. As noted above, screening 
everyone equally squanders limited resources and detracts from focusing 
on travelers who may present real risks.
    B. Known Crewmember Program.--Smarter security includes recognizing 
individuals who are in positions of trust, whose backgrounds are known 
and who can be subjected to a different level of security. For example, 
pilots fly the planes and many are Flight Deck Officers qualified to 
carry handguns in the cockpit.
    Several different systems have been tested and ATA is currently 
working with TSA and the Air Line Pilots Association (ALPA) to conduct 
a 90-day test program at Miami, Phoenix, Minneapolis, Seattle, and 
Chicago airports. This program is based on the current Cockpit Access 
Security System (CASS) which enables a pilot of one airline to fly in 
the jumpseat of another airline. This is an historical industry 
practice that is safely and securely maintained with the help of the 
CASS system. Under the CASS system, TSA personnel use a pilot's photo 
identification to verify his/her identity and employment status by 
checking it against a secure database. The Known Crewmember Program 
would first move this concept to the security-screening checkpoint to 
allow pilots to go through an expedited screening. ATA supports 
expanding the program to include flight attendants once the pilot 
program proves successful. Eventually, the program will move toward 
biometric verification. ATA is working with TSA and pilots to test this 
program and we look forward to the TSA evaluation at the test's 
conclusion.
    C. Known Shipper/Shipment Programs.--The passenger airlines have 
met the 
9/11 Commission Recommendations Act requirement to screen 100 percent 
of air cargo departing U.S. airports. We achieved this with significant 
support from the TSA Certified Cargo Screening Program (CCS) which 
allowed validated air cargo supply-chain participants to prescreen 
cargo before delivery to the airline dock. In addition, TSA has made 
good progress in meeting the screening requirement for international 
in-bound cargo, but dealing with foreign governments/entities creates a 
unique set of challenges.
    Administrator Pistole's work on complex cargo-security issues has 
been crucial and we commend him for it. In the wake of the October 2010 
Yemen cargo bomb plot, TSA has been working closely with cargo carriers 
to focus on the highest risk cargo--unknown shipments or cargo coming 
from unknown shippers. Screening cargo piece by piece would shut down 
the global supply chain so TSA is working with industry and with 
Customs and Border Protection (CBP) to receive advance information on 
packages delivered from high-risk areas. TSA recognizes, and we agree, 
that to preserve the efficient flow of goods, cargo-security 
enhancements should take place further up the supply chain--it cannot 
all be done at the airline level without significant disruption and 
economic harm.
    Known Shipper/Shipment Programs leverage DHS information programs 
and carrier and shipper information to expedite the clearance of 
shipments that meet certain requirements. ATA supports on-going 
initiatives to test aspects of such a program and provide valuable 
information about how to construct an international system that meets 
commerce and trade needs while efficiently protecting against security 
risks.
    Finally, ATA strongly supports increased use of canine teams as one 
of the most effective and efficient methods of screening cargo. These 
teams can be easily deployed and are quick at finding dangerous 
materials. They may be ``low tech,'' but they are highly effective and 
efficient. TSA should accelerate implementation of a certification 
program that enables private canine-screening companies to conduct air 
screening that meets TSA standards. International canine standards and 
private-sector options could be leveraged to achieve a higher level of 
air cargo security on U.S.-bound flights.

              DEPLOYING EFFECTIVE TECHNOLOGY AND PERSONNEL

    Given the number of passengers and the volume of cargo that 
airlines transport, technology is an indispensable element in effective 
and efficient screening. Such technology must perform its screening 
function in a way that does not disrupt that carriage by air. Our 
concern is not parochial: Our economy is dependent upon the speed and 
efficiency of air transportation.
    In late 2010, DHS announced more extensive deployment of Advanced 
Imaging Technology screening equipment. According to DHS, there are 486 
AIT machines deployed at 78 airports. The President's fiscal year 2012 
budget request indicates that the administration plans to continue 
their deployment and asks for funding for 1,500 scanners and 535 
associated personnel. We encourage the deployment of effective and 
necessary technology and particularly the Automated Target Recognition 
software for the body-imaging machines that will only display a 
person's body outline while identifying an area that needs to be 
resolved.
    ATA also recognizes that workforce considerations are an important 
element in the security equation and appreciates the unflagging 
dedication of TSA employees. They are key to civil aviation security in 
our country. TSA employees have recently voted to bargain collectively. 
We believe that TSA needs maximum flexibility to respond to threats and 
that Congress must ensure that any bargaining agreement does not 
interfere with TSA's ability to perform effectively and nimbly.

         COSTS TO PASSENGERS AND THE INDUSTRY SHOULD BE LIMITED

    Despite that fact that aviation security is a National security 
function, airlines and passengers continue to bear the brunt of funding 
a system that benefits the entire Nation. In 2010, passengers and air 
carriers paid $3.4 billion to DHS in taxes and fees. This is an 
enormous contribution from one segment of the private sector for what 
is a National responsibility. It makes air travel far more expensive 
for the consumer and is a substantial financial drag on U.S. airlines.
    In this respect, ATA strongly opposes any increase in the aviation 
passenger security fee. U.S. airlines and their passengers contributed 
$2 billion in taxes and fees to TSA in 2010--a 50 percent increase from 
the amount collected in 2002. The industry's Federal tax burden on a 
typical $300 domestic round-trip ticket has nearly tripled since 1972--
from $22 to $63. Aviation security taxes and fees now constitute almost 
25 percent of the industry's Federal tax burden.
    To put this into perspective, the U.S. airline industry's total 
profit last year was $3.7 billion, just one of three profitable years 
over the last decade in which U.S. airlines lost $55 billion and shed 
nearly 160,000 jobs. Due primarily to escalating jet-fuel costs, U.S. 
airlines lost nearly $1 billion in the first quarter of 2011. Further 
increasing our tax burden will further undermine the industry's 
financial health, thereby undermining the overall economic recovery.
    Aviation security costs should be borne by the Federal Government. 
Basic fairness dictates that. Those seeking to harm our country 
utilizing commercial aircraft are attacking the entire U.S. population 
and our way of life--airlines are the surrogate, not the ultimate goal 
of those attacks.
 the u.s. government should harmonize international security protocols
    International harmonization is critical and the U.S. airline 
industry fully supports the DHS effort to achieve harmonization through 
the International Civil Aviation Organization (ICAO), something that 
both Secretary Napolitano and Administrator Pistole have vigorously 
pursued. However, since there are so many governments with different 
capabilities, ATA believes that the United States, Canada, the European 
Union and other major trading partners should achieve a much higher 
degree of coordination so that procedures can be mutually recognized, 
thereby diminishing redundant requirements for airlines and their 
customers. Greater harmonization and mutual recognition would minimize 
the re-screening of passengers, baggage, and cargo from these 
countries. It would also allow screening resources to be better 
deployed and improve the movement of passengers and goods.

                               CONCLUSION

    Since its creation nearly a decade ago, TSA has steadfastly 
defended the United States from threats to its security. TSA also has 
developed an extraordinary storehouse of experience that can be applied 
to continue its mission and, in doing so, continue to improve the 
efficiency of the processing of passengers and freight in ways which 
will benefit our economy and our ability to compete globally. ATA looks 
forward to working with the subcommittee and TSA to realize these 
mutually reinforcing goals.

    Mr. Rogers. Thank you, Mr. Calio. That was very impressive. 
We appreciate you being here today.
    We now go to our second witness, who is Mark Van Tine. He 
currently serves as president and chief executive officer of 
Jeppesen and is testifying on behalf of the General Aviation 
Manufacturers Association.
    The Chairman now recognizes Mr. Van Tine.

   STATEMENT OF MARK VAN TINE, PRESIDENT AND CHIEF EXECUTIVE 
     OFFICER, JEPPESEN, ON BEHALF OF THE GENERAL AVIATION 
                   MANUFACTURERS ASSOCIATION

    Mr. Van Tine. Thank you, Mr. Chairman.
    Good afternoon, Chairman Rogers, Ranking Member Jackson 
Lee, and distinguished Members of the subcommittee. I 
appreciate this opportunity to sit before you and speak about 
the efforts to reauthorize the Transportation Security 
Administration.
    Mr. Chairman, as you said, my day job, I am president and 
CEO of Jeppesen. I do appear today on behalf of GAMA in my role 
as the security committee chairman for the General Aviation 
Manufacturers Association. GAMA represents 72 world-leading 
manufacturers of fixed-wing general aviation aircraft engines, 
avionics, and components.
    Since the events of September 11, 2001, the general 
aviation community has worked diligently to increase security 
measures and awareness of potential threats to the aviation 
system. Numerous domestic and international initiatives have 
been put in place by both Government and industry that 
substantially mitigate security risks.
    There are, however, areas which we believe the committee 
should focus on for improving security and obtaining 
operational efficiencies. I have three of note for you.
    First is the Large Aircraft Security Program, LASP. The 
Large Aircraft Security Program has received significant 
attention from the general aviation community and members of 
Congress since the notice of proposed rulemaking was published 
in October 2008. Since introduction of LASP, the industry has 
raised concerns and actively engaged with TSA to develop a 
program that appropriately balances legitimate security risks 
with the rights of citizens to fly their own airplanes. We have 
made good progress together. GAMA asks that the administration 
move quickly to incorporate the industry's input and finalize 
this rulemaking, as it will enhance security without creating 
negative consequences.
    The second is around repair stations. Much like the LASP 
rulemaking, the GA industry awaits completion of an aircraft 
repair station security rulemaking by DHS. TSA has put forth 
rulemaking that would implement security requirements for 
repair stations in November 2009. We believe it is imperative 
for TSA and DHS to move forward and complete this rulemaking, 
which puts in place the kind and the type of risk-based repair 
for repair station security that is good for the industry and 
good for the country.
    Third is around temporary flight restrictions and access to 
airspace. Temporary flight restrictions, TFRs, are used 
specifically to designate airspace around selected sporting 
events and protect the travel of selected individuals. We 
understand the desire for implementation of TFRs but suggest 
that TSA needs to review their impact on the operator community 
and the opportunities to enhance access for operators that have 
this security programming in place.
    In conclusion, Mr. Chairman and Members of the 
subcommittee, thank you again for your leadership on these 
issues and for inviting all of us to testify. I believe it is 
essential for TSA, industry, and Congress to continue to work 
together on general aviation security issues to ensure we have 
an effective security system that supports the business and 
private use of general aviation aircraft.
    Thank you, and I look forward to answering your questions.
    [The statement of Mr. Van Tine follows:]

                  Prepared Statement of Mark Van Tine
                             July 12, 2011

    Chairman Rogers, Ranking Member Jackson Lee, distinguished Members 
of the subcommittee, my name is Mark Van Tine and I am the president 
and CEO of Jeppesen and the Security Committee Chairman of the General 
Aviation Manufacturers Association (GAMA). Jeppesen is a wholly owned 
subsidiary of the Boeing Company and is based in Englewood, Colorado. 
For more than 75 years, Jeppesen has provided navigation charts, 
electronic databases, and other information solutions to general 
aviation and commercial airlines around the world. I appear here today 
on behalf of GAMA, who represents 72 of the world's leading 
manufacturers of fixed-wing general aviation aircraft, engines, 
avionics, and components. Our member companies also operate aircraft 
fleets, airport fixed-based operations, pilot training, and maintenance 
facilities world-wide. On behalf of GAMA, I appreciate your convening 
this important hearing and providing me the opportunity to discuss 
efforts to reauthorize the Transportation Security Administration.
    General aviation (GA) is an essential part of our transportation 
system that is especially critical for individuals and businesses that 
need to travel and move goods quickly and efficiently in today's just-
in-time market. GA is also an important contributor to the U.S. 
economy, supporting over 1.2 million jobs.\1\ In 2010, U.S. general 
aviation airplane manufacturers delivered 1,334 airplanes.\2\ The total 
value of these aircraft was $7.9 billion, with 62 percent of that value 
tied to exports.\3\ We are one of the few remaining manufacturing 
industries that still provide a significant trade surplus for the 
United States.
---------------------------------------------------------------------------
    \1\ General Aviation's Contribution to the U.S. Economy, 
MergeGlobal, 2006.
    \2\ 2010 General Aviation Statistical Databook and Industry 
Outlook, GAMA 2011.
    \3\ Ibid.
---------------------------------------------------------------------------
    Despite the recent economic downturn, general aviation has also 
been among the most successful industries at creating highly-paid, 
well-skilled jobs that our economy needs. It is important that Congress 
and the administration adopt policies that help GA to remain 
competitive and continue to be a leading contributor to our export 
base.

                       GENERAL AVIATION SECURITY

    GAMA has long advocated for general aviation security to be based 
on risk analysis which focuses on measuring threat, assessing 
vulnerability, and determining potential consequences. When higher 
risks are identified, appropriate countermeasures and security postures 
should be deployed in order to mitigate the situation. At the same 
time, such measures should be operationally feasible and built upon 
stakeholder input. We also believe that rulemaking should be 
performance-based and adaptable based on experience and outcomes. 
Finally, as we have seen in previous efforts by agencies to regulate 
general aviation, one size does not fit all, meaning it is imperative 
for Government and industry to work together to secure the GA fleet, 
and all aircraft in our Nation's skies.
    Since the events of September 11, 2001, the general aviation 
community has worked diligently to increase security and awareness of 
potential threats to the aviation system. These efforts have been the 
subject of review by the General Accounting Office (GAO) and Inspector 
General with the IG concluding that, ``The current status of GA 
operations does not present a serious homeland security vulnerability 
requiring TSA to increase regulatory oversight of the industry.''\4\ We 
appreciate this acknowledgement by the IG and believe we have been a 
positive, proactive partner in addressing legitimate security threats. 
It is important to note the GAO commenced another study of GA security 
in early 2011.
---------------------------------------------------------------------------
    \4\ OIG-09-69 TSA Role in GA Security.
---------------------------------------------------------------------------
    Numerous domestic and international initiatives have been put into 
place by both Government and industry that substantially mitigate 
security risk. For instance, some existing domestic programs include:
  <bullet> The continuous vetting of individual pilots and annual 
        security training for flight instructors.
  <bullet> An enhanced pilot license that includes the requirement to 
        carry a Government-issued photo identification and a proposal 
        to add a photo to the pilot certificate.
  <bullet> The DCA Access Standard Security Program that requires the 
        carriage of law enforcement officers on board aircraft entering 
        Washington National via a portal city airport.
  <bullet> The Twelve-Five Standard Security program for commercial 
        operators of large general aviation airplanes.
  <bullet> The See Something, Say Something program, and its 
        predecessor Airport Watch, that encourages the GA community to 
        report suspicious behavior.
  <bullet> Guidelines to assist in identification of suspicious money 
        transactions when purchasing aircraft in accordance with the 
        USA Patriot Act.
  <bullet> Guidelines published by the TSA to enhance general aviation 
        airport security.
  <bullet> The TSA Transportation System Sector Risk Assessment process 
        that helps prioritize resources based on threat, vulnerability, 
        and consequence.
  <bullet> The Least Risk Bomb Location program that designates the 
        area in aircraft where explosives should be placed to limit 
        damage.
    Additional international programs include:
  <bullet> The Advance Passenger Information System that requires 
        general aviation aircraft to file flight information identical 
        to that of commercial operators when entering the United 
        States.
  <bullet> The International Waiver program that requires foreign 
        registered general aviation aircraft to file a waiver to 
        operate within the U.S. airspace.
  <bullet> All general aviation aircraft arriving from outside the 
        United States are subject to nuclear and radiological material 
        screening by the U.S. Customs and Border Protection Agency.
  <bullet> The Secure Fixed Based Operator program is a pilot program 
        that provides for pre-departure clearances at foreign 
        locations, like Shannon, Ireland. Aircraft that depart from 
        Shannon meet all requirements, except Department of 
        Agriculture, for entry into the United States.
    As a result of the aforementioned programs that focus on domestic 
and international flights, flight training and pilots, GA aircraft have 
operated in a safe and secure environment. In general, these programs 
provide a baseline for GA security in combination with a GA community 
focused on security. There are, however, areas where we believe the 
committee should focus on for improving security and attaining 
operational efficiencies.

                 LARGE AIRCRAFT SECURITY PROGRAM (LASP)

    The Large Aircraft Security Program (LASP) has received significant 
attention from the general aviation community and Members of Congress 
since being published in October 2008 as a Notice of Proposed 
Rulemaking (NPRM).
    The LASP proposal is the first time that TSA has attempted to 
regulate private air travel. We believe strongly that the TSA should 
take pains to recognize this and ensure that LASP does not infringe on 
the ability of general aviation pilots and passengers to exercise their 
freedom to fly by properly introducing targeted requirements.
    In this regard, GAMA believes that any final rule should recognize 
that the vast majority of passengers who board general aviation 
aircraft are known to the operator and crew, and are made up of 
employees, guests, family members and clients who typically have close 
ties to the operator of the aircraft. Unlike commercial operations, 
passengers in this context are not ``revenue service passengers'' and 
unknown, but warrant a uniquely different consideration from a security 
vulnerability context. In assessing risk, the general aviation 
``passenger,'' an individual known to the pilot, represents an inherent 
and significant risk reduction which should be recognized and accounted 
for by the TSA as it finishes drafting a final rule for LASP.
    Since the 2008 NPRM was published, our industry has raised concerns 
with the LASP and actively engaged with the TSA to help develop a 
program that appropriately balances legitimate security risks with the 
right of citizens to fly their own airplanes.
    We have made good progress. During two industry working group 
session in April and May of 2009 set up by the TSA Transportation 
Security Network Management (TSNM) office we were able to agree on a 
framework for the LASP rule. Assistant Administrator John Sammon has 
committed to build upon what the TSA has learned from these two 
sessions and issue a second NPRM that incorporates suggestions from 
stakeholders. On May 12, 2011, TSA Administrator Pistole announced to 
the GAMA board that the supplemental NPRM had been cleared by TSA.
    The framework we have identified in our work with the TSA includes:
  <bullet> The establishment of a ``trusted pilot'' system that would 
        require pilots to meet certain requirements before operating 
        their aircraft if that aircraft falls within the TSA-defined 
        scope of LASP.
  <bullet> The trusted pilot would be responsible for conducting key 
        security functions for flights (like they are for all safety 
        functions) including identity verification of known passengers 
        and an established process for subjecting unknown individuals 
        to vetting through eSecure flight.
  <bullet> The ``securing'' of aircraft after landing and before 
        takeoff at all airports.
  <bullet> The establishment of a sensible restricted items list that 
        takes the place of the prohibited items list originally 
        proposed by the TSA.
    We also appreciate the strong support we have received from Members 
of Congress who have recognized our concerns and urged TSA to develop a 
more practical and effective approach. GAMA is asking the 
administration to move quickly to incorporate the industry's input and 
finalize the rulemaking which is currently pending before the 
Department of Homeland Security (DHS). Moving forward on this rule with 
this input will enhance security without the negative impact of the 
initial NPRM.

                            REPAIR STATIONS

    Much like LASP rulemaking, the GA industry awaits completion of an 
aircraft repair station security rulemaking by DHS. TSA put forth a 
rulemaking that would implement security requirements for repair 
stations in November 2009. GAMA filed comments about how to establish a 
risk-based program for repair station in a constructive manner and we 
sought to underscore the effect inaction has upon exports of U.S. 
products and expansion into new markets given the majority of airplane 
and equipment sales are to foreign customers.
    It is worth noting in his recent appearance before this committee, 
TSA Administrator Pistole stated during questioning that their 
investigation had found foreign repair station security to be 
``commensurate with U.S. standards''.\5\ We concur, and believe it is 
imperative for the TSA and DHS to move forward and complete this 
rulemaking which will put in place the type of risk-based for repair 
station security that we support.
---------------------------------------------------------------------------
    \5\ Subcommittee Hearing: Authorizing the Transportation Security 
Administration for Fiscal Years 2012 and 2013, Administrator Pistole 
Remarks.
---------------------------------------------------------------------------
                         ALIEN FLIGHT TRAINING

    The Alien Flight Student Program, established in the Aviation and 
Transportation Security Act and amended by Vision 100--Century of 
Aviation Reauthorization Act, creates responsibility for DHS and TSA to 
perform background checks of foreign nationals seeking flight training 
in the United States. An interim final rule \6\ creating the program 
was put forth on September 20, 2004, establishing four categories of 
pilot training candidates based on the type of training being sought.
---------------------------------------------------------------------------
    \6\ 49 CFR Part 1552, Flight Training for Aliens and Other 
Designated Individuals; Security Awareness Training for Flight School 
Employees; Interim Rule.
---------------------------------------------------------------------------
    GAMA believes this rule is not proportional to the risk posed, or 
mitigated, by the program. For example, the outcome has resulted in 
international operators electing not to train in the United States, but 
instead move their training contracts to foreign locations. This hurts 
U.S. jobs, and the aviation industry as a whole.
    GAMA has advocated for policies that properly frame pilot training 
risk against the requirements placed on the pilot through the interim 
final rule. We have worked to make better use of agency resources and 
properly classify ``recurrent training'' to ensure minimal impact on 
the ability to renew qualifications for existing pilots who already 
know how to fly specific aircraft. We believe, however, that it is time 
to build on the lessons learned during the program's 7 years in 
existence and develop more targeted requirements, reduce the burden 
created by TSA having to check the same person multiple times within a 
couple of months, and allow U.S.-based flight training organizations to 
compete on a more level playing field.

           TEMPORARY FLIGHT RESTRICTIONS AND AIRSPACE ACCESS

    Flight restrictions are used to protect critical infrastructure, 
such as dams and nuclear power plants, and provide a geographic 
boundary for general aviation aircraft operations. Similarly, Temporary 
Flight Restrictions (TFR) are used to specifically designate airspace 
around select sporting events, and protect the travel of select 
individuals. We understand the desire for implementation of TFR's, but 
suggest a needed review of their impact on the operator community.
    TSA has successfully worked with industry to minimize the 
ramifications that TFR's created to support Presidential travel. For 
example, last year the agency worked successfully to mitigate the 
impact upon flight operations around Martha's Vineyard during a 
Presidential visit to the area. We applaud this step and believe it can 
provide an example of how TSA and industry can work together to develop 
procedures that allow GA operations to continue when TFR's are 
implemented.
    It is also important to note that a number of initiatives permit 
operators to attain additional security clearances and therefore 
operate in sensitive areas and these can serve as precedent for easing 
TFR restrictions as well. In the National Capital Region, general 
aviation pilots are required to undergo FAA-administered security 
awareness training each year. Pilots operating in flight-restricted 
areas, including the Maryland airports Hyde Field, College Park, and 
Potomac Airfield, are required to obtain additional clearances to 
access these airports. Similarly, the DCA Access Standard Security 
Program subjects general aviation operators to a number of 
requirements, including the carriage of a law enforcement officer on 
board, and requires departure from one of a few dozen ``portal city'' 
airports. The Twelve Five Standard Security Program requires that on-
demand commercial aircraft operators using aircraft with a take-off 
weight above 12,500 pounds to carry out an extensive security program. 
Finally, the Private Charter Standard Security Program subjects any 
aircraft with a maximum takeoff weight above 100,000 pounds additional 
scrutiny of passenger baggage and requires a hardened cockpit door.
    We mention these programs because each subjects operators to an 
additional layer of security. It is our belief that TSA should permit 
operators with any of the aforementioned clearances, as well as those 
include under the pending LASP, the ability to obtain clearance to 
operate in TFR's, as they have met a higher level of security 
requirements. GAMA encourages TSA, and other Government agencies, to 
evolve how restricted airspace can be accessed by general aviation 
operators through procedural and possible regulatory changes.
    At the same time, GAMA remains supportive of the effort by TSA to 
broaden general aviation access at DCA. We appreciate that the agency 
has dedicated time and efforts to expand the number of ``portal city'' 
airports and streamlined the existing procedures, as announced in March 
of this year, both of which have permitted an increase in GA aircraft 
operations. We are grateful for the effort, but remain cognizant that 
impediments with other Government agencies remain. We encourage TSA, 
and other Government and industry stakeholders, to continue their 
efforts to improve access and maintain security.

                   GENERAL AVIATION AIRPORT SECURITY

    Recently, the GAO released a report entitled General Aviation--
Security Assessment at Selected Airports. The report provided a review 
of 13 general aviation airports using the TSA Security Guidelines for 
General Aviation Airports which GAMA helped develop. The focus of the 
assessment was the availability of physical security measures, such as 
perimeter security, lighting, locked hangars, and closed circuit 
television, that could prevent unauthorized access to airports. It 
recognizes the strides that general aviation airports have made, on a 
voluntary basis, to enhance security.
    In response to the GAO study, the DHS states that the ``TSA 
strongly believes that general aviation airports are complying with 
recommended security measures to the extent that those measures are 
practical and effective given the unique conditions at each airport, 
and to the extent funding is available for desired security 
outcomes.''\7\
---------------------------------------------------------------------------
    \7\ General Aviation--Security Assessment at Selected Airports, 
GAO-111-298.
---------------------------------------------------------------------------
    Most general aviation airports have stepped up and voluntarily 
established procedures and other mechanisms through which they are 
hardened. As there are close to 18,000 general aviation airports around 
the United States we believe that there is no practical way to fence 
every perimeter or screen every visitor to the airport. Instead, 
working with the TSA, the community has established procedures and 
programs that identify suspicious behavior and prevent certain 
individuals from flying GA aircraft. This includes the:
  <bullet> DHS ``See Something Say Something'' program.
  <bullet> The vetting of pilots like TSA's Alien Flight Program and 
        FAA's review of the pilot registry.
  <bullet> Specific programs for certain types of operations such as 
        the TFSSP and LASP mentioned previously.
    These programs in combination with some basic voluntary steps taken 
by airports provide the framework within which the GA community's risk 
can be effectively managed.

                    TSA'S USE OF SECURITY DIRECTIVES

    The general aviation industry is very concerned about the TSA's 
liberal use of Security Directives to implement new requirements on 
operators that are not subject to the rulemaking requirements of the 
Administrative Procedures Act (APA).
    The general aviation community strongly supports a risk-based, 
threat vulnerability approach to securing our National transportation 
system. However, we have seen the TSA repeatedly use Security 
Directives to vastly expand existing security requirements without 
consideration of the implementation challenges, operational impacts, 
and economic burdens these mandates impose on the aviation industry. 
Our most recent experience involves the expansion of security 
credentialing requirements to tens of thousands of pilots and employees 
at airports and aviation manufacturer facilities without input from 
these constituencies or due process protections under the APA.\8\
---------------------------------------------------------------------------
    \8\ Security Directive 1542-04-08 revision F issued in December 
2008.
---------------------------------------------------------------------------
    We recognize and respect TSA's authority to issue Security 
Directives. However, we do not believe that TSA should use Security 
Directives to make standing policy unless there is a compelling and 
immediate National security risk that warrants it. This is an issue of 
great concern to the general aviation community and we urge Congress to 
implement mechanisms for review of security directives if they are not 
temporary in nature.

                               CONCLUSION

    In closing, Mr. Chairman and Members of the subcommittee, thank you 
for your leadership on these issues and for inviting me to testify. I 
feel strongly that if TSA, industry, and Congress continue to work 
together on general aviation security issues we will put in place an 
effective security system that does not inhibit the freedom people 
enjoy today to privately use general aviation aircraft.
    Thank you and I would be glad to answer any questions that you may 
have.

    Mr. Rogers. Thank you, Mr. Van Tine.
    The Chairman now recognizes our third witness, Mr. Steve 
Alterman, currently serving as president of the Cargo Airline 
Association.
    The Chairman now recognizes Mr. Alterman.

  STATEMENT OF STEPHEN A. ALTERMAN, PRESIDENT, CARGO AIRLINE 
                          ASSOCIATION

    Mr. Alterman. Thank you, Mr. Chairman. Good afternoon, Mr. 
Chairman, Ranking Member Jackson Lee, and Members of the 
subcommittee. I am delighted to be here today, and we 
appreciate the opportunity to testify before you as you move to 
authorize the Transportation Security Administration.
    The Cargo Airline Association is the Nation-wide trade 
organization representing the interests of the Nation's all-
cargo carriers. Specializing solely in the transportation of 
cargo, our members are the primary drivers of a worldwide 
economy that demands the efficient time-definite transportation 
of a wide range of commodities.
    Every member of the aviation community recognizes that the 
highest level of safety and security must be a cornerstone of 
all of our operations. It is also important to understand that 
the aviation industry is composed of a diverse group of 
businesses with substantially different operational models. You 
have heard some from Mr. Calio on the passengers; we have heard 
some from GAMA. There are a whole host of different aviation 
models. I believe Mr. Rojas said it earlier with respect to the 
trucking industry, it is equally true with the aviation 
industry: One size does not fit all.
    Indeed, even within the all-cargo community, there are 
substantially different operations. Some of our members offer 
time-definite service and are generally known for their express 
operations. Other companies concentrate on traditional freight 
operations, providing the transportation function for the air 
freight forwarder community. All of these different 
characteristics are currently taken into account by the 
Transportation Security Administration, as we all operate under 
different security directives, different emergency amendments, 
and different security programs.
    Each of these different regulatory requirements is tailored 
to address the unique threats and vulnerabilities of the 
separate industry segments. This method of regulating the 
industry should continue.
    This multilayered, risk-based approach to aviation security 
is clearly appropriate. As TSA Administrator John Pistole said 
to you on June 2, 2011, ``The TSA employs a risk-based, 
intelligent-driven operation to prevent terrorist attacks.'' We 
absolutely agree with this statement.
    We believe, however, that this approach to aviation 
security should go a bit further. We actually think it should 
be codified in any TSA authorization bill to ensure that the 
theory and the practice of regulating the aviation industry 
based on intelligence-driven, risk-based factors should, in 
fact, be a cornerstone of the agency itself and should be part 
of the authorization process.
    We also agree with and appreciate Administrator Pistole's 
commitment to work collaboratively with the stakeholder 
community to develop the programs necessary to enhance 
security. To his credit, the administrator has made good on his 
promise to engage the industry in formulating policy as we move 
forward.
    However, we also believe that the TSA industry 
communications interface should be strengthened and 
institutionalized by legislatively establishing the Aviation 
Security Advisory Committee. This is an advisory committee that 
was in effect until a couple of years ago. Its charter has run 
out. It has now being reformed and may have already been 
technically reconstituted. But we can't gamble that this will 
happen again, and we urge the committee to move forward in the 
TSA authorization bill to institutionalize the existence of the 
Aviation Security Advisory Committee.
    I would like to talk just briefly about a couple of things 
so I don't repeat what Mr. Calio said.
    After the incident in Yemen in 2010, a lot of activity took 
place. The result of that activity was TSA and the industry 
working collaboratively to put a whole host of new programs in 
place to secure our international transportation. I would just 
like to talk about a couple of things that are on-going.
    The Department of Homeland Security established air cargo 
security working groups to deal with what we are going to do as 
we go forward. We think one of the most promising areas of 
inquiry is, again, the intelligence-sharing aspect of it. As 
those working groups move forward, we urge you to let them move 
forward and encourage them to move forward.
    Another one of those committees dealt with how to get 
better technology and better machines in there so we can screen 
cargo better. We urge you to continue the funding, but we 
absolutely recognize the funding problems we have in this 
country now. So I would like to concentrate a little bit on 
low-tech rather than high-tech.
    A lot was said in the first panel about dogs, and we 
absolutely agree that the canine program should be encouraged 
and expanded. We specifically urge that this committee consider 
forcing the TSA to expand the use of private canines in the 
screening process and that we don't just rely on TSA dogs, 
because there aren't enough of them. There is a program we can 
put in place where TSA could actually certify the dogs and have 
private screeners do it. We are in strong support of that.
    Mr. Chairman, I see my time is up. I would be happy to 
answer any questions as we move forward. Thank you very much.
    [The statement of Mr. Alterman follows:]

               Prepared Statement of Stephen A. Alterman
                             July 12, 2011

                              INTRODUCTION

    Good afternoon Chairman Rogers, Ranking Member Jackson Lee, and 
Members of the subcommittee. My name is Steve Alterman and I am 
President of the Cargo Airline Association. We appreciate the 
opportunity to testify before you today as Congress moves to authorize 
the activities of the Transportation Security Administration for fiscal 
years 2012 and 2013.
    The Cargo Airline Association is the Nation-wide trade organization 
representing the interests of the Nation's all-cargo air carriers.\1\ 
Specializing solely in the transportation of cargo, our members are the 
primary drivers of a worldwide economy that demands the efficient time-
definite transportation of a wide range of commodities. Our industry 
segment has grown over the years to a point where, in fiscal 2011, it 
accounted for 87.4% of the Revenue Ton Miles (RTMs) in domestic markets 
(up from 70.0% in 2000) and 69.1% of the RTMs in international markets 
(up from 49.3% in 2000). This expansion is expected to continue, with 
the Federal Aviation Administration estimating a growth rate of 
approximately 4.5% over the next 20 years.\2\
---------------------------------------------------------------------------
    \1\ Association members include ABX Air, Atlas Air, Capital Cargo, 
DHL Express, FedEx Express, Kalitta Air, and UPS Airlines.
    \2\ Statistics from the FAA Aerospace Forecast, Fiscal Years 2011-
2031, March 2011.
---------------------------------------------------------------------------
                    GENERAL SECURITY CONSIDERATIONS

    Every member of the aviation community recognizes that the highest 
level of safety and security must be a cornerstone of all operations. 
Failure to recognize this fundamental principle is both bad policy and 
bad business. It is also important to understand, however, that the 
aviation industry is composed of a diverse group of businesses with 
substantially different operational models. For example, Cargo Airline 
Association members, in their all-cargo operations, do not carry 
``passengers'' in any generally accepted definition of that term, have 
substantial operations that never touch U.S. soil (sometimes in the 
livery of foreign carriers), provide substantial support services for 
the U.S. military and in many cases, have control over the pickup and 
delivery, as well as the transportation of cargo. Indeed, even within 
the all-cargo community, there are substantially different operations. 
Some of our members offer a time-definite service and are generally 
known for their express operations, while other companies concentrate 
on traditional freight operations providing the transportation function 
for the air freight forwarder community. These differing 
characteristics must continue to be taken into account in developing 
and implementing security policy. Accordingly, all-cargo air carriers 
today operate under a different Security Program and different Security 
Directives than our passenger counterparts or the members of the 
indirect air carrier community. Each of these different regulatory 
requirements is tailored to address the unique threats and 
vulnerabilities of the separate industry segments.
    This multi-layered, risk-based, approach to aviation security is 
clearly appropriate. On June 2, 2011, TSA Administrator John S. Pistole 
testified before this subcommittee and stated that:

``TSA employs risk-based, intelligence-driven operations to prevent 
terrorist attacks and to reduce the vulnerability of the Nation's 
transportation system to terrorism. Our goal at all times is to 
maximize transportation security to stay ahead of the evolving 
terrorist threat while protecting passengers' privacy and facilitating 
the flow of legitimate commerce.''

    We absolutely agree with this statement. We also believe, however, 
that this approach to aviation security should be codified in any TSA 
Authorization legislation and not left to the whim of future 
Administrators. This codification should clearly indicate that, in 
issuing regulations and other documents such as Security Programs, 
Security Directives and Emergency Amendments, the administrator must 
employ a risk-based, intelligence-driven, approach, taking into account 
the nature and location of any threats to transportation security, as 
well as the unique operational characteristics of the various segments 
of the transportation industry and apply the appropriate security 
measures to meet that specific threat.
    We also agree with and appreciate Administrator Pistole's 
commitment to work collaboratively with the stakeholder community to 
develop the programs necessary to enhance security across the 
transportation system. To his credit, the administrator has made good 
on his promise to engage the industry in formulating policy as we move 
forward. Having said that, however, we believe that the TSA/industry 
communications interface should be strengthened and institutionalized 
by legislatively establishing the Aviation Security Advisory Committee. 
While this committee has existed in the past, and we understand that it 
is about to be reconstituted, there has been a significant gap over the 
past several years, leaving no formal way for the industry and the 
agency to communicate. Therefore, we support the provisions of H.R. 
1447, introduced on April 8, 2011, and urge that this proposed 
legislation be folded into any TSA Reauthorization bill.

                      THE LESSONS OF OCTOBER 2010

    In late October, 2010, terrorists in Yemen targeted the 
international supply chain by placing explosive devices aboard two U.S. 
all-cargo carriers. This plot was thwarted through the work of the 
intelligence community, but it still sent a wake-up call to everyone in 
the industry. Subsequent to the foiled attack, all participants in the 
supply chain, as well as several U.S. Government departments, came 
together to start a process that has led to substantial improvements in 
international air cargo security. After a review of the vulnerabilities 
exposed by the Yemen incident, TSA, working with industry stakeholders, 
issued a number of new Security Directives and Emergency Amendments 
designed to address any deficiencies uncovered. While the details of 
these new provisions cannot be publicly disclosed, we can say that they 
involve enhancements across the entire range of participants in 
international commerce--carriers, forwarders, and shippers.
    In addition, the incident spurred on-going analyses of other 
potential enhancements that can be implemented if proven successful. 
For example, the Department of Homeland Security (DHS) established an 
Air Cargo Security Working Group to study, and make recommendations on, 
various aspects of the security puzzle. Perhaps the most promising and 
certainly most important areas of inquiry involve how to better share 
and use information developed by the intelligence community and how to 
develop and certify new technologies to screen high-risk air cargo 
shipments. With respect to the latter project, we urge Congress, both 
in the context of authorizing and appropriations legislation, to ensure 
the funding necessary to continue research on promising new 
technologies--especially those that might be able to screen 
consolidated shipments.
    It is also important not to overlook ``low tech'' initiatives to 
screen air cargo--in both international and domestic markets. 
Specifically, the use of canines has proven effective in the screening 
of air cargo, but the use of dogs has been hampered by the relative 
scarcity of TSA-trained animals. We firmly believe that the use of 
canines should be aggressively expanded by permitting the use of 
private, but TSA-certified, canines as a primary screening method. TSA 
has begun to move in this direction and we encourage accelerated action 
in this area, both at domestic and international locations.
    In yet another development, TSA, in conjunction with U.S. Customs 
and Border Protection and the air cargo industry, has also begun a 
significant Pilot Program to determine the feasibility of submitting 
data on international air cargo shipments earlier than presently 
required. Such information holds the promise of enabling the Government 
to target high-risk shipments before they are loaded on aircraft bound 
for the United States. While initial results of this Pilot Program have 
been promising, much more needs to be done before any regulatory or 
legislative conclusions can be reached. At this point, the Program has 
involved only the express segment of the air cargo community, and even 
there, only at somewhat remote locations. More work needs to be done in 
the high volume areas of the express environment and the Program needs 
to be expanded to the heavy freight environment, as well as to the 
passenger and air freight-forwarder segments of the marketplace. 
Therefore, if this committee addresses this Program in any TSA 
Authorization legislation, we urge that any provisions simply require 
the continuation of the Program with a Report to Congress at its 
conclusion. Now is not the time to prejudge the outcome of the Program 
by mandating any particular pre-flight data submission requirements.
    A final lesson of the incidents of October 2010 is that the United 
States alone cannot ensure the security of international air cargo 
shipments. The air cargo business is global--and it demands global 
cooperation to thwart potential terrorist activity. TSA should 
therefore be encouraged to continue its on-going efforts to work with 
foreign governments to ensure that these foreign governments adopt 
security standards substantially similar to those in place in the 
United States. Over and above this unilateral initiative, every effort 
should be made to arrive at harmonized international standards for 
securing the entirety of the supply chain. Such harmonization is 
necessary both for security and for facilitating the flow of commerce. 
In a worldwide economy, businesses simply should not be required to 
adopt widely differing security practices dependent solely on the 
country of origin of the freight.

                              CONCLUSIONS

    The all-cargo air carrier industry fully understands the importance 
to maintain the highest possible level of security, while at the same 
time providing our world-wide customer base the level of service it 
demands. In accomplishing these twin objectives, we will continue to 
work cooperatively with both TSA and CBP to develop and implement the 
best possible security regime. We urge Congress to assist in this 
effort by enacting TSA Authorization legislation that establishes 
guidelines under which TSA must operate, but that does not ``over 
regulate'', giving TSA and the industry the flexibility to assess 
threats and vulnerabilities and to take appropriate action in each 
individual circumstance.
    Thank you very much. I am happy to answer any questions.

    Mr. Rogers. Thank you, Mr. Alterman. We are working to that 
end, to do just that.
    The Chairman now recognizes our fourth witness. Mr. 
Christopher Witkowski is currently serving as the director of 
the air safety, health, and security for the Association of 
Flight Attendants.
    The Chairman now recognizes Mr. Witkowski.

  STATEMENT OF CHRISTOPHER WITKOWSKI, DIRECTOR OF AIR SAFETY, 
 HEALTH, AND SECURITY, ASSOCIATION OF FLIGHT ATTENDANTS--CWA, 
                            AFL-CIO

    Mr. Witkowski. Thank you, Chairman Rogers and Ranking 
Member Jackson Lee, for holding this hearing and allowing us to 
weigh in on the safety and security issues that are important 
to flight attendants and National security. We thank Mr. 
Cravaack for being here, as well, to listen.
    My name is Christopher Witkowski. I am director of the Air 
Safety, Health, and Security Department of the Association of 
Flight Attendants--CWA. We represent more than 60,000 flight 
attendants at 23 U.S. airlines.
    Before I begin, I would just like to mention that flight 
attendants, an integral part of the crew in terms of safety and 
security, have been subject to the same level of screening and 
background checks as pilots, yet only pilots are being included 
in a test of the known-crew-member screening process that 
allows expedited crew-member screening at security checkpoints. 
We thank the committee for their support of flight attendants, 
and we hope this committee will continue to exert pressure on 
TSA to include flight attendants in the program as it moves 
forward.
    I am here to talk about what has happened, or, in this 
case, what has not happened, to flight attendant security and 
self-defense training in the 10 years since the horrific 
attacks of 9/11. Flight attendants are first responders on 
commercial airplanes responsible for the protection and 
preservation of the cabin environment as well as the lives of 
tens of millions of people every year. They are also the last 
line of defense in the aircraft cabin.
    Recognizing their security role, Congress has on separate 
occasions passed bipartisan laws mandating flight attendant 
self-defense training. But corporate pressure and agency 
prejudice have interfered with Congressional intent. I am here 
to stay that training and equality for flight attendants 
remains elusive and leaves passenger airplanes unnecessarily 
vulnerable to attack.
    Prior to the 9/11 attacks, flight attendants were 
instructed to slow down their actions and comply with 
hijackers, assuming the hijacker wanted to go to a destination 
or wanted money or notoriety only. Two months after 9/11, 
Congress passed the Aviation and Transportation Security Act, 
ATSA, which mandated a change to the training curriculum and 
philosophy. No longer was the hijacker intent on going to Cuba. 
The new hijacker would use the aircraft as a weapon of mass 
destruction.
    Part of the AFA's request to update the training included 
basic self-defense maneuvers to allow flight attendants defend 
themselves against a terrorist attack. We are not asking for 
flight attendants to be certified martial arts experts. AFA 
worked with the regulators and industry representatives to 
create a training program that would allow flight attendants to 
be provided with the appropriate and effective training 
required to perform their duties.
    With the passage of ATSA, AFA also urged Congress to change 
the requirements for flight attendant security training to 
include a provision that mandated a set number of hours for the 
security training. These mandates would have to be enforced so 
that all carriers would be required to provide the same level 
of appropriate and effective security training for all flight 
attendants.
    The Homeland Security Act of 2002 required the Under 
Secretary of Transportation for Security to issue a rule 
mandating both classroom and effective hands-on situational 
training covering 10 elements, among them: Appropriate and 
effective responses to defend oneself, including the use of 
force against an attacker.
    It was Vision 100, the FAA Reauthorization Act of 2003, 
that eliminated the Department of Homeland Security requirement 
for TSA to issue a rule requiring both classroom and effective 
hands-on situational security training. Yet this was done 
without the Homeland Security Committee review. Thus, Vision 
100 left it to the individual air carriers to develop basic 
security training originally to be done by TSA, including the 
element related to appropriate responses to defend oneself. 
Because Vision 100 took away TSA's obligation to develop a 
basic security training rule for all carriers, it mandated that 
TSA develop and provide an advanced voluntary self-defense 
training program.
    When we talk about mandatory basic security training in our 
comments, we are generally talking about only a 5- to 30-minute 
self-defense training module developed and provided by the air 
carriers themselves. Air carriers appear to be checking the 
boxes in relation to the required elements of training. Without 
TSA-established standards, there exists a wide variance in the 
amount of security training being allocated to self-defense.
    The so-called advanced training that was developed by TSA 
is the voluntary Crew Member Self-Defense Training. This 
program offered by TSA is not advanced but, rather, an 
introduction to basic self-defense. It is a 1-day course 
conducted throughout the year at various locations and focuses 
on hands-on self-defense training.
    Unfortunately, it is difficult for our members to attend, 
as it has become harder for them to take time off from work and 
their flying duties. Flight attendants have been unwilling to 
attend training that may require them to pay for hotel and meal 
expenses. The result has been depressed participation in the 
voluntary Crew Member Self-Defense Training Program. If flight 
attendants were paid or even if the costs associated with 
attending were covered, then participation could be higher.
    TSA has the authority to implement comprehensive and 
cohesive security and self-defense training for all flight 
attendants but has failed to do so. There should be a mandatory 
basic counterterrorism training that effectively prepares 
flight attendants to deal with potential threat conditions, as 
Congress has required since the enactment of ATSA in 2001.
    Despite the best intentions, the ideas put forward by 
Congress have been weakened and even ignored over time. 
Comprehensive counterterrorism training must be enacted by 
Congress in order to ensure implementation of what it has 
required since 9/11.
    As the uniformed crew member tasked by the TSA to defend 
the flight deck at all costs, according to TSA's Common 
Strategy, the flight attendant is a target for terrorist to 
eliminate in order to successfully carry out an attack, the 
elements of which are stated in the current law. Basic 
counterterrorism training for flight attendants, if properly 
required and implemented by TSA, would prepare the flight 
attendants for potential threat conditions.
    Thank you for your attention. I would be happy to answer 
any questions.
    [The statement of Mr. Witkowski follows:]

              Prepared Statement of Christopher Witkowski

    Thank you Chairman Rogers and Ranking Member Jackson Lee for 
holding this hearing and allowing us to weigh in on the safety and 
security issues that are important to flight attendants. My name is 
Christopher Witkowski and I am the Director of the Air Safety, Health 
and Security Department at the Association of Flight Attendants--
Communication Workers of America (AFA-CWA). AFA-CWA represents more 
than 60,000 members at 23 airlines and has been advocating for the 
flight attendant profession for over 65 years.
    I am here to talk about what has happened, or in this case, what 
has not happened to flight attendant security and self-defense training 
in the 10 years since the horrific attacks of 9/11. Flight attendants 
are the first responders on commercial airplanes responsible for the 
protection and preservation of the cabin environment as well as the 
lives of over 630 million people annually. Safe and secure travel 
depends on the ability of flight attendants to identify and respond to 
threats to passenger health and the safety and security of the aircraft 
cabin and flight deck.
    Flight attendants are also the last line of defense in the aircraft 
cabin. Recognizing their security role Congress has, on separate 
occasions, passed laws mandating flight attendant self defense 
training. While flight attendants have been waiting for mandatory 
comprehensive security training, flightdeck doors have been reinforced 
to resist intrusion. Some pilots have been armed under the Federal 
Flightdeck Officer (FFDO) program. The number of Federal Air Marshalls 
(FAMs) traveling on flights has increased--although there are still not 
enough to protect every flight. Flight attendants, an integral part of 
the crew in terms of safety and security, have been subjected to the 
same level of screening and background checks as pilots. Yet only 
pilots are being included in a beta test of the Known Crewmember 
screening process that allows expedited crewmember screening at 
security check points. Flight attendants are not yet included in this 
process.
    Flight attendant security issues have continually taken a ``coach'' 
seat when it comes to issues surrounding security training and 
expedited crew screening. Congress intended for flight attendants to 
receive training but, corporate pressure and agency prejudice have 
interfered with Congressional intent. I am here to say that training 
and equality for flight attendants remains elusive.
    In 2001 just 2 months after the 9/11 attacks Congress passed the 
Aviation and Transportation Security Act (ATSA) Prior to ATSA, flight 
attendants were instructed to slow down their actions and comply with 
hijacker requests.
    ATSA required the FAA to update and improve flight attendant 
security training requirements to reflect the current security and 
hijacking situations that flight attendants may face onboard the 
aircraft.
    It was Congress' intention--and AFA-CWA's expectation--that 
carriers would implement similar, if not identical, training programs. 
Unfortunately, a 2002 survey of our Safety committee chairs we learned 
that some airlines were giving their flight attendants a minimal amount 
of training--in some cases 2 or 3 hours of up-dated hijacking training.
    These discrepancies in the security training in the aviation system 
left flight attendants unprepared for dealing with future terrorist 
attacks on-board an aircraft in the post-9/11 environment. AFA-CWA has 
been consistent in our advocacy that all flight attendants, regardless 
of the carrier employing them, must receive the same level of security 
training.
    With the passage of ATSA, AFA-CWA began to urge Congress to change 
the requirements for flight attendant security training to include a 
provision that mandated a set number of hours for the security 
training. These mandates would have to be enforced so that all carriers 
would be required to provide the same level of adequate security 
training for all flight attendants.
    In early 2003, air carriers made an unsuccessful attempt to insert 
a provision into the Omnibus Appropriations Act that would allow 
carriers to design their own security training effectively making the 
requirement by the TSA for self-defense training voluntary. 
Fortunately, Senator John McCain spoke out against this provision and 
it was defeated. The airlines had also tried to prevent industry-wide 
standards for the security training and eliminate self-defense training 
completely.
    The airlines finally succeeded in crippling the training 
requirements with the final language of Vision 100, the FAA 
Reauthorization of 2003. This was done by eliminating the requirement 
for TSA to issue a rule requiring both classroom and effective hands-on 
situational security training. In its stead, Vision 100 created two 
approaches to self-defense security training. To understand the two 
approaches of training it is important to understand the basic elements 
of the law and guidance that are required for crewmember security 
training. Air carriers are required to provide security training. 
Vision 100 required air carriers to provide training that included the 
following elements:
  <bullet> Recognizing suspicious activities;
  <bullet> Determination of the seriousness of any occurrence;
  <bullet> Crew communication and coordination;
  <bullet> Psychology of terrorists to cope with hijacker behavior and 
        passenger responses;
  <bullet> Situational training exercises regarding various threat 
        conditions; and
  <bullet> Appropriate responses to defend oneself.
    The carriers provide this basic security training on an annual 
basis to flight attendants. As noted above, one of the elements is a 
requirement for ``appropriate responses to defend oneself.'' Vision 100 
originally required that TSA establish minimum standards in relation to 
the training that would be provided to crewmembers including the 
element related to an ``appropriate response to defend oneself.''
    The subsequent result of the change in language is that the basic 
security training provided by air carriers in relation to ``self 
defense'' training includes anywhere from 5 minutes to 30 minutes of 
actual hands-on self defense training. So when we talk about ``basic'' 
security training in our comments we are talking about a 5- to 30-
minute self-defense training module developed and provided by the air 
carrier themselves.
    TSA has the authority to implement comprehensive and cohesive 
security and self-defense training for all flight attendants but, has 
failed to do so. There should be a mandatory basic counterterrorism 
training that effectively prepares flight attendants to deal with 
potential threat conditions that Congress has required since the 
enactment of ATSA in November 2001. What is being provided in the 
voluntary ``Crew Member Self Defense Training'' (CMSDT) by TSA is not 
advanced, but an introduction to basic self-defense. The law intended 
for this type of security training to be provided in mandatory basic 
security training for flight attendants. CMSDT was intended to train 
more advanced techniques to volunteers who had previously been trained 
to ``defend themselves, and to demonstrate what they have learned in 
situational training exercises regarding various threat conditions.''
    Flight attendant security and self-defense training was meant to 
provide the appropriate and effective response to a threat to the 
aircraft. When asked about the effectiveness of the training our flight 
attendant representatives said it appeared the air carrier met the 
requirements of the law. However, when asked if their air carrier's 
security training prepared them to defend themselves and the flight 
deck should a terrorist attack occur on their aircraft, they've said 
``No, not really. Only superficially''. So while some would say that 
flight attendants don't want additional security training, the opposite 
is true. Our flight attendants actually believe that more training is 
necessary to help defend themselves in order to protect the passengers 
and flightdeck.
    The second training developed in response to self-defense training 
only is the voluntary CMSDT sponsored by TSA. This is a 1-day (6- to 8-
hour) course conducted throughout the year at various locations, such 
as community colleges around the country and focuses on hands-on self 
defense training. Unfortunately it is difficult for our members to 
attend the training as it has become harder for them to take off from 
work. The airline bankruptcies which resulted in dramatic pay cuts 
requiring flight attendants to work more days for the same amount of 
pay has made it is burdensome for flight attendants to attend the 
training. Also, flight attendants have been unwilling to attend classes 
that may require them to pay for hotel and meal expenses. The result 
has been low participation in the voluntary CMSDT. If flight attendants 
were paid or even if the costs associated with attending training were 
covered, then participation could be higher.
    Another issue with the advanced voluntary self-defense training is 
that it is a one-time training that does not include a yearly recurrent 
training. To fully learn the concepts of the course, a recurrent 
training program should be made available for flight attendants to 
reinforce and practice what was taught. AFA-CWA firmly believes that 
many of the provisions of this voluntary self defense program should be 
integral parts of an air carrier's basic, mandatory training program.
    One flight attendant, when asked to compare the CMSDT to the basic 
security training being provided by her carrier stated, ``I have taken 
the TSA self-defense class more than 10 times and feel the repetition 
has greatly enhanced my ability to defend myself. The few minutes in 
recurrent training does not help flight attendants understand the self-
defense moves''.
    Once Congress ensures that mandatory counterterrorism training, 
deemed effective by a qualified subject matter expert, such as the lead 
defensive tactics coordinator for the FAMs or the unit chief of the 
operational skills unit at the FBI academy at Quantico, is finally 
provided to flight attendants, CMSDT can indeed provide advanced 
training. If CMSDT is to remain voluntary, then any crew member who 
volunteers to enhance their ability to defend National security aboard 
a U.S. air carrier and attends the training should be compensated for 
their related expenses and training time, no less than to the extent 
that FFDOs are compensated or may be so compensated in the future.
    Ten years after the 9/11 attacks and almost 3 years after the 
Christmas day bombing attempt there is still work to be done in all 
four of these areas.
    A subject matter expert looking at the existing statute would 
ensure that the mandatory basic security training would train uniformed 
flight attendants, exposed to potential threats in the cabin, on each 
of the statutory elements of training to give them a reasonable chance 
of survival, working as a team with the rest of the trained crew and 
any identified able-bodied passengers, to defend themselves and the 
aircraft. As the training is provided now, flight attendants are 
sometimes told that the airline provides security training because they 
are told to do so by TSA, but that they will likely experience nothing 
beyond verbal or minor pushing events. Such an attitude of denial in 
conducting so-called security training is worse than no training at 
all.
    Despite the best intentions, the ideas put forward by Congress have 
been weakened and even ignored over time. Comprehensive 
Counterterrorism Training must be enacted by Congress in order to 
ensure implementation of what it has required since 9/11, but neither 
the FAA nor the TSA has required. That ``Each air carrier providing 
scheduled passenger air transportation shall carry out a training 
program for flight and cabin crew members to prepare the crew members 
for potential threat conditions.'' As the uniformed crew member tasked 
by the TSA to defend the flight deck at all costs (Common Strategy II, 
2005), the flight attendant is a target for terrorists to eliminate in 
order to successfully carry out an attack. Basic counterterrorism 
training for flight attendants, the elements of which are stated in the 
current law, if properly required and implemented by TSA, would prepare 
the flight attendants for potential threat conditions.

    Mr. Rogers. I thank the gentleman.
    I thank all the panel for those thoughtful opening 
statements and the time it took to prepare them as well as to 
deliver them.
    Our clocks aren't working, so we are going to wing it and 
try to stay at 5 minutes.
    We heard in the first panel, the ground panels expressed 
frustration, as we heard in a couple statements on this panel, 
they expressed frustration of a lack of communication of the 
threat or the risks that industry folks need to be aware of 
that TSA has not been sharing as fully as folks would like and 
working on that.
    Another thing that we have heard about, though, are--some 
industry stakeholders have expressed frustration at technology 
development and procurement, not bringing the private sector in 
to help find solutions to the problems that folks are facing.
    I would ask, and start with Mr. Calio, is your industry 
being given timely information from TSA as to the technology it 
needs and foresees needing and asking for feedback as to, you 
know, how we can get from where we are to where we need to be?
    Mr. Calio. Mr. Chairman, you always think in a situation 
like this, with these types of situations, that communication 
could be improved. I would say, in our view, communication with 
TSA has improved significantly over the last couple years. They 
are very collaborative with us. They act as a partner with us, 
in many cases, and share information.
    Do we think we would like to have more input at times? 
Sure, we do. But we have been given a lot of opportunity to 
have that input.
    Mr. Rogers. Well, I know you mentioned in your opening 
statement your desire to see not only the pilots and the 
attendants be able to go through an expedited line but, as you 
know, the trusted or known traveler. It is my understanding, 
within the next couple of weeks or so, you are going to hear an 
announcement with regard to all those things. But I think we 
all agree that it is going to be a partnership between TSA and 
the airports to try to make those things work and work 
effectively, and it is going to benefit everybody.
    How about any of the other panelists? Do you feel like you 
all are being included by the TSA when you are doing, kind of, 
thinking sessions about what kind of technology we need, how 
can we procure it and get it in the field?
    Mr. Van Tine.
    Mr. Van Tine. Well, I think, as we look at it, I think one 
of the concerns that we have is the use by TSA of security 
directives. Certainly, we recognize the importance of using 
security directives in contingencies and emergencies, but there 
is this tendency to use it to influence standing policy, rather 
than working with industry to look at the operational impacts 
and the consequences of some of those directives.
    So, we would ask that the TSA and Congress look at how we 
can work closer with the industry and not use that as the 
mechanism for creating a policy.
    Mr. Rogers. Excellent.
    Mr. Alterman.
    Mr. Alterman. Yeah, I think that, going back to your 
original question is whether we are being consulted in terms of 
the technology we need--well, in our instance anyway--to screen 
freight, the answer is now ``yes.'' What may have been in the 
past, I think, you know, there may have been some problems, but 
that is not what we should be concentrating on.
    The DHS cargo working groups that were formed within the 
past year, one of those working groups, sub-working groups, is 
specifically on the technology, how we get it, what needs to be 
done, what the monetary/research things are going to be. The 
industry is intimately involved in that.
    So I think the answer to your question is, we are always 
sometimes frustrated because we want to know everything and we 
want to know it yesterday. But with respect to the technology 
point, we have gotten to a point where we are involved in that 
process.
    Mr. Rogers. Excellent.
    Mr. Witkowski.
    Mr. Witkowski. Thank you, Mr. Chairman.
    The AFA, in its written testimony, has talked about several 
other important aviation security issues that need to be 
addressed.
    One of them is a communication device, discreet 
communication device, that flight attendants could use to 
communicate with the flight deck pilots in emergency situations 
that affect the security of the flight. Because every second 
you lose in response is going to put you more at risk of a 
successful terrorist attack.
    TSA had been looking at this issue because it was required 
to be looked at in the Homeland Security Act almost 10 years 
ago. I understand that they had been looking at different types 
of devices that could be used for communication with the flight 
deck by the flight attendants. But we were never invited or 
included in those discussions directly affecting the flight 
attendants' security aboard the aircraft.
    We did participate in a panel that looked at the Federal 
Air Marshal Communications System, and we contributed to that 
quite extensively. But as far as the flight attendant issue 
which we would understood they were discussing, we were not 
included, and we felt we should have been.
    Thank you.
    Mr. Rogers. Excellent.
    Mr. Calio--and this will be my last question--we all heard 
about the Virgin Airlines stowaway. You know, while we are 
frustrated by that, I like to remind people that we get 
millions of people right. The fact is, we have human error 
because humans are running these filters that we use. I am 
aggravated like everybody else is when we hear about somebody 
getting through the system. But we also are doing it right in a 
lot of ways.
    But I want to talk about this particular guy for a minute. 
What type of technology do airlines use at the gate to verify 
that the boarding pass presented matches that at the flight 
gate? Does the technology at the gate vary depending on 
airline?
    Mr. Calio. Yes, Mr. Chairman, it does.
    I can't speak for Virgin, where the error occurred, because 
they are not a member of ours. I can, I think, explain somewhat 
what happened. You had a dual error: You had a TSA agent error, 
and then you had a gate agent error.
    Mr. Rogers. Right.
    Mr. Calio. What happened with the gate agent, when he 
scanned the boarding pass, it showed an error. Virgin's scanner 
shows--just a red light goes on. For whatever reason, that gate 
agent did not check any further as to what the problem was.
    For ATA-member airlines, when a gate agent scans the bar 
code, if it comes up red, there could be as many as a dozen or 
more error codes that come up, which will then allow the gate 
agent to figure out what is wrong.
    I would point out, in this particular case, this same 
individual who was traveling on Virgin was stopped at the gate 
by a Delta agent, which is when he was arrested by the FBI.
    Mr. Rogers. Right. That is my point. On this particular 
case, this is very frustrating because there were several 
elements of human failure. But thank you for that feedback.
    With that, I will shut up and let the Ranking Member ask 
her questions.
    Ms. Jackson Lee. Not at all, Mr. Chairman. Thank you very 
much for what I thought were some very instructive questions.
    Let me thank all the witnesses for their very, I think, 
constructive remarks.
    I would like to thank the cargo association, Mr. Alterman, 
for your support of the Aviation Security Advisory Committee. I 
believe that that is an important issue. Both Mr. Thompson and 
myself, the Ranking Member, have requested TSA to establish 
that. We are hoping to codify that in legislation in working 
with the Chairman of this committee.
    In the earlier questioning, we said, not on our watch--at 
least, I offered those words--as we look at the transportation 
system throughout America. I think there are a lot of points 
that have been made that would help us move forward together. 
That is what I think is most important, a public/private 
partnership.
    Earlier today, I had the opportunity to speak to an 
industry group on the issue of cargo security. Our commitment 
there, along with the Secretary of Transportation, was 
Government and the private sector working together. I want to 
thank them for their policy hearing.
    But I will always look to the rightness of some of the 
things that TSA does. On their pilot program--I am not sure if 
this is a lucky number--it seems like the State of Alabama and 
the State of Texas has been left out. The Chairman did not ask 
me to mention that. But I would wonder why that is the case. I 
would like a review. I don't see why we couldn't have more in 
the pilot program. Maybe there will be someone here to--not the 
panelists, of course--but if we can get with TSA on that 
choice. I think to include additional southern cities would be 
very helpful, and busy cities as well.
    But as I move forward, let me try to focus in on some of 
the points that have been made in particular about issues that 
are of concern.
    The repair stations, I think, Mr. Van Tine, you spoke 
about. We have no light here, so let me try to encourage your 
answer. Is there an inconsistency in our oversight of the 
repair stations? Would you want to articulate that again, 
please?
    Mr. Van Tine. So, again, when you look at the industry and 
we produce, a large percentage of our product is going overseas 
to international locations and are operated on an international 
basis. So what we are looking for is consistency in application 
of those security requirements.
    The TSA has reviewed that and believes that there is 
consistency. I believe that when Administrator Pistole 
testified here a couple weeks ago that he noted that. So we are 
looking for that, that that rulemaking be implemented and that 
that be put in place so that there is that consistency.
    Ms. Jackson Lee. You believe you have sufficient input on 
the rulemaking, that it is one that is going to be constructive 
in oversight of those repair stations?
    Mr. Van Tine. Yes, we do, and we support it.
    Ms. Jackson Lee. You are speaking about foreign repair 
stations?
    Mr. Van Tine. I am.
    Ms. Jackson Lee. All right. Because that has been a 
constant source of concern for this committee, as you well 
realize that it is also a source of potential threat. I think 
we need very, very strong oversight, but we need consistency. 
Is that your position?
    Mr. Van Tine. That is our position, yes.
    Ms. Jackson Lee. Right.
    Let me go to the flight attendants--I have just heard the 
bell here--very quickly.
    First, let me say to personally to Mr. Witkowski that I 
have been consistently fighting for what I think is common 
sense. There are two aspects to that.
    One, I would encourage that flight attendants have the 
opportunity to have the same security access or ease of access 
that our pilots do. I have never seen a plane take off without 
a pilot or the sufficient flight attendants. I have been on 
planes when we are waiting for flight attendants. So I know 
that they are not flying but they are part of the team. I don't 
see why we cannot get a full understanding of that issue.
    Ms. Jackson Lee. So can you explain the devastation or the 
potential danger of an untrained flight attendant for some of 
the more serious incidents that might occur?
    I imagine that the flight attendants that were on the 
Northwest Airlines December 25 flight into Detroit were using 
their basic instincts, unless you are going to tell me that 
they had gone through the training that I have asked for them 
to go through. If they did not, say they did not.
    Mr. Witkowski. Well----
    Ms. Jackson Lee. They did not go through a higher level of 
training, is that correct?
    Mr. Witkowski. They didn't go through the higher level of 
training----
    Ms. Jackson Lee. But they used their instincts, and that 
training might have helped even more. So tell me what happens 
without that higher level of training?
    Mr. Witkowski. Well, their reaction was more of a 
firefighting reaction, in terms of trying to get the fire out 
that the terrorists had begun when they were trying to use the 
explosives.
    Ms. Jackson Lee. Right.
    Mr. Witkowski. But if there is a terrorist attack which 
involves deadly force, the flight attendants will be the first 
to go, as some were on 9/11.
    TSA had tried to make a rule saying that you could allow 
some items on board the aircraft, like scissors, that would 
have less than, I think, 4\1/2\ inches or 5 inches of a blade. 
But the idea of that was that, when you punch that in, you are 
not likely to kill someone. Well, the problem is what they do 
if they slice the arteries in the neck. Someone can bleed out 
in a matter of 10 or 15 or 20 seconds.
    So if flight attendants don't get that basic training to 
react instinctively, or as trained--I am sorry--to block, you 
know, those areas where they can be killed and they can bleed 
out, then they will die and the terrorists will have control of 
the cabin. Because we never know what other passengers or--FAMs 
are not on most flights. So you are not going to be able to 
control that, and the terrorists will have control of the 
cabin.
    Ms. Jackson Lee. So what is your argument, what is your 
bottom line about the enhanced training?
    Mr. Witkowski. What is needed in the enhanced training?
    Ms. Jackson Lee. What is your bottom line on the enhanced 
training? How important is it?
    Mr. Witkowski. It is absolutely critical to National 
security.
    Ms. Jackson Lee. How difficult do you think it is for 
airlines to do so?
    Mr. Witkowski. It is not difficult. In fact, as I mentioned 
earlier, the Homeland Security Act language, if that language 
was just reinstated in the law, TSA was going forward with that 
in developing a program that the carriers could have enacted in 
2003 and beyond.
    Ms. Jackson Lee. How costly, just from your own guess? Do 
you think it would be enormously costly?
    Mr. Witkowski. I don't think it would be enormously costly, 
in terms of having that kind of a program. One of the 
recommendations we made in our written testimony was that you 
would make sure that someone such as the head of defensive 
tactics for the Federal air marshals would ensure that it was 
effective training, or someone that deals with----
    Ms. Jackson Lee. While they are in their basic training, it 
could just be a continuation. Would you assume that that could 
work?
    Mr. Witkowski. Yes. Yes. There could be a recurrent 
training. Once you get down--you have to train in the initial 
training so that the flight attendants can react immediately, 
so they have built muscle memory from the training in order to 
react if they are attacked in the cabin.
    Ms. Jackson Lee. Well, let me move quickly. Let me just say 
that I am interested in the issue of the security access. 
Hopefully we will work with TSA to find out how that can be 
expanded.
    I have two quick questions for Mr. Calio and Mr. Alterman. 
I apologize, too, if the name pronunciation is not correct.
    But after 9/11--and let me just say, I have a great 
appreciation for airlines. It brings grandmas together with 
grandchildren. If you go into the airports, you know, people 
are generally happy because they are going somewhere and they 
are going to get there quickly.
    I did not and I don't believe any Member of Congress 
hesitated one moment after 9/11 to bail out the airlines. I was 
here then. I understood the depth of devastation and the cry 
from airlines that they needed a very large bailout, and this 
Federal Government did so. So the idea of paying for security 
is what patriots do. Patriots stand up for their country. There 
is absolutely no other way that we can provide for security 
without that assessment.
    Now, whether we increase it, I have an open mind. I am 
interested in not being enormously burdensome. But I cannot in 
any way accept the fact that it is not the responsibility of 
the airlines and those of us who are passengers--and we do pay 
it. It is passed through to us. The passenger fee is passed 
through to us, so it doesn't impact airlines at all.
    But what I would like to find out is this issue of the 
recurrent basic training to flight attendants and the idea of 
this enhanced training. What would be the problem with that, 
Mr. Calio? If you could pronounce your name correctly so we 
could----
    Mr. Calio. You got it right the first time. ``Calio.''
    Ms. Jackson Lee. ``Calio.'' Thank you.
    Mr. Calio. But I have heard it many different ways.
    Ms. Jackson Lee. Well, we shouldn't do that. So, ``Calio.'' 
Thank you.
    Mr. Calio. Thank you.
    I would say first that the safety of our crews and 
passengers are always our highest priorities, and we won't 
compromise that.
    You know I believe that we have a disagreement about 
whether the enhanced training is necessary. We provide basic 
training and defensive techniques as part of our comprehensive 
flight attendant training. We don't believe that training in 
more aggressive measures would provide measurable security 
benefits based on all the multilayered security procedures and 
processes already in place.
    Ms. Jackson Lee. I respect that. But why not have it to use 
it if necessary? That is really the question that is not being 
answered. Why not have it to use it if necessary?
    I think the counter--the complement to that, of course, is 
the appropriate use of it. I believe that you have well-
trained, well-selected flight attendants that would have the 
right judgment. Certainly, we wouldn't want to use it on a 
passenger that got up to the restroom at the wrong time if all 
they were doing was going to the restroom. But I do think it is 
appropriate, in the climate that we are living in, to have 
that. I would like to keep an open mind. I am going to convene 
a meeting of the airlines, that I hope maybe the Chairman will 
join with me, on that issue.
    Let me finish by just asking Mr. Alterman--thank you for 
your answer.
    Let me ask Mr. Alterman, we had packages that you know that 
were coming in from Yemen on flights that were cargo. It opened 
our eyes. Some of us had our eyes open before, but it opened 
our eyes to the eye of the storm that cargo planes and your 
staff and your personnel are in. What should we do more on the 
cargo security side?
    Mr. Alterman. Thank you.
    I think that a lot of the answer to that question is what 
has been done. You are absolutely correct, it opened all of our 
eyes. Terrorists are not dumb. Terrorists are looking to 
exploit weaknesses. It is virtually impossible to figure out 
everything that they might do in the future. So this threat in 
Yemen was an eye-opener for all of us.
    What it did immediately, it set into motion a series of 
events whereby the Transportation Security Administration, in 
conjunction with the industry--and I have to give them credit. 
I am beginning to feel like an apologist for TSA, and I don't 
want to do that, I will probably get fired. But, to their 
credit, they worked with the industry after the Yemen 
incident----
    Ms. Jackson Lee. That is good.
    Mr. Alterman [continuing]. To try to figure out where the 
vulnerabilities are, what went wrong, and how do we avoid them 
in the future.
    The results of that work, I mentioned some of them. Some of 
them are on-going projects that are on-going through DHS in the 
working groups, that are on-going in the pilot programs that 
have been described by Mr. Calio, to try to identify freight in 
advance of it being loaded on the plane.
    But let me go back to what was done immediately, because I 
think that was very important and very unusual. TSA issued a 
series of new security directives and emergency amendments as 
it began to find out more information. What we learned clearly 
from that incident is that intelligence is the best way of 
thwarting terrorists. Those packages, all of them, were 
screened three times. Guess what? They looked like printer 
cartridges. They were actually thwarted by the intelligence 
efforts of people overseas.
    So one of the things we learned and we have tried to 
implement--and we have talked about it before--is we need to 
get better intelligence sharing. We need for the Government to 
share with itself, among itself, and transmit that to the 
industry as quickly as possible.
    But over and above that, what we learned is that we need, 
again, to employ the risk-based system, to understand that a 
package from Yemen may not be the same as a package from 
Dubuque, Iowa; that we need to take different measures based on 
the threat, both on the location and the shipper; we need to 
get a better trusted-shipper program overseas so that we know 
who we are dealing with; and when we don't know who we are 
dealing with, we need to take more intrusive and better care of 
our freight.
    Mr. Rogers. I hate to cut you off, but we have got 3\1/2\ 
minutes to get over to the floor. I want Mr. Cravaack to be 
able to ask a question before we leave.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Thank you to the witnesses.
    Mr. Cravaack. Thank you, Mr. Chairman. It is more of a 
statement than anything else.
    Mr. Calio, I appreciate your being here today. Both as an 
airline pilot, a commercial airline pilot, and also a Federal 
flight deck officer, I have gone through a lot of different 
training in this industry. I really think it is imperative, 
what you brought out in your written testimony, that the air 
crew, flight attendants and pilots, know who is on their 
aircraft. It is imperative. I would just echo that, and I would 
just compliment you on that.
    Mr. Witkowski, I have just a couple quick questions for you 
because, unfortunately, it is going to be abbreviated. I am a 
strong proponent of ``known crew member.'' Flight attendants 
are part of that crew, and I strongly support that.
    Mr. Witkowski. Thank you.
    Mr. Cravaack. But with that said, you are proposing 
additional training. Some of the words you used are ``flight 
attendants must know how to respond to deadly force; it is 
imperative to National security.''
    But as this rule is written right now, sir, what I have a 
very big contention with, is that additional training, as 
proposed, which prohibits any testing and allows any crew 
member to opt out if they do not wish to physically 
participate--is that correct, sir, or am I reading this wrong?
    Mr. Witkowski. No, the Homeland Security Act that I 
referred to did allow a crew member who believed that they 
couldn't take the hands-on self-defense training was allowed to 
opt out. That was in the Homeland Security Act language.
    Mr. Cravaack. Okay. I have a real big problem with that, 
especially going through Federal flight deck officer training 
and some of the training I have gone through. If they are going 
to be a vital member of the team, as you proposed, in making 
sure that they know how to use deadly force, and it is 
imperative to National security--especially the deadly force. 
You don't want to engage unless you know what you are doing.
    The big thing is--and I have gone through enough physical 
training to understand this--as much as you need to know to 
give a punch or a block, you have to know how to take one and 
respond.
    So that was just my point. Did you have something to say, 
sir?
    Mr. Witkowski. I was just going to say that the way TSA 
began to implement that, before it was taken away by the 
following Vision 100, was that they were going to ensure that 
all the crew members got the training or some level of self-
defense training so they could protect themselves.
    Mr. Cravaack. Yeah.
    Mr. Rogers. Great.
    Mr. Cravaack. Okay, I am sorry. I apologize. We have to go 
vote.
    I yield back.
    Mr. Rogers. I apologize to all of you. I have so many more 
questions. Obviously, we all do. We have 54 seconds to get 
across the street.
    Having said that, we are leaving the record open for 10 
days. I know I am going to supply some questions to you all, 
and I know the Members will.
    Again, as I told the first panel, all of this is about 
putting stuff on the record to support our writing of the 
authorization, so your answers are very important, just as your 
testimony and presence is. So I really appreciate that.
    I want to thank the witnesses for their time, and I 
apologize for the delay and having to leave early. The Members 
of the committee, again, will get you questions, and I 
appreciate your answering them.
    With that, this committee stands adjourned.
    [Whereupon, at 5:13 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

        Question From Chairman Mike Rogers for Thomas L. Farmer

    Question. Mr. Risch in his testimony stated that the training 
provided to rail employees consists primarily of watching a brief 
video, and is not substantive enough for the needs of the employees. 
Can you outline in detail the security training initiatives of your 
passenger and freight rail members? Including information that responds 
to the following:
  <bullet> What does the training consist of?
  <bullet> How often do employees receive training?
  <bullet> How is the training assessed and validated?
    Answer. Response was not received at the time of publication.

 Questions From Ranking Member Sheila Jackson Lee for Thomas L. Farmer

    Question 1. Recently the Department of Homeland Security issued new 
surface security grant guidance, which according to DHS will focus on 
highest-risk assets. I am concerned that the grant dollars may be 
concentrated only on major metropolitan cities. Can you please shed 
light on the how commuter rail will be impacted by the new grant 
guidance? How will security training programs relying on this funding 
be impacted?
    Answer. Response was not received at the time of publication.
    Question 2. Do you believe the Department's grant priorities are 
harmonized with State and local preparedness priorities in response to 
enhanced security of the transport of hazardous materials?
    Answer. Response was not received at the time of publication.
    Question 3a. There appear to be more operations between TSA and 
transit agencies in conducting exercises and testing technology.
    Can you please share some of your experience with efforts under way 
between TSA and rail stakeholders to enhance security? How are VIPER 
teams facilitating our security goals in the field? How can this 
relationship and collaboration improve?
    Answer. Response was not received at the time of publication.
    Question 3b. Have you perceived any changes in TSA's approach to 
surface transportation security following the discovery that al-Qaeda 
has allegedly considered U.S. rail targets?
    Answer. Response was not received at the time of publication.
    Question 4. The last TSA authorization bill, H.R. 2200, established 
an office of surface transportation at TSA. Do you feel this is a 
reasonable provision that would give surface security programs more 
prominence at TSA?
    Answer. Response was not received at the time of publication.
    Question 5. Earlier this month, TSA announced that it would be 
reinstating the Aviation Security Advisory Committee (also known as 
ASAC). One of the primary functions of the advisory committee is to 
facilitate stakeholder input across TSA security policies as they 
pertain to aviation security programs. As some of you have testified 
before us here today, DHS has facilitated industry stakeholder meetings 
through its Infrastructure Protection initiatives; however, these 
groups would generally focus on big-picture items and funding issues 
associated with surface and mass transit programs. Therefore, would you 
support the notion that a standing committee with active TSA leadership 
housed within TSA, would benefit industry groups interested in active 
participation in the development of surface and mass transportation 
security policies?
    Answer. Response was not received at the time of publication.

   Questions From Ranking Member Sheila Jackson Lee for Martin Rojas

    Question 1. TSA has been working towards growing situational 
awareness programs for truckers that train truckers and mass transit 
professionals to recognize and report security threats. In you 
statement you call for improved coordination efforts and less 
regulations for your members. In an effort to improve security goals, 
how can TSA incentivize your members to participate in the situational 
training programs made available today?
    Answer. Response was not received at the time of publication.
    Question 2. Please provide comment on the recent announcement that 
the United States and Mexico have an accord on Mexican truck driver 
operations in the United States, which includes new monitoring 
procedures for trucks and traffic sign proficiency requirements for 
truck drivers?
    Answer. Response was not received at the time of publication.
    Question 3. Are you aware that TSA's Transportation Threat 
Assessment and Credentialing division is considering an internal 
reorganization, as well as a transportation worker credentialing 
``harmonization'' that may change the cost to industry and workers for 
transportation security credentials? Have you been consulted by TSA on 
this process? Are you concerned that harmonization could lead to 
increased fees for transportation security credentials?
    Answer. Response was not received at the time of publication.
         Question From Chairman Mike Rogers for Wanda Y. Dunham
    Question. A former CIA senior operations officer recently published 
a book titled ``Willful Neglect: The Dangerous Illusion of Homeland 
Security'''. This book specifically identifies an increase in bomb-
sniffing dogs and random bag checks as a critical piece to improving 
mass transit security. How can TSA help transit systems to expand the 
use of canines, and provide guidance as to best practices in canine 
deployment?
    Answer. Response was not received at the time of publication.

  Questions From Ranking Member Sheila Jackson Lee for Wanda Y. Dunham

    Question 1. In terms of responding to an emergency situation, give 
us your thoughts on how communications and information sharing has 
changed over the past few years between you, other law enforcement 
agencies, and Federal and State authorities.
    Answer. Response was not received at the time of publication.
    Question 2. Please describe the types of projects and operations at 
MARTA that are funded by Transit Security Grant Program (TSGP) funds.
    Answer. Response was not received at the time of publication.
    Question 3. Do you have any comments on the new grant guidance for 
the TSGP?
    Answer. Response was not received at the time of publication.
    Question 4. Do you think reductions in TSGP funding could impact 
security at transit systems Nation-wide?
    Answer. Response was not received at the time of publication.

   Questions From Ranking Member Sheila Jackson Lee for Raymond Reese

    Question 1. Does TSA need more authority to further secure the 
Nation's pipelines?
    Answer. Response was not received at the time of publication.
    Question 2. How often do you participate in security exercises with 
the Department of Homeland Security, Department of Transportation and 
local first responders? How do you ensure that first responders are 
actively engaged in security programs with industry?
    Answer. Response was not received at the time of publication.

  Questions From Ranking Member Sheila Jackson Lee for John Risch, III

    Question 1. TSA has recently made some structural and resource 
changes to the Transportation Security Inspector program, including 
changes in training and lines of report. Have your members been able to 
engage with TSA on the Transportation Security Inspector program, 
changes to its organization structure and how this program will play a 
vital security role across rail operations?
    Answer. Response was not received at the time of publication.
    Question 2. What changes in TSA surface security programs and 
policies would better equip rail workers to recognize and address 
terrorist threats?
    Answer. Response was not received at the time of publication.

 Questions From Ranking Member Sheila Jackson Lee for Nicholas E. Calio

    Question 1. We have heard from TSA that they have data showing that 
checked baggage fees are contributing to a dramatic increase in carry-
on bags, which presents a security problem for screeners at the 
checkpoint and flight crews at boarding. The media has reported that 
air carriers will receive 3.4 billion dollars in checked baggage 
revenue. What is ATA's position on this issue and what are air carriers 
willing to do to help address the situation?
    Answer. Response was not received at the time of publication.
    Question 2. Is it the air carrier's responsibility to regulate 
carry-on bag size? Do you agree with some stakeholders that increased 
carry-on bag volume adversely impacts security by increasing congestion 
at security checkpoints and on the aircraft, and by reducing the 
ability to detect anomalies in more densely packed carry-on bags?
    Answer. Response was not received at the time of publication.
    Question 3. Are your member carriers concerned at all with the 
proposed reorganization of the Transportation Threat Assessment and 
Credentialing division at TSA and the associated ``harmonization'' of 
the credentialing process, the result of which may lead to increased 
fees for aviation worker credentialing?
    Answer. Response was not received at the time of publication.
    Question 4. What is your assessment of the progress being made on 
the statutory requirement that air carriers screen all inbound cargo on 
passenger planes for explosives?
    Answer. Response was not received at the time of publication.

         Questions From Chairman Mike Rogers for Mark Van Tine

    Question 1. In your testimony you talked about how TSA's security 
directives tend to function as standing policy.
    What processes are currently in place to allow your industry to 
request a review of existing security directives?
    Answer. Response was not received at the time of publication.
    Question 2. In your testimony you also mentioned the redundancies 
in the background checks that TSA performs for alien students attending 
flight schools.
    Can you outline in detail what changes you would like to see TSA 
make to this program in order to allow U.S. flight schools to be more 
competitive while maintaining security?
    Answer. Response was not received at the time of publication.

      Questions From Chairman Mike Rogers for Stephen A. Alterman

    Question 1. In your testimony you highlighted the importance of 
sustained support to develop new technologies to screen consolidated 
shipments. How can TSA better collaborate with your industry to support 
this effort?
    Answer. Response was not received at the time of publication.
    Question 2. What changes, if any, would you like to see made to the 
Air Cargo Security Working Group to improve its impact?
    Answer. Response was not received at the time of publication.

   Questions From Ranking Member Sheila Jackson Lee for Christopher 
                               Witkowski

    Question 1. Are flight attendants a lower risk population that 
should participate in any crew access program to expedite security 
screening--the one that pilots are participating in?
    Answer. Response was not received at the time of publication.
    Question 2. Please explain why it is difficult for flight 
attendants to access the advanced self-defense training for crew.
    Answer. Response was not received at the time of publication.
    Question 3. Some have called the advanced crew training ``Judo'' 
training that is not effective. Do you agree?
    Answer. Response was not received at the time of publication.
    Question 4. Do you feel that like pilots, flight attendants are a 
low-risk population that should participate in any programs to expedite 
flight crews around security checkpoints so that TSA personnel can 
focus screening resources on higher-risk populations?
    Answer. Response was not received at the time of publication.
    Question 5. In the 10 years since the 9/11 attacks, how has the 
flight attendant profession changed in terms of security training and 
preparation? Do flight attendants feel that they have more tools and 
resources today than before to disrupt an in-flight terrorist attack?
    Answer. Response was not received at the time of publication.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
